<html>
<title> - PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 109-646]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-646

                          PENDING NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

 STEPHEN L. JOHNSON TO BE ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION 
                                 AGENCY

LUIS LUNA TO BE ASSISTANT ADMINISTRATOR FOR ADMINISTRATION AND RESOURCE 
            MANAGEMENT, U.S. ENVIRONMENTAL PROTECTION AGENCY

JOHN PAUL WOODLEY, JR., TO BE ASSISTANT SECRETARY OF THE U.S. ARMY FOR 
                              CIVIL WORKS

     MAJOR GENERAL DON T. RILEY TO BE MEMBER AND PRESIDENT OF THE 
                MISSISSIPPI RIVER COMMISSION, U.S. ARMY

 BRIGADIER GENERAL WILLIAM T. GRISOLI TO BE MEMBER OF THE MISSISSIPPI 
                      RIVER COMMISSION, U.S. ARMY

   D. MICHAEL RAPPOPORT TO BE MEMBER OF THE BOARD OF TRUSTEES OF THE 
                       MORRIS K. UDALL FOUNDATION

 MICHAEL A. BUTLER TO BE MEMBER OF THE BOARD OF TRUSTEES OF THE MORRIS 
                          K. UDALL FOUNDATION

                               __________

                             APRIL 6, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works






                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

28-849 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001
















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)























                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 6, 2005
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    12
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     7
Boxer, Hon. Barbara, U.S. Senator from the State of California...     6
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    16
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island    18
DeMint, Hon. Jim, U.S. Senator from the State of South Carolina..     9
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     6
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     9
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    18
McCain, Hon. John, U.S. Senator from the State of Arizona, 
  prepared statement.............................................    58
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    11
Obama, Hon. Barack, U.S. Senator from the State of Illinois......     9
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    14

                               WITNESSES

Butler, Michael, Nomination by the President to be a Member of 
  the Board of Trustees of the Morris K. Udall Foundation........   158
Grisoli, Brigadier General William T., nominated by the President 
  to be a member of the Mississippi River Commission.............    44
    Prepared statement...........................................   153
    Responses to additional questions from:
        Senator Inhofe...........................................   155
Johnson, Stephen L., nominated by the President to be 
  Administrator, U.S. Environmental Protection Agency............    20
    Prepared statement...........................................    59
    Responses to additional questions from:
        Senator Baucus...........................................   106
        Senator Bond.............................................    65
        Senator Boxer............................................   115
        Senator Carper...........................................   124
        Senator Chafee...........................................    68
        Senator Clinton..........................................   125
        Senator Inhofe...........................................    62
        Senator Jeffords.........................................    76
        Senator Lautenberg.......................................   136
        Senator Lieberman........................................   108
        Senator Murkowski........................................    70
        Senator Obama............................................   139
        Senator Thune............................................    74
        Senator Vitter...........................................    75
        Senator Voinovich........................................    67
Luna, Luis, nominated by the President to be Assistant 
  Administrator for Administration and Resource Management, 
  Environmental Protection Agency................................    42
    Prepared statement...........................................   141
    Responses to additional questions from Senator Inhofe........   142
Rappoport, D. Michael, nominated by the President to be a member 
  of the Board of Trustees of the Morris K. Udall Foundation.....    45
    Prepared statement...........................................   155
    Responses to additional questions from:
        Senator Inhofe...........................................   157
        Senator Jeffords.........................................   157
Riley, Major General Don T., nominated by the President to be a 
  member and president of the Mississippi River Commission.......    44
    Prepared statement...........................................   149
    Responses to additional questions from:
        Senator Inhofe...........................................   151
        Senator Vitter...........................................   151
Woodley, Jr., John Paul, nominated by the President to be a 
  Assistant Secretary of the Army for Civil Works................    43
    Prepared statement...........................................   142
    Responses to additional questions from:
        Senator Baucus...........................................   147
        Senator Inhofe...........................................   143
        Senator Jeffords.........................................   143
        Senator Lautenberg.......................................   148
        Senator Vitter...........................................   148

                          ADDITIONAL MATERIAL

Articles:
    Critics Say EPA Would Have Harmed Low-Income Children, 
      NewStandard, Catherine Komp................................    31
    Experimenting on Children, St. Petersburg Times..............    32
    Playing With Poison; EPA Pesticide Research Doesn't Pass the 
      Smell Test.................................................    33
Charts:
    Contractor CHEERS Telephone Screening Summary................   119
    NESCAUM......................................................     3
Letters from:
    Benjamin H. Grumbles.....................................83, 86, 90
    Senator Clinton..............................................   135
    Senator Lugar................................................    39
    Senator Sarbanes.............................................    81
    Several Senators.............................................    85
    Stephen Johnson..............................................   111























 
                          PENDING NOMINATIONS

                              ----------                              


                        WEDNESDAY, APRIL 6, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to other business, at 9:15 a.m. 
in room 406, Dirksen Senate Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Warner, Bond, Voinovich, Chafee, 
Murkowski, Thune, DeMint, Isakson, Jeffords, Baucus, Lieberman, 
Boxer, Carper, Clinton, Lautenberg, and Obama.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order. We will go 
ahead and get started.
    Let me mention, Mr. Johnson, I understand we have a vote at 
10 o'clock. They will hold it open, I think, for a little bit 
longer. So I'd like to go right up until 10:15 or so, and then 
of course you know we have a joint session of the legislature, 
Senator Jeffords, that we will have to attend. It is the wish 
of the Chair that we dispose of Stephen Johnson's portion of 
the hearing during that first hour, then we will come back at--
what, 2:30 for the others.
    So with that, in order to accommodate some of the requests 
that we have had from both sides of the aisle, I am going to 
forego my opening statement and my questions in order to 
accommodate the request for two rounds of questions in hopes 
that we can do this by 10:20 or so.
    I do want to welcome all the nominees here today. We do 
have Steve Johnson, who has been before us. He has been 
confirmed twice before this committee. He has already appeared 
in the budget hearing this year, so he is not a stranger to 
this. We have Luis Luna, John Paul Woodley, General Riley, 
General Grisoli and Michael Rappoport that will be here for the 
second time. We may have time to get started with them at the 
end of this, but I suspect that will not be the case.
    Before we have opening statements, I would like to have you 
respond to the required questions of all nominees, if you 
would, please. You may stand to do this. Are you willing to 
appear at the request of any duly constituted Committee of 
Congress as a witness?
    [Witnesses respond in the affirmative.]
    Senator Inhofe. Do you know of any matters which you may or 
may not have thus far disclosed that might place you in any 
conflict of interest if you are confirmed to this position?
    [Witnesses respond in the negative.]
    Senator Inhofe. Thank you.
    Mr. Johnson, you may be seated.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    I want to welcome all of our nominees to today's hearing. Today we 
will be considering a number of nominations; including Steve Johnson to 
be the Administrator of the Environmental Protection Agency; followed 
by a second panel where we will have 5 additional nominees to hear 
from: Luis Luna, to be EPA's Assistant Administrator for Administration 
and Resource Management; John Paul Woodley, Jr., to be Assistant 
Secretary of the Army for Civil Works; Major General Don Riley, to be a 
Member and President of the Mississippi River Commission; Brigadier 
General William T. Grisoli, to be a Member of the Mississippi River 
Commission; and D. Michael Rappoport, to be a Member of the Board of 
Trustees of the Udall Foundation.
    Mr. Johnson, welcome again to this committee. This is the third 
time during this Administration that you have appeared before the 
committee as a nominee for a post at EPA first for an Assistant 
Administrator spot; then to be Deputy Administrator; and now for the 
top job. I would note that each time you were confirmed without 
opposition and I have no reason to believe that this time will be any 
different.
    I do want to briefly touch a couple of very important issues: First 
is of course the Tar Creek Superfund Site in Oklahoma. I want to thank 
you and the Agency for the ongoing work at the Tar Creek Superfund Site 
and I will be asking for your commitment that it remain the top 
priority for EPA.
    The second issue that I would like to bring up is that of EPA 
grants. Last year, the committee held the first oversight hearing into 
grants management at the EPA. EPA has taken some positive steps. Not 
only is EPA now competing discretionary grants for the first time, it 
has created a new website with information on grant recipients; 
developed a new results policy with measurable outcomes; and enacted 
new oversight to avoid funding political activities.
    However, new policies are not enough. Real reform of grants 
management requires the attention of the highest levels at EPA. We 
continue to observe different practices and problems which causes me 
great concern. One recent example involves the Harvard Mercury study 
which has been in the news over the last few weeks. While most of the 
criticism has centered around the fact that the EPA received the study 
too late to be used in the mercury MACT regulation, I am concerned 
about another issue.
    On February 1st of this year, I wrote a letter to EPA asking for 
more information about the grant which funded the research. While my 
staff continues to look into this particular case, I am concerned about 
the overall process for these types of grants. Apparently, EPA funded 
this research, through a third party (in this case NESCAUM), to Harvard 
where an EPA employee on leave conducted most of the work. This was 
done without competition, and signed off on by career staff at EPA. I 
want to know if there was a personal or professional connection between 
the employees, and how often are current EPA employees the 
beneficiaries of EPA grant money.
    In the preliminary documents we have received from the EPA it 
appears that when the money was given to NESCAUM, it was with the 
understanding that they would contract out the work. This chart shows 
the connections between the various parties. While this might be a 
completely innocent arrangement, I do have a number of unanswered 
questions regarding these transactions. I want to know what the 
understanding was between EPA and NESCAUM; I want to know what the 
understanding was when the EPA employee took leave to work on his PHD 
dissertation at Harvard; was there an understanding that he would be 
funded by a non-competitive EPA grant? We must have more accountability 
in the EPA grant process.
    Once again, I want to thank all of the nominees for being here 
today.
    [The chart referred to follows:]
    

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Inhofe. I want to welcome our second panel and thank you 
all for joining here today as we consider your nominations. On this 
panel we have: Luis Luna; John Paul Woodley, Jr.; Major General Don 
Riley; Brigadier General William T. Grisoli; and D. Michael Rappoport.
    Regarding the Army Corps and Mr. Woodley there has also been some 
recent press involving the Florida Everglades and the lack of progress. 
Apparently the St. Petersburg Times obtained an internal Corps memo by 
Gary Hardesty here in the DC office. In the memo, Mr. Hardesty gives a 
very frank and honest appraisal of ongoing concerns with the project. I 
hope the report to Congress due later this year is equally frank. I 
would point out one incorrect observation in the memo; my staff and I 
have in fact been closely following the developments on the Everglades 
and I regret that my predictions about cost overruns are turning out to 
be true. It is my intention to hold a formal hearing on the Everglades 
as soon as the report is submitted to Congress, and I want an assurance 
from Mr. Woodley that the report will not be late.
    I want to note for the record, that next week when the committee 
votes to report today's nominees, we will also be voting Michael 
Butler, who has been nominated to be a Member of the Board of Trustees 
of the Udall Foundation. Because the Udall Board is a part-time 
position and most of the expenses are paid for by the individual, the 
committee has historically provided Udall nominees with the option of a 
hearing. While Mr. Butler will not be here, he has provided testimony 
that will be included in the record. He has answered the required 
committee questions.

    Senator Inhofe. With that, I will go ahead to Senator 
Jeffords first.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Thank you, Senator Inhofe. Good morning 
and welcome to all of our nominees.
    Mr. Johnson, you are before this committee again, this time 
as the President's nominee for the most important environmental 
position in the Government, Administrator of the Environmental 
Protection Agency. As a scientist, you have the responsibility 
to put policy before politics, to put public health before 
corporate profits, and to put the long term needs of the 
environment before the short term needs of special interests.
    As a long-time EPA employee, you have tremendous experience 
and expertise for this job. The question today is whether you 
have the fortitude to stand up against powerful interests to 
protect our air, our water and our land. The EPA Administrator 
should not be a rubber stamp for the White House policy. You 
have a great opportunity to bring a fresh approach to EPA, one 
that I say is badly needed.
    As you know, I, along with other members of the committee, 
have a number of outstanding information requests that EPA has 
yet to fulfill. Some of these requests date back to 2001. The 
Administration's continued obstruction and stonewalling on 
these legitimate requests has made it impossible for Congress 
to do any sort of oversight or to craft consensus legislation. 
The Agency, at the instruction of the White House, has 
persisted in obstructing our legitimate inquiry into facts and 
analysis that this committee needs to do its job. I hope we can 
get your commitment today to help us get this information soon.
    You have also signed the now infamous mercury rule. That 
was a serious mistake in my mind, and I and many Senators of 
both parties advised you and former Administrator Leavitt 
against doing it. The Bush administration relied on the notion 
that the United States is only a small part of the global 
problem, so we shouldn't bother taking aggressive action 
domestically.
    Somewhere between 30 and 60 percent of the mercury that 
falls on Vermont comes from U.S. sources. That is not 
insignificant. A grossly hypocritical U.S. representative at 
international meetings has blocked more aggressive action on a 
global level. Our once prominent leadership on environmental 
matters has become a joke around the world. Mr. Johnson, you 
have quite a job ahead to restore the Agency's credibility here 
and abroad, if it can be done.
    I would also like to welcome back to the committee John 
Paul Woodley, the President's nominee to be Assistant Secretary 
of the Army for Civil Works, and look forward to your 
statement.
    [The prepared statement of Senator Jeffords follows:]
      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Good morning and welcome to all of our nominees. Mr. Johnson, you 
are before this committee again, this time as the President's nominee 
for the most important environmental position in this government - 
Administrator of the Environmental Protection Agency. While you have an 
obligation to serve the Bush administration, your greater 
responsibility will be as the guardian for the environment for all 
Americans.
    The EPA needs a strong, independent leader who is not afraid to 
speak his mind and bring balance to the Bush administration's attempts 
to move our nation backwards on environmental protection. As a 
scientist, you have a responsibility to put policy before politics, to 
put public health before corporate profits, and to put the long term 
needs of the environment before the short term needs of special 
interests.
    As a longtime EPA employee, you bring tremendous experience and 
expertise to this job. The question today is whether you have the 
fortitude to stand up against powerful interests to protect our air, 
our water and our lands. The EPA Administrator should not be a rubber-
stamp for White House policies. You have a great opportunity to bring a 
fresh approach to the EPA, one I must say is badly needed.
    As you know, I, along with other members of this committee have a 
number of outstanding information requests that EPA has yet to fulfill. 
Some of these requests date back to 2001. The Administration's 
continued obstruction and stone-walling on these legitimate requests 
has made it impossible for us in Congress to do any sort of oversight 
or to craft consensus legislation. The Agency, at the instruction of 
the White House, has persisted in obstructing our legitimate inquiry 
into facts and analysis that this committee needs to do its job. I hope 
we can get your commitment today to help us get this information soon.
    You also signed the now infamous mercury rule. That was a serious 
mistake that I and many Senators of both parties advised you and former 
Administrator Leavitt against doing. The Bush administration relied on 
the notion that the United States is only a small part of the global 
problem so we shouldn't bother taking aggressive action domestically. 
Somewhere between 30 and 60 percent of the mercury that falls on 
Vermont comes from U.S. sources. That is not insignificant. And, it is 
grossly hypocritical when U.S. representatives at international 
meetings have blocked more aggressive action on the global level.
    Our once-prominent leadership on environmental matters has become a 
joke around the world. Mr. Johnson, you have quite a job ahead to 
restore the Agency's credibility here and abroad. If it can be done.
    I would also like to welcome back to the committee John Paul 
Woodley, the President's nominee to be Assistant Secretary of the Army 
for Civil Works and look forward to your statement. Mr. Luna, Major 
General Riley, Brigadier General Grisoli, and Mr. Rappoport, I believe 
this is a first time for each of you before this committee and I look 
forward to your statements as well.
    Thank you.

    Senator Inhofe. Thank you, Senator Jeffords.
    Senator Inhofe. Senator Isakson.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. Mr. Chairman, in respect to the desire to 
have two rounds of questions, I'll waive any opening statement, 
except to acknowledge the cooperative spirit and timely 
response I've always received from Mr. Johnson and welcome him 
here today.
    [The prepared statement of Senator Isakson follows:]
        Statement of Hon. Johnny Isakson, U.S. Senator from the 
                            State of Georgia
    Thank you Mr. Chairman. I want to welcome our nominees to the 
committee today, and congratulate them on their appointments. I look 
forward to hearing from them views on pertinent issues and their 
visions for their respective roles. We have a lot to discuss today so, 
in an effort to expedite getting to the nominee statements and question 
and answer period, I will yield back at this time.

    Senator Inhofe. Well, thank you, Senator Isakson.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. I will withhold an opening statement and 
hope I can have enough time to question.
    Senator Inhofe. I appreciate that. We are going to try to 
dispose of the first item prior to having to leave to vote and 
for the joint session.
    Senator Boxer. I would like to put a statement into the 
record, however.
    Senator Inhofe. Of course, we will put that into the 
record.
    [The prepared statement of Senator Boxer follows:]
        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California
    Mr. Chairman, a reasonable opportunity to question the nominees and 
to receive answers to those questions is at the heart of our 
constitutional role of advice and consent. We owe it to the people we 
represent to have a full debate before we move forward. Because our 
time is limited, I will focus today on a few critical issues. But the 
few minutes we have today cannot be the end of the debate in this 
committee.
    The nomination for Administrator of EPA is one of the most 
important we consider in this committee. EPA's mission to protect human 
health and the environment, including those most vulnerable to 
pollution's effects, plays a key role in the quality of life in every 
community in this country. This is a subject worthy of serious 
discussion, especially in light of the direction that EPA has taken. We 
have seen rollback after rollback at the expense of the health of our 
families and the environment. We cannot afford to continue this way.
    One of the issues I want to focus on today, and Mr. Johnson has 
played a key role in this issue as I understand it, is the issue of 
human testing and pesticides, including testing on children.
    Pesticides are dangerous by design. They are designed to kill 
biological organisms. Because of this danger, federal law prohibits 
them from being labeled or called ``safe.''
    Children are especially vulnerable to pesticides. The USEPA, 
National Academy of Sciences, and American Public Health Association, 
among others, have stated this and treat it as accepted fact. 
Pesticides can cause cancer and adversely affect a child's 
neurological, reproductive, respiratory, immune, and endocrine systems, 
even at low levels. It is also my understanding that EPA's new cancer 
risk assessment guidelines for early life exposure finds that children 
under two may have a tenfold increase in risk from cancer causing 
substances.
    I am very concerned about any EPA program that would allow human 
testing of pesticides. Testing of pesticides on children is an even 
greater concern. The moral and ethical issues involved in such a 
program are very serious. I intend to question Mr. Johnson very 
carefully about any such programs or plans, including the EPA's 
Children's Environmental Exposure Research Study.
    Another serious concern is the Mercury rule that EPA issued just 
last month that fails to protect human health, including children.
    In 2000, EPA made a finding that it was necessary and appropriate 
to strictly regulate mercury emissions from utilities due to the public 
health and environmental threat posed by this source of hazardous air 
pollution. This finding required that maximum achievable control 
technologies be applied due to the serious nature of the hazard. The 
finding was reversed by EPA last month in an action approved by Mr. 
Johnson, the nominee for Administrator before us today. I am sorry to 
stay this was not a good start on the job.
    The original finding was the correct finding and the reversal is 
not supported by the law or the facts. Maternal consumption of unsafe 
levels of mercury in fish can cause neurodevelopmental harm in 
children, resulting in learning disabilities, poor motor function, 
mental retardation, seizures, and cerebral palsy.
    EPA's failure to fully consider key studies showing cardiovascular 
and other health threats from mercury emissions from power plants, 
including a Harvard study and an internal EPA study raises serious 
questions about whether sound science was relied on in putting together 
this weak rule. The failure to address those findings is even more 
troubling in light of information I have received that EPA officials 
scuttled planned meetings with leading experts on cardiovascular 
effects of mercury before the rule was issued. The best way to remedy 
this seriously flawed outcome is to stay the rule for reconsideration.
    I also have questions about the Administrations plans to address 
the shortfalls in the Superfund program. The President's budget falls 
far short of what is necessary to address the growing backlog of toxic 
sites around the country. While the President's budget proposes $32 
million more than enacted this year, it is over $100 million less than 
what he asked for last year. The Administration has acknowledged the 
backlog of sites, but there are no plans to address it. According to 
EPA's own internal documents, the backlog of cleanup dollars needed 
could reach $750 million to $1 billion by next year. This program 
cannot be ignored as the problems grow worse and worse. There are 
families in this country living with toxic waste in their backyards 
real people, including kids are getting hurt and it needs to stop.
    EPA plays a central role in these issues and the nominee for 
Administrator must be prepared to address these problems. A full 
opportunity to question Mr. Johnson is more than a reasonable request. 
It is what we were sent here to do.

    Senator Inhofe. Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman. 
Unfortunately, I have potentially three other conflicts this 
morning. So I am not going to waive my opening statement. There 
are a couple of things I do want to say and questions I want to 
pose in case I can't be here.
    But I appreciate your holding this hearing. The 
Administrator of the U.S. Environmental Protection Agency is 
very important, and I've had an opportunity to get to know 
Stephen Johnson, and know that as a dedicated career civil 
servant, devoted to the Nation and the cause of the 
Environmental Protection Agency he can do an excellent job. As 
a scientist by training, he knows the vital role that science 
plays in assisting policymakers to make their decisions.
    Sound science is not just a catch phrase, it's not just a 
throwaway line. Sound science is more than just an outlook. It 
should be more than just a way of doing business. It should be 
at the heart of every decision the Agency makes.
    I was a little bit shocked to hear criticism of the mercury 
rule, which people have talked about for a long time. I'm from 
Missouri, talk's enough. Show me. Finally, for the first time, 
the Agency has come forward with a mercury rule. Please correct 
me if I'm wrong, but I understand that the mercury reductions 
required by the EPA's Clean Air Interstate Rule and the Clean 
Air Mercury Rule will adequately address the mercury human 
health threat from power plants and Clear Skies is more than 
enough and absolutely essential.
    But as a career employee, you know that no matter what you 
do, you're going to be criticized, sometimes on the basis of 
personal, political interests, sometimes on the basis of 
unsound environmental hysteria. But you have been in the 
position of putting your heart and soul into advancing the 
program, advocating the positions, and we appreciate what you 
and your staff have done and are doing. As a scientist, you 
know that EPA decisions must be made more in the heart more 
than pure desire and more than just belief. Sound science is 
the mind that goes with the heart.
    I would ask you perhaps in case I'm not here to ask a 
question to give us your analysis of which will produce a 
greater amount of air pollution reduction and thus be better 
for the environment. We have a choice: one, litigation against 
a few individual power plants; two, legislation covering 1,110 
power plants and mandating 70 percent pollution reductions from 
the entire industry. This is really a trick question, but you 
might address that, so we know whether litigation or 
legislation is going to be more effective in cleaning up the 
environment.
    Finally, I would like to welcome Mr. Woodley back to the 
committee. I think it's vitally important we have leadership 
for the Corps. I've never yet found an assistant secretary who 
did half of what I wanted a secretary to do, which is not 
because I'm always right, it's because they have a great deal 
to balance and a very difficult job balancing the interests and 
the inter-agency disputes.
    Furthermore, because the Corps is within the Department of 
Defense, there is effectively no Cabinet-level voice. Depriving 
the Corps of an assistant secretary leaves them blowing in the 
wind, run only by the Office of Management and Budget. I think 
we can agree on a bipartisan basis that that is the worst 
possible option. If any of my friends from OMB are here, I'd be 
happy to discuss that with you. If you're not here, please send 
them a letter. We would like to see an assistant secretary who 
runs it, and I think John Paul Woodley is thoughtful, 
responsive, capable of telling me and others no, and he has 
proven to be patient. I think he deserves the Senate's 
approval.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Bond. I'm glad you 
brought up the thing on mercury, because it is so frustrating, 
we see ads run in the New York Times saying, ``This President 
is reducing mercury standards,'' when he has established it 
first.
    Senator Bond. Wasn't he the first? Had anybody taken a 
step?
    Senator Inhofe. No one had.
    Senator Bond. He's done something, absolutely. Isn't there 
a country music song, ``I want a little less talk and a lot 
more action''?
    Senator Inhofe. We're running out of time here.
    [Laughter.]
    Senator Inhofe. Senator Obama.

 OPENING STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Obama. Not sure I can follow up on that.
    Thank you very much, Mr. Chairman. I am going to save my 
time for questions, but I very much appreciate Mr. Johnson's 
being here and we all look forward to hearing his testimony.
Statement of Hon. Barack Obama, U.S. Senator from the State of Illinois
    Mr. Chairman, I will be brief so that the opportunity for my 
colleagues to ask questions will be maximized.
    I would like to begin by thanking the Chairman for conducting this 
hearing. I would also like to thank the nominees for appearing before 
the committee today during this informational session, and to 
congratulate them on their nominations to serve the United States in 
these various capacities.
    I appreciate having the opportunity to hear from Mr. Stephen 
Johnson, who has been nominated to serve as the Administrator of the 
Environmental Protection Agency. As the nominee knows, given the size 
and diversity of my state, we have a wide range of issues that fall 
under EPA jurisdiction, whether it is agriculture, coal, water and land 
resources, and the like, so I look forward to hearing his presentation 
and to having the opportunity to present questions for his response.
    I also am appreciative to have the John Paul Woodley appear before 
the committee today for nomination for the position of Secretary of the 
Army for Civil Works. As my colleagues know, there are three major 
rivers in my state--the Illinois, the Mississippi, and the Ohio--as 
well as Lake Michigan, and we rank among the top states in the nation 
in waterborne commerce, of which the Corps has a significant role. I 
will be interested in learning his views on the lock and dam 
investments along the Mississippi River and Illinois Waterway, which I 
support, as well as his views regarding the delayed funding associated 
with the McCook and Thornton Reservoirs in Chicago. I look forward to 
his presentation.
    Finally, I would like to acknowledge the nominees for the Morris K. 
Udall Foundation and the Mississippi River Commission who have come 
before the committee today. Thank you for taking the time to present 
your credentials.

    Senator Inhofe. Thank you.
    Before some of you arrived, we had commented, we were going 
to try to have this first panel disposed of prior to the time 
that we have to go vote and then go on to the joint session. So 
I appreciate that cooperation very much, Senator Obama.
    Senator DeMint.

  OPENING STATEMENT OF HON. JIM DeMINT, U.S. SENATOR FROM THE 
                    STATE OF SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. I will not make an 
opening statement, only to say that particularly with Mr. 
Johnson, I appreciate his willingness to work with us on some 
difficult issues in my State. He has been very responsive and I 
look forward to the questions and answers today.
    Senator Inhofe. Thank you, Senator DeMint.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Mr. Chairman, I won't be quite as brief 
as you hope, but I'm not going to take much time. I have had a 
chance to meet with Mr. Johnson and learn a lot more about his 
views and have great respect for his professionalism and his 
capability and capacity to do this job. The only thing I see is 
that he's going to be forced to do some of this work with one 
hand tied behind his back. That's my statement, not his.
    But I don't see the resources available to get the things 
done that we'd like to, particularly whether it's drilling in 
the ANWR or the mercury rule that the Chairman and our 
colleague from Missouri seem to be so happy about. The fact of 
the matter is, it's going to cause larger deposits of mercury 
in the State of New Jersey in the years past 2009, according to 
EPA. We don't like that, and we would hope that there is 
something we could do to prevent it. Highly toxic material, we 
don't need any more of that. New Jersey gets punished because 
it's east of some of the States that help produce it from their 
plants.
    So we looked at something like the Superfund program, a 
program that I've been involved in since 1983, and we were 
making great progress, sites were being cleaned up. People who 
were responsible for the pollution were largely paying the 
price. But now without any income coming from those who might 
create the pollution in the first place, we are looking at 
sites that, if they are orphans as a result of not being able 
to find a responsible party, they could lie dormant or worse, 
active poisonous sites for a long time to come.
    Last, I was concerned about the Toxic Substances Control 
Act, which Mr. Johnson had significant amount of work to do 
there. It has not been a smashing success. There are thousands 
of chemicals that have not been really identified, registered 
as those that we have to be careful of. Nevertheless, once 
again I reiterate that, Mr. Johnson, I indicated to you in our 
conversation yesterday, that I was impressed with your record 
and your integrity. You'll take care of the record, and you 
don't mind if I look at the integrity along the way in terms of 
getting the job done.
    Again, I'll try to get you another oar to row with, but I 
don't know how successful I will be.
    Mr. Chairman, thank you very much.
    [The prepared statement of Senator Lautenberg follows:]
       Statement of Hon. Frank Lautenberg, U.S. Senator from the 
                          State of New Jersey
    I want to welcome Mr. Johnson and begin by thanking him for the 
EPA's response to my letter about the Ringwood Superfund site in New 
Jersey. My state's former governor, Christie Whitman, was the first 
person to lead the EPA in this Administration. However, it seemed that 
her hands were usually tied because the Administration wasn't committed 
to protecting the environment.
    Mr. Johnson, you are known as an honorable and capable professional 
but what I continue to see is that for this Administration the goal of 
protecting our air, our water, and our other natural resources lies at 
the bottom of its priority list. From drilling in the Arctic 
Wilderness, to setting mercury standards written by and for the power 
industry, this Administration has consistently sided with big business 
interests that exploit our environment, instead of protecting the 
interests of America's families.
    I hope Mr. Johnson will be able to overcome that record, start with 
a clean slate and become the kind of champion for the environment that 
our children and grandchildren deserve.
    I want to focus today on three issues of special importance in New 
Jersey. First, the EPA's new mercury rule. My state is one of nine 
states suing EPA because this rule fails to protect public health. In 
fact, according to EPA, New Jersey's mercury emissions under these 
rules will actually increase between 2009 and 2015.
    We've known for at least a decade about the severe and irreversible 
health effects of mercury exposure, especially to fetuses, infants and 
children. I hope Mr. Johnson will keep their interests in mind, rather 
than just the interests of power companies and polluters, if he is 
confirmed as administrator.
    Also, the Superfund program to clean up hazardous waste sites is 
also in crisis. Since the Superfund tax expired in 1995, funding has 
declined 34 percent. As a result, a large backlog of hazardous waste 
sites have not been added to Superfund's priority list, and the cleanup 
of many other sites has been slowed or put on hold.
    Finally, I am very concerned about the Toxic Substances Control Act 
(TSCA), which was established 29 years ago (1976) to protect public 
health and the environment from toxic chemicals. It has been an utter 
failure at achieving this goal.
    I look forward to working with Mr. Johnson and the members of this 
committee to restore and reaffirm the mission and integrity of the EPA. 
I also look forward to hearing from our other nominees for other vital 
posts.

    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I will be leaving the committee early this morning, I have 
another committee meeting, so I will be submitting my questions 
in writing.
    Senator Inhofe. Sure.

OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. But I do want to thank you, Mr. Johnson, 
for the time that we had to discuss some of the issues that are 
very important in my State, that of the Village Safe Water. We 
have had a chance to talk a little bit about mercury and fish 
and some of the others, but again, I appreciate your time.
    As I have mentioned to you, there are few agencies that 
have more influence or more impact on what is happening in the 
State of Alaska, again, the EPA and the Corps of Engineers. So 
it's important that we're here this morning, it's important 
that we will be moving forward your name to take up the head of 
EPA.
    I have repeated so many times that I've forgotten where 
I've said it and to whom I've said it, but Alaska is so unique 
in so many ways. One of the things that we struggle with is our 
regulations that are designed to be one-size-fits-all. We try 
to make our case and we plead for some exceptions, we plead for 
some ration within the Agency to look at our situations and 
allow common sense to prevail.
    So I ask you again to work with us on our issues that are 
distinct, that are unique, and I look forward to the 
opportunity when we can welcome you up and show you first-hand 
what's really going on. Thank you for your time this morning 
and for the time that we have had.
    Thank you, Mr. Chairman.
Statement of Hon. Lisa Murkowski, U.S. Senator from the State of Alaska
    Thank you, Mr. Chairman. I know that we all want to hear from our 
friends on the other side of the witness table, so I will be very 
brief, and will focus on our two most senior nominees.
    There are very few agencies of our government that have more impact 
on the citizens of my state than the Environmental Protection Agency 
and the Corps of Engineers. I am confident that the attention that EPA 
and Corps employees lavish on Alaskans and Alaska projects has always 
been well-intentioned. However, while some might argue the point, I 
cannot say that I think their influence has always been beneficial.
    From time to time, on issue after issue, I've noted that Alaska is 
``unique''--and that because it is unique, it deserves special 
consideration. Like many western states, we have often struggled with 
environmental restrictions sought by, imposed by, and maintained by 
interests with very little knowledge of the conditions we live with.
    We try to address serious issues with clarity and common sense. But 
all too often, government agencies try to apply one-size-fits-all 
solutions that simply don't work. Mr. Chairman, what I would LIKE to 
ask these gentlemen is for a pledge that they will instruct their 
staffs to avoid the easy answers and to tune their regulatory actions 
as carefully as the law will allow.
    Despite the desperate urgency of some organizations fund-raising 
letters, the truth is that Americans have made huge strides toward a 
cleaner, healthier environment, and we've been able to do so without 
crippling our own economy.
    Mr. Chairman, I think it should be clear that if we are to continue 
to make strides toward a cleaner environment, maintaining a healthy 
economy must remain a number one concern.
    With that, Mr. Chairman, I will yield and look forward to hearing 
from others. I do have a number of questions, but because I another 
commitment, I'd like to submit questions in writing, if there is no 
objection.

    Senator Inhofe. Thank you, Senator Murkowski.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman. I apologize, I 
will not be able to stay and ask questions. But I will insert 
them for the record. I do have a statement to make.
    I understand we're here to consider several pending 
nominations, including that of Mr. Stephen Johnson to be the 
new Administrator of the Environmental Protection Agency, who 
is obviously here. Mr. Johnson, I was very sorry that we were 
not able to meet prior to your hearing, but I hope we will be 
able to sit down together. I make it my practice to do so 
whenever anyone is nominated for such an important position.
    I had great respect for your predecessors, both former 
Governors. I asked both of them why they wanted the job and 
whether or not they thought they could stand up to defend the 
interests of their Agency to the Administration. Unfortunately, 
neither one of them stayed at the Agency for very long. Perhaps 
as a career EPA official you have a better idea of what you're 
getting yourself into and I certainly hope that if confirmed, 
you'll stick around a while.
    Frankly, it's very important for heads of departments and 
agencies to stay a longer period of time than most do, because 
we're constantly reshuffling the deck with all these changes 
that are going on. I very much hope that you will settle down 
here and help settle the Agency down so we get some 
professionalism, more professionalism that we now have. Because 
it's a very, very solid agency, I very much hope that you can 
do that.
    My top priority at the EPA is, as you may know, is Libbey, 
MT. I'm going to ask for your commitment, as I have your 
predecessors, to personally visit with me as soon as you 
possibly can. Seeing is believing, you will get a better sense 
of what's going on at Libbey when you do personally see Libbey. 
Your predecessors did personally come and as a consequence, 
they devoted a large amount of their thought and time and 
resources to Libbey. It's such a deep problem there, and I very 
much hope that you will do the same when you're confirmed.
    Since they both visited, both your predecessors visited in 
person, and they had probably the kind of connection with the 
community that the community expected and wanted to have, too. 
Too often, especially in western States, we're a long way from 
Washington, DC, there is a very deep sense that, oh, those 
folks in Washington, they don't care about us, they're so far 
away, what do they know about our problems, just a bunch of 
bureaucrats back there.
    But when Governor Leavitt showed up and when Governor 
Whitman showed up, EPA administrators, it made a huge 
difference. The people there began to say, hey, somebody does 
care, and maybe they're going to get it. When the EPA followed 
up, a very, very good person there, made that connection, 
because after all, we're all public servants. We all work for 
the people in Montana, as well as all other Americans and all 
the other problems of this country.
    We have to show that we are the employees and they are the 
employers. By showing up, we actually do so. I again urge you 
to come to Libbey. We'll talk about specific issues when we get 
a chance to meet privately.
    Mr. Chairman, I also understand this committee will later 
consider the nomination of John Woodley to be the Assistant 
Secretary of the Army for Civil Works. As you may know, I 
opposed Mr. Woodley's nomination previously, because I was not 
satisfied that you would adequately protect Montana's interests 
on the Missouri River. The President used his recess 
appointment, however, to appoint Mr. Woodley for the remainder 
of the 108th Congress, that was back in 2003. We are now headed 
into our seventh year of drought in Montana, and I might say 
the situation looks even worse now than it did then.
    Fort Peck Lake and other Upper Missouri River Basin 
reservoirs are disastrously low, so low, in fact, we will 
likely hit the magic number of 31 million acre feet of system 
storage by March of next year. Finally, finally, finally at 
this number the Corps will preclude navigation on the Lower 
Missouri River. Fort Peck was long ago devastated by low water 
levels. Every foot the lake drops further just increases the 
pain. Frankly, I wish that Mr. Woodley could come out and see 
Fort Peck Lake.
    Our recreation industry has been hit hard, as we have lost 
most access to the lake and businesses have shut their doors. 
All this in turn hurts our local communities and our economies.
    There are growing concerns about water and power supply 
along the Missouri as the drought continues. The benefits of 
navigation as compared to recreation on the Missouri are very 
small. However, the benefits of navigation are absolutely 
dwarfed by those of water and power supply. If we have 
foolishly drained our reservoirs over the past several years in 
the mistaken belief that we are only hurting recreation in a 
few Upper Basin States like Montana, we should think again.
    What this highlights is the puzzling and utterly 
frustrating fixation the Corps has on supporting a minor 
navigation industry in the lower Missouri at the expense of 
every other use of the river. Mr. Woodley, I know you are in 
the audience there, and I know you know there is a sense in the 
Corps that, well, we've put this behind us, that the new master 
manual is set, that we should just all pray for rain.
    Well, I hold a hope, a very strong hope, that some day 
we're going to get more than that. As you know, I introduced a 
bill last Congress that would set the navigation to preclude at 
not 31 million acre feet, but at 44 million acre feet. My view 
is a much more reasonable number, and one that until this 
drought is finally over with has rarely been breached. The 
Senate Interior Appropriations bill last year called for 
changes that precluded at 44 million acre feet. When the Corps 
studied the impacts this would have on the Missouri River, it 
found there would be a net positive impact along the Missouri 
River.
    Sometimes I feel I am beating a dead horse. But we are just 
devastated at Fort Peck. I really would like the active 
assistance of the Corps in finding more and better ways to 
address the impacts of continued drought at Fort Peck. We need 
the Corps' help, not the Corps' sympathy.
    Mr. Woodley, I know you're out there somewhere. This time I 
need a genuine commitment from you to work with me and the 
Upper Basin States to find a better way. I cannot stress this 
enough. I am not going to give up. I am not going to give up. 
We are going to find a way to make sure that those folks in the 
Upper Missouri River get fair treatment. They have not been 
receiving fair treatment. I thank you, Mr. Chairman, for 
letting me make that statement.
    Senator Inhofe. Thank you, Senator Baucus.
    Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Mr. Chairman, perhaps President Bush has 
found a way around the challenge of having an EPA director that 
doesn't do enough for the environment or too much for business 
by nominating Mr. Johnson to be our next EPA Administrator. He 
has two very unique qualities. First, in this unheard of 
politically divisive world we operate in, he will be the first 
career official to hold a position, having worked at the EPA 
for 24 years. I'm sure that's applauded by people that are 
working in the Agency, it's going to be good for the esprit de 
corps.
    He also has extensive knowledge of the inner workings and 
the personnel at the Agency. The members of this committee 
ought to know that the EPA is in deep, deep trouble today in 
terms of the number of people that they need to get the job 
done. We need to get somebody on board very, very quickly, so 
that we don't hemorrhage any more.
    Second, we have a professional scientist to be the 
Administrator. This is an area where I've been concerned about 
for a long, long time, Senator Carper and I have had 
legislation in the last couple of years because we think we 
need more science at the EPA. I rejoice in the fact that you 
are a scientist. So that's the good news.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Mr. Chairman, thank you for holding this nominations hearing.
    This morning, I am going to put on two hats that I wear proudly in 
the Senate. The first is as a member of this committee and the second 
is as Chairman of the Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of Columbia.
    As I am sure my colleagues know, I am very interested in the 
management of our federal government and its workforce. Finding the 
right people with the right skills to run our nation's agencies, 
departments, commissions, and foundations is very important.
    The nominees before us today have extensive experience in both the 
private and public sectors. I thank you all for your willingness to 
serve, and even more importantly, I thank your families for their 
sacrifices. I welcome you and look forward to hearing from you.
    Our first nominee this morning is Steve Johnson to be EPA 
Administrator. In my opinion, this is one of the most difficult 
positions in the federal government especially in a Republican 
Administration. No matter what you do it is either too far for industry 
or not enough for the environmental groups.
    However, I wonder if President Bush has found a way around this 
challenge by nominating you to be our Nation's next EPA Administrator. 
You have two very unique qualities. First and this is unheard of in 
this politically divisive world we operate in you will be the first 
career official to hold the position as you have worked at EPA for 24 
years. Your extensive knowledge of the inner workings and personnel at 
the Agency may be exactly what is needed to manage it.
    Second, you will be the first professional scientist to be 
Administrator. This is an area that I have long been concerned about at 
EPA. In fact, I have introduced legislation over the last two 
Congresses with Senator Carper to strengthen science at the Agency. I 
look forward to working with you because EPA must have a fundamental 
understanding of the science behind the real and potential threats to 
the environment to be effective.
    I also look forward to working with you on a variety of other 
issues, including:
    More funding and assistance to local communities to deal with water 
infrastructure needs;
    Strong leadership in the President's comprehensive effort to 
restore the Great Lakes; and
    Harmonizing our environment, economic, and energy needs through 
clean air regulations.
    Again, I thank all of the witnesses for being here today and for 
their desire to serve this country.

    Senator Voinovich. I'd like to switch and ask a question. 
That question is, or is it appropriate, are we in the question 
period?
    Senator Inhofe. It's appropriate, yes.
    Senator Voinovich. The recent mercury rule that was 
released, several States and environmental groups have sued, 
which we all expected. I fully expect lawsuits on the Clean Air 
Interstate Rule in the near future from a lot of groups.
    Based on past lawsuits on rules of this nature, and I'd 
like you to use an example if you can, how much will these 
lawsuits cost the Government to defend, and how long will the 
rules be delayed because of these lawsuits? I just wanted you 
to know, my opinion is today we have an environmental policy 
called litigation policy. That's what we have had for the last 
40 years. Can you answer that question?
    Mr. Johnson. I'd be happy to, Senator. There's a wide range 
of experiences, I can't comment on the costs. But what I can 
comment on and give you some examples, at least one example 
that comes to mind, as you know, I spent many years in the 
Office of Pesticide Programs regulating pesticides. A number of 
years ago, EPA moved to suspend a hazardous pesticide, the 
chemical name was 245T Silvex. From the time the Agency moved 
to suspend this dangerous chemical, I believe the length of 
time before cancellation finally went into effect was 10 years, 
10 years of litigation and back and forth.
    That's obviously not a cost effective way to try and manage 
the environment.
    Senator Voinovich. How long do you think the litigation----
    Senator Inhofe. Senator Voinovich, we are going to have two 
rounds of questions. Were you not going to be able to be here 
later? If you were, I'd like to hold off questions.
    Senator Voinovich. OK, thank you.
    Senator Inhofe. Thank you, Senator Voinovich.
    Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. I would say to Steve 
Johnson, welcome this morning. I suspect when you testify you 
will have an opportunity to introduce some of these people, 
maybe family or friends behind you. If any of them might be 
parents or spouses, I just want to say----
    Senator Inhofe. We are going to ask him to introduce his 
family.
    Senator Carper [continuing]. I just want to say to each of 
you, thank you for sharing, well, first of all to the parents, 
thank you for instilling in this man the understanding that we 
have a responsibility to serve this country. To anybody who is 
sitting in the audience who might be a spouse, thank you for 
sharing him with all of us.
    As you know, Clear Skies failed to be reported out of this 
Committee last month, a 9-9 vote, because folks on my side and 
Senator Chafee on the other side thought that we could do 
better than the Administration's Clear Skies proposal. I want 
to be clear, just because we voted against that bill that day 
doesn't mean that we don't want a bill. I very much want a 
bipartisan bill. I believe it's possible to get one.
    In order to enact a strong, balanced piece of legislation 
this year, we need more cooperation from the Administration. On 
March 3d, I sent a letter to you, Mr. Johnson, asking EPA to 
conduct a detailed cost-benefit analysis of the various multi-
pollutant Clean Air bills that Congress has proposed, namely 
that proposed by Senator Inhofe, I believe, on behalf of the 
Administration, Senator Jeffords' proposal and a proposal I had 
introduced in the last Congress with Senator Chafee, Senator 
Alexander, Senator Gregg and myself.
    As of today, not only have I not received these analyses, I 
have not been given assurances from you that we will receive 
them in the future, if we will ever receive them in the future. 
I know that some on this panel and the Administration have said 
that our committee has all the information that we need. I just 
disagree. EPA has conducted extensive analyses of Clear Skies. 
The same cannot be said of our bill or the Jeffords bill.
    In order for Democrats to sit down with Republicans and 
negotiate a compromise to these decisions on what the 
appropriate caps and time lines should be for NOx, for SOx, for 
mercury, for carbon, we need this information from EPA. Senator 
Voinovich mentioned earlier our interest in good science and 
making sure, the idea that you are a scientist is something 
that we welcome. But we need good, scientific analysis from the 
EPA.
    I don't think it matters who is in the White House, what 
party is in the White House, who is in majority in the 
Congress. When we are asked to make these difficult decisions, 
it's just an enormous help if we can get good, timely, 
comprehensive analysis.
    March 3d was not the first time I have requested this 
information. Let me just give this short history. In 2003, EPA 
delivered to me a partial economic analysis of the Clean Air 
legislation that a number of us had introduced in 2002, with 
one major caveat. The EPA said that they had changed to modern 
techniques, and that using the latest assumptions, the cost and 
health benefits of our bill ``differ in some cases 
significantly'' from the information I was given.
    Not surprisingly, I then asked EPA to conduct a new 
analysis, using the most up to date techniques possible. In 
June 2004, I received another letter from EPA saying that 
because the Environment and Public Works Committee was not 
preparing to move Clear Skies that year, that EPA would not 
conduct the analysis that we had sought.
    The irony is that when we started toward markup early this 
year, I again repeated my request for a detailed technical 
analysis of the Jeffords bill and our bill. Then I was told 
that EPA didn't have time to do it, because the committee was 
moving quickly to pass legislation. That response, my friend, 
is just unacceptable.
    In hindsight, some might say that it was even a foolish 
position to take, especially in light of the fact that it is 
now April and we have yet to move a bill out of this committee. 
If EPA had conducted the analysis that we first requested, it 
would be in our hands, would have been in our hands for some 
time and in the hands of each of our colleagues. We would 
probably be a lot closer to getting a bipartisan bill to the 
President's desk.
    Mr. Johnson, let me just be perfectly clear. I want the 
same modeling done for the Jeffords bill and for our bipartisan 
bill that the EPA has done for the Clear Skies legislation. 
This is not an unfair request. My colleagues have asked me to 
negotiate a compromise on this bill if possible. I know that my 
friend, Senator Voinovich, is frustrated, has been frustrated 
with me and our process, because I have not been able to put 
down a counter-offer to what he and Senator Inhofe have 
proposed.
    I'm just not sure how I'm supposed to counter if I don't 
know what I'm trading. I don't even know the benefits my own 
bill brings to my own State. I know what Clear Skies will do 
and frankly, it's not much for Delaware. Clear Skies won't 
solve Delaware's air quality problems, and the Administration's 
I think woefully inadequate mercury proposal means more 
Delawareans will get sick from mercury related illnesses.
    After the Clear Skies bill died a couple of weeks ago, I 
said that no means find another way. We need EPA's help and 
cooperation if we are going to find another way, and we need 
the information we have requested to find another way and to 
help us craft a bipartisan bill that can pass this committee, 
and more importantly, be signed into law this year. If the 
Administration is serious about getting clean air legislation 
done this year, and I hope that it is, then I suggest that EPA 
deliver the information that we have requested, and let's go to 
work.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Chafee.

OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman, very much. I am 
pleased to be here today and look forward to hearing the 
testimony of Mr. Johnson as Administrator of the Environmental 
Protection Agency.
    I believe the nomination of a scientist who has made a 
career at EPA is an important characteristic in selecting a 
candidate as Administrator. I appreciate the time that Mr. 
Johnson has spent in my office reviewing his credentials, and I 
look forward to working with him in the future.
    Senator Inhofe. Thank you, Senator Chafee.
    Senator Lieberman.

  OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman. I thank you and 
welcome you, Mr. Johnson, welcome your family. I just take a 
look at your dad, and there's a remarkable similarity between 
the two of you. There's not going to be any paternity actions 
in this matter, it's very clear on your face.
    [Laughter.]
    Mr. Johnson. Senator, you have made his day.
    [Laughter.]
    Senator Lieberman. Needless to say, you are both very good 
looking guys.
    Mr. Johnson, I want to thank you for your 24 years of 
dedicated public service. I must say, as others have said here 
already, that I'm encouraged that at a time when there are so 
many challenging and indeed controversial environmental 
decisions and problems facing us that the President has 
nominated a respected scientist and career employee to be the 
next Administrator of EPA. This is genuinely refreshing and 
encouraging.
    I commend you for stating in your prepared testimony how 
important it is for the Agency to base its decisions on the 
best available scientific information and on developing rules 
through ``an open and transparent decisionmaking process.'' As 
you know, there is a lot of concern here in Congress and 
outside about occasions on which people feel that science has 
taken a back seat in recent years in some of the decisions that 
EPA has made.
    In February of last year, which you probably remember, a 
group of over 60 prominent scientists, including 20 Nobel 
laureates, sent an open letter to the President alleging that 
too much of the science-based decisionmaking had been 
politicized. That can't be permitted, and I know from having 
talked to you that that's not what you intend to do as 
Administrator. You are a scientist and you will make the best 
judgments you can based on science.
    This gives me encouragement, if I may take this occasion to 
do so, to say that I hope you will apply or find a way to apply 
this principle retroactively to recent agency, one recent 
agency decision regarding the clean air mercury rule, which was 
signed on March 15th. Personally I am not convinced that the 
principles of good science were consistently applied in this 
rulemaking process, and those concerns have been expressed also 
by the GAO and the Inspector General of EPA itself certainly 
with regard to process in the recent reports.
    I hope that as you begin your duties you will reexamine the 
science informing this particular decision and specifically 
take a look, if you have not already, at the study from Harvard 
University that the EPA funded, yet it appears to me did not 
follow, perhaps even ignored in the development of its rule. If 
you find that the science supports a much lower cap on mercury 
emissions in this country, I hope you will take action to 
revise the ruling. As you know, many of us here in Congress are 
convinced that lower emissions limits of mercury are limited to 
adequately protect human health and the environment and that 
the technology exists to achieve them much sooner than 2018, 
which is the current proposal.
    In confirming your nomination, this committee and the 
Senate will be telling the Nation that we have given you our 
trust, our trust that you will make the best decisions based on 
the best science for the health of our environment and of 
course, for the health of our citizens. That is an enormous 
responsibility, but I have confidence, based on your record and 
my more recent conversations with you that you will take on 
this responsibility with the integrity and dedication that you 
have demonstrated throughout your career at EPA.
    I look forward to supporting you, and I am confident you 
will help America meet the environmental challenges ahead. 
Thank you very much.
    Senator Inhofe. Thank you, Senator Lieberman.
    [The prepared statement of Senator Lieberman follows:]
     Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut
    Thank you, Mr. Johnson, for your 24 years of dedicated service to 
an important agency. I find it encouraging that in a time where so many 
challenging and controversial environmental issues confront us, the 
President has nominated a respected scientist and career employee to be 
the next Administrator.
    Mr. Johnson, I commend you for stating in your testimony the 
importance of basing agency decisions on the best available scientific 
information, and on developing rules through an ``open and transparent 
decision-making process.'' I trust that as a scientist, you appreciate 
the importance of those words. The American public needs to know that 
the decisions the Agency makes are based, above all, on good science.
    Unfortunately, several members of this committee share my concern 
that in recent years, science has taken a back seat in the decision-
making process at EPA. We are not the only ones who hold this view. As 
you know, in February of last year a group of over 60 prominent 
scientists, including 20 Nobel laureates sent an open letter to 
President Bush criticizing the recent politicization of science-based 
decision-making.
    While there are many considerations that affect decisions, in 
recent years, science has not only been neglected or ignored, but even 
worse, has been selectively applied to support pre-determined 
conclusions. I fully expect you to uphold the ideals that you state in 
your testimony; in my interactions with you thus far, you have given me 
hope that you will do so.
    Your emphasis on science further gives me confidence that you will 
apply this principle retroactively to recent agency decisions where the 
scientific basis has been questioned. Specifically, I would like you to 
re-examine the Clean Air Mercury Rule. I am not convinced that the 
principles of good science were consistently applied in the development 
of this rule, concerns that were repeated by the GAO and EPA Inspector 
General in their recent reports.
    I trust that once you begin your duties as Administrator, you will 
make it your highest priority to re-examine the science informing this 
decision, and specifically examine the Harvard study that the EPA 
funded yet ignored in development of its rule. If you find, as I expect 
you will, that the science supports a much lower caps on mercury 
emissions in this country, I expect you to revise your ruling. I and 
many of my colleagues are convinced that lower emissions limits are 
needed to adequately protect human health and the environment, and that 
the technology exists to achieve them much sooner than 2018.
    In confirming your nomination, we will be telling this nation that 
we have given your our trust - trust that you will set aside partisan 
political considerations and make the best decisions, based on the best 
science, for the health of our environment, and for the health of our 
citizens. This is a tremendous responsibility. I have confidence that 
as a scientist, you will approach this position with the integrity and 
dedication you have demonstrated throughout your career at EPA, and I 
wish you well in meeting this challenge.

    Senator Inhofe. Mr. Johnson, I am going to go ahead and 
recognize you for a very brief opening statement. I want you to 
introduce what members of your family are here today. But after 
that, we are going to go to two rounds of 4-minute rounds of 
questioning. We are going to try our best to dispose of this 
panel by 20 after. For the benefit of my colleagues, there is 
going to be a vote at 10 o'clock. However, we have told them 
that we will continue to meet in here until 10:20, so no one is 
going to miss his or her vote by doing so.
    Mr. Johnson.

STATEMENT OF STEPHEN JOHNSON, NOMINATED BY THE PRESIDENT TO BE 
      ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Thank you, Mr. Chairman. Distinguished members 
of the committee, I am honored to appear before you today as 
the President's nominee for the position of Administrator of 
the U.S. Environmental Protection Agency.
    I want to thank Chairman Inhofe and also Ranking Member 
Jeffords for scheduling this hearing this morning. I also want 
to thank many of you for the courtesy meetings with me in the 
past several weeks and for allowing me to discuss my 
qualifications for this position.
    If it pleases the committee, I would like to ask that my 
full written statement be included in the record.
    Senator Inhofe. Without objection, so ordered.
    Mr. Johnson. Thank you, sir.
    If I may, I would like to take a moment to introduce the 
members of my family who have accompanied me this morning. I am 
pleased to have my wife, Debbie, and my son, Matthew here with 
me today. I regret that my daughters, Terri and Allison, are 
not able to be here. They are taking care of our two new 
grandchildren this morning. We thought it was better for them 
to be there than here.
    I am also pleased to have my father, Bill, who is 82 years 
old and can still work me into the ground every day. Senator 
Lieberman, you have now found favor with my father.
    [Laughter.]
    Mr. Johnson. I am also pleased to have my wife's parents, 
John and June Jones, attending as well.
    I would like to say one further word about my dad. He 
retired after spending over 30 years of service to the U.S. 
Government. As you can tell, I'm really proud of his service. 
I'm especially proud that he could be here today with me.
    I would also like to introduce three close friends with me 
today, Ms. Ona Chapman, a long-time family friend from Boone, 
NC; the Rev. R. Dallas Greene, who is the pastor of my church 
in Frederick, MD; and George and Linda Selden of Campus 
Crusade, also dear friends.
    Mr. Chairman, I would like to begin by saying that I am 
enormously indebted to President Bush for the opportunity he 
has given me. I have had the privilege of serving in EPA for 
more than 24 years. I was trained as a scientist, with a 
graduate degree in pathology. I served in a number of positions 
and capacities within the Agency. I was honored to be chosen by 
President Bush in 2001 to serve as Assistant Administrator for 
the Office of Prevention, Pesticides and Toxic Substances.
    Again, I was honored in 2004 to be selected by the 
President to serve as Deputy Administrator. But it is an 
unparalleled privilege to be selected to lead the Environmental 
Protection Agency. As the first career employee and trained 
scientist to be nominated, I am most grateful for the 
opportunity.
    It is a fair question to ask how I would lead the Agency if 
given the opportunity. During my more than two decades at the 
Agency, I have worked with eight of the nine EPA 
administrators, and I understand that we build on the 
accomplishments of those who have preceded us. As former 
Administrator, now Secretary Leavitt described it, we are 
running a generational relay race, passing the baton from one 
generation to the next, vowing to keep up the pace of 
environmental protection and striving to accelerate the pace.
    Mr. Chairman, as I consider the next leg of the race to be 
run, I see that we have made extraordinary progress in 
environmental protection over the past 30 years. I am proud to 
say that we have done so while maintaining an economy that 
continues to grow. We have developed an ethic of environmental 
protection in the United States. The questions now are, how can 
we do this better, with more certainty, using better tools.
    I see two key challenges before the EPA, if are to maintain 
the pace of environmental protection in a vibrant economy. 
First, we must manage the dynamic evolution of scientific 
discovery. Second, we must identify and formalize collaborative 
approaches to solving environmental problems.
    Let me say a word first about managing science in the EPA. 
As a scientist, I am intrigued with the promise of new areas 
that technology and scientific discovery hold for improving the 
world we live in. But I also recognize the process of 
scientific discovery is not always straightforward. There are 
times when we are not sure what the science is telling us.
    So our challenge is to make sure that when we are required 
to make regulatory or policy decisions, we are using the best 
available scientific information while continuing to pursue and 
encourage rigorous scientific inquiry.
    I would like to say a word here about the recent clear air 
mercury rule, because I think it is an example of the kind of 
challenge presented by the dynamic nature of scientific 
inquiry. The issue of mercury emissions from coal-fired power 
plants had languished in the Agency for too long. It was time 
to make decisions about how to control these emissions from 
power plants.
    But few of the scientific questions are easy. We face 
questions of how quickly technology would develop, how the fate 
of various types of mercury in the environment would occur, and 
what about the sources of exposure to the human population? 
Using our best scientific judgment, we carefully reviewed many 
scientific studies and more than 500,000 public comments in 
reaching our decisions in the rule.
    I am proud to say that this is the first regulation 
anywhere in the world to control mercury emissions from power 
plants. But we are not finished with the issue of mercury. We 
will continue to follow the science to better understand the 
risks to human health and the environment. We will do our best, 
in an open and transparent way, to make decisions based upon 
the best available science to continue to protect public health 
and the environment.
    The second challenge we face is to identify and formalize 
collaborative approaches to solving environmental problems. The 
traditional methods of environmental protection are not as 
effective in the face of new realities. We have harder 
scientific questions to answer, sometimes fewer resources, and 
many times our environmental issues extend beyond the reach of 
our agencies and even our court systems. We need to find new 
ways to identify common interests and solve pollution problems.
    The President's Executive Order on the Great Lakes is one 
of the best, most recent examples of a successful 
collaboration. We need to recognize when environmental problems 
are amenable to collaborative approaches and learn the skills 
necessary to lead such collaborations to successful completion.
    Mr. Chairman, looking into the future, an essential 
ingredient for meeting these two challenges for the next leg of 
our generational race is a well trained, professional staff at 
EPA. We need people who are trained in the sciences, who are 
committed to an open and transparent process, and who are 
passionate about finding new and innovative ways of solving 
problems. As a veteran of the Agency, I would make it a 
priority to develop these qualities in the next generation of 
EPA professionals.
    Mr. Chairman, in conclusion, I have dedicated my entire 
professional life to protecting public health and the 
environment. I have always believed that these goals are 
consistent with maintaining our economic competitiveness. I am 
proud that our Nation has prospered as we continue to achieve 
our environmental objectives.
    If confirmed, I will do everything I can as Administrator 
to continue to serve the American people by working to protect 
their health and the health of the environment. Thank you very 
much. At this time, I would be very happy to answer any 
questions you may have.
    Senator Inhofe. Thank you, Mr. Johnson. As Chairman, I have 
no questions. We are going to still try to get this done in 
time. I would recognize Senator Jeffords. These will be 4-
minute rounds.
    Senator Jeffords. For the convenience of Senator Carper, I 
would like to yield my time now for him, and I will hold my 
questions until the second round.
    Senator Inhofe. Senator Carper.
    Senator Carper. Thanks very much. Thank you, Senator 
Jeffords.
    Mr. Johnson, as I stated in my opening statement, on March 
3d of this year, I sent to you a request for analysis of 
various multi-pollutant legislative proposals. I just want to 
ask first of all, what progress have you made in fulfilling 
that request?
    Mr. Johnson. Well, Senator, thank you very much for the 
request. Thank you for your interest in helping us move the 
Clear Skies legislation. I believe that is an important piece 
of legislation that we should continue to pursue. I think it's 
the right answer. It's a better answer than the two rules that 
we have put in place.
    I am convinced and continue to believe that the best 
approach is working with you and other Members of the committee 
in a bipartisan fashion to get whatever analyses that you all 
need to be able to move this important piece of legislation 
forward. So my commitment to you, Senator, is to work with you 
in a bipartisan fashion to get the analysis that we all agree 
is necessary to move this forward and to have the debate.
    Senator Carper. Again I would ask, what progress has been 
made in fulfilling that request? It was rather specific, and 
you and I had an agreement to go over that.
    Mr. Johnson. Senator, we have not begun the specific 
analysis. The first reason is, as I believe I mentioned to you 
when we met, is that when your initial letter came in on March 
3, we were in the midst of doing very detailed analysis, long 
into the night of many nights, of finishing up our mercury 
rule. We had a court deadline of March 15. So our attention 
was, I believe, appropriately focused on making sure we were 
meeting that deadline.
    Second, since that time, as I met with you and Senator 
Voinovich and Senator Inhofe and Senator Jeffords, it became 
very clear to me that there was bipartisan interest in moving 
forward, but that there was no agreement as to what analysis 
needed to be done. I respect your request. You certainly have 
my commitment to work with you, Senator Jeffords, the Chairman, 
and Senator Voinovich in a bipartisan way, to provide whatever 
analyses that this committee needs to be able to answer the 
questions.
    Senator Carper. Let me just ask you, whose permission do 
you need to respond fully to the request I've made of you?
    Mr. Johnson. I'm not sure that there is permission per se. 
I would say and reiterate that I believe it's appropriate for 
us to work together in a bipartisan way to try to address this.
    If there is no interest in moving the legislation forward 
on both sides of the aisle, then I would say that I'm not sure 
that's the wisest use of resources. But again, I wouldn't want 
to preclude that. I would want to have further discussions. So 
my commitment, again, is to work with you, Senator Voinovich, 
the Chairman, and Senator Jeffords to meet your needs for the 
data that you need, to be able to help move this important 
piece of legislation. Because I agree with you, I think Clear 
Skies is a better approach.
    Senator Carper. I would not pretend to speak for my friends 
on the other side. But there is plenty of interest on this side 
in moving a strong, balanced bill. It protects our environment, 
protects public health, and it is fair and reasonable to those 
of us who consume electricity and those who would produce it.
    Let me just ask directly, do you intend to conduct the 
analysis that I have requested?
    Mr. Johnson. I will conduct the analysis that has been 
requested by this committee, yourself included, if there is 
agreement on what analysis needs to be done. Again, if it's 
clear that the committee is interested in conducting analysis 
and moving Clear Skies forward, which I certainly hope it is, 
and that is my belief, then I am prepared to have the Agency 
conduct whatever analysis is necessary.
    Senator Carper. To your knowledge----
    Senator Inhofe. Senator Carper, I'm very, very sorry, but 
in deference to the other members of the committee, we ought to 
try to keep within our 4 minutes. You will have another 
opportunity.
    Senator Carper. Thank you very much.
    Senator Inhofe. Thank you. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Welcome again, Mr. Johnson. I have two quick questions.
    I have a personal belief that we here spend too much time 
arguing about standards that oftentimes by their best are 
arbitrary and far too little time talking about best management 
practices and motivation for solutions.
    To that end, my first question is this. A couple of years 
ago, in the southern Tennessee Valley, northwest Georgia, a 
number of counties in those States came together and created an 
early action compact to address particulate matter and to try 
and prevent, and meet attainment so they would not fall into 
non-attainment. This PAC was an aggressive PAC where these 
counties and communities made aggressive efforts to reduce the 
particulate matter.
    It's my understanding that notwithstanding what they did in 
that compact that they are going to be found to be non-
attainment. Why would we have an encouragement for people to go 
into compacts to address the problem we're concerned about, and 
then even when they do it, have no transition or no ability to 
give them some room and then find them in non-attainment?
    Mr. Johnson. Well, Senator, certainly we are and should, 
and I certainly encourage the development of and signing up for 
early action compacts. That is the kind of collaborative 
approach that I think is the right thing to do.
    Having said that, we do have the requirements of the Clean 
Air Act that we all have to fulfill. When monitors that meet 
the requirements of the statute find that there are 
exceedances, whether it be fine particulate such as 
PM<INF>2.5</INF> or ozone, then we are bound by what the law 
directs us to do, and then we have to find that those cities or 
areas are in non-attainment.
    Having said that, certainly we need to work even harder to 
work with the State and local communities to address those 
issues. Clearly, regulations that are put in place such as the 
Clean Air Interstate Rule help, the Clean Diesel Rule, 
certainly helps to address a lot of the issues that we're 
talking about. But you certainly have my commitment to continue 
to work with you and the communities in your jurisdiction to 
help them in any way that we can to make sure that the air is 
clean and also meeting the standards.
    Senator Isakson. Would I be correct in assuming that were 
Clear Skies the law, in such a situation where you had early 
action compacts, you in fact would have an opportunity to 
determine this as a transition area rather than a non-
attainment area and actually encourage collaboration?
    Mr. Johnson. That is correct. That is part of one of the 
provisions that certainly has been discussed as part of the 
Clear Skies and one of the many advantages to the Clear Skies 
legislation.
    Senator Isakson. I have to cut you off, but I have one 
other quick question. The two great motivators in life, one is 
fear, the other is reward. There are others, but those are the 
most significant.
    In the 1990's, I worked in Georgia, in the Soil Sediment 
Control standards in the State of Georgia. It's my 
understanding that EPA has taken a most aggressive posture on 
violations of the Stormwater and Soil Sediment Erosion Control 
standards, to the extent that there is no leeway between notice 
of an offense and right to cure. The fines are significant. I 
understand fines are a motivating reward.
    But given the type of weather than can happen and acts of 
nature, doesn't it seem appropriate that if we took a best 
management practice approach, which is to notify a violator, 
give them a chance to remediate on a first offense, not talking 
about a repeat offender, that would be a far better solution 
than to arbitrarily be sticking rather significant fines on 
people with no right or time to cure?
    Mr. Johnson. As a general course, I believe that the 
direction that we need to be headed is to ensure that there is 
compliance. The reason why there are stormwater runoff rules is 
to ensure the protection of the environment. There are multiple 
ways to get there, as you've said.
    I believe our approach with that issue is to work with the 
communities and the facilities to first understand what the 
problem is and then address it.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Isakson.
    I regret to say that the very ambitious schedule that I 
outlined an hour ago isn't going to work. We are going to 
recognize Senator Boxer, she made a request early on to forego 
her opening statement and have her 4-minute rounds consecutive. 
We will acknowledge you at this time.
    But I would say to the rest of you, after she has 
completed, we will go ahead and vote and go to our joint 
session, then reconvene at 2:30. Does anyone have a problem 
with that?
    Senator Boxer, for 8 minutes.
    Senator Boxer. Thank you, Mr. Chairman.
    Congratulations on your nomination, Mr. Johnson. You and I 
had a good talk about the fact that this committee, individuals 
on it, we need more information. I am going to take you at your 
word that you will do that, so I'm not going to belabor the 
point.
    But I think I'm a little troubled by some of your answers 
to Tom Carper. But hopefully, you will surprise us and we will 
be happy and get the information we need to make sound 
judgments.
    I am very concerned about a number of issues, some of them 
have been mentioned here. But I am going to focus in on 
pesticide testing on humans. Mr. Johnson, you've spent most of 
your long career working on pesticide programs. In 2001, you 
were promoted by the Bush administration to head the pesticide 
program. When you were first elevated to this position, the 
Bush administration overturned the Clinton administration's 
informal moratorium on human testing of pesticides, so that 
human testing could continue.
    Administrator Whitman quickly reversed that decision after 
a public outcry. At the time, you were quoted in the L.A Times 
as saying, ``We believe we have more than a sufficient data 
base through the use of animal studies to make licensing 
decisions that meet the standard to protect the health of the 
public without using human studies.'' Now, we know what the 
court said, was that the EPA had to do more, make more of a 
case before you could ban human testing, and that is in 
process.
    But despite your statement that you didn't need human 
testing, in October 2003, while you were running the pesticides 
program, EPA proposed the Children's Environmental Exposure 
Research Study, or CHEERS. I have a copy of the brochure that I 
have blown up on a chart, Mr. Chairman. This picture really 
tells it all. The picture tells the story.
    The study is recruiting very young babies, less than 3 
months old as a target group, and their families, and providing 
incentives for routine pesticide spraying in their homes. If 
you agree to keep up the spraying over a 2-year period, you can 
get up to $970. You also get a framed certificate of 
appreciation, a CHEERS bib, a tee-shirt with the child riding a 
bicycle and the CHEERS logo, a calendar, a newsletter and the 
video camera you use to tape the effects of pesticides used on 
your baby. You get to keep the video camera.
    Mr. Johnson, in my opinion, this is just me speaking, I 
don't speak for anyone else. As someone who wrote the 
Children's Environmental Protection Act, I find this an 
appalling project. I think it's unethical, because we already 
know that children are very sensitive to chemicals, much more 
than we are. It flies in the face, I think, of everything that 
we know about pesticides and kids.
    The financial incentives are also likely to attract lower 
income residents of the Florida county that is the target of 
the study. If ever there was a case of environmental injustice 
with the victims being babies, this is it.
    Now, I had, I was led to believe by little articles in the 
newspaper that this program had been canceled. But I was 
confused as to why this recruiting brochure is still up on your 
web site. I called the phone number, and I could take the time 
to play it, but I can just show you the chart, I have it. This 
is what you get when you call the number. ``Thanks for calling 
CHEERS. The study has been delayed due to some technical 
issues. We don't know how long the delay will last, but we will 
contact you in the future when we resume the project. Thanks 
again for your interest in CHEERS.''
    So my question to you is, has this program been canceled?
    Mr. Johnson. Senator, I suspended the program. Our Office 
of Research and Development that developed the research 
protocol went through four institutional review boards for the 
protocol. The intent to go into people's homes and to monitor 
what their normal activity was with children there was the 
intent.
    But seeing and hearing about the various issues which you 
have just raised, I actually suspended----
    Senator Boxer. Has the program been canceled?
    Mr. Johnson. I have not canceled the program, and I 
suspended it. Here's what I have asked be done. In fact, in the 
coming weeks, there will be a public hearing that this study 
will be presented to a joint panel of experts, experts outside 
the Agency that include experts from our children's health 
advisory----
    Senator Boxer. I'm sorry to cut you off, but has the 
program been canceled?
    Mr. Johnson. It has been suspended.
    Senator Boxer. The answer is no, is it not?
    Mr. Johnson. That's correct. It has been suspended, pending 
the outcome of external scientific peer review.
    Senator Boxer. We will contact you in the future when we 
resume the project. Now, your description of what you had 
intended is not what it says in this brochure. It says, am I 
eligible to participate? Sixty participants, only 60, will be 
selected. To be selected, you must live in Duvall County, FL, 
which by the way is 27 percent minority population, be a parent 
of a child less than 3 months old or between the ages of 9 to 
12 months old and spray or have pesticides sprayed inside your 
home routinely.
    You have not canceled this program. Now, my understanding 
is that you have a group that is now studying this program. Why 
are you studying this program? Don't we know enough to know 
that this would be morally wrong, to entice probably low income 
people, to entice them with $900 plus, it's a lot of money for 
some people, keep spraying their children, essentially, the 
environment of their children for 2 years, otherwise they don't 
get the money?
    Isn't that just wrong on its face? Why do you have to study 
that? You said we don't need human testing. You used that clear 
statement in 2001.
    Mr. Johnson. I stand by the statement. We don't need----
    Senator Boxer. Good. So then, why don't you cancel the 
program?
    Mr. Johnson. Well, the reason why we didn't cancel the 
program was because the issues that you raised are issues that 
come up with every study, whether it's children or adults, 
where human subjects are involved. Again, the researchers were 
trying to identify a sub-population that were using pesticides, 
not encouraging them to use, certainly not directing them to 
expose children to pesticides or other chemicals, because it 
was more than----
    Senator Boxer. Mr. Johnson, if I were to go out and say, I 
want to find out more information about smoking and what it 
does to women, because we know now women seem to be more 
adversely impacted. I said, for 2 years, if you smoke, you 
continue, you're already smoking, you're smoking a pack a day, 
we're not asking you to smoke more, but you continue smoking a 
pack a day for 2 years, we'll give you $1,000. That's wrong.
    Why are we going into these homes where they may be 
pesticide spraying, maybe the parents don't even know the 
information you and I know, and just telling them, use those 
pesticides as infrequently as possible and try to get people to 
understand that it's bad?
    All I'm saying is, and I'll conclude here, because I heard 
the cough of my Chairman----
    [Laughter.]
    Senator Boxer [continuing]. Kind of a hint, I've gotten to 
know his cough.
    I feel so strongly about this, Mr. Johnson, that unless 
this project is canceled, I have a lot of problems moving this 
nomination forward, I'm going to be honest. I don't think we 
need any more studies to know this is morally wrong. Take 
little babies and entice their parents with gifts? What do 
these kids know about it? They are innocent victims, and I 
think it's outrageous and I think you ought to pull the plug on 
that program tomorrow. If you don't, I'm going to have 
problems. I'm going to use everything at my disposal to make 
that happen.
    I thank you.
    Senator Inhofe. Thank you, Senator Boxer. We are recessed 
until 2:30 this afternoon.
    [Whereupon, at 10:20 a.m., the committee was recessed, to 
reconvene at 2:30 the same day.]
    Senator Inhofe. All right, the meeting is reconvened. We 
are out of recess. There is a vote that will take place in 
about 10 minutes, but we plan to work all the way through the 
votes and ask the committee if they will take turns in going 
out to vote and coming back.
    We will continue now with Mr. Johnson and Senator DeMint. I 
don't believe you have had a first turn at questions, have you?
    Senator DeMint. No, I have not.
    Senator Inhofe. OK, well, you're recognized for either both 
of yours or one of yours.
    Senator DeMint. OK, great. Thank you, Mr. Chairman.
    Thank you, Mr. Johnson, for being here today. I had a 
chance to meet your dad, who you told me about as well, who is 
from Myrtle Beach, SC. We have some family connections here in 
the State. I met with Mr. Johnson on several occasions to talk 
about some issues in our State that are very important to us. I 
appreciate your responsiveness. As you know, it's very 
difficult when areas are in non-attainment to replace jobs, 
which in South Carolina, because of the loss of textile jobs, 
we have the third highest unemployment rate in the Nation. 
Trying to attract new industry is difficult when you have non-
attainment status.
    You have assured us that you will work with us on making 
sure the monitoring is fair, which I greatly appreciate. But on 
a larger scale, I would just like to mention, you brought up 
just the ethic of protecting the environment in the EPA, which 
I greatly appreciate. But I hope with your leadership that we 
can expand that ethic to include a culture of recognizing that 
not only do you need good air, clean water to have a good 
quality of life, but you need a real good economic environment.
    I think in the past the EPA has been known for more of a 
punitive relationship with the business community, when in fact 
we need what you mentioned before, a more collaborative 
relationship. Business needs partners on how to produce. There 
are so many incentives now for someone to outsource something, 
because we can't get an environmental permit to do something, 
when in fact with the right science, the right collaboration, 
we could do those jobs here in this country. In talking with 
you, I feel like that you'll bring that rational perspective to 
the EPA, which I greatly appreciate.
    But as you know, in our area we have asked for particular 
help with a particular monitor, and at this point feel like the 
EPA has not even filed its own criteria with the locations of 
those, which has put many jobs at risk. So I would appreciate 
the follow-up that you have promised us, and I fully, am very 
convinced that you will what you said, which I greatly 
appreciate.
    Mr. Johnson. Thank you.
    Senator DeMint. But if I have just a minute, I would just 
like to get maybe your thoughts on the collaborative 
relationship with business, economic growth and how you see 
bringing a culture that has been focused on standards for the 
environment to standards that balance the economic needs as 
well as bringing all of your science and methodologies to bear 
on partnering with industry so that we can produce in this 
Country and still have clean air and clean water.
    Mr. Johnson. Thank you, Senator. Let me first comment that 
I do certainly commit to work with you to address the air issue 
and the monitor which may be problematic, and look forward to 
working with you each step of the way. I think we have outlined 
a good series of steps to take to better understand that, with 
additional monitors and other things. I look forward to working 
with you and you certainly have my commitment.
    With regard to environment and economics, my experience and 
certainly my belief is they not only go hand in hand, they 
really must go hand in hand. Because without a vibrant economy, 
certainly my experience is, less attention is paid to the 
environment. I believe that they need to go hand in hand, and 
that we need to pay attention to the environment as we move 
forward in our economic development.
    Certainly I think we have some absolutely outstanding 
examples of things that we have done cooperatively. One of my 
favorite examples in the air program is one of the labels that 
we have called EnergyStar, and EnergyStar is currently used on 
multiple appliances if they meet a certain standard.
    What's interesting to me is in the year 2004 that just by 
the purchasing and use of these EnergyStar certified products, 
if you will, that just that one, just the year 2004, the 
savings both in electricity, I believe the number is about $10 
billion in savings of energy costs, and also the amount of 
emissions reduced by buying an EnergyStar product equates to, I 
believe the number is about 20 million cars on the road. So 
here is just a label, and informing consumers of what kind of 
product to buy, one that is energy efficient, has tremendous, 
tremendous leverage and opportunity. That is an example of the 
kind of collaborative partnership that is working, continues to 
work, and that's the kind of thing that I'd like to see expand 
to other areas.
    Senator DeMint. Thank you very much.
    Mr. Chairman, if I could make one comment about our next 
nominee, because I'm not sure if I'll get back. Another 
challenge we have in our State, I think it takes about twice as 
long in our State to get a permit from the Army Corps than 
several other States, which is another jobs issue. But on at 
least one occasion I have requested help from Secretary 
Woodley, who has come to our State and solved our problems at 
least on specific matters. I want to thank him publicly for 
being responsive, and I hope he can bring that culture to the 
whole office there in South Carolina.
    So thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator. Senator Boxer, 3 
minutes.
    Senator Boxer. Yes, I will go fast here. Thank you, Mr. 
Chairman.
    Mr. Johnson, just to continue on this issue that I raised 
with you, the Children's Environmental Exposure Research Study, 
where EPA has a plan about which was put on hold and not 
canceled, and continuing to evaluate that would expose babies 
to pesticides, what do you tell in the application? Are you 
aware of what you're telling families about the possible risks 
to their children?
    Mr. Johnson. Senator, some times there is an opportunity to 
take advantage of a break and a recess. After you raised the 
issue on the children's study, I went back and looked at both 
the voice mail message and also what was on our web site and 
found that it did not reflect what my direction was to the 
Agency, and that was a full suspension, not to do any 
recruiting, not to do anything until such time.
    I have a letter that will be delivered to you very shortly 
that clearly states that I directed that all aspects of the 
study, including enrollment, be suspended. To be clear, no 
additional work is going to be conducted, subject to the 
external scientific review, both as a science and the ethic.
    Senator Boxer. Well, that's a suspension and I appreciate 
that. But that's not a cancellation of the program. I want you 
to cancel this program. Because just so you know, in the form 
that the people get, it says, is there are any risk to me and 
my family, the answer from the EPA is no, you and your child 
will not experience any risks from participating in the study.
    We further found out that--who's paying for the study? Are 
you aware of who's paying for the study?
    Mr. Johnson. There are two sources of funds for the study. 
One source is EPA, the other is through a Cooperative Research 
and Development Agreement with the American Chemistry Council.
    Senator Boxer. The American Chemical Council.
    Mr. Johnson. That's correct.
    Senator Boxer. Right. So we have this program being funded 
by the industry that makes the pesticides.
    I will close with this. Once more saying, I'm glad you're 
taking, you know, you changed the voice mail. But you're still 
continuing to look at this. I want this program canceled.
    Let me read to you what the EPA, several EPA scientists 
expressed, I'm reading from an article, and I'll put it in the 
record, Mr. Chairman, from November 12, 2004. Critics say EPA 
study would have harmed low-income children. Several EPA 
scientists expressed outrage about the study, saying it 
unfairly targets low-income families, attempting to lure them 
into an agreement with high-tech gadgets when they may not 
fully understand the health consequences for their children. It 
goes on, there is actually a person cited here who says, ``This 
study goes against everything we recommend at EPA concerning 
the use of pesticides related to children. Paying families in 
Florida to have their homes routinely treated with pesticides 
is very sad when we at EPA know that pesticide management 
should only be used to protect children.''
    So I'll put that into the record.
    [The article referred to follows:]

                         [From the NewStandard]
      Critics say EPA Study Would Have Harmed Low-Income Children
 After scientists and environmentalists slammed the EPA for planning a 
   pesticide study critics believe could potentially harm low-income 
     children, the agency has sent the methodology back for review
                          (By Catherine Komp)
    November 12, 2004.--The Environmental Protection Agency announced 
that it has suspended a study looking into the effects that pesticides 
have on children, after top EPA scientists questioned the ethics and 
safety of the research itself. The $9 million Federal study, partially 
funded by an alliance of chemical companies, would pay low-income 
families almost $1000, plus electronics and clothes, to maintain 
current pesticide use in their homes for 2 years.
    The Children's Environmental Exposure Research Study (CHEERS) 
targeted families in Duval County, Florida and was to study the effects 
on small children of using chemicals and pesticides in the home. In 
addition to the one-time $970 payment, the EPA was offering incentives 
such as a free camcorder, VCR, t-shirts, bibs, and a framed certificate 
of appreciation. While the EPA's website said it would not ask families 
to apply pesticides in their home to be part of the study, it does 
require that parents ``maintain [their] normal pesticide or non-
pesticide use patterns for [their] household.'' The EPA would then 
monitor changes in development of children in the house.
    Several EPA scientists expressed outrage about the study, saying it 
unfairly targets low-income families, attempting to lure them into an 
agreement with high-tech gadgets when they may not fully understand the 
health consequences for their children. In an email obtained by the 
Washington Post, Troy Pierce, an EPA life scientist in Atlanta, said 
the study ``goes against everything we recommend at EPA concerning use 
of [pesticides] related to children. Paying families in Florida to have 
their homes routinely treated with pesticides is very sad when we at 
EPA know that [pesticide management] should always be used to protect 
children.''
    Critics and doctors say household cleaners and pesticides are 
linked to neurological damage in children and they criticize the EPA 
for stating on its CHEERS web site that the study will not cause risks 
to children or parents.
    Environmentalists have also criticized the CHEERS study. Dereth 
Glance is program coordinator for Citizen's Campaign for the 
Environment, a nonprofit organization focusing on issues surrounding 
public health and the environment. In a press statement, Glance said 
the EPA solicited participants from hospitals and clinics in 
Jacksonville, Florida that serve primarily low-income families and 
people of color.
    In its documentation on the study, however, the EPA says that it is 
finding potential participates through a variety of methods, including 
private doctor's offices, daycares and word of mouth. The agency 
adamantly denied targeting low-income families.
    Maria Lawson, spokesperson for the American Chemistry Council, 
which provided $2 million toward funding the $9 million EPA study, told 
the Post that the group ``continues to strongly support the study 
because of the great importance of increasing understanding of the 
exposures of young children to pesticides and other chemicals they 
naturally encounter in their daily lives.''
    Linda S. Sheldon, an EPA spokesperson, told the Post that the study 
was important because there is so little information about how small 
children absorb harmful chemicals. She also said the study's design had 
been reviewed by independent scientists, officials at the Centers for 
Disease Control and Prevention, as well officials at the Duval County 
Health Department.
    Since the study was suspended this week, the EPA announced it will 
reexamine its design and submit it for review to a panel of independent 
experts. An assessment is expected next spring.

    Senator Boxer. Then there is an article in the St. 
Petersburg Times, November 2, 2004, the U.S. Environmental 
Protection Agency has announced a project with the innocent-
sounding acronym CHEERS, and it explains it, they will be given 
$970, a camcorder and all the rest. It says, ``Then over the 
next 3 years, researchers will stop by every 3 months or so to 
determine which chemicals the children are exposed to and how 
they may be affecting their development.''
    Would you want that for your new grandchildren? I'm a 
grandma. I don't know that you'd sign them up.
    Here's what it says. ``No, this isn't a sick joke, but an 
EPA-approved study that is partially funded by the chemical 
industry.'' So Mr. Chairman, I've said my piece, I so 
appreciate getting another few minutes here. I stick with what 
I said. We know enough, as your EPA scientists have said, that 
this is wrong, morally wrong. We should cancel this program. I 
have heard wonderful things about you, Mr. Johnson. I hope you 
will take to heart what I said, because I certainly would like 
to see you do your job.
    But if you don't cancel this project, I don't really 
understand it, because science has already told us that our 
children are the ones we must protect from pesticides, not 
encourage parents to keep spraying for 2 years while we see the 
damage to their children. It's an outrage, and I'm hoping that 
by tomorrow you have another letter on my desk that says, I've 
taken a further step and canceled the program.
    Thank you.
    [The articles referred to follow:]
                    [From the St. Petersburg Times]
                           [November 2, 2004]
                       Experimenting on Children
                        (South Pinellas Edition)
    Florida.--The U.S. Environmental Protection Agency has announced a 
project with the innocent-sounding acronym CHEERS. Parents in the 
Jacksonville area who want to participate will be paid up to $970 and 
given a video camcorder and ``an official, framed Certificate of 
Appreciation.'' While that might sound tempting, especially to a family 
looking for a little help with Christmas this year, anyone interested 
might want to know what CHEERS stands for before signing up--Children's 
Environmental Exposure Research Study.
    More specifically, the EPA wants 60 families in Duval County who 
have a child under the age of 13 months to continue applying household 
pesticides as usual. Then, over the next two years, researchers will 
stop by every three months or so to determine which chemicals the 
children are exposed to and how that might be affecting their 
development. No, this isn't a sick joke, but an EPA-approved study that 
is partially funded by the chemical industry.
    The EPA says the information will help the government protect 
children from harmful chemicals in the future. While that goal is 
noble, the methods being considered are indefensible. Even some of the 
regulatory agency's own scientists are coming to their senses and 
beginning to question the plan among themselves, according to e-mail 
messages obtained by the Washington Post.
    Suzanne Wuerthele, EPA regional toxicologist in Denver, said she is 
afraid the study takes advantage of poor families and fails to inform 
them of the risk to their children. ``It is important that EPA behaves 
ethically, consistently and in a way that engenders public health,'' 
she wrote, adding that if the agency fails to do so, its ``reputation 
will suffer.''
    Unfortunately, it is the children involved in the study that stand 
to suffer the most. By offering money and a camcorder (which will be 
used to record the child's activities), the EPA is obviously trying to 
entice low-income families, a group that is also less likely to be 
aware of the dangers.
    Linda Shelton, acting director of the EPA's Human Exposure and 
Atmospheric Sciences, said the agency would monitor chemical use in the 
homes and inform parents if a child's urine showed significant levels 
of pesticides, but that misses the point. The agency's first 
responsibility is to protect children, not to stand by as even a few 
are exposed to needless risk.
    A humane and just society doesn't do experiments on children that 
even appear to treat them as lab animals. The EPA should cancel this 
study and find an ethical way to research the chemical threat to 
children.
                                 ______
                                 
                       [Sarasota Herald-Tribune]
                           [November 3, 2004]
Playing with Poison; EPA Pesticide Research Doesn't Pass the Smell Test
    Florida.--Maybe it's time for someone to throw a tent over the 
Environmental Protection Agency and fumigate it for bad ideas.
    In a mind-boggling move, the agency recently announced plans to 
accept $2 million from the American Chemical Council to conduct a 2-
year study of the effects of pesticides on 60 infants and toddlers in 
Duval County.
    As if the inherent conflict of interest in accepting industry 
funding weren't bad enough, the proposal gets worse: The EPA is 
offering $970, plus free clothing and camcorders, to every family 
recruited.
    Astonishingly, what the agency isn't offering is to intervene if 
the kids begin showing levels of poisoning that would cause health 
damage or developmental problems.
    Scientists inside and outside the EPA oppose the plan, which bears 
the Orwellian acronym of CHEERS, short for Children's Environmental 
Exposure Research Study.
    There's certainly merit in studying the effects of pesticides on 
small children, but this approach raises serious ethical--not to 
mention common-sense--questions.
    Public Employees for Environmental Responsibility, a watchdog 
group, says the study fails to explain to families the potential risks. 
Critics contend that poor families will be lured into the program 
without fully weighing the pros and cons.
    The study is also objectionable because of the financial role of 
the pesticide industry. Surely our government isn't so hard up for 
research money that it has to take cash from the very industries under 
scrutiny?
    CHEERS is nothing to cheer about. The EPA should squash this idea 
flat.

    Senator Voinovich. [Presiding.] Thank you, Senator Boxer.
    The Chairman has asked me to preside while he's voting. I 
will take this opportunity to do one thing that I think is 
important for the record. Maybe, Mr. Johnson, I might bring you 
up to date on what's happened in Clear Skies, I know you've 
followed it somewhat, but it wasn't in your bailiwick.
    Mr. Johnson. Yes.
    Senator Voinovich. I think I'd like to point out that this 
committee has had 24 hearings, including 2 this year, on multi-
emissions issues. At the business meeting, we had thousands and 
thousands of pages of information displayed on a table right in 
front of this committee. EPA career staff, not the political 
people, have stated that this is the most analysis that they 
could ever remember being performed for a single legislative 
proposal. That's pretty significant.
    In truth, we have more information on Clear Skies and the 
other proposals than any other bill going through this 
committee. Many of the members of the committee on the other 
side had none of this information when they voted for the 
Jeffords bill back in 2002. I remember that, I was very much a 
part of that negotiation. The fact is, we had zippo in terms of 
information on that, and this committee voted it out.
    We probably have more information about these multi-
emission proposals than the whole Congress had when it passed 
the Clean Air Act amendments in 1990. There are a lot of things 
that were speculative, but Congress decided to go forward with 
it. Now we have even more information than 1 month ago, due to 
the finalizing of your Clear Air Interstate Rule.
    I would also like to point out to you and for the record 
that the Energy Information Administration analyzed all three 
of these bills, the ones that we're asking for an analysis, the 
Jeffords, the Carper and Clear Skies on May 2004, a little over 
a year ago. EPA did an analysis of all three bills. I asked 
them to do that, and they interpolated the effects of all three 
bills from the Clear Skies analysis. EPA career staff has told 
me and probably has told you that if we did what Senator Carper 
wants, it would take us several months and quite frankly, we 
would end up with very little new information than what's 
already on the table. I want you to understand that I think we 
have enough information to get started with the negotiation and 
come up with numbers.
    Besides that, I think it's something that needs to be 
pointed out, all of the environmental groups, some of them 
sitting here, have done an analysis of these bills. So have the 
industrial representatives. We'll get them in the room, how do 
you feel about this, environmental groups? They'll say, we feel 
this way about it. Well, how do you feel about it, industry? 
Well, we have it.
    People really are genuine about doing something about this 
issue and getting away from what I refer to as a litigation 
environmental policy that has done nothing basically for the 
environment and certainly has put this Country behind in terms 
of our energy and our economy. This is a very important area. I 
wish Senator Carper were here right now to hear this. But I 
think it's important that this be in the record, and that this 
Senator is willing to get started tomorrow if somebody is 
willing to come to the table, and let's start using some 
numbers, once it's over, we'll ask you to do another complete 
analysis before the bill hits the floor.
    But to sit here and say, we're going to wait until some 
information comes in, hell will freeze over before we get a 
bill out of here. We can hardly find time to get a highway bill 
out on the floor here in the Senate. That's reality.
    Great Lakes, you and I have talked about it. I am very 
concerned about the leadership that we have for Great Lakes. 
I'd like you to comment to me about how you feel about it. Your 
predecessor, Mike Leavitt, spent a lot of his time, some would 
say too much of his time, on it. The fact is, I'd like to hear 
from you. Are you familiar with it, and how do you feel about 
it?
    Mr. Johnson. Senator, first of all, thank you for your 
leadership on Clear Skies. Thank you for your comments on the 
analysis. I stand ready to assist you and other Members of the 
committee to help in any way I can, because I think Clear Skies 
is still the right thing to do.
    With regard to the Great Lakes, I certainly was working 
with now-Secretary Leavitt in his leadership with the Great 
Lakes. The Great Lakes are great, and the phrase that captured 
what the effort is all about is a regional collaboration of 
national significance. I think that is very appropriate. 
Because it really is a significant area of effort to bring 
together multiple groups, whether from the States, from the 
cities, from tribes, from all aspects of the Federal 
Government. Mike Leavitt was clearly the leader.
    If chosen to be confirmed, I certainly plan to move into 
those shoes. Those are big shoes to fill. I have already 
attended two of the executive committee meetings to get briefed 
by all the participants and begin actively working. I'm excited 
that we have a great effort, and we're moving rapidly with 
great cooperation from everybody.
    So Senator, you have my personal commitment. This is an 
important task. Not to mention, it's also an executive order by 
the President. I intend to fulfill that.
    Senator Voinovich. I'm very happy to hear that.
    One of the things I also suggested to the Administration is 
that this might be a wonderful thing that we can collaborate on 
with the Canadians. Recently, we had more differences of 
opinion, and this might be something where we can join with 
them in a very positive issue. It could be the most significant 
restoration in the world by a bilateral effort between the 
United States and Canada.
    Senator Carper and I have introduced bills, as I mentioned 
earlier, in terms of science. You're a scientist. The question 
we have is, what is your thought about having somebody 
specifically be designated as that science person in the EPA? 
We never really did get a chance to find out what Mike Leavitt 
felt on that. There has been some pushback over the last 
several years on it, and I think it's a great idea.
    It adds to, I think, the credibility of the Agency to have 
someone there that's on the science side, both for those that 
are from the business side and from the environmental side. How 
do you feel about it?
    Mr. Johnson. I think that since I honestly believe science 
must be the foundation of all the Agency's decisions, I'm fully 
supportive of having a senior scientist. In fact, 
organizationally we have, our principal science organization is 
our Office of Research and Development. In addition to that, we 
do have a senior scientist position which, if confirmed, I 
would move to fill with a highly qualified scientist.
    I think it's important. As I said, it's the foundation of 
our Agency decision. So the more help we can have in the 
science arena, I think the better decisions we will make.
    Senator Voinovich. I would really like to have you look at 
it and really focus on it. Maybe Senator Carper and I could 
come and see you. If you don't think it's a good idea, tell us 
why you don't think it's a good idea. We think it is. But 
perhaps after you review it, you may say, this is not a bad 
idea.
    The last thing is the issue of the rules and regulations in 
regard to sewer overflow-combined sewers. First of all, I think 
you have an obligation to come to the Administration and ask 
them for more money for water and sewers in this Country. I 
mean, it's abysmal what we're doing in terms of this 
infrastructure problem that we have.
    The other thing that I'd ask is this, that you have all 
these rules and regulations that are forcing local communities 
to do a bunch of things that cost a whole lot of money. One of 
the examples that I have is the city of Akron, OH, that's 
agreed to go forward and do what they're supposed to do, the 
Ohio Environmental Protection Agency has signed off and said, 
it's OK. They come to Washington and Washington says--and by 
the way, they agreed to 30 years--Washington says, no, it's got 
to be done in 15 years.
    It seems to me that some common sense approach should be 
given to some, if you're not going to provide the money to 
these cities and say, hey, baby, it's your job to fund it, then 
for goodness sakes, it seems to me the Agency has a 
responsibility to cooperate and say, OK, you know, you can't do 
it in 15 years, but you are going forward with it, we can 
monitor your performance and I really would appreciate your 
looking into that.
    Mr. Johnson. I would be pleased to. I will do that. Just a 
comment, you hit, I believe, one of the major issues facing the 
Agency in the water arena. That is, it's true that as a Nation 
we have an aging infrastructure. The cost to our cities and 
communities for trying to address that, the costs are 
staggering, far exceeding EPA's budget.
    So I look forward to working with you and other members of 
this committee and others to look at what are some innovative 
ways that we can deal with this reality of aging 
infrastructure, and of course combined sewer overflows are one 
aspect of that issue.
    Senator Voinovich. Thank you.
    Senator Inhofe. [Presiding.] Thank you, Senator Voinovich.
    Senator Carper, for 4 minutes.
    Senator Carper. Let me just reiterate for all of us, 
especially for Mr. Johnson, what I've asked for and requested 
be submitted back in the early part of March. First of all, 
economic impact analysis of the manager's amendment of Clear 
Skies; the Chafee-Carper, et al. proposal; and finally, Senator 
Jeffords' proposal. That's an economic impact analysis of 
those.
    Second, we've asked for modeling of the air quality 
benefits of each of these bills. Third, we've asked for other, 
more focused analyses to better understand the mercury hot 
spots issue and the impacts of the proposed changes to resource 
review.
    I said earlier in my statement, in trying to negotiate with 
our friends on the other side and with the Administration, it's 
hard to know, for me at least, it's hard for me to know what to 
offer when we get down to the final horse trading. I don't even 
know the benefits of my own bill that several of us have 
introduced brings to my own home State. I know Clear Skies 
doesn't do enough and Clear Skies won't solve Delaware's air 
quality problems.
    So I don't think we're being unreasonable here. We're just 
going, my fears are we are going to spend a lot of time arguing 
about whether or not you're going to provide the scientific 
analysis that is, I think, if not available is achievable in 
fairly short order. We spent a lot of time arguing about 
whether or not you're going to provide it. Instead of us having 
good data on which to figure out where to draw the line on SOx 
or NOx or mercury or CO<INF>2</INF>, we're just going to waste 
time, spin our wheels, that's not what I came here for, and I'm 
sure it's not what you're up to either.
    Let me just ask, if I could, Mr. Johnson, to your 
knowledge, how many IPM analysis has EPA conducted in the 
development of the Administration's Clear Skies proposal? Any 
idea?
    Mr. Johnson. Senator----
    Senator Carper. I'm told it's 20 or 30.
    Mr. Johnson.  I don't know. As you well know, IPM was just 
one of the, sort of the first step modeling that we do on air 
quality, and then followed by another, more advanced model that 
really takes weeks to run, and then followed by that with other 
model called BENMAP that gets into benefits assessments. So 
that combination of all those models to give the most complete 
picture and the best analysis is literally months worth of 
work.
    Senator Carper. How many air quality modelings have been 
done on Clear Skies, just roughly?
    Mr. Johnson. I don't know, sir, but I would be happy to get 
back to you with that.
    Senator Carper. I was told 10 or so. If you could, for the 
record, that would be great.
    Mr. Johnson. I would be happy to.
    Senator Carper. Let me just ask, could the Administration 
put together a meaningful proposal without that kind of 
modeling?
    Mr. Johnson. As I understand, certainly in the historical 
context of the original Clear Skies proposal, there was 
extensive modeling that had been done, put that on the table.
    Senator Carper. Did EPA conduct any analyses that you are 
aware of in preparation for the clean air rule? If so, any idea 
what was done?
    Mr. Johnson. Again, extensive analysis and in fact, there 
is, I think, literally thousands of pages of analysis in the 
docket now on the Clean Air Interstate rule.
    Senator Carper. Why did EPA choose not to interpolate the 
air quality and economic impacts of this rule from the modeling 
that was already done for Clear Skies?
    Mr. Johnson. Excuse me, sir, which rule?
    Senator Carper. The CAIR rule.
    Mr. Johnson. The CAIR rule?
    Senator Carper. Yes, let me ask you again. Why did EPA 
choose not to just interpolate the air quality and economic 
data, economic impact of this rule just by modeling that was 
already done from Clear Skies?
    Mr. Johnson. Certainly there was, I'm sure that there was 
interpolation, at least what I recall from some of the early 
briefings before all the detailed analysis was done, to set the 
stage and put the marker as directionally where we should be 
going, to make sure that we're spending our resources as wisely 
as possible, and not doing needless analysis, obviously. So 
there was that.
    But then we did do a detailed analysis, obviously, this is 
a rulemaking, it was a rulemaking, it is a rule. Unfortunately, 
as you know, there used to be a process of proposing a rule, 
finalizing a rule and then moving it forward. It has now been 
replaced with proposing a rule, finalizing a rule then 
litigating.
    So we have to be ever mindful of that for all of our 
regulations and particularly for those that we know are 
associated with great controversy. So there was a great deal of 
analysis done, both for understanding the science and making 
sure that we are being appropriately public health protected 
and moving the intent of the Clean Air Act, at the same time, 
recognizing that we know we live in a litigious society.
    Senator Carper. Mr. Chairman, I did not come here to 
litigate, I came here to legislate and to find common ground. 
I'm convinced we can find it. Doing the analysis that we've 
asked for would be a huge help toward finding that common 
ground.
    Senator Inhofe. Thank you, Senator Carper.
    The Chair will ask unanimous consent to include in the 
record at this point a letter of endorsement by Senator Lugar 
for the confirmation of Mr. Johnson. Without objection, let it 
so be ordered.
    [The letter referred to follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. All right, Senator Jeffords.
    Senator Jeffords. Mr. Johnson, you revoked Administrator 
Browner's decision that it was ``necessary and appropriate'' to 
reduce mercury emissions at each and every electric generating 
unit in the country, using the maximum achievable control 
technology as required in section 112 of the Clean Air Act. 
Then you signed a rule that would allow 200 or more old and 
dirty power plants to avoid making any mercury reductions until 
the year at least 2020. Not to mention toxic trading.
    How is this approach that you and the Bush administration 
have taken more protective of public health than the approach 
you are deeply obligated to take under section 112?
    Mr. Johnson. Senator, as part of our regulation of mercury, 
we were looking at mercury in the context of two other air 
pollutants on both SOx and NOx. We were already moving toward 
regulation of those.
    As we were looking at the technologies associated with the 
SOx and NOx, it became apparent that there were co-benefits, in 
fact, significant co-benefits, that the same types of pieces of 
equipment that would be put on for controlling SOx and NOx 
would actually have a significant impact on mercury, 
particularly mercury deposition and the kinds of mercury that 
we're concerned about, methyl mercury in and around plants, 
particularly the water bodies, because of concern for fish.
    As we looked through what our regulatory tools are, indeed 
section 112, the same section, also authorizes the Agency to 
examine alternatives. So it doesn't say that we have to use a 
particular or a prescribed approach, such as the maximum 
available control technology, but in fact we could examine 
alternatives. Given the fact that we were already receiving and 
would receive significant co-benefits as a result of the Clean 
Air Interstate rule, we chose what we thought was the most 
health protective, the most cost efficient approach, and that 
was section 111, which is the cap and trade you referred to.
    Senator Jeffords. Thank you, Mr. Johnson. I have written 
repeatedly, repeatedly to the Agency detailing my objections to 
the Administration's illegal and unauthorized approach on 
mercury. In March 2004, 45 Senators warned Administrator 
Leavitt against adopting the rule which you have signed, 
because it fails to comply with the Clean Air Act.
    Were you ever advised by any person over at the Agency that 
the final mercury rule would not withstand judicial review?
    Mr. Johnson. No, in fact, my staff advised me that it would 
withstand judicial review. Of course, you are probably well 
aware that the Agency has now received a petition, or I think 
maybe more than one petition, for staying the rule. But 
certainly the staff has, my staff, legal staff, and our air 
staff advise me that the rule was legal and defendable.
    Senator Inhofe. You may continue, Senator Jeffords.
    Senator Jeffords. Mr. Johnson, based on the response you 
gave Senator Carper today, are you telling this committee that 
you will only undertake research and provide technical 
assistance for committee members if it is a bipartisan request 
that includes the Chairman and Ranking Member of the full 
subcommittee?
    Mr. Johnson. Let me try to be clear, Senator. What I'm 
trying to do is to walk what I believe is an appropriate and 
certainly in 24 years of history at the Agency, an appropriate 
path. That is, with the intent to pass a piece of legislation, 
in this case Clear Skies, and there would appear to be interest 
in having a bipartisan approach to passing Clear Skies, that in 
order to take the kind of analysis, it literally takes, to go 
through all the models that I referred to for all the various 
scenarios, literally many weeks to do.
    I believe it is a good approach for us to sit down, make 
sure that we are all on the same page, make sure that we are 
all supportive of having the right input parameters, or at 
least understanding what the input parameters are, because the 
last thing that I would want to have happen is to model your 
proposal or model Senator Carper's proposal or model the 
Chairman's mark or model some other, and then get into endless 
debate over, you used the wrong input parameters, you've done 
this wrong, we can't possibly come to a compromise.
    So I think it's good practice, and again, in my 24-year 
history here, when we're faced with the opportunity to have a 
bipartisan piece of legislation, that the best approach is for 
us to work together and to come up with, OK, here's the kind of 
analysis that needs to be done. This is not a day's worth of 
work. This is weeks and months worth of work which I'm 
committed to investing if we all are understanding what ones 
we're going to do and what approach we should take. Again, I 
think it's important that, for me and certainly for the Agency, 
that I want to meet Senator Carper's needs, I want to meet 
Senator Voinovich's needs, I want to meet your needs and I want 
to meet the Chairman's needs.
    So what's the best way of doing that? Not for me to go off 
and independently try to address those, but rather to try to 
say, let's work together in a bipartisan way to figure out what 
are the analyses that need to be done, what are the base set of 
assumptions that need to go into those analyses, and then we 
can move forward. But if there is not a desire to do that, or 
if there is not a desire to really work toward legislation, 
then I would ask, please save us from spending resources that 
we don't have to spend.
    As I said, I think it's the right thing to do, and I look 
forward to trying to work with you all in a bipartisan way to 
achieve that.
    Senator Jeffords. I assure you, and I am sure my partner 
would agree with me that we want to work in cooperation, we 
want to do everything we can to maximize the utility of the 
resources we have and come up with a legislation which is going 
to solve the problem.
    Senator Carper. Senator Jeffords, would you yield to me for 
a minute? Mr. Johnson, was the extensive analysis EPA has done 
with respect to Clear Skies over the past 4 years a direct 
result of a bipartisan request? If so, who made that request?
    Mr. Johnson. The Clear Skies legislation was an 
Administration proposal. So it was done to support the 
Administration's original proposal.
    Senator Inhofe. All right, thank you very much.
    I want to get to our last member who has joined us, Senator 
Warner. We have gone through two rounds of 4 minutes of 
questions, you certainly have 8 minutes if you would like to 
use it.
    Senator Warner. Mr. Chairman, I won't use it. Again, I have 
had the opportunity to work with and visit with this 
distinguished public servant. I intend to lend my total 
support.
    Let me clarify this colloquy which I moved in here to catch 
the tail-end, to make sure. We have pending the bill which the 
Chairman has, you're not suggesting that be delayed, is that 
it? Do you think we have to independently allow you to do the 
studies and the time, and come along at a later date?
    Mr. Johnson. No, I would be thrilled to work with the 
Chairman's mark on the piece of legislation and to work to move 
that forward. But unfortunately, Senator Warner, not everyone 
has signed up for that approach.
    Senator Warner. I see. All right. That makes it more clear.
    Senator Inhofe. No further questions, Senator Warner?
    Senator Warner. No, thank you, Mr. Chairman.
    Senator Inhofe. All right, we will now dismiss the first 
panel and thank you for your tolerance and your time and ask 
the second panel to come forward.
    I would say to Mr. Johnson that, while the other panel is 
being seated, I will be submitting a question for the record 
concerning the review of the prevention and control counter-
measures. I talked to you about it before, in Oklahoma we have 
oil producers, manufacturers, farmers, airports that would like 
to have clarification of this particular issue. So we will be 
submitting a question for the record on that.
    Senator Inhofe. I want to welcome our second panel and 
thank you for your patience. It is my intention, as you heard 
this morning, to have our first panel over with by the time we 
had to go into our joint session. It didn't work out that way. 
I have already introduced you once when we first began. What I 
would like to do as have you, those who wish to do so, give 
brief opening statements. Do your best to go 3 minutes if at 
all possible. Your entire statement will be made a part of the 
record.
    We will start with Mr. Luna.

   STATEMENT OF LUIS LUNA, NOMINATED BY THE PRESIDENT TO BE 
    ASSISTANT ADMINISTRATOR FOR ADMINISTRATION AND RESOURCE 
        MANAGEMENT, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Luna. Thank you, Mr. Chairman and members of the 
committee. I am honored to be appearing before you today as 
President Bush's nominee for Assistant Administrator for 
Administration and Resources Management at the Environmental 
Protection Agency. I have an opening statement and I appreciate 
that you will allow me to insert it in the record.
    Senator Inhofe. It's in the record.
    Mr. Luna. Thank you, sir.
    With me here today is my wife, Bonnie, whose love and 
encouragement has afforded me this opportunity to be here. She 
is a gift I did not merit, and I would not consider taking this 
job without her steadfast support.
    Also here are very dear friends whose support I also 
cherish: Tom and Jacquie Meeks, Jennifer Walker, Chris Van 
Buskirk and Tony Palm. Not here are my brother Joe and his 
wife, Cindy, who live in Texas, nor our parents, whose names I 
mention in honor, Bernardo and Anamaria Luna. They are now 
deceased. My parents made what remains to me an incredible 
sacrifice: sending my brother and me to the United States from 
Cuba to escape Communism, to ensure that we lived in freedom--
even if it meant we would never see each other again--because 
they realized that liberty is the most precious gift on earth. 
By God's hand, they, too, were able to escape, and their pride 
at seeing this day come would have been unbounded.
    I am of course grateful to the President that he would see 
fit to nominate me, and to the U.S. Senate for considering me 
for this post. I must give the glory for this day to my Lord 
and Savior, Jesus Christ.
    Should you and your colleagues see fit to confirm me as 
Assistant Administrator at EPA, I would rely on three 
principles to ensure the Agency's resources are well managed: 
accountability, transparency and results.
    I would expect to be held accountable for the EPA's 
resources. It is a responsibility I would not take lightly, and 
I would make sure goals are accomplished and promises are kept.
    I would insist that issues are handled and decisions are 
made with transparency, because the process, if it's open, 
produces confidence in the final product. I would focus on 
results. I would not confuse activity with progress. I would 
see that issues were dealt with straightforwardly and resolved.
    In the interest of time, I will refer you to the text of my 
statement, and I thank you so much for the privilege of 
appearing before you.
    Senator Inhofe. Thank you very much.
    Mr. Woodley, it seems like you've been before us several 
times, but you might have something new to say.

STATEMENT OF JOHN PAUL WOODLEY, JR., NOMINATED BY THE PRESIDENT 
   TO BE ASSISTANT SECRETARY OF THE U.S. ARMY FOR CIVIL WORK

    Mr. Woodley. It is a great privilege to be once again 
before the committee. I want first to express my appreciation 
to you, Mr. Chairman, for promptly scheduling this hearing and 
my deep sense of privilege and honor to be on the panel with 
these other distinguished public servants. I am very much 
mindful as well of the confidence expressed in me by President 
Bush and Secretary Rumsfeld who submitted my nomination for 
this important post within the Department of the Army.
    The Army Corps of Engineers and its civil works function, 
encompassing navigation, flood control, water resource 
development and environmental improvements, has for 200 years 
contributed greatly to the prosperity and well-being of our 
Nation. I deeply appreciate the courtesy of the committee, and 
if confirmed, I look forward to working with the Chairman and 
all members of this important committee to address the vital 
navigation, flood control, water resource and environmental 
challenges of the Nation.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you very much, Mr. Woodley.
    General Riley.

   STATEMENT OF MAJOR GENERAL DON T. RILEY, NOMINATED BY THE 
PRESIDENT TO BE PRESIDENT AND A MEMBER OF THE MISSISSIPPI RIVER 
                           COMMISSION

    General Riley. Mr. Chairman, thank you for this opportunity 
to testify. I also have submitted my full statement for the 
record, and also would like to thank you for this opportunity 
to serve not only in uniform but serve the Army Corps of 
Engineers, as well as the Mississippi River Commission.
    I am struck by the visionary leadership of the Congress in 
1879 in establishing the Mississippi River Commission to look 
at a basin-wide approach to water resources, engineering and 
policy advice. We see across the Nation today many basins, 
watershed basins taking much the same approach for sustainable 
management and development of their water resources. Some of 
the common attributes we see today were evident in the 
commission back in 1879: partnership, listening sessions, 
inspection trips on the river and a broad representation.
    So I feel confident that what you see today with the 
Mississippi River Commission and what the Congress began in 
1879 will continue with the work of the Commission. I just want 
to close by thanking you for the opportunity to serve and 
thanking you for your leadership and as well for what you do to 
support the great people in the Corps of Engineers.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, and I would only ask you to keep 
in mind that my State of Oklahoma uses the Mississippi in order 
to reach our port at Catoosa. Keep that in mind.
    [Laughter.]
    Senator Inhofe. General Grisoli.

 STATEMENT OF BRIGADIER GENERAL WILLIAM T. GRISOLI, U.S. ARMY, 
 NOMINATED BY THE PRESIDENT TO BE A MEMBER OF THE MISSISSIPPI 
                        RIVER COMMISSION

    General Grisoli. Mr. Chairman and members of the committee, 
thank you very much for the opportunity to be here before you 
today as the nominee for the Mississippi River Commission.
    Mr. Chairman, as General Riley has already stated, some of 
the highlights of the Mississippi River Commission and its 
role, et cetera, what I would like to is just briefly talk a 
little about some of my qualifications for this particular 
position.
    As the commander of the northwest division, I have gained 
an appreciation for basins, overseeing both the Missouri and 
the Columbia River, understanding the complexities, seeing the 
need for sustainable solutions to basins themselves and 
watersheds. Also during that period of time, since July 2003, I 
have been a member-designee for the Mississippi River 
Commission and have been able to go on several trips which 
enabled me to listen, conduct inspections with the other 
commissioners and really partner with some of the stakeholders 
on the river and understand the great natural resource that we 
have there.
    I am committed, if I am confirmed, to look for balanced 
improvements in the Mississippi River and look for best 
engineering practices. I want to thank you today for this 
opportunity to appear before the committee, and I look forward 
to addressing your questions.
    Senator Inhofe. Thank you very much, General.
    Mr. Rappoport.

 STATEMENT OF D. MICHAEL RAPPOPORT, NOMINATED BY THE PRESIDENT 
TO BE A MEMBER OF THE BOARD OF TRUSTEES OF THE MORRIS K. UDALL 
                           FOUNDATION

    Mr. Rappoport. Thank you, Mr. Chairman, members of the 
committee. I very much appreciate this opportunity to present 
myself as a Presidential nominee for the position of trustee of 
the Morris K. Udall Scholarship and Excellence in National 
Environmental Policy Foundation.
    It is a particular privilege for me to be nominated by 
President Bush to serve another term on the Foundation's board 
of trustees. With your permission, sir, I do have a detailed 
statement that I would appreciate having submitted for the 
record, along, Mr. Chairman, for appropriate reference our 
recently released Foundation annual report.
    I am very pleased also to be accompanied by my wife, Suzi, 
and our son, Sloan. Sloan had worked for a number of years on 
the Senate side.
    I also would like to express my appreciation to Senator 
John McCain and Senator Jon Kyl for their letters to the 
committee on my behalf. If appropriate, I would respectfully 
request that they be included in the record as well.
    Finally, on behalf of the Foundation Board of Trustees and 
our dedicated staff, I am very pleased to report that since we 
began operation in 1994, through the strong support of the 
Congress, the Foundation has awarded 755 scholarships, 18 Ph.D. 
fellowships, and administered 114 internships for Native 
American and Alaska Native college students pursuing careers in 
health care and tribal policy. We also have hosted 7 major 
conferences on contemporary environmental and Native American 
issues, and we have sustained support for the Udall Center for 
Studies in Public Policy at the University of Arizona.
    The Foundation also oversees the activity of the U.S. 
Institute for Environmental Conflict Resolution created by 
Congress in 1999. Located within the ambit of the Foundation is 
the Native Nations Institute for Leadership and Management and 
Policy, all of which, Mr. Chairman, we believe contribute 
mightily to the legend of Congressman Udall.
    As per the committee's request, I am prepared to answer any 
questions you may have. I am also willing to appear at the 
request of any duly constituted committee of Congress as a 
witness. Finally, I know of no matters that would put me in 
conflict of interest with the board of trustees, should I be 
confirmed by the Senate.
    Senator Inhofe. Thank you, Mr. Rappoport. I would like to 
ask all of you the same two questions, you can answer one at a 
time, starting with Mr. Luna, are you willing to appear at the 
request of any duly constituted committee of Congress as a 
witness?
    Mr. Luna. Yes, sir.
    Mr. Woodley. Yes, sir.
    General Riley. Yes, sir.
    General Grisoli. Yes, sir.
    Mr. Rappoport. Yes, sir.
    Senator Inhofe. Do you know of any matters which you may or 
may not have thus far disclosed that might place you in any 
kind of a conflict of interest if you are confirmed in this 
position?
    Mr. Luna. No, sir.
    Mr. Woodley. No, sir.
    General Riley. No, sir.
    General Grisoli. No, sir.
    Mr. Rappoport. No, sir.
    Senator Inhofe. All right, fine. We will begin a series of 
5-minute rounds. I think we are going to try to keep it to one 
round because of the time that's already gone by. I only have 
one question, that is, we'll start with Mr. Luna.
    We have established a policy that's worked very well just 
in the last year, concerning some of the grant recipients on 
discretionary grants. It's done quite well, we're posting them, 
there is a lot of sunlight of this, so people know just who is 
getting the grants, who is applying for the grants to enhance 
competition. We plan to expand that program. I would ask you if 
you are in agreement with what we are doing and will help us to 
expand that program.
    Mr. Luna. Mr. Chairman, I approach the $4 billion a year in 
grants EPA provides from the standpoint of a taxpayer. I would 
very much like to make sure that the dollars are spent in a way 
that advances the interests of the American people and produces 
environmental results.
    I know that the Agency is in the midst of implementing a 
five 5-year strategic plan for grants administration, but I 
would like to look at that plan with fresh eyes and make sure 
that it is truly results-oriented. I will work very closely 
with the staff that developed the plan and also with this 
committee to make sure that we get the desired results.
    Senator Inhofe. Would you agree that we could expand this 
to include disclosure of all affiliated programs and 
organizations?
    Mr. Luna. One of the things that I would like to discuss 
with Mr. Johnson, if you choose to make him Administrator, is 
how we can greatly expand the reach and transparency of the 
program to make sure that everything is on the table, so that 
people can see for themselves what moneys are going to whom, 
who is making application, and what is being processed before 
grants go out the door.
    Senator Inhofe. Very good, thank you.
    Senator Jeffords.
    Senator Jeffords. First of all, I would like to thank you, 
Mr. Woodley, for coming to Vermont. I know you spent some time 
with us and you participated in our water resources workshop 
along with Brigadier General Temple, Colonel Coaming, Colonel 
Polo, the staff from the New England and New York districts and 
the North Atlantic division. It was a wonderful time and we got 
a lot out of it.
    This is the second year we have had listening sessions. 
They have helped us to identify water resources issues 
throughout the State. Thank you for providing that service.
    First of all, as you know, we have not had a Water 
Resources Development Act, WRDA, since 2000. This committee 
passed WRDA in 2004, but the bill did not make it to the Senate 
floor. The committee is scheduled to consider a WRDA bill next 
week.
    I have heard from members of the Corps of Engineers that we 
need a WRDA bill. Yet this Administration has not proposed one. 
It is my guess that they would not support one if Congress did 
select. Am I correct, that this Administration does not support 
a WRDA bill?
    Mr. Woodley. We certainly have not proposed one, Senator. I 
would have to say that our posture is one of looking at the, 
working with the House, looking at the Senate to answer 
questions and to be as supportive as we can of the 
congressional processes moving forward. There are certainly 
matters, and I would be wrong to suggest that there are not, 
that need to be addressed in the context of a WRDA bill. We 
have gone too long without one.
    I am sorry that we have not been able to get ourselves 
together to propose one. I wish we had. But we have not been 
able to, but of course, that is, I certainly want to be as 
helpful and supportive of the committee and the counterpart 
committee in the House of Representatives as they undertake 
those deliberations.
    Senator Jeffords. I guess I want to be clear that I would 
want to see one.
    Mr. Woodley. Yes, sir.
    Senator Jeffords. And that I believe the committee wants to 
see one. Certainly we will do everything we can to accommodate 
your needs to make sure we can have one. Do you understand 
that?
    Mr. Woodley. Yes, sir.
    Senator Jeffords. There has been a great deal of debate on 
reforming the Corps of Engineers as well. You have been at the 
Corps for over a year and a half. During your tenure, have you 
taken any steps to change the way the Corps does business?
    Mr. Woodley. Yes, sir, we have. We have tried to do, I have 
concentrated my efforts in the area of improving the Corps' 
analytical capabilities, which are, I have to say, I think are 
strong and are good, but are not as good as they need to be. In 
the meantime, the chief of engineers has instituted, in fact 
General Flowers and General Strong are continuing with that 
leadership initiative, has instituted the plan called USACE 
2012, U.S. Army Corps of Engineers, USACE 2012, to restructure 
the way the Corps is organized to break down some of the 
stovepipes, and to flatten some of the organizational 
structures that evolved the way the Corps does business.
    We also issued the Corps' first civil works program 
strategic plan which sets out our vision for the goals, the 
broad programmatic goals the Corps should have. It's a 
revolutionary document. I certainly think that if we are able 
to change the way the Corps does business to where it's looking 
at the ways in which the Nation needs to move forward to solve 
broad-based water resource development problems that we will 
have done a great work.
    I appreciate that this is not the be all and end all of 
Corps' reform, that a lot of the work, that we are extremely 
interested in receiving guidance from the committee on ways in 
which we should implement such things as a robust program of 
independent review for major projects. I know that was 
something that was dealt with in both Houses in the last couple 
of years with the Water Resource Development Act proposals. We 
are very anxious to begin work on a statutory framework in 
which we can undertake that.
    In the meantime, we have not forgotten about it. We have 
undertaken a substantial amount of independent review, 
particularly for major projects such as the Upper Mississippi 
River.
    Senator Jeffords. Thank you for that answer. I look forward 
to make sure we make progress in that area. Thank you.
    Senator Inhofe. Thank you, Senator Jeffords.Senator Warner.
    Senator Warner. I thank you, Mr. Chairman.
    I would like to focus my questions--I tend to support all 
members of the panel--on Mr. Woodley. Mr. Woodley, you and I 
have known each other for a very long period of time, and it 
has been a marvelous professional relationship and friendship 
that we have had. I severely regret that the Senate has not yet 
confirmed you. You have served now in your position as the 
Acting for how long?
    Mr. Woodley. I received a recess appointment, Senator, in 
August 2003 and served in that capacity until the end of the 
last Congress. Since then, I have been serving as the Principal 
Deputy Assistant Secretary.
    Senator Warner. I see, pending the outcome of this 
nomination now before us by the President?
    Mr. Woodley. Performing duties as assigned under the 
authority of the Secretary of the Army.
    Senator Warner. So it was August 2003, then through and 
including the conclusion of the Congress last year in 2004. 
That was a period of what, 18 months?
    Mr. Woodley. Just about, yes, sir.
    Senator Warner. About 18 months. I say to my colleagues on 
this committee, I have known this fine man, and I will do what 
I can do help clarify whatever concerns my colleagues now have, 
continuing or otherwise, with regard to his nomination. I feel 
not only that this man is ably qualified, but after all, he is 
a human being and he is entitled to have the benefit of advice 
and consent of the Congress one way or the other. I feel very 
strongly about that. You have to get on with your life, and I 
thank you for accepting this nomination to come up here again 
and hopefully work our way through this process.
    Now, with respect to my, at least one colleague, that spoke 
to this nomination this morning, I think at this time I will 
ask unanimous consent that Mr. Woodley can put into the record 
a statement to give his perspective with regard to what was 
presented, I think, this morning, to the committee, legitimate 
concerns of this member of our committee, a distinguished, long 
serving member, about a problem regarding the Missouri River, 
as it flows into the Mississippi and the rate of flow, and the 
problems that his State is now suffering and has suffered for 
some time with regard to droughts and how those droughts affect 
certain lakes which are important to his State and the level of 
the lake is dependent on the amount that is taken out of those 
lakes by a series of dams operated by the Corps to maintain a 
certain level and depth of the Missouri and Mississippi Rivers 
to allow navigation up to a certain point.
    Is that a concise description of what you think wherein the 
difference of views rests?
    Mr. Woodley. Yes, sir. I should make it clear that I have 
been to the Fort Peck Lake, I have been to Helena, I have been 
to Lake Sacajawea at Garrison in North Dakota, I have been to 
Pierre, SD and met the Governors of these States and seen the 
conditions. They are very bad.
    Senator Warner. It's serious.
    Mr. Woodley. Very serious.
    Senator Warner. From the standpoint of those States that 
embrace the lake.
    Mr. Woodley. It is unquestionably a major devastating 
drought condition that has taken the level----
    Senator Warner. Not created, I mean the drought is created 
by nature?
    Mr. Woodley. Yes, sir.
    Senator Warner. The levels of the dams, however, is 
controlled by man through the operation of the Corps?
    Mr. Woodley. Yes, sir. The situation that existed at the 
time that I was appointed was that, there was a master manual, 
which is a regulation that governs----
    Senator Warner. I don't want to take up too much time of 
the committee. I want you to have, and I have the UC, granted 
by the Chair, for you to put into the record a full 
dissertation on this very complicated and extremely technical 
subject. Such that your perspective, and presumably that of the 
Administration, is set forth in the record.
    Mr. Woodley. Yes, sir.
    Senator Warner. I would presume that the distinguished 
colleague of this morning might wish to avail himself of the 
opportunity and I so request that he can put into the record 
such statement as he may wish to.
    Senator Inhofe. Yes, without objection.
    Senator Warner. I thank the Chair.
    Now, let me turn to a separate issue, Mr. Woodley, and 
that's one of reprogramming funds in the Corps. All of us here 
who have the responsibility of operating the committees as 
chair and ranking member through these many years, we are 
familiar with the practice of reprogramming, and it's got to be 
done, it's a discretion that rests with the Administration, 
subject to certain review by the Congress. I am concerned that 
the Corps' reprogramming construction funds, contrary to very 
specific congressional direction of funding, provided to 
individual unauthorized projects.
    Let me point this out. Specifically, I am concerned about 
funds that I did myself secure with the help of the other 
Members of Congress from Virginia, to the 50-foot deepening of 
the inbound channel for the Norfolk Harbor. I met this morning 
with a distinguished group of individuals from that region. The 
withdrawal of these funds from the programming is having a 
severe impact on that region down there.
    This is a major project on serving commerce in that region. 
The Corps has identified the funds that I received to be put 
toward another project. I am told that the position of the 
Corps is that the President did not budget for the project, so 
these funds should be used for another priority.
    Now, that is in direct conflict to congressional direction, 
no disrespect to our distinguished President. But we here in 
Congress, a co-equal branch, have the right under the 
Constitution to make certain decisions and we do it, and it's 
written into legislation and we would hope that the President 
would respect that. Do you have any comments about that?
    Mr. Woodley. I do, indeed. I don't know who it is that is 
telling you this, Senator.
    Senator Warner. Good, speak up loudly for the record. I'm 
wrong, I'm delighted to hear I'm wrong.
    Mr. Woodley. That is not the policy, to reprogram, to 
identify from these funds to reprogram based on whether or not 
the program was a congressional or Presidential priority. We 
take, and I have with me General Riley, who in addition to 
being nominated for the position on the Mississippi River 
Commission, is also the Director of Civil Works Programs for 
the Corps of Engineers and in that capacity is in charge of the 
day to day management of that program.
    He and I have made it clear that the budget for program 
that we are given by Congress is the program that we are 
expected to execute. If the funds have been reprogrammed, then 
that is a, that must necessarily, if the reprogramming is 
according to our policy, it must necessarily have been a 
reprogramming that took place because of some inability of the 
project to utilize the funds at the time.
    We do have, we do, if a project is given funding and has 
litigation or----
    Senator Warner. I understand that.
    Mr. Woodley [continuing]. weather related difficulties or 
whatever, that is a grounds for reprogramming. But not the 
grounds that someone is attributing to this situation. I have 
not looked into this situation, as you know, I am astonished 
that anyone in this organization would program funding away 
from any Virginia project while I'm sitting in my current 
capacity. So I assure you that we will discover----
    Senator Warner. What the problem is and hopefully we can 
remedy it.
    Mr. Woodley [continuing]. and understand it.
    Senator Warner. I'd like to get Major General Riley on the 
record on this question.
    Senator Inhofe. Before you do, let me just explain to the 
committee, our senior member did not have either of his 4-
minute rounds for questioning in the first panel or an opening 
statement. We are giving him more time for that reason.
    Senator Warner. I thank you.
    General Riley. Thank you, Senator Warner, and I can 
reemphasize what Secretary Woodley said, that you have our 
absolute commitment that when we have reprogrammed funds away 
from a project that didn't need it at the time, you have our 
commitment to put that funding back to that project when it 
is----
    Senator Warner. I know, but I can't delay this project 
until you have recycled some funds from somewhere at some 
future date.
    General Riley. No, sir. When it is needed, it will be 
there. That's our commitment.
    Senator Warner. Well, I think this is reassuring. I would 
ask both of you to reexamine it and just give me a letter to 
that effect. Perhaps both of you can sign the letter, I think 
that would be helpful.
    Last, Mr. Chairman, I thank the indulgence, I ask unanimous 
consent that a statement by this Senator with regard to the 
current deliberations within the Corps concerning the use of 
windmills for wind generation of power, I have said it before, 
I continue to say it, I have no bias, no prejudice, no 
objection to utilization of wind power where it is 
appropriately authorized.
    Now, my concern is this project in the State of 
Massachusetts, which you are well familiar with, and that it is 
now the subject of some further consideration by the Corps. I 
filed a letter, which I appreciate your allowing me to put that 
into the record in the context of this Q and A.
    But the authority that the Corps seems to be grasping for, 
to give this permit, is predicated on an 1899 statute called 
the Rivers and Harbors Act. Now, in 1899, the only windmills 
that maybe the Members of Congress had in mind were those that 
Don Quixote encountered. Folks, that's a real stretch. I've 
gone back and read that statute. Congress did not have in mind 
at that time wind power. Wind power has come on the horizon 
with the advent of technology. It may be a great source.
    But I think if we are going to take and put the heavy 
investment, and indirectly the taxpayers are investing in this 
because of the public funds given as a subsidy for wind power, 
and I believe I'm on record as having voted for that, which I 
think it's important to, these non-renewable sources, to give 
them support.
    But I think to grant a license predicated on that statute 
is a foundation of matchsticks. At some point, some court will 
knock it down and there we are. We should have, here in the 
Congress, the responsibility to enact a framework of 
legislation to support the exploration of wind power on those 
parts of the continental shelf that are under the jurisdiction 
of the Federal Government. There are certain structures to 
support the licensing in the several States, I believe, or some 
States have moved in that direction.
    But for us to simply go off here and allow this to go 
forward without, in my judgment, a framework of legislation, 
much like we have, Mr. Woodley, for oil and gas exploration, am 
I not correct?
    Mr. Woodley. You certainly are.
    Senator Warner. Where the Federal Government very carefully 
supervises this matter, I just think it's wrong. You know, I've 
been, had hell and damnation descended on me, and even dragged 
my family into this thing, a former member of the family, that 
is, I'm no longer a member of a family that owns some property 
up there. I can't control everything that is written about us. 
It has nothing to do with that.
    It's just that they are thinking about putting the offshore 
down off my State. I'm intervening in the Massachusetts thing 
because we could have a duplicate situation off the coast of 
Virginia. If there is appropriate Federal legislation to 
support it and Federal supervision, I am all for it. But I 
don't want to see any windmills off my State put up with a 
tremendous number of towers and so forth resting on a 
matchstick foundation of statutory authorization, period, 
paragraph.
    Do you get my message?
    Mr. Woodley. I understand it and fully agree.
    We are, the Corps of Engineers as an institution and I am 
personally very uncomfortable with the authority that we are 
being asked to use. It is not well adapted to the purpose, nor 
do I believe that the Corps of Engineers, if Congress were to 
assign this task to one of our Federal agencies, I do not 
believe that the Corps of Engineers is the appropriate resident 
for that----
    Senator Warner. For the granting of the licenses.
    Mr. Woodley. Yes, sir, except to the extent that the, that 
we should be consulted with respect to navigation channels.
    Senator Warner. Correct, under the 1899 Act, and those 
features.
    Mr. Woodley. Absolutely.
    Senator Warner. That's a good answer. Solves my problem. I 
thank the indulgence of the distinguished Chairman and Ranking 
Member, my colleague from Delaware.
    Senator Inhofe. Thank you, Senator Warner.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman. To our panel, 
welcome, it's good to see all of you here today.
    General Riley, I enjoyed talking with you on the phone a 
couple of weeks ago when we were trying to sort through a 
reprogramming issue on a couple of beaches in Delaware. We 
thank you for helping us there.
    General Grisoli, I don't have a question for you, sir. Mr. 
Rappoport, no questions for you, either. Mr. Luna, good to see 
you, good luck in your new job.
    Mr. Luna. Thank you, sir.
    Senator Carper. I would say to Secretary Woodley, thank you 
for joining us in Delaware a couple of months ago, on a very 
cold winter day, as we were--it was cold, the wind was howling, 
but you were good to come to Rehoboth Beach, Rehoboth and Dewey 
Beach. Senator Biden and Congressman Castle and I have been 
working for several years to try to cobble together some money 
to come in and do a beach replenishment and beach renourishment 
project. You were good to come and join us in kicking that off.
    Subsequent to that, we have learned that there is, the 
money that had been earmarked for that project had been moved 
to pay for other things. There is reprogramming stuff that 
happens from time to time that others have referred to. I tried 
to track you down a couple of weeks ago, on a Friday afternoon, 
fairly late, actually, tried to track down General Riley, we 
were able to find him. I talked to your exec, whose name I 
don't recall. If I heard it, I would recognize it.
    General Riley. Colonel Balanchi, sir.
    Senator Carper. Yes, there you go. The long and the short 
is, we I believe were making some progress toward identifying 
moneys that can be sort of reprogrammed anew and come back in 
to backfill this particular project.
    I just want to thank you and General Riley and others with 
whom you work, certainly folks up in your office in 
Philadelphia, for all your efforts to help us solve this 
problem. I would just--yes, sir?
    Mr. Woodley. I'm hoping not to find that the source of that 
is a 50-foot channel in the Chesapeake Bay.
    [Laughter.]
    Senator Carper. I hope not, too.
    Can you just take a minute and give us the latest, an up to 
date status report on this project, please?
    Mr. Woodley. Yes, sir. I was briefed on that yesterday. The 
contractor is, the contract is underway. The total of $7.6 
million has been reprogrammed to the project, including not 
only funds reprogrammed, programmed back into the project that 
had been used in prior years on other projects, because of 
holdups within the Rehoboth project, but also to restore the 
reductions for savings and slippage.
    The Corps of Engineers budget is designed to be run with 
reprograms. It is an awkward situation, but the way it is run, 
there is, it is designed to have funds appropriated to projects 
and then in the case, in any given year, more than 100 percent 
of our construction appropriation is earmarked to projects, 
with the understanding that we are doing construction. 
Construction, buying a project of the Corps of Engineers, a 
lock, a dam, a levee, a beach renourishment, flood damage 
reduction, is in no way analogous to going to the supermarket 
and buying a cake of soap or a box of corn flakes. They are in 
no way analogous.
    We buy these things as time goes on, construction has 
difficulties, it runs into litigation, it runs into weather, it 
runs into striking rock where we thought was sand. Difficulties 
are expected, but unpredictable. So we routinely are required 
to reprogram in order to not, if we failed, if we did not 
reprogram, the alternative would be to maintain an enormous 
carry-forward from year to year. At least in the past, it has 
not been regarded as the most efficient use of public works 
funding.
    That's a long way of saying that we have, as a policy, it 
requires, and as we have committed to do so, we have restored 
the funding and will complete the project. Construction is 
underway. The contractor began work in February, and I believe 
that project will be completed by the end of our construction 
season in this fiscal year.
    Senator Carper. Thanks. Mr. Chairman, if I could have a 
quick follow-up on this. I understand some of the money, it's 
$7.6 million, it's been sort of gathered, reprogrammed to come 
back and complete this project that was previously approved, it 
comes from other Delaware projects, which have also been 
approved. I would just ask that as we move from one Delaware 
project, fully approved, through this earlier project that we 
certainly don't end up just robbing Peter to pay Paul, but in 
the end that we complete all the projects that have been 
authorized.
    Mr. Woodley. I understood that that was funded, it was 
anticipated fourth year earnings that were not anticipated to 
be needed based on current projections of construction earnings 
between June and October of the current fiscal year. And that 
we have either funding in the new fiscal year or reprogrammed 
no year funding to complete the projects that you mentioned.
    Senator Carper. Excellent. Thanks for your response. Mr. 
Chairman, thanks for the time.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Thank you, panel, 
for your testimony and response to questions today.
    Mr. Chairman, if I might, I would ask unanimous consent 
that a statement earlier with respect to the EPA Administrator, 
Mr. Johnson, who was here earlier to question regarding an EPA 
policy as it pertains to cattle feed lot operations, I would 
like to add that for the record, if it's possible.
    Senator Inhofe. Without objection, so ordered.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Woodley, I want to follow up on some conversations that 
I had with you previously, as well as members of your staff. It 
has to do with an ongoing battle that the Missouri River Basin 
States have had over management of the Missouri River. The 
Upper Basin States, as you know, because you have been there, 
are experiencing successive years, or continuous now, drought 
for about 6 or 7 years in a row, which has created some 
incredibly adverse conditions in the Upper Basin. We are an 
economy that has come to rely extensively on recreation, the 
commercial activity associated with the Missouri River, as well 
as hydropower.
    So we have lost or are losing significant economic activity 
related to recreation and also seeing higher costs associated 
with energy because of the way the reservoir has been managed, 
complicated by the drought, has led to less hydropower 
production there as well.
    I guess what I more specifically want to deal with today, 
and understanding that management of the Missouri River is an 
issue that many of us in this body and in the other body, the 
House, disagree with and continue to do that, have disputes 
over, we have a new master manual in place now which I think 
will provide some direction. Those of us who think that it 
didn't go far enough with respect to the Upper Basin States, 
and I'm sure some of my colleagues from down-river think the 
opposite.
    But in any case, we have a very, very serious situation in 
South Dakota and the Upper Basin right now because of the 
drought. Inasmuch as those other issues are very important, we 
also have one which is of great urgency, and your Colonel 
Beattie was out in South Dakota last week, who oversees the 
district out there from Omaha, with respect to the Corps. He 
had an opportunity to meet with tribal officials, with local, 
county, municipal, State officials, myself included in that 
meeting, to talk about a response plan in the event the 
reservoir reaches a level this summer where there are about 
14,000 people, primarily on the Cheyenne Indian Reservation, 
who would be without water.
    There is a study that's underway by the Corps right now, 
which I understand will be completed in the next few weeks, 
which will lay out some of the options and some of the costs 
associated with that. But I wanted once again to emphasize and 
to reiterate the importance of this issue, and for your 
attention. I just think that we can't afford to wait until that 
crisis occurs. Because the ability to respond in a short period 
of time, it may not be possible to respond in a short period of 
time. I think the more planning we do ahead of time right now, 
the better off we are all going to be.
    But I wanted to say that to you, to reinforce the 
importance of that issue and also perhaps to maybe get your 
comment with respect to some of the things that the Corps is 
now doing in anticipation of what we could experience this 
summer, assuming that we don't get some rainfall in the upper 
basin States. Water supply, potable water for the people in the 
Cheyenne Indian Reservation and many of the communities 
surrounding it, about 14,000 people would be extremely 
adversely impacted if that should happen.
    So we expect to work closely with you, but I would be 
interested again in just perhaps your observations at this 
point in time about how things are progressing.
    Mr. Woodley. Yes, Senator, we have also spoken to Colonel 
Beattie and his higher commander, General Grisoli, who is here 
with us today in another capacity. So he also has reinforced 
this as well, I know, and General Riley in the same way. 
Colonel Beattie, we expect Colonel Beattie to be in real time 
contact with this problem, not to hear about it from when he 
gets a call, but to have him and his experts from Omaha in real 
time contact with this, on a daily basis, to understand that 
what is happening with the levels in relationship to this 
particular intake and to the other intakes, and what options 
there are and what the costs will be, and how the Corps of 
Engineers can participate in making sure that there's no 
interruption of the water supply necessary for human health and 
well-being on that reservation.
    Having said that, I have also told him that we need to look 
at the horizon. I think that the one thing that I have been 
most disappointed in, in the situation that I found, was the 
inadequate master plans for the major reservoir facilities. 
They have not been updated and to the extent they existed, they 
were not adequate. Beyond that, they had not been brought up to 
date.
    My instruction has been that we are not, we should not be 
responsible for finding ourselves in a situation where a basin 
for which we have some decades of data now, and which was known 
to Lewis and Clark to be prone to drought, we should not now be 
staring at each other in gap-mouthed astonishment to find that 
we're having a drought in the region. Instead, we should know 
when the level of the reservoirs reach certain points that 
actions must be taken, and that those actions should be, 
whether it's something as simple as extending a boat ramp, or 
something as complex as maintaining the necessary intakes for 
potable water.
    So I will expect to see, within at least the next year or 
the year after that, with respect to each of these facilities, 
a fully and comprehensive and fully coordinated master plan so 
that my successor who deals with the drought of 2025, so he or 
she will know what it is that needs to be done.
    Senator Thune. I know it wasn't the Corps which was 
responsible for the construction of that intake initially, but 
I know that General Grisoli and General Riley are also 
acquainted with this issue. But people look to you as sort of 
the custodians, if you will, of that system, and to be the lead 
on any response. So I know there are a multitude of agencies 
involved with that, and Colonel Beattie has tried to explain to 
me what they are doing in trying to coordinate between agencies 
the various lines of responsibility.
    But all I want to reiterate is the dire emergency this will 
present if in August that pool level reaches a point where that 
intake is no longer able to provide water for the 14,000 people 
that are affected by it. We are anxiously looking forward to 
working with you in terms of what you need from Congress to 
address that.
    But clearly, there are several agencies I know that have 
some jurisdiction there. But I appreciate the fact that the 
Corps has stepped up and is working to at least proactively 
address what could be a very, very dire situation for the 
people in that area.
    Mr. Woodley. Senator, we are always, I am, I and General 
Grisoli, at whatever level you and your staff want, if there is 
something that needs to be done and is not being done, I would 
commit to you to do everything within my power to remedy that 
whenever it is brought to my attention.
    Senator Thune. We will look for it. The study should be 
completed soon. It will lay out a series of options, so we'll 
go from there. Thank you.
    Senator Inhofe. Thank you, Senator Thune. The Chair will 
ask unanimous consent that the testimony of Michael Butler be 
included into the record. It is the intent of the Chair to 
report him out with the rest of the nominees, that's for the 
Udall Foundation.
    [The referenced document follows on page 158.]
    Senator Inhofe. It is also is our intention to have a 
business meeting a week from today where I will report out the 
nominees and also the WRDA bill.
    Senator Clinton, you've been very patient. We're having 5-
minute rounds. Feel free to take more time if you desire.
    Senator Clinton. Thank you very much, Mr. Chairman.
    Gentlemen, thank all of you and thank you for your service.
    Mr. Woodley, I have a longstanding interest in the Corps' 
ongoing study of the St. Lawrence Seaway. It's my view, shared 
by many who have looked at this, that expansion of the seaway 
would cause irreparable damage to the St. Lawrence River, would 
cost taxpayers literally billions and billions of dollars and 
provide little in the way of additional economic benefits. 
That's why I was pleased when the Corps committed that the 
current phase of the study would not look at expanding the 
seaway but instead would focus on maintaining and optimizing 
the current seaway system.
    However, the study has since evolved from a U.S. Army Corps 
of Engineers reconnaissance study into a bi-national evaluation 
of the existing navigation system. That occurred in May 2003 
when the U.S. Department of Transportation signed a memorandum 
of cooperation with Canada's Ministry of Transportation. This 
has understandably led to some confusion, because we have 
always viewed the Corps as the principal agency and the 
responsible agency.
    So there is a great deal of concern in the Great Lakes-St. 
Lawrence region about the scope of the study. As a result, I 
sent a letter to Congress, to the Corps on January 24, along 
with 13 other Members of Congress, asking for detailed 
information about the scope and time line of the study. I 
mention this because to date we have not received a reply from 
the Corps.
    However, I understand from my staff that the Corps may soon 
be ready to provide the information requested within the next 
week or two. Can you confirm that I and other Members of 
Congress will soon receive this important information 
clarifying the status of the St. Lawrence Seaway study?
    Mr. Woodley. Senator, I'm delighted to understand that they 
don't respond to you any better than they do to me.
    [Laughter.]
    Mr. Woodley. Having said that, I am also informed by the 
staff of the Corps of Engineers that the letter has been held 
up by the necessary inter-agency coordination, so that all, the 
Transportation Department and the Corps of Engineers, and the 
FAA and for all I know the CCC has approved it and that they 
can all agree that this is the correct information that you and 
the other Senators are receiving. I believe that within the 
week you will receive your information.
    Senator Clinton. Thank you very much, Mr. Woodley. I 
appreciate that. I must say that the Corps has been very 
responsive on this issue.
    With respect to another important Corps responsibility, for 
the last 30 years, the Corps has conducted one of the most 
extensive, comprehensive studies of coastline erosion in the 
world, I think. This is the Fire Island to Montauk Point 
Reformulation Study. Anyone who is familiar with that part of 
the shoreline of Long Island, you know that it is one of the 
most beautiful beaches in the world, but it is battered daily 
by the ocean and it has suffered a lot of erosion. Of course, 
because of the growing population, a lot of development 
challenges as well.
    Last year, we in New York received a commitment from the 
Corps that funding for the completion of this study, which is 
literally in its last year after 30 years of effort, we are 
about to get what I believe, Mr. Chairman, will be state-of-
the-art information about what erosion occurs, why it occurs, 
how to prevent it, how to save beach frontage from further 
losses, so that we can continue to utilize it for recreational, 
commercial and other purposes. Unfortunately, we discovered it 
was zeroed out in the President's budget. I would like to work 
with you, it's a relatively small item, but it's one that would 
be necessary in order to finish this study, to have the 
information.
    At that point, then, the State and local governments, along 
with private landholders, along with the Federal Government, 
will have a plan. Right now, nobody knows what they are 
supposed to do. They are not sure whether if they put a jetty 
out there or if they build too close--they don't know what to 
do. Everybody has been waiting for the completion of this very 
comprehensive study.
    So I would like to work with you, Mr. Woodley, to try and 
make sure we finish this study, so that then the State's 
responsibility and local government, everybody else's, can be 
clear. But it will be done within the context of a 
comprehensive, scientific study that the Corps has carried out.
    Mr. Woodley. I will certainly be delighted to look into 
that, Senator, and work with you to reach a conclusion on that.
    Senator Clinton. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inhofe. Thank you, Senator Clinton.
    Mr. Woodley, I would just like to make a couple of 
comments. First of all, the worst of all Superfund sites, Tar 
Creek, your cooperation and the cooperation of the Corps has 
been very good, as well as all the other agencies. We now have 
a plan that is working, we're on schedule. It involves the 
State of Oklahoma, University of Oklahoma, the Corps of 
Engineers, the EPA, DOI and everybody else, and they are all 
talking to each other.
    So everything is good and I feel good about it. I just want 
your commitment that you will continue having that as your top 
priority, as you have in the past.
    Mr. Woodley. Yes, sir.
    Senator Inhofe. Then second, back when we had the 
Everglades Restoration Act of 2000, I opposed that at the time, 
and I did so because we did not have--that was the first time 
that legislation has been passed without a Corps report. The 
legislation provided that we would get a report every 2 years, 
assessing certain things. As of now, we haven't gotten 
anything, and this is 5 years later. So I just wanted you to 
tell us right now what date we can expect to have that first 
report.
    Mr. Woodley. Senator, I'm aware of a 5-year report that's 
due. But I would have to look into that and find out what the 
2-year report is. I know we are preparing a 5-year report.
    Senator Inhofe. Yes, you have two different reports. One 
was having to do with the independent scientific review panel, 
and the other was a panel to produce a report to Congress every 
2 years assessing with measurable ecological indicators the 
Agency's progress in restoring the Everglades.
    Now, that's the biannual report. You might ask your staff 
here to join in and see if everyone is also unaware of that.
    Mr. Woodley. I am not aware of it, no, sir.
    Senator Inhofe. OK, it's in the statute. Well, why don't 
you become aware of it and then for the record, respond to it 
so we know when we are going to receive that.
    Mr. Woodley. It's one of our lengthier statutes.
    Senator Inhofe. All right, very good. We appreciate your 
time today. You all have done an excellent job and we are 
looking forward to working with you. We will dismiss panel No. 
2.
    Anything else? OK, we're adjourned.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

 Statement of Hon. John McCain, U.S. Senator from the State of Arizona

    Mr. Chairman, thank you for holding this hearing to 
consider the nomination of D. Michael Rappoport for 
reappointment to the Udall Foundation Board of Trustees. I am 
pleased to offer my highest recommendation for his 
confirmation.
    The Morris K. Udall Foundation was established by Congress 
in 1992 to honor the legacy of Mo Udall and his commitment to 
the preservation of the nation's natural environment by 
advancing programs in environmental and Native American policy. 
The Foundation has enjoyed great success. It has competitively 
awarded hundreds of scholarships to college students throughout 
the United States; it has developed and carried out a very 
successful native American Indian Summer Congressional 
Internship Program; and, it is well along in the effort to 
establish the Native Nations Institute that was authorized by 
Congress in 2000 to provide leadership and governance training 
for tribal officials.
    The Udall Foundation has also established and successfully 
operated the U.S. Institute for Environmental Conflict 
Resolution, created to assist in the resolution of federal 
environmental, natural resources, and public lands conflicts 
and controversies through facilitated negotiation, mediation, 
and collaborative problem-solving. It is so appropriate that 
the Conflict Resolution Institute is housed under the Morris K. 
Udall umbrella, as Mo was so adept at helping find common 
ground to forge resolutions from often diverse view points 
resolutions that were of benefit not only to Arizona, but the 
nation.
    The Act establishing the Foundation created a Board of 
Trustees comprised of 13 members, almost all of whom are 
nominated by the President and confirmed by the Senate. Mr. 
Rappoport was first confirmed in 1994 as one of the original 
members of the Board, and was reappointed in 1997 to serve a 
term that expired in October 2002. Mr. Rappoport was again 
nominated by the President for reappointment last year. 
Unfortunately, the full Senate did not have an opportunity to 
consider his nomination before adjournment.
    Throughout Mr. Rappoport's service on the Foundation Board, 
he has played a critical role in the Foundation's many 
achievements. He is currently serving as the Chair of the 
Management Committee and has worked tirelessly to help ensure 
the financial integrity and operational success of the 
Foundation. It is essential that this highly dedicated 
individual be reappointed to the Board to help ensure the 
Foundation's future and further build upon its many successes 
to date.
    Mr. Chairman and members of the Committee, Mr. Rappoport's 
contributions to the Foundation have been remarkable, and I am 
pleased to strongly recommend his swift confirmation for 
reappointment to the Morris K. Udall Foundation Board of 
Trustees.
    Thank you.
                              ----------                              

 Statement of Stephen L. Johnson, Nominated by the President to be the 
       Administrator of the U.S. Environmental Protection Agency
    Mr. Chairman and distinguished Members of the Committee, I am 
honored to appear before you today as the President's nominee for the 
position of Administrator of the United States Environmental Protection 
Agency. I want to thank Chairman Inhofe and Ranking Member Jeffords for 
scheduling this hearing this morning, and I also want to thank many of 
you for the courtesy of meeting with me in the past several weeks to 
discuss my qualifications for this position.
    Mr. Chairman, I am enormously indebted to President Bush for the 
opportunity he has given me. I have had the privilege of serving in the 
EPA for more than twenty-four years, and during this time I have had 
the opportunity to participate in many of the Agency's most significant 
accomplishments. I have worked with eight of the nine EPA 
Administrators, and I understand first-hand the enormous responsibility 
the Administrator of the EPA has to protect human health and the 
environment. That sense of responsibility is heightened by being the 
first career employee and the first individual with formal scientific 
training to be nominated to head the Agency.
    Mr. Chairman, as you are aware, I am trained in biology and 
pathology. After graduating from college, I worked for the Computer 
Sciences Corporation at the Goddard Space Flight Center and was 
assigned to serve as a junior member of the launch support team for the 
first Synchronous Meteorological Satellite (SMS-1). After completing my 
graduate degree in pathology, I worked at Litton Bionetics, 
Incorporated, as a research scientist. I began my career at EPA in 1979 
as a health scientist in the Office of Pesticides and Toxic Substances. 
I joined Hazelton Laboratories in 1982 to be Director of Operations, 
where I managed the company's laboratory operations, including the 
toxicological evaluation of chemicals. In 1984, I returned to EPA to 
the Office of Prevention, Pesticides and Toxic Substances (OPPTS), 
where I held numerous positions, including the Director of the 
Registration Division, the Deputy Director of the Hazard Evaluation 
Division, and the Executive Secretary of the Scientific Advisory Panel 
for the Federal Insecticide, Fungicide, and Rodenticide Act. I also 
served as the Deputy Director of the Office of Pesticide Programs, and 
the Principal Deputy Assistant Administrator of OPPTS.
    In 2001, I was honored to be chosen by President Bush--and 
confirmed by the Senate--to serve as Assistant Administrator for the 
Office of Prevention, Pesticides and Toxic Substances. In this 
position, I was responsible for implementation of the nation's laws for 
pesticides, toxic chemicals, right-to-know, pollution prevention, and 
lead-based paint, including the regulatory and scientific programs.
    I was honored again in 2004 to be selected to serve as Deputy 
Administrator. I appreciated the support of this Committee and the full 
Senate in being confirmed, and I especially appreciated the support of 
both Governor Whitman and Governor--now Secretary Leavitt as I served 
under their leadership.
    Mr. Chairman, during my more than two decades at the EPA, I have 
been privileged to direct, guide, and witness many significant 
environmental accomplishments in reducing pollution of the air, water, 
and land. Preparing for this hearing has helped to remind me of the 
significant accomplishments we have achieved. For example, today the 
air is the cleanest in three decades. Over the last thirty years, total 
emissions of the six principal air pollutants have decreased by more 
than 50 percent, while the Gross Domestic Product has increased by more 
than 175 percent. EPA's recent Clean Air Interstate Rule, the Clean Air 
Mercury Rule, and the Clean Air Diesel Rule, will ensure that we 
continue--and even accelerate--our steady march toward achieving the 
goals of the Clean Air Act. I understand that we have more work to do. 
When he nominated me, the President charged me with working with 
Congress to pass Clear Skies legislation. Clear Skies legislation will 
improve upon EPA's regulations by creating a nationwide program with 
greater certainty and greater emissions reductions. I appreciate the 
work the Committee has already done on this issue, and I look forward 
to working with you to advance this important legislative initiative.
    We have a number of other accomplishments to be proud of. In the 
1970's, nearly 90 percent of children in the United States had blood 
lead levels above 10 micrograms per deciliter compared to just 2.2 
percent today. Over the past several years, more than 1,000 
contaminated sites are in the process of being cleaned up. Brownfields 
legislation passed by Congress and signed by President Bush in 2002 
holds the promise to transform thousands of additional sites across the 
country into usable, productive land. Recycling and composting of 
municipal solid waste has increased more than tenfold in the last 
decade. And even as our economy has continued to grow, industrial 
releases of 332 chemicals tracked since 1988 are down nearly 50 
percent, a reduction of 1.55 billion pounds.
    EPA and our partners continue to make progress in improving our 
beach water quality. Just a few months ago, former Administrator 
Leavitt put into place new beach water quality standards protecting the 
public against pathogens in coastal and Great Lakes waters. Annual 
wetland losses have dropped dramatically, and President Bush has now 
raised the bar by pledging to achieve, for the first time, an overall 
increase in wetlands. Who would have thought this possible thirty years 
ago, when wetland losses were nearly 500,000 acres annually? And our 
drinking water is cleaner and safer, too. Over 90 percent of the 
population served by community water systems receives drinking water 
that meets all health-based standards--up from 79 percent just a decade 
ago.
    Our food supply is also safer. EPA has been increasing protections 
from pesticides for everyone--and especially children--through its 
vigorous implementation of the landmark 1996 Food Quality Protection 
Act (FQPA). EPA has reassessed nearly 70 percent of the existing 
pesticides to make sure they meet today's standards for safety. As a 
result, many pesticide uses that posed the greatest risks have been 
taken off the market. And many older pesticides have been further 
regulated to make sure that produce sold on the market does not have 
pesticide concentrations beyond acceptable limits, and that any 
pesticide residues in food meet the tougher health standards called for 
in the FQPA. Another example of the success of this effort to reassess 
pesticides is the greatly reduced use in residential settings of 
organophosphates--a class of acutely toxic pesticides. It's estimated 
that 15 million to 20 million pounds of organophosphate pesticides have 
been removed from use in and around homes. At the same time, we've 
worked to ensure that growers and citizens have the products they need 
to control pests.
    Mr. Chairman, while serving in various positions within the Agency, 
I have relied upon several principles to guide my decisions. Even as we 
face new challenges, I believe that these are the principles I would 
rely upon as Administrator, and I'd like to summarize them briefly. 
First, I will continue to work to ensure that the Agency's decisions 
are based on the best available scientific information, and that the 
Agency uses the resources provided by Congress--and those resources we 
can leverage from other sources--to pursue scientific questions that 
are important to the health and welfare of the American public. The 
scientific community continues to make dramatic progress in 
understanding the effects of pollution on human health and the 
environment, and how to measure those effects. We see extraordinary 
advances in disciplines that barely existed ten years ago--in the 
fields of biotechnology, nanotechnology, and toxicogenomics.
    As a scientist, I am intrigued with the promise that these new 
areas of discovery hold for improving the world we live in. But I also 
recognize that the process of scientific discovery is not always 
straightforward; there are times when we're not sure what the science 
is telling us. So our challenge is to make sure that when we are 
required to make regulatory or policy decisions, we are using the best 
available scientific information, and at the same time we should 
continue to pursue and encourage rigorous scientific inquiry.
    The second principle I will follow is to pursue as open and 
transparent a decision making process as possible. During my time at 
EPA, I have managed virtually every aspect of the Agency's rulemaking 
process, from the development of technical scientific papers, to the 
final, formal decisions. I understand that the credibility of EPA's 
decisions comes from two things: first, from the integrity of the 
science that underlies the decision; and second, from the ability of 
the public to understand how the Agency came to its decision. The ideal 
rulemaking process would be one in which we solicit input and advice 
from all interested stakeholders and then make a decision with which 
everyone agrees. Unfortunately, it rarely happens that way. Even when 
there is disagreement on the Agency's final decision, I want to be 
certain that the Agency has a clear rationale for that decision, and 
that rationale is evident to all who may be interested.
    As a part of this effort to improve the openness of our rulemaking 
process, I will work hard to strengthen and improve the dialogue among 
government, the regulated community, public interest groups, and the 
general public. Furthermore, I recognize the important interest that 
Congress has in our work--both as the author of laws given to the 
Agency to implement, and as the overseer of taxpayers' dollars charged 
to EPA's trust--and I will do my best to accomplish your intent.
    The third principle I will follow is that new problems require new 
approaches to finding solutions. Despite our past successes, we face 
many continuing challenges, such as limited resources, and a number of 
new challenges, such as environmental issues that cross traditional 
borders and boundaries. Just as we live in a global marketplace, many 
of our environmental problems are becoming increasingly international. 
These international issues require us to adopt new approaches. The 
President's Methane-to-Markets program is one such approach. This 
program is a new global initiative designed to advance international 
cooperation on the recovery and use of methane as a valuable clean 
energy source. In addition to the United States, thirteen countries are 
participating in the partnership and are expected to undertake 
activities aimed at capturing and using methane emitted from landfills, 
coal mines, and oil and gas systems. This program has the potential to 
reduce net methane emissions by up to 50 million metric tons of carbon 
equivalent annually by 2015, and continue at that level, or higher, in 
the future. This would be the carbon equivalent of removing 33 million 
cars from the roads for one year or eliminating emissions from fifty 
500-megawatt coal-fired power plants.
    I am encouraged that we have already had some success with a new 
focus on collaboration to address environmental problems--a method that 
is useful even when resources are limited and when typical legal 
authorities are not available. Perhaps the best recent example of 
collaboration is the success we have enjoyed to date with the 
President's Great Lakes Executive Order issued a little more than a 
year ago. At the President's direction, former Administrator Mike 
Leavitt convened a meeting of governors, mayors, tribal leaders, other 
elected officials, the leadership of ten Federal agencies, and many, 
many stakeholders to convene a Collaboration of National Significance 
on the Great Lakes. These leaders are working together--across 
jurisdictional lines and across political boundaries--to develop a plan 
to preserve and protect the Great Lakes as a national treasure. I am 
excited about the prospect of adopting this model of problem solving to 
a number of other issues confronting the Agency in the next several 
years.
    I should point out that the collaborative approach to environmental 
problem solving is not new. EPA's ENERGY STAR program is one example of 
a voluntary program that has existed for several years and has resulted 
in significant environmental benefits. ENERGY STAR is a voluntary 
public/private partnership that works with manufacturers, utilities, 
retailers, and end users to promote energy efficiency. Last year alone, 
using ENERGY STAR products and programs, Americans saved enough energy 
to power 24 million homes and reduce greenhouse gas emissions equal to 
20 million cars--all while saving approximately $10 billion on energy 
bills.
    One key to the success of EPA's collaborative problem solving is to 
strengthen the partnership with our State and local colleagues. While 
EPA is obligated to continue to establish national standards and hold 
States accountable for meeting those standards, we know that each State 
and locality has its own unique issues, and that State officials are in 
the best position to know how to solve those issues. Through 
collaboration, we have the opportunity to provide States and localities 
with the most flexibility to address their specific problems, thereby 
getting the most benefit from limited resources.
    Of course, none of these new tools is intended to take the place of 
EPA's obligation to enforce the environmental laws as written by 
Congress. We will use incentives whenever it is appropriate, but we 
will never give up the ability to hold individuals accountable under 
the environmental laws of the nation. We have been entrusted with this 
important responsibility, and while we should not abuse it, we must 
always be vigilant to enforce the laws.
    Finally, let me mention a fourth principle I consider vital to the 
Agency's future success. As a twenty-four year veteran of the Agency, I 
want to do what I can to build the Agency for the next generation and 
beyond, including strengthening the day-to-day operations of the Agency 
such as grants oversight, and ensuring that we meet our new 
responsibilities with respect to homeland security. As many of you 
know, we are facing a challenge as the professionals who joined the 
Agency in its infancy are retiring. EPA's success is inseparable from 
the qualifications of its staff. And the successes the Agency has 
accomplished are a tribute to the accomplishments of its staff. To 
maintain our ability to deal with the environmental challenges of the 
next decade and the next generation, we need to make sure we have 
people trained in the right disciplines and with the right problem-
solving skills. I would say parenthetically that we have already 
started to train senior managers in collaborative problem solving 
skills, and we are starting to see the benefits of that training.
    Mr. Chairman, I have dedicated my entire professional life to 
protecting public health and the environment. I have not viewed it to 
be a goal exclusive of maintaining our economic competitiveness, and I 
am proud that our nation continues to prosper as we continue to achieve 
our environmental objectives. If confirmed, I will do everything I can 
as Administrator to continue to serve the American people by working to 
protect their health and the health of the environment.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                             Senator Inhofe
    Question 1. On February 1, 2005, I wrote you concerning an EPA 
grant (X-98165501, and subsequent amendment) to the Northeast States 
for Coordinated Air Use Management (NESCAUM) totaling $1,279,928.00. At 
least part of this grant, reportedly $270,000.00, was subcontracted to 
the Risk Analysis Center at Harvard University where an EPA employee on 
leave pursuing a doctorate at Harvard prepared a report for NESCAUM to 
undermine the mercury rule. How will you provide tighter controls over 
your agency to prevent bureaucrats within your agency from using 
taxpayer dollars to pursue their own agendas?
    Response. Harvard University was paid approximately $100,000 by 
NESCAUM as a contractor under the EPA grant, in which the agency 
provided approximately $270,000 to NESCAUM for research related to the 
quantification of benefits from reducing mercury emissions. The EPA 
employee who worked for Harvard, however, did not receive any 
compensation for his work from EPA grant funds. Although the employee 
in question did receive approval from his Deputy Ethics Official (DEO) 
for this work, EPA is considering developing new guidance for DEOs to 
follow when an employee requests approval for outside employment, with 
or without compensation, involving EPA grant recipients. EPA is also 
planning to implement a system that would enable the agency to track 
approvals and disapprovals of requests for outside employment related 
to EPA grants.

    Question 2. I strongly believe that real reform of grants 
management at the EPA requires the oversight from highest levels within 
the Agency. Can I get your commitment to ensure competition, ensure 
measurable environmental results, and ensure strict financial oversight 
especially of non-profit grant recipients with affiliated lobbying and 
political organizations?
    Response. I share your commitment to a strong program of grant 
competition, to awarding grants that are results-oriented, and to 
ensuring that EPA provides financial oversight of all of its grants, 
including grants to non-profit organizations with affiliated lobbying 
and political organizations. The Agency has moved aggressively under 
its Grants Management Plan to address these issues. We are implementing 
a revised competition policy that lowers the competition threshold from 
$75,000 to $15,000, a change we estimate will subject an additional $8 
million to competition. We are also implementing a new policy on grant 
environmental results that will better align grants with the Agency's 
strategic plan and focus on outcomes. Further, on March 31, the Agency 
began imposing pre-award controls on non-profit applicants designed to 
identify problems in their ability to manage Federal grant funds 
properly and to prohibit grant awards until the problems have been 
resolved. As a supplement to these policies, and to enhance senior-
level oversight, I recently issued a directive to EPA's Assistant 
Administrators and Regional Administrators requiring them to certify 
the appropriateness of proposed non-competitive, discretionary grants 
and competitive announcements. I believe that these actions, coupled 
with other initiatives EPA is taking under its Grants Management Plan, 
will lead to genuine reform in our management of grants.

    Question 3. I appreciate the EPA's work in the Tar Creek Superfund 
Site and would like to especially commend the work of Richard Greene 
and the staff at Region 6 and the new cooperative work among the EPA, 
Army Corps of Engineers, and Department of Interior which is necessary 
to clean up Tar Creek. Can I get your commitment that the RIFS 
(Remedial Investigation and Feasibility Study) and proposed plan for 
chat removal will be completed on schedule?
    Response. The Tar Creek Superfund site remains one of EPA's top 
priorities. Yes, EPA will continue to work diligently on completing the 
Remedial Investigation and Feasibility Study (RIFS) on schedule. The 
Agency has made significant progress since the work on the RIFS started 
in January, 2004. Additional site sampling is underway and it is 
expected that the RIFS written report will begin this summer which will 
continue EPA on its schedule to develop the proposed cleanup plan.

    Question 4. The Agency is currently reviewing the Spill Prevention 
Control and Countermeasure rule it published on July 17, 2002 to see if 
changes need to be made to assist small facilities. In a Notice of Data 
Availability published on September 20, 2004, the Agency published a 
proposal by the Small Business Administration that suggested a tiered 
approach for small facilities that would increase requirements as the 
amount of oil stored increased. The levels proposed by the SBA are too 
low to help marginal wells in my state of Oklahoma. These wells are the 
``small facilities'' of the oil industry and their concerns need to be 
accommodated in any future rule making.
    Can I get an assurance that as Administrator you will ensure that 
any new proposed rule or guidance fully addresses the concerns raised 
by the small independent producers with respect to marginal wells and 
the burdens placed on them by the underlying proposal?
    Response. EPA is in the midst of a rulemaking process which 
includes collecting and analyzing data as follow-up to the September 
20, 2004 Notice of Data Availability (NODA) for facilities that store 
oil below a certain threshold. All information, including that provided 
in comments on the NODA, will be weighed in formulating a proposed rule 
to address the concerns of smaller facilities in the context of an 
adequate and reasonable spill prevention, control and countermeasure 
program.
    EPA will fully consider the concerns raised by the small 
independent producers and continue to work with them to understand 
their concerns and explore means to address them while retaining 
effective spill prevention measures at oil production facilities.

    Question 5. As a scientist by training and as former AA to the 
Office of Prevention, Pesticides, and Toxic Substances (OPPTS, 
pesticide registration), you have a great deal of experience with the 
risk assessment process at EPA. As you are aware, there is a growing 
concern about the quality of the science at EPA, as well as the 
perception that the process is biased by both internal as well as 
external pressure requiring constant oversight from external entities. 
Take for example the unanimous rebuke by the National Academy of 
Science panel of EPA's risk assessment work with respect to 
perchlorate. There is also a concern about the lack of transparency to 
the public. If you are confirmed as EPA Administrator, what steps will 
you take to ensure that risk assessments and the policy decisions that 
flow from them are based on independently peer-reviewed science, absent 
external and internal pressure and what will you do to ensure that the 
information is adequately and understandably related to the public?
    Response. I am committed to improving the use of science at EPA. 
EPA's process for risk assessments is very rigorous, using only 
information from the published peer-reviewed scientific literature. 
Nevertheless, there are instances, as in the case of NAS's perchlorate 
review, where the selection of studies and interpretation of studies 
differs among scientists, leading to different conclusions.
    During the past year EPA's Office of Research and Development has 
instituted several steps to improve the transparency of its risk 
assessment process. As part of EPA's Integrated Risk Information System 
(IRIS) program, we currently publish a public call for nominations for 
chemicals to be assessed. When a selection is made we ask for new 
scientific information available or soon to be available about the 
chemicals nominated. We also publish an annual list of chemicals that 
are being assessed in order to inform all interested parties. When an 
assessment is ready to be peer-reviewed, we post the draft report as 
well as any comments that we receive from any member of the public on 
the IRIS web site. Finally, when an assessment is complete, the final 
assessment is also posted on the IRIS web site.
    Recently, I have asked the IRIS program to modify their process to 
allow additional transparency and access to EPA assessments in 
progress. We will shortly be proposing this revised approach for public 
comment. We have received very favorable responses to our proposal from 
discussions with the American Chemistry Council and the White House 
Office of Science and Technology Policy.
    All of EPA's IRIS assessments are peer-reviewed by independent 
panels of scientists, the EPA Science Advisory Board or the National 
Academy of Sciences. The steps that we are now proposing will add to 
the transparency of our process. We have constantly set ourselves the 
goal of meeting the highest possible standard for the quality of the 
assessments, including objectivity and transparency, and I believe that 
we are meeting those goals.

    Question 6. Many constituents have expressed concern that some EPA 
staff personnel are not well informed and often over-zealous when using 
the agency's investigation and enforcement powers. I have heard 
examples where some EPA field personnel may be following their an 
agenda rather than learning the necessary science and understanding the 
applicable rules, laws and policies Outside influences often have to 
educate the EPA project manager about the facts, the science and the 
applicable standards. This lack of training and experience can be 
frustrating for the regulated entity and may, in some cases, lead to 
hostility on the part of the EPA staff.
    Can this Committee count on your efforts to assure that field staff 
are properly trained and supervised to perform their duties with 
respect for other agencies and the regulated public?
    Response. EPA is committed to ensuring that our field staff are 
well trained and conduct inspections in a highly professional manner. 
In 1988, the Agency implemented EPA Order 3500.1, Training and 
Development for Individuals Who Lead Compliance Inspections/Field 
Investigations (Order) (revised in 2002). This Order establishes 
consistent Agency-wide training for employees leading environmental 
compliance inspections/field investigations. It ensures that these 
employees have a working knowledge of regulatory requirements, 
inspection methodology and health and safety measures. Additionally, 
EPA hosts an annual EPA Inspector Workshop to focus on issues related 
to inspections across all media. Finally, EPA has published a series of 
Inspector Manuals which provide guidance on conducting inspections, and 
operates an EPA Inspector Website which includes inspector/inspection 
policies.
    To help ensure that facilities have an opportunity to voice any 
concerns about inspectors, especially small businesses, EPA inspectors 
normally distribute a fact sheet which includes a discussion on 
commenting on federal enforcement actions and compliance activities. 
The fact sheet provides the phone number for the Small Business 
Ombudsman, and has information on the ten Regional Fairness Boards, 
which were established to receive comments from small businesses on 
enforcement and compliance activities. We would welcome the opportunity 
to determine if a problem existed in a specific case (or cases), and if 
so, to take steps to correct it.

    Question 7. EPA issued in February a proposed rule for on the 
matter of whether or not an NPDES permit is needed for the application 
of pesticides under certain circumstances and in compliance with FIFRA 
requirements. This proposed rule appears to be a solid effort and 
consistent with longstanding Agency policy and the recent statements it 
has issued following the Talent and Forsgren cases in the 9th Circuit--
pesticides used in compliance with FIFRA are beneficial products, not 
``chemical wastes'' as that term is defined in the Clean Water Act, and 
their application is not subject to NPDES permitting.
    I am concerned, though, that this proposed rule excludes from NPDES 
permitting only those circumstances where pesticides are applied, in 
compliance with FIFRA, directly into, over or near water--so-called 
aquatic uses and dealing with pests found in or near aquatic 
environments. Certainly, if pesticides applied in those aquatic 
circumstances are excluded from NPDES permitting (as is appropriate), 
should not pesticide uses that take place further from water also be 
excluded? Such uses almost by definition should result in less 
pesticide reaching water. I know that it is the Agency's longstanding 
operational approach not to require NPDES permits under these 
circumstances. Would it not be wise to extend this proposed rule to 
cover all pesticide uses applied in compliance with FIFRA, and limit 
the confusion and potential ill-informed litigation that will focus on 
these non-aquatic uses?
    Response. I understand your concerns with the limited scope of the 
Environmental Protection Agency's (EPA) proposed rule regarding 
coverage under the Clean Water Act (CWA) of pesticides regulated under 
the Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA). Let me 
assure you that EPA is working hard to ensure that the legal 
application of pesticides is not subject to litigation under the Clean 
Water Act.
    The proposed rule published in the Federal Register on February 1, 
2005, embodies the substance of an Interpretive Statement that was 
issued by EPA on January 25, 2005. The Interpretive Statement clarifies 
that applications of pesticides to or over, including near, waters of 
the U.S. do not require National Pollutant Discharge Elimination System 
(NPDES) permits if the pesticides are applied consistent with all 
relevant requirements under FIFRA. The Interpretive Statement also 
stated that ``[i]t has been and will continue to be the operating 
approach of the Agency that the application of agricultural and other 
pesticides in accordance with label directions is not subject to NPDES 
permitting requirements.''
    The comment period on the proposed rule closed on April 4, 2005. 
Several commenters shared your concern that the proposed regulatory 
language only addressed pesticides applied to, over and near waters. 
EPA will review and respond to all comments received and issue a final 
rule by October of this year.
    EPA committed in the Federal Register to ``continue to review the 
variety of other circumstances beyond [those] described above in which 
questions have been raised about whether applications of pesticides 
that enter waters of the U.S. are regulated under the CWA, including 
other applications over land areas that may drift over and into waters 
of the U.S.'' Towards that end, EPA is considering additional options 
that would successfully engage interested external stakeholders to 
provide feedback to the Agency on outstanding issues regarding NPDES 
and pesticides.
    In addition, we would be happy to meet with you or your staff at 
any time to discuss this issue.

    Question 8. Mr. Johnson put together a most impressive and 
extraordinary coalition of environmentalists, farm commodity groups, 
the pesticide industry, farm workers and labor to support the Pesticide 
Registration Improvement Act, enacted in 2004. PRIA brings new funding 
stability to EPA's Office of Pesticide Programs, improves 
predictability for approval times for registration of new products 
aimed at public health and agriculture, and provides the resources 
needed to complete tolerance reassessment and re-registration. Industry 
has agreed to pay more than $200 million over 5 years. It is a win for 
industry, for public health, for the environment, and for EPA.
    As a principal architect of PRIA, how will you ensure that the 
funding stability it provides will be preserved and the deadlines it 
incorporates will be met? Further, can you give us assurance that you 
will keep this coalition together and support reauthorization of PRIA? 
In the face of budget pressures, what process and policy changes do you 
support that will ensure that the Pesticide Program will be able to 
meet its registration and re-registration obligations?
    Response. Thank you for acknowledging the success of the Pesticide 
Registration Improvement Act. The Agency recently celebrated the one-
year anniversary of the effective date of the Pesticide Registration 
Improvement Act, and has many positive accomplishments to report. 
During that timeframe, the registrant community has paid over $20 
million in new pesticide registration service fees and nearly $45 
million in renewed pesticide registration maintenance fees. These 
resources have been utilized to enhance the appropriated funding of 
both the registration and re-registration programs and help to ensure 
that all deadlines under PRIA and the Food Quality Protection Act are 
being met.
    One of the hallmarks of PRIA has been the continued collaboration 
between the Agency and all stakeholders on pesticide registration 
issues. Through the Process Improvement Workgroup, operating under the 
Pesticide Program Dialogue Committee, the Agency continues to engage 
stakeholders to identify and collaborate in areas in areas to improve 
the registration process. These efforts have already identified the 
need to improve guidance regarding labeling requirements for 
pesticides, and other work is underway. The Agency has also undertaken 
internal reviews of its evaluation procedures and found ways to reduce 
an application's queuing time while maintaining high quality, 
scientifically sound review standards. These efficiencies and process 
improvements will help enable the Agency to meet its registration and 
re-registration obligations.
    I look forward to continuing to work with the Administration, with 
Congress and the coalition to continue our successful collaboration for 
stable funding and program efficiencies being achieved by EPA's Office 
of Pesticide Programs.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                              Senator Bond
    Question 1. Which will produce a greater amount of air pollution 
reduction, and therefore benefit the environment more: (1) litigation 
against a few dozen individual power plants, or (2) legislation 
affecting over 1,100 power plants and mandating a 70 percent nationwide 
pollution cut from power plants? Please provide a comparison of the 
lbs. of pollution reduced as a result of NSR settlements and the 
estimated lbs. of pollution that would be reduced through passage of 
Clear Skies legislation.
    Response. Aggregate emissions from the power sector under Clear 
Skies would be reduced by 70 percent beyond today's emission levels. 
Annual emissions of SO<INF>2</INF> would drop from 11 million tons in 
2000 to 3 million tons upon full implementation of Clear Skies, and of 
NOx from 5 million tons in 2000 to 1.7 million tons upon full 
implementation. As demonstrated by the Acid Rain Program, Clear Skies 
will achieve emissions reductions that (1) are greater; (2) are more 
cost-effective; (3) are more certain to occur; (4) will likely be 
realized sooner; and (5) can be achieved at far lower cost to the 
government than NSR enforcement actions. We have learned that, among 
other things, a cap-and-trade approach generally results in emission 
controls being installed at the largest plants nation-wide. On the 
other hand, an enforcement approach is generally limited to plants at 
which NSR violations have occurred--and not necessarily the plants that 
are most cost-effective to control. Settlements may allow EPA and an 
individual company to focus on achieving the most cost-effective 
reductions available from that company. But by definition, a NSR-type 
approach cannot be as cost-effective as a broad cap-and-trade approach 
like Clear Skies.

    Question 2. For more than a year, EPA has been considering whether 
to allow consumers to purchase wood treated with A-C-C, or Acid Copper 
Chromate. ACC is less expensive than anything currently on the market 
and has been used successfully in Europe for years. EPA formed a 
Scientific Advisory Panel (SAP) last year to look at ACC and it 
concluded that there was little health risk to consumers. While the SAP 
certainly laid out a clear roadmap for re-registration of A-C-C, the 
EPA has failed to take any action on the SAP's recommendations. Can you 
give me an estimate on when the EPA will finally resolve this issue and 
hopefully give consumers more choice and lower costs when it comes to 
wood preservatives?
    Response. EPA's action on the pending ACC application is dependent 
on two critical pieces of data that have not yet been submitted by the 
registrant to EPA. As described more completely below, EPA is concerned 
about potential dermal exposures to hexavalent chromium from treatment 
of wood with the ACC treatment solution. Hexavalent chromium as surface 
residue on treated wood may cause sensitization in humans contacting 
the wood in residential settings. Moreover, these surface residues have 
the potential to persist as the conversion to the less toxic trivalent 
chromium species is temperature-dependent.
    To address the outstanding concerns, the Agency has taken several 
steps. The Agency presented its scientific issues regarding dermal 
sensitization to its Scientific Advisory Panel (SAP) in May 2004. Among 
other recommendations in its July 2004 report, the SAP noted that 
exposure information was important to determine potential risks 
associated with contact to treated wood surfaces. Specifically, the SAP 
stated: ``It is not important how much of a chemical is in the matrix 
but how much is leached out of it and available for exposure.''
    In response to the report, the Office of Pesticide Programs has 
analyzed the recommendations, presented its analysis to the Agency's 
Science Policy Council (SPC), and based on recommendations from both 
the SAP and SPC, revised its level of concern for hexavalent chromium 
in ACC-treated wood. We are now waiting for two critical studies that 
the Agency required of the registrant in a letter sent January 2004. 
One of these studies will provide information that specifically 
addresses the level of hexavalent chromium on the surface of ACC-
treated wood, and the other study is to determine levels of exposure to 
workers at wood treatment facilities. Once these data are submitted, 
the Agency will be in a position to make a determination as to whether 
there is a risk of dermal sensitization from exposure to hexavalent 
chromium resulting from contact to treated wood.
    In addition, an extensive study of the cancer risks posed by oral 
ingestion of hexavalent chromium is underway by the National Toxicology 
Program (NTP) and we expect those results in May 2005. Upon receiving 
this study and the two studies requested of the registrant noted above, 
the Agency will be able to determine whether the law's ``reasonable 
certainty of no harm'' safety standard, including infants and 
children's exposures, can be met, and thus, make its registration 
decision.

    Question 3. A concern with A-C-C is the possibility of a dermal 
reaction such as a skin rash. Yet the scientists who made up the SAP 
found the actual level of concern for dermal exposure to be between 50 
and 167 times less than where EPA suggested. How is EPA responding to 
this finding?
    Response. When the Agency establishes a level of concern, it 
typically selects a single value from the studies available to it 
representing an exposure level at which no adverse effect is expected 
to occur. The Agency will apply uncertainty factors to that level to 
ensure an adequate margin of safety for people who may be exposed to 
the chemical--in this case, hexavalent chromium. The number and 
magnitude of the uncertainty factors will depend on the completeness 
and quality of the underlying database for the chemical.
    For hexavalent chromium, the Agency's Scientific Advisory Panel 
(SAP) recommended a range of values from 0.09 to 0.3 mg/cm2. EPA has 
considered both the SAP recommendation as well as the recommendation of 
the Agency's Science Policy Council on this point and has established a 
value of 0.009 mg/cm2.
    The difference in the values suggested by the SAP and that chosen 
by the Agency is a result of the lack of exposure information available 
and the possibility of repeated exposures which could occur. When data 
are supplied by the registrant on the actual surface residue levels of 
hexavalent chromium on the treated wood and the time course necessary 
for conversion of the hexavalent form to the less toxic trivalent form, 
then the value chosen by the Agency could be further revised since the 
degree of uncertainty about the level of exposure will likely be 
reduced. The Agency has communicated the rationale for its current 
level of concern and the possibility to revise that level upon receipt 
and evaluation of the surface residue data to the registrant.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                           Senator Voinovich
    Question 1. EPA's mercury rule has already been sued, and lawsuits 
on the Clean Air Interstate Rule will soon follow. Based on past 
lawsuits on EPA rules, how much do you expect this lawsuit to cost the 
federal government to defend and how long do you expect the rules to be 
delayed?
    Response. Litigation can be costly and could potentially delay 
implementation of EPA regulations. The filing of a lawsuit does not 
automatically stay the effectiveness of our rules. Thus, CAMR is in 
effect now and will remain so unless EPA or the Court were to stay the 
rule. We have received an administrative petition to stay the rule, 
which we are currently evaluating. We expect several parties to request 
the D.C. Circuit to stay the rule pending resolution of their lawsuits. 
If EPA and the Court deny such petitions, the CAMR will not be delayed 
at all. If EPA or the Court were to grant the requests, CAMR could be 
delayed anywhere from 90 days up to the full time the case is in 
litigation.

    Question 2. The President signed an Executive Order last year to 
coordinate Great Lakes activities and develop a restoration strategy. 
How do you plan to be involved with this initiative?
    Response. I am the acting as the Chair of the Great Lakes 
Interagency Task Force (IATF), which is spearheading implementation of 
the Executive Order. I am also representing the federal agencies on the 
Executive Committee governing the Great Lakes Regional Collaboration 
(GLRC).
    The first year of the Task Force has been spent working on high 
priority issues needing interagency cooperation such as the Interagency 
Snakehead response, the Illinois Sanitary and Ship Canal Dispersal 
Barrier and identifying future areas where interagency coordination 
would improve the delivery of programs and decision-making in the Great 
Lakes Basin. These projects, along with more than 130 other interagency 
initiatives, have been documented in an Interagency Project Matrix that 
is being updated and used as a tool to promote improved management of 
Great Lakes programs.
    The GLRC that was launched toward in December 2004 involved 
considerable outreach and discussion with Great Lakes governmental 
partners at the State and local levels, Tribes, key Great Lakes 
organizations, and stakeholders. The GLRC is governed by an Executive 
Committee that is overseeing the effort to develop a strategic plan. I 
represent EPA and other Federal Agencies on the Executive Committee. 
The Committee has established eight ``Strategy Teams'' corresponding to 
priorities established by the Great Lakes governors and adopted by the 
Great Lakes mayors. Work of the Strategy Teams and the Executive 
Committee is currently underway and will culminate in ``Summit I'' 
during the Summer 2005, and ``Summit II'' in December 2005, at which 
time the final Strategic Plan will be released.
    Continuing the work of the GLRC is a high priority. The plan will 
serve as a blueprint for the Great Lakes community, and will assist 
Federal Agencies in priority setting, as well as to identify areas 
where greater interagency coordination can help in cleaning up and 
protecting the Great Lakes. Continued bi-partisan support and 
leadership from Congress will be critical to our success.

    Question 3. Over the last two Congresses, I have introduced 
legislation to create a position of Deputy Science Administrator at the 
EPA. What is your position on this bill? What role do you believe 
science should play in EPA's decision making? What steps will you take 
to continue to improve the science that EPA relies on?
    Response. I appreciate your leadership in promoting improved 
science at EPA. Upon arriving at EPA, Administrator Whitman 
commissioned a task force to identify ways to strengthen the scientific 
and economic bases of our policies and decisions at EPA. The task force 
concurred with the need for an Agency Science Advisor, and 
Administrator Whitman appointed Paul Gilman, Assistant Administrator 
for Research and Development, to this position. I understand that the 
responsibilities of the Science Advisor and the proposed Deputy Science 
Administrator are similar. The Agency has found the Science Advisor 
position to be extremely valuable in advancing the use of science at 
EPA and I intend to fill the position as quickly as possible if 
confirmed.
    While it is important that EPA's scientific research and 
development be integrated with and be responsive to the Agency's 
regulatory needs, it is vital that the conduct of the research itself 
be independent and of the highest quality. Over the past four years, 
EPA has taken major steps to assure that it carries out a program of 
sound science to inform Agency decisions without allowing regulatory 
objectives to distort scientific findings or analyses. These steps have 
included open, transparent and peer reviewed research planning; 
competitively awarded extramural research grants; independent peer 
review of science publications, assessments and documents; and rigorous 
peer review of EPA's research laboratories and centers.
    The measures the Agency has taken in the past several years have 
gone a very long way toward strengthening science at EPA. We can always 
improve, but EPA has made many achievements to date in strengthening 
the Agency's science program.
    EPA's Fiscal Year 2006 President's Budget reflects this 
Administration's commitment to ensuring that the nation's environmental 
policy is based on cutting-edge science. This budget includes 
investments for Homeland Security and advanced environmental 
monitoring, including support for the Global Earth Observation System 
of Systems (GEOSS). The results of these efforts will help provide the 
scientific foundation to protect human health and the environment for 
decades to come.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                             Senator Chafee
    Question 1a. In November 2003, EPA released a draft blending policy 
for wastewater treatment facilities that would clarify the use of 
blending as an approved treatment process. This guidance has been 
praised by municipalities and the wastewater industry, and met by 
opposition from the environmental community. The environmental 
community has taken the position that this draft guidance would provide 
new loopholes for wastewater treatment plants to avoid needed upgrades 
at their facilities. On the other hand, the industry states the 
guidance clearly defines the situations in which blending would be 
allowed and includes specific guidance on how the policy should be 
implemented in order to meet Clean Water Act standards. How many 
facilities nationwide utilize blending as a management practice? Is 
this figure expected to increase under the new blending policy?
    Response. Information is not available on the frequency of blending 
at the 16,000 municipal wastewater treatment facilities across the 
United States. The Association of Metropolitan Sewerage Agencies (AMSA) 
conducted a survey of its members in 2001. AMSA received 122 responses 
(47 percent of its membership). Of the members that responded, 48 
percent (59 of 122 responses) indicated that they blended. The 59 
utilities that indicated they blended had facilities in 26 States.
    Given the lack of current data on the number of facilities that 
blend, the frequency of blending at the facilities and the scope of any 
final EPA blending policy, it is difficult to predict whether blending 
would increase. The management of wet weather flows within a municipal 
wastewater collection system and treatment plant is very site-specific 
and the potential for blending would depend on a number of variables, 
including: the management of peak flows in the collection system; peak 
wastewater flows at the treatment plant; available wastewater treatment 
plant capacity; and, the plant-specific permit limits.

    Question 1b. Does EPA have a handle on the total number of blending 
events by all facilities nationwide on an annual basis?
    Response. EPA does not have an estimate of the frequency of 
blending at municipal wastewater treatment facilities. EPA believes 
that its on-going review of the legal, policy and scientific issues 
associated with blending will significantly improve regulatory 
oversight of discharges from municipal sewage treatment facilities 
during wet weather conditions. These improvements, along with improved 
data management, could make accurate estimates of blending events 
possible in the future.

    Question 1c. Where does the agency currently stand on finalizing 
the blending policy?
    Response. EPA continues to review comments. Our goal is to clarify 
permitting requirements relating to wet weather flows at municipal 
sewage treatment facilities. EPA's focus is on providing the public 
with protection from exposure to contaminants, including pathogens, and 
ensuring nationwide access to clean, safe and secure water. We have not 
established a schedule for making a final decision.

    Question 2. The President's FY 2006 budget would eliminate nearly 
all $2 million from EPA's Stratospheric Ozone Protection program. This 
program has been recognized as one of the most cost-effective with 
benefits outweighing costs by a 20:1 ratio. The proposed budget 
reduction prevents the U.S. in meeting its commitments under the 
Montreal Protocol for which it has provided two decades of consistent 
leadership in restoring the earth's ozone layer. I understand many 
industries such as manufacturers of refrigeration and air conditioning 
equipment, appliances, and automobiles, have invested billions in 
developing ozone safe technologies on the understanding that the U.S. 
government is serious about protecting the ozone layer. If the budget 
cut causes the U.S. to fail to comply with the terms of the Montreal 
Protocol, does this not risk stranding a huge investment in this 
country?
    Response. The stratospheric ozone protection program has been very 
successful, with benefits significantly outweighing costs. After 
Congress completes the appropriations legislation, I will review the FY 
2006 budget to ensure that the United States can continue to meet our 
commitments under the 1990 Clean Air Act Amendments and the Montreal 
Protocol and realize the benefits of the investments that have been 
made by U.S. industry.

    Question 3a. As part of the approval process for the Cape Wind 
Energy project in Nantucket Sound, EPA's New England office recently 
submitted comments on the Corps of Engineers draft environmental impact 
statement. This project off the coast of Massachusetts will help the 
region meet our goals for renewable energy production and for air 
quality. Are you familiar with this project and the importance of 
moving forward with it?
    Response. I am familiar with the Cape Wind proposal. It is the 
first and largest scale offshore wind energy project proposed in the 
United States, and I consider it to be among the highest priority 
projects now going through the environmental review process. Staff in 
my immediate office and in EPA's headquarters' program offices, in 
addition to those in EPA Region 1, have been and will continue to be 
involved in tracking the progress of the project and overseeing the 
agency's review of it. In view of the project's importance and 
precedent, it is essential that EPA and all of the agencies make sure 
that the environmental review process is sound and moves forward to 
completion.

    Question 3b. If renewable energy is going to become a reality in 
this country, it is important that EPA uses its NEPA review authority 
to help make sure these projects are environmentally sound. However, if 
we set the standard of proof unrealistically high, the large scale use 
of renewable energy will remain an unattainable goal. Do you agree that 
EPA should be using its authorities to help make renewable energy a 
reality?
    Response. EPA supports an increase in electrical generating 
capacity using renewable resources such as solar, hydropower, and wind. 
Every major project requiring federal permits, even those with 
potential for significant environmental benefits such as Cape Wind, are 
required by the National Environmental Policy Act to undergo a rigorous 
review that examines adverse impacts and alternatives. This is 
especially important when a project is the first of its kind in the 
U.S. because how the analysis is done sets a precedent for future 
reviews. EPA has devoted substantial effort to working as a cooperating 
agency with the Corps of Engineers during development of the 
environmental impact statement. In comments on the EIS, EPA stated 
strong support for renewable energy and did not oppose the Cape Wind 
project, but concluded that the document did not contain enough 
information to adequately assess the project's potentially adverse 
impacts and alternatives to avoid or minimize those impacts. The 
concerns EPA raised were not new and had been raised by EPA and other 
agencies during development of the EIS. EPA had hoped the EIS would 
address the concerns because New England needs clean, renewable energy 
projects, and Cape Wind's proposal, if shown not to cause significant 
adverse impacts, has tremendous potential for benefiting the region.

    Question 3c. Will you promise to review this matter personally to 
make sure that EPA is being constructive and helpful in moving this 
project forward?
    Response. Yes. I will make sure that EPA continues to treat this 
project as among the highest priorities and makes diligent, 
constructive efforts to work with the Corps of Engineers to completion 
of the environmental review process. Since commenting on the draft 
environmental impact statement, EPA Region 1 has contacted and met with 
the Corps to discuss their interest in working toward resolving any 
issues and moving the environmental review forward expeditiously.

    Question 4. In Rhode Island, approximately 250 sites meet the 
criteria for brownfields; one of these is the Fields Point Site. 
Although progress has been made, the application process has stalled. I 
believe that it is necessary to take a property, like Fields Point, 
that has sat vacant for decades, on a beautiful shoreline and 
revitalizing it for community use. My question is, how do you see the 
EPA brownfield grant program continuing or evolving under your 
stewardship?
    Response. I will continue to vigorously implement the 2002 
Brownfields Law. Interest in EPA Brownfields grants remains high, as 
demonstrated by the more than 500 applications for the more than 200 
grants that EPA anticipates awarding in fiscal year 2005. EPA will 
continue to emphasize outreach to state and local governments, non-
profit organizations and the private sector, and focus on improving 
performance measures, working with state, tribal and local grantees.
    The Fields Point area is an example of how partnerships can cleanup 
and revitalize brownfields properties. A portion of the area was 
assessed with $150,000 from EPA. Cleanup was undertaken using a 
$700,000 loan from the State of Rhode Island using an EPA Revolving 
Loan Fund grant. An environmental education center is now under 
construction. In another area of Fields Point, the university owning 
the property has assessed the site and applied to EPA for additional 
cleanup assistance. That application is under review and EPA 
anticipates announcing the fiscal year 2005 grants later this spring.
                                 ______
                                 
      Response of Stephen L. Johnson to Additional Question from 
                           Senator Murkowski
    Question 1. EPA's Clean Air Mercury Rule represents a significant 
step in improving America's air quality. This rule makes the United 
States the first country in the world to regulate mercury emissions 
from utilities. I hope other nations will follow the Administration's 
lead. I understand from EPA's analysis that humans are primarily 
exposed to mercury by eating fish that contains methylmercury. I also 
understand the primary source of mercury, especially for the fish most 
commonly found in the marketplace, is from overseas sources, not those 
in the United States. As you know, the seafood industry is very 
important to my State and we don't want seafood harvested in Alaska's 
nearly pristine environment to be affected by pollution from abroad. 
What is EPA's position on seafood consumption? Would you please remind 
us which four species of fish pregnant women and children should avoid 
eating? And would you please give us examples of fish with low mercury 
levels?
    Response. The Clean Air Mercury Rule is an important component of 
EPA's plan to improve the Nation's air quality. I join you in hoping 
that other nations will follow our lead and reduce mercury emissions 
from utilities and other sources.
    EPA continues to recognize that fish and shellfish are part of a 
well-balanced diet that can contribute to heart health and children's 
proper growth and development.
    Nearly all fish and shellfish contain traces of mercury. While not 
an issue for most Americans, some fish may contain higher levels that 
might harm an unborn baby or young child's developing nervous system. 
The risks from mercury in fish and shellfish depend on the amount of 
fish and shellfish eaten and the levels of mercury in the fish and 
shellfish. As a result, the 2004 FDA/EPA Fish Consumption Advisory 
advises pregnant women, women who may become pregnant, nursing mothers, 
and young children to avoid certain types of fish that are higher in 
mercury--specifically shark, swordfish, tilefish and king mackerel. But 
seafood consumption generally is very beneficial and the advisory also 
recommends that this same group eat up to two meals per week of fish 
and shellfish that are low in mercury. Five of the most commonly eaten 
fish that are low in mercury are shrimp, canned light tuna, salmon, 
pollock (including Alaskan pollock), and catfish. In addition, 
Americans can check local advisories about the safety of fish caught by 
family and friends in local lakes, rivers, and coastal areas. If no 
advice is available on local sportfishing species, eat up to 6 ounces 
(one average meal) per week of fish caught from local waters, but don't 
consume any other fish during that week.
    Americans can follow these same recommendations when feeding fish 
and shellfish to young children, but serve smaller portions.

    Question 2. How should regulations recognize unique conditions, 
such as when an area is classified as ``non-attainment,'' but the fact 
of non-attainment is due to uncontrollable environmental conditions, 
such as severe cold-weather temperature inversions (as in Fairbanks, 
Alaska).
    Response. EPA took several steps to help the Fairbanks area come 
into attainment with the carbon monoxide (CO) standard in light of the 
severe cold temperatures occurring in winter months when CO pollution 
is of greatest concern. For example, we provided the area with 
assistance in developing its attainment demonstration. This included 
help in determining the control measures the area would need to attain 
the standard and assistance with its air quality modeling. The steps 
taken by the state and local officials, in combination with national 
control programs, proved to be successful. In July 2004 EPA approved 
the Fairbanks maintenance plan and redesignated the area to attainment 
for CO.
    With regard to your question about unique conditions, such as 
severe cold temperatures, here are policies EPA has put in place. 
Working with State and local governments, EPA has developed two 
policies (Exceptional Events Policy and Natural Events Policy) which 
describe the circumstances under which data affected by certain 
exceptional and natural events may be excluded from regulatory 
decisions such as attainment determinations. When either an exceptional 
or natural event is determined to have significantly contributed to a 
violation of a national ambient air quality standard (NAAQS), our 
policies and guidance have provided for special exemptions in the use 
of the data for regulatory purposes. However, EPA does not exempt 
violations of the health-based NAAQS that occur during uncontrollable 
environmental conditions such as severe cold-weather temperature 
inversions. The National Research Council (NRC) affirmed this position 
in a report entitled ``Managing Carbon Monoxide Pollution in 
Meteorological and Topographical Problem Areas.'' (Fairbanks, Alaska 
was one of the cities included in this report.) The NRC noted that 
granting an exemption to a health-based NAAQS denies protection to the 
general population and susceptible individuals. The NRC report supports 
EPA's long-established policy that it is appropriate for air quality 
managers to consider meteorological and topographical issues when 
determining the emission reductions needed to achieve the NAAQS.

    Question 3. Current science indicates the largest part of any 
industrial atmospheric contaminants present in Alaska are from overseas 
sources, both man-made and natural. How should regulatory action 
recognize and respond to that fact?
    Response. EPA recognizes that some areas in the United States are 
affected by pollution transported from overseas. The Agency has 
policies to adjust its regulatory requirements for areas that can 
demonstrate the impact of such pollution. EPA is also working to reduce 
international transport through participation in international 
environmental negotiations and agreements.
    In keeping with its Exceptional Events Policy (see question #2 
above), EPA currently has a policy related to international events that 
may cause, or significantly contribute to, violations of the ozone 
standard at air quality monitoring sites within the United States. EPA 
is currently working to draft a policy that will address emissions from 
international events that will apply to all of the criteria pollutants. 
This policy will address the treatment of data determined to be 
affected by international events such as emissions from international 
forest fires, Sahara dust, glacial dust, as well as other types of 
emissions from international sources, both man-made and natural, that 
may impact monitoring sites within the United States.
    Section 179B of the Clean Air Act (Act), related to international 
border areas, applies to nonattainment areas that are affected by 
emissions emanating from outside the United States. This section 
requires EPA to approve a State Implementation Plan (SIP) for a 
nonattainment area if: (1) it meets all of the requirements applicable 
under the Act, other than a requirement that the area demonstrate 
attainment and maintenance of the NAAQS by the applicable attainment 
date for the affected pollutant; and (2) the affected State 
demonstrates to EPA's satisfaction that the SIP would be adequate to 
attain and maintain the NAAQS by the applicable attainment date ``but 
for'' emissions emanating from outside the United States. EPA also 
participates in numerous international agreements and cooperative 
working groups which are focused on reducing transported pollution. 
Prominent examples include the 1991 U.S. Canada Air Quality Agreement 
and the 1983 La Paz Agreement between the U.S. and Mexico.
    EPA has also been an active participant in the Convention on Long-
Range Transboundary Air Pollution (LRTAP), which establishes a broad 
framework throughout North American and European regions covered by the 
United Nations Economic Commission for Europe (UNECE) for cooperative 
action on air pollution. LRTAP sets up a process for negotiating 
concrete measures to control specific pollutants through legally 
binding protocols; so far, LRTAP has addressed issues such as acid 
rain, ground-level ozone, persistent organic pollutants (POPs), and 
heavy metals. In 1999, the United States signed a protocol to abate 
ozone, acidification, and eutrophication. Just recently, EPA and LRTAP 
jointly formed a Task Force to conduct the technical analyses necessary 
to develop a fuller understanding of the hemispheric transport of air 
pollutants and provide technical assessments of this transport to LRTAP 
executive bodies for use in Convention Protocols. These efforts are all 
very important to reducing transported pollution.

    Question 4. Dust control is a serious matter in Alaska and other 
western states. What role can EPA serve in assisting states find ways 
to control the problem, especially in isolated rural areas such as 
Alaska villages?
    Response. Wind blown dust is a pervasive air pollution problem 
across parts of the West. The EPA assists the States in a number of 
ways as they search for technically viable and cost-effective solutions 
to dust problems. EPA is currently working closely with the Dust Forum 
convened by the Western Regional Air Partnership (WRAP) of the Western 
Governors' Association and also with the National Tribal Environmental 
Council and the Institute of Tribal Environmental Professionals (ITEP) 
on a number of technical issues related to dust source identification, 
emissions estimation and mitigation. For example, EPA has recently 
worked closely with the State of California to identify control 
measures that the State will require for adoption in specific areas, 
and with ITEP on the development of software to estimate emissions from 
dust and other sources. ITEP also has a grant from EPA to provide 
training to Alaskan Natives.
    EPA has successfully worked with communities to develop solutions 
that are tailored to their specific needs and constraints. An example 
of a very successful effort occurred in the Owens Lake area in the 
Great Basin of California. Other projects are underway in the West that 
we are confident will be helpful to communities and citizens. 
Specifically, EPA has initiated grants with two Alaskan villages to 
monitor air quality and develop solutions to their dust problems. The 
State of Alaska has recently developed a brochure to help guide Alaskan 
Natives toward solutions to their road dust problems.
    Also, one of the most effective ways the EPA can help is by 
providing the appropriate forums to identify technologies and share 
experiences and successes across State, local, and Tribal boundaries. 
Examples of this are the Best Available Control Measures workgroup, the 
annual Emission Inventory Conference (being held April 12-14, 2005 in 
Nevada) and periodic regional meetings with States, local governments 
and tribes.

    Question 5. What role do you see--both for yourself or the agency--
in reconciling contradictory science on the subject of climate change?
    Response. As the Administrator of EPA, I will ensure that the 
agency remains fully committed to using an open, transparent, and 
scientifically rigorous process in evaluating the science of climate 
change. This means that EPA is committed to rigorous peer review of all 
its research and scientific finding, and to the active involvement of 
the scientific community (e.g., the National Research Council), 
interested stakeholders, and policy makers.
    The planning and implementation of EPA's climate science activities 
is closely coordinated with the interagency U.S. Climate Change Science 
Program (CCSP). The CCSP coordinates and integrates scientific research 
on global change sponsored by 13 participating departments and agencies 
of the U.S. Government. Through the CCSP, the EPA develops and provides 
timely, useful and scientifically sound information to decision makers.
    The CCSP is organized to reduce uncertainties in five areas:
    1. Improve the knowledge of past and present climate conditions.
    2. Improve quantification of the forces that bring about climate 
change;
    3. Reduce uncertainty of projections of how the Earth's climate may 
change in the future.
    4. Understand the sensitivity and adaptability of ecosystems and 
human systems to climate change; and
    5. Explore the uses and identify the limits of knowledge to manage 
risks and opportunities related to climate change.
    To address these uncertainties the CCSP Strategic Plan calls for 
the production of over 20 rigorously peer reviewed Synthesis and 
Assessment reports during the next 5 years. EPA is a lead or co-lead 
agency on four reports and will contribute to most of the others.

    Question 6. While it may be primarily an FDA and/or USDA issue, I'd 
also like to ask if you see a role, and if so, what, in which EPA can 
help ensure that foreign seafood processing facilities preparing food 
for export to the U.S. are actually following required HACCP plans, and 
ensure that companies which supply the processing facilities, such as 
aquaculture companies, are not using products such as fungicides and 
pesticides that are permitted in that country, but not permitted for 
U.S. aquaculture operations?
    Response. All food, including seafood--whether of domestic or 
foreign origin--to be sold in the United States--must have a tolerance 
(maximum amount of a pesticide allowed to remain in or on foods). The 
Federal Food, Drug and Cosmetic Act (FFDCA) requires EPA to establish 
or change these tolerances after conducting a risk assessment to ensure 
the food will be safe provided the pesticide is applied legally. Once 
established, EPA publishes these tolerances in the Federal Register.
    FDA uses the tolerances established by EPA when it inspects food, 
including seafood, produced in and outside the U.S. FDA samples 
imported and domestic foods to ensure that pesticide residues are 
within established tolerances or are covered by exemptions. If not, 
they are considered adulterated and are subject to enforcement through 
FDA. FFDCA can prohibit movement in interstate commerce of adulterated 
and misbranded foods.
    Also, through a communication system established by the World Trade 
Organization (WTO), we ensure that our trading partners are aware of 
our rules for accepting their exports to the U.S. We do this by 
notifying the WTO of regulatory actions that could affect international 
trade, which is primarily tolerance actions. So, if EPA establishes a 
new tolerance, changes or revokes an old one, the WTO and all its 
members are informed.

    Question 7. When you appeared before this committee to discuss the 
agency's budget for Fiscal Year 2005, we had a conversation about the 
Village Safe Water Program in Alaska. At the conclusion of that 
conversation, you agreed that the EPA would work with the State of 
Alaska to address whatever concerns that the EPA might have over the 
operation of the program in past years. I hope that I impressed upon 
you the urgency of resolving those differences because nobody in 
America should have to live in a community that lacks basic sanitation 
facilities. My question is what progress has the EPA made since you 
last appeared before this committee to resolve these differences and 
restore funding to this important program?
    Response. EPA has instituted a number of management changes and 
enhanced procedures and tracking systems that improve oversight and 
accountability in the Village Safe Water Program in Alaska.
    I am pleased to report:
    <bullet> The State priority system for selecting candidate projects 
has been revised to directly reflect program goals and objectives;
    <bullet> State funding requests are now required to explicitly 
include goals, objectives and environmental outcomes;
    <bullet> The State Department of Environmental Conservation (DEC) 
has made significant improvements to its financial and procurement 
systems; and
    <bullet> EPA's Regional office in Seattle has assigned a new 
project officer to manage the sanitation grant, and the Village Safe 
Water Program in Alaska DEC is under new leadership.
    Further actions currently underway:
    <bullet> EPA and Alaska are working with the Indian Health Service 
to develop a detailed project tracking and allocation data system to 
document progress toward program goals, objectives and environmental 
measures;
    <bullet> EPA and the State are developing a Memorandum of 
Understanding as well as program guidelines that will stress 
achievement of financial management practices, program management 
accountability, and program performance goals and measures; and
    <bullet> EPA will review the State's FY05 grant application package 
($45 million) for compliance with all Federal requirements and program 
goals.
    EPA will be monitoring the implementation of the Village Safe Water 
Program very closely.

    Question 8. When we first met during this committee's budget 
hearing several weeks ago, I was not certain whether you fully 
understood what the goal of the Village Safe Water program in Alaska 
is. Now that you have had a few weeks to study the matter, I wonder if 
you might explain to the committee what you have learned about the 
sanitation conditions in rural Alaska and whether you think that the 
Village Safe Water program is worthy of continued federal financial 
support?
    Response. The Village Safe Water Program serves approximately 232 
Alaska Native Villages, approximately 80 rural communities, and about 
50,000 households.
    In 1998, at the beginning of this program, about 40 percent of 
households lacked water/wastewater infrastructure; that number has 
improved to 23 percent today. This success is due in large part to the 
$325 million which has been appropriated since 1995.
    The challenges in bringing infrastructure to the remaining 23 
percent include remote locations, scattered populations, poor or frozen 
soils, harsh climate, limited cash economies, poor maintenance, and 
language/cultural barriers.
    I recognize the value of continuing to invest in water and 
wastewater infrastructure in Alaska.

    Question 9. When you last appeared before the committee, I 
suggested that it is important for you to visit Alaska and experience 
the sanitation challenges we face in our remote Alaska Native 
communities. Do you have any plans to travel to my State in the near 
future?
    Response. I appreciated the opportunity to discuss with you prior 
to my confirmation hearing the unique and serious environmental issues 
confronting many communities in Alaska. I appreciated your invitation 
to visit several of these communities to understand first-hand these 
problems. I look forward to accompanying you on such a visit at your 
convenience. In the meantime, I will continue to work with my staff to 
identify solutions for these communities that are cost-effective and 
appropriate given their unique circumstances.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                             Senator Thune
    Question 1. Applicability of CERCLA/EPCRA Release Reporting 
Requirements to Cattle Operations.--A number of cattle producers in 
South Dakota have expressed to me their concern about an issue that I 
believe shouldn't even be an issue for cattle operations but has become 
one in today's climate of citizen suits. The issue is whether or not 
CERCLA and EPCRA release reporting requirements apply to open-air beef 
cattle operations?
    It is my understanding that the EPA has issued a consent agreement 
with the pork, poultry and dairy industries on this subject. Those 
industries are different from cattle operations in important ways for 
purposes of applicability of this law. Those industries house their 
animals in barns and use anaerobic lagoons to treat waste.
    Cattle operations I am concerned about, on the other hand, feed 
cattle in open-air feedlots and use shallow, aerobic precipitation 
retention ponds to catch runoff.
    Under section 104 of the Act, Congress specifically excluded from 
clean up action ``naturally occurring substances in unaltered form, or 
altered solely through naturally occurring processes or phenomena.'' An 
example of a naturally occurring substance cited in the Senate 
Committee Report is ``animal wastes (e.g. beaver excrement)'' which 
produce ammonia and hydrogen sulfide. I believe emissions from manure, 
flatulence and belching in cattle operations fit under this exclusion.
    In addition, EPA has exempted from release reporting requirements 
operations that produce radionuclides. The criteria EPA used for the 
exemption include: (1) continuous low level emissions over large areas; 
(2) rapid dispersion of the emission in the environment; (3) acceptable 
exposure risk (Congress specifically recognized the low risk of low 
level continuous ammonia releases); and, (4) infeasibility and 
inappropriateness of a response. Ammonia and trace hydrogen sulfide 
emissions from cattle operations fit squarely within these criteria for 
an exemption.
    ``Ammonia when used to produce or manufacture fertilizer or when 
used as a nutrient in animal feed'' is specifically exempted from the 
CERCLA tax, due to the ``unnecessary burden'' it would place on 
agriculture. It would be absurd to construe coverage of CERCLA/EPCRA 
release reporting to exempt the application of chemical fertilizers, 
but to treat flatulence, urination and defecation as ``releases'' of 
``hazardous substances'' from ``facilities''.
    I understand that EPA staff is in agreement concerning feedlots not 
being subject to the CERCLA/EPCRA reporting requirements.
    While the EPA has been aware of this issue since December 2003, no 
informal ruling has been given. As the President's nominee to head-up 
the EPA, I would appreciate an official answer to this outstanding 
matter.
    Response. EPA is working diligently on this issue. EPA has met with 
the cattle industry and their representatives on numerous occasions 
have suggested various ways of proceeding to address the reporting 
issue, and remain open to discussing this issue. I will keep you 
informed of our progress.

    Question 2. Given the current status of the Superfund program, do 
you believe that the EPA should look at alternative financial 
mechanisms that would encourage Potentially Responsible Parties (PRPs) 
to reach settlement and begin cleanups sooner? In particular, I'm 
interested in the potential expanded use of work substitute contractors
    Response. EPA will continue to be receptive to innovative financing 
approaches in settlements at Superfund sites. EPA has agreed to 
settlements involving ``work-substitution contractors,'' combined with 
fully-funded insurance programs as financial assurance.
    To date, innovative financing and work substitution approaches have 
been used at a variety of sites, with a variety of PRPs. The PRPs' 
commitment to achieving a settlement with one or both of these features 
is critical, particularly because the PRPs may incur additional, up-
front transactional or financial costs to implement these approaches. 
When innovative financing or alternative work substitution approaches 
are proposed by PRPs at a particular site, EPA has been and will 
continue to be open to considering them.

    Question 3. Would you consider a pilot program in each EPA region 
to identify sites that might be positively impacted by such a new 
approach? While not a panacea for all Superfund cleanups, I believe the 
EPA could allow for greater use of this innovative practice--especially 
in light of the success at the Iron Mountain site in California
    Response. EPA will continue to be open and encourage innovative 
practices such as alternative work substitution approaches when they 
are proposed by PRPs at a particular site

    Question 4. It is my understanding that the States (including South 
Dakota) recently submitted to EPA a third list of fungicides for 
proposed use in combating soybean rust. This list is now before EPA for 
Section 18 emergency exemption review. Several of the active 
ingredients on this third list are already approved for use by farmers 
in South America. As the growing season approaches and U.S. farmers are 
faced with the imminent threat of soybean rust, what assurances can you 
provide that EPA will devote the necessary resources to reviewing these 
products in a timely manner so that our farmers may have access to the 
same tools available to their Brazilian counterparts?
    Response. EPA received a third request under the emergency 
exemption provision of FIFRA for new and additional soybean fungicides 
from the South Dakota and Minnesota Departments of Agriculture. EPA 
intends to process this new request as quickly as possible.
    EPA shares your concern for soybean rust and has made an extensive 
investment in the review of fungicides that are effective in 
controlling the highly destructive plant pathogen that causes soybean 
rust. Eight pesticide products are already fully registered to control 
soybean rust. In addition, EPA has approved 133 emergency exemptions 
for other pesticides to control soybean rust. These include five 
exemptions for South Dakota. These emergency exemptions supplement the 
available registrations and provide growers with products which have 
proven to be effective at controlling the soybean rust pathogen in 
countries where the disease is already established. Overall, there are 
18 products, containing one or more pesticide ingredients, available at 
this time. To help farmers know what pesticides are available, EPA 
maintains a website with up-to-date information on the status of 
available pesticides.
                                 ______
                                 
      Response of Stephen L. Johnson to Additional Question from 
                             Senator Vitter
    Question 1. Mr. Johnson, the restoration of Coastal Louisiana is a 
top priority for me, for the other members of Louisiana's congressional 
delegation, and for the State of Louisiana. In your testimony you 
mention the importance of collaboration to address environmental 
problems such as the Great Lakes.
    In Louisiana, we have an environmental crisis: our coast is eroding 
and wetlands (much of it critical habitat) are disappearing at an 
alarming rate. This also negatively impacts everyone in the nation who 
relies on resources supplied by Louisiana. Once confirmed, how would 
you respond to this problem? How would you incorporate coordination and 
build partnerships collaborate with other federal agencies, the state, 
and local communities? How will you exercise your leadership and devote 
federal resources to restore coastal Louisiana and its wetlands?
    Response. EPA fully recognizes the threat that past and ongoing 
wetland and barrier island loss poses to the safety, economy, and 
culture of coastal Louisiana, as well as the Nation's economy.
    Since passage of the Coastal Wetlands Planning, Protection, and 
Restoration Act (CWPPRA) in 1990, EPA has been working closely with our 
Federal and State partners to develop and implement the most effective 
restoration projects. To date, we have implemented a number of barrier 
island restoration projects, thereby helping to maintain the ecological 
and storm protection functions provided by these important resources.
    We continue to seek innovative strategies that could complement 
barrier island and river diversion efforts. For example, we are 
currently promoting the use of long-distance sediment transport to 
rebuild lost wetlands in the near-term and in strategic locations.
    CWPPRA has proven to be an effective and essential part of the 
overall effort to save coastal Louisiana. However, CWPPRA alone will 
not address the problem. We believe that we must maintain and build 
upon CWPPRA with complementary programs, which focus on a larger scale. 
For this reason, we participated actively with the State, Corps of 
Engineers, and other important stakeholders in the development of the 
Louisiana Coastal Area (LCA) Ecosystem Restoration Plan.
    The LCA Plan is an excellent next step in the effort to save 
coastal Louisiana. However, additional large-scale measures will be 
needed to fully address past and ongoing wetland and barrier island 
losses in coastal Louisiana.
    As Administrator, I would continue EPA's involvement in both CWPPRA 
and the LCA Plan. The multi agency effort and grass-roots public 
participation afforded by CWPPRA are crucial to our success in 
continued restoration of Louisiana's coast. The challenges posed by 
Louisiana's coastal loss are too great to be solved by any one agency 
or by government alone.
                                 ______
                                 
      Response of Stephen L. Johnson to Additional Questions from 
                            Senator Jeffords
    Question 1. Sometime ago, Administrator Leavitt informed the 
Committee that the proposed implementation rule for the fine 
particulate matter standard would be issued by the end of 2004. Can you 
provide a date certain by which that rule will be proposed and become 
final?
    Response. On December 17, 2004, EPA took final action to designate 
attainment and nonattainment areas under the more protective national 
air quality standards for fine particles (PM<INF>2.5</INF>). The 
implementation rule for PM<INF>2.5</INF> will provide guidance to the 
States on a number of issues related to the attainment process, 
including precursor pollutants to be addressed by states, reasonable 
further progress options, and options for area classifications.
    The inter-agency review will be completed shortly, after which time 
I will sign the proposed rule and it will be published in the Federal 
Register. In the interim, we have issued informal guidance to the 
states to assist them as they begin to develop their implementation 
plans.

    Question 2. One of the most successful multi-lateral environmental 
treaties ever negotiated is the Montreal Protocol. I am concerned that 
the U.S. appears to be slower than most other countries in phasing out 
methyl bromide as a soil and building fumigant and that this may 
threaten U.S. participation and compliance with this treaty. Are you 
committed to ensuring that the U.S. remains in compliance with this 
treaty, and what can be done to more rapidly replace methyl bromide 
with substitute compounds and technologies?
    Response. I am committed to the Montreal Protocol, including our 
responsibility to end use of methyl bromide and support the shift to 
alternatives that are safe for the ozone layer. On January 1, 2005, EPA 
phased out production of MeBr, except for limited exemptions. Since 
that time, EPA has worked with the State Department and the Department 
of Agriculture to implement a ``critical use exemption'', as authorized 
by the Parties to the Montreal Protocol.
    I also am committed to rapidly registering good alternatives to 
Methyl Bromide. Reductions in U.S. exemption requests have been 
possible partly because alternatives already registered can displace 
certain existing uses of Methyl Bromide.

    Question 3. The President's budget proposes draconian cuts in the 
EPA ozone protection program, cuts that will force the agency to 
curtail its skin cancer awareness effort, known as the SunWise program, 
and slow its ability to review information on critical use exemptions 
on methyl bromide, as well as approving methyl bromide substitutes. 
Will you support restoring funding for this program?
    Response. I believe it is important to protect children's health 
from preventable disease and I will review funding for this program. 
SunWise has been a highly successful skin cancer awareness program, and 
is now used in over 10,500 schools in every U.S. state to help kids 
understand simple behavior changes that can reduce their risk of 
developing skin cancer later in life.

    Question 4. The Superfund program is withering on the vine. Each 
year, EPA puts out a list of Superfund sites that lack money for 
cleanup. The Elizabeth Mine in Vermont has been on this list year after 
year. The Wall Street Journal reports that the Superfund funding 
shortfall may reach $750 million in 2006. Yet the Administration 
opposes reinstating the Superfund fees and has not proposed to fully 
fund the program. What steps would you take as Administrator to ensure 
that all toxic waste dumps listed on the National Priorities List are 
cleaned up without further delay?
    Response. I strongly support and enforce the ``polluter pays 
principle'' under the Superfund law. The success of the polluter pays 
principle is illustrated by the fact that roughly 70 percent of 
Superfund sites are cleaned up by the parties responsible for hazardous 
waste, an average of $838 million per year to clean sites as mandated 
by EPA. A broader perspective shows that, over the history of the 
program, EPA has required responsible parties to spend more than $21 
billion on cleaning up contaminated properties.
    EPA has always relied upon Congress to appropriate funds for the 
Agency to pay for cleanups at Superfund sites. Superfund program 
appropriations have remained relatively steady over the past 5 fiscal 
years at $1.3 billion to $1.5 billion. The FY 2006 President's Budget 
Request continues to maintain steady funding for the program.
    The Agency is making significant progress in cleaning up Superfund 
sites. Unlike in previous years where smaller, less costly sites were 
targeted for cleanups, we are now addressing large and complex sites 
that present unique clean-up challenges. Cleaning up these sites 
requires a disproportionate share of Superfund money. I can assure you 
however, that new projects that are not funded have been secured, often 
have had prior cleanup work and pose no immediate threat. EPA will not 
put communities at risk and will continue to protect human health and 
the environment.

    Question 5a. The voluntary High Production Volume challenge program 
appears to be making important strides, but I am concerned that it may 
not be receiving the resources it needs. I'm told that EPA is well 
behind in commenting on the industry submitted test plans and in 
reviewing the final submissions. And just recently, the American 
Chemistry Counsel has proposed expanding the HPV program to include an 
additional 500 chemicals. Yet the President has proposed cutting the 
HPV challenge program budget by $850,000. As Administrator, what steps 
will you take to ensure that the HPV program obtains the financial 
resources it needs?
    Response. I am extremely pleased with the success of this 
voluntary, collaborative program. More than 400 companies committed to 
make publicly available basic health and safety information on 2200 
high-production volume chemicals. I am also pleased that the American 
Chemical Council, the Soap and Detergent Association, and the Synthetic 
Organic Chemical Manufacturers Association are building on this success 
by their Extended HPV program which will increase by 500 the number of 
HPV chemicals being addressed through voluntary efforts.
    The Agency is currently experiencing a delay in reviewing and 
posting our comments on test plans submitted by industry. Several 
factors have contributed to this delay, including the large number of 
test plans that come into the Agency at the end of the last calendar 
year instead of over the course of the year. To further speed the 
reviews, EPA is continuing to work on efficiencies that can be achieved 
as our data systems are enhanced and conduct more international 
cooperation. We will post comments on all test plans as they are 
available.
    I believe our current budget request provides the HPV program with 
the resources it needs to fulfill its primary mission of making 
critical chemical information available to the public, while supporting 
the screening and prioritization work on HPV chemicals that EPA will be 
commencing with available resources in FY 2006. I commit to you that 
the Agency will carefully consider the future resource needs of the HPV 
program.
    Question 5b. The HPV program only requires screening level data and 
does not apply to thousands of chemicals produced below 1 million 
pounds per year. As Administrator, what are the next steps you will 
take to ensure that all chemicals used in commercial products--
regardless of production volume--are safe?
    Response. I take very seriously the Agency's responsibility to 
ensure that the chemicals used in commercial products do not present 
unreasonable risks. The Agency has concentrated its current screening 
efforts on the highest volume subset of the chemicals contained on the 
TSCA Inventory. The chemicals included in the initial HPV Challenge 
Program represent about 90 percent of total U.S. chemical production. 
The Agency has other regulatory and voluntary efforts directed at 
chemicals in commerce. Specifically, the Voluntary Children's Chemical 
Evaluation Program involves data collection and risk assessment to 
identify and obtain testing needed for a detailed evaluation of 20 
pilot chemicals that may pose a risk to children. Assessments have also 
been conducted in support of numerous regulatory activities directed at 
lower volume chemicals presenting significant risk potential, including 
the development of Significant New Use Rules on individual chemicals 
and several classes of chemicals, including PFOS derivatives, benzidine 
dyes, and others. In recognition of the ongoing EPA work on HPV 
chemicals, the TSCA section 4(e) Interagency Testing Committee has 
started focusing more of its attention on identifying testing 
priorities for lower volume chemicals.
    Even as we use our TSCA tools to ensure that chemicals already in 
the marketplace do not present unreasonable risks and to take action if 
there are concerns, we also continue to act as a ``gatekeeper'' to 
ensure that all new chemicals are reviewed by the Agency prior to use 
and appropriate actions taken. EPA typically reviews more than 1,500 
new chemicals per year (most of which are lower volume chemicals), of 
which only 50 percent go on to commercial production.
    In the fall of 2003, EPA established the National Pollution 
Prevention and Toxics Advisory Committee (NPPTAC) to provide policy 
advice and recommendations on future directions of EPA's risk 
management and pollution prevention programs. EPA look forward to 
working with the NPPTAC to obtain advice regarding additional steps EPA 
should consider an assessing and managing chemical risks and in 
implementing our pollution prevention programs.

    Question 5c. What is the status of EPA's December 2000 proposed 
test rule requiring manufacturers of the first set of ``orphan'' 
chemicals to develop hazard data, and when does the Agency plan to 
issue additional rules for the remaining ``orphan'' chemicals?
    Response. EPA plans to promulgate the initial HPV test rule this 
fall and to propose the next HPV test rule in the spring of 2006.

    Question 6. While the Administration has halted plans to change 
Clean Water Act rules, I am greatly concerned that the guidance 
document jointly issued by EPA and the Army Corps of Engineers in 
January, 2003 is still in effect. This guidance removes Clean Water Act 
protections for what your agency has estimated to be about 20 million 
acres of wetlands. Given the decision not to proceed with rule changes 
and last year's GAO study which revealed that, at least for Corps of 
Engineers Districts, this guidance is resulting in widely varying 
interpretations of Clean Water Act jurisdiction, has your agency 
reconsidered the need for withdrawal of this guidance and if not, why? 
What are your plans to ensure that the Clean Water Act is consistently 
applied throughout the nation?
    Response. The January 2003 legal guidance states that field staff 
may no longer assert jurisdiction over isolated, intrastate, non-
navigable waters based solely on the migratory bird rule, and that 
agency headquarters approval should be obtained prior to asserting 
jurisdiction over such waters based solely on other types of commerce 
links. The legal memorandum emphasizes that field staff should continue 
asserting jurisdiction over navigable waters, their tributary systems, 
and adjacent wetlands. The memorandum also emphasizes that 
jurisdictional calls must reflect existing regulations and relevant 
case law.
    EPA and the Corps are committed to increasing consistency, 
transparency, predictability, and sound science for the CWA section 404 
program. The agencies are taking a number of steps in response to the 
Supreme Court's decision in Solid Waste Agency of Northern Cook County 
(SWANCC). As we implement these actions and monitor their 
effectiveness, we are continuing to assess the adequacy of existing 
field practices, guidance, and training programs and will take 
appropriate steps to ensure Clean Water Act jurisdiction is correctly 
determined. EPA and the Corps are working together, based on the two 
years of experience will make decisions based upon that experience, 
current information and emerging case law.

    Question 7. The only thing that the Supreme Court struck down in 
the SWANCC decision was the policy of using the presence of migratory 
birds as the sole basis for jurisdiction under the Clean Water Act. 
This is the Department of Justice's interpretation of the SWANCC 
decision. Why didn't EPA and the Corps simply issue a directive to 
field staff, stating that the migratory bird policy is no longer to be 
used alone to establish jurisdiction, but stress that all other current 
Clean Water Act rules should continue to be implemented to the full 
extent of the law? Would you consider that course of action as 
Administrator?
    Response. On January 15, 2003, EPA and the Corps issued joint legal 
guidance that clarified the scope of ``waters of the United States'' in 
light of the U.S. Supreme Court's decision in SWANCC and subsequent 
judicial decisions (68 FR 1991, 1995 (January 15, 2003)). The legal 
guidance directs field staff to no longer assert jurisdiction over 
isolated, intrastate, non-navigable waters based solely on the 
migratory bird rule. Moreover, the legal guidance confirms the 
Agencies' commitment to assert jurisdiction to the maximum extent of 
the law. Consistent with this legal guidance, field staffs at both EPA 
and the Corps continue to implement and enforce programs affecting all 
``waters of the United States'' protected under the CWA after SWANCC. 
As Administrator, I will work with the Corps and, based on the two 
years of experience with the January 2003, guidance, assess the 
continued effectiveness of the guidance and make decisions based upon 
experience, current information and emerging case law.

    Question 8. The EPA/Corps guidance includes a ``phone home'' policy 
whereby regulators that believe it appropriate to assert jurisdiction 
over any water that might be considered ``isolated'' must first gain 
permission from headquarters. How many times has your agency been asked 
to consult on such a decision? Is it feasible that this hurdle may be 
encouraging regulators to ``when in doubt, throw in the towel'' on 
jurisdiction? If not, how do you explain the extremely limited number 
of consultations that have been requested?
    Response. The January 2003, guidance calls for field staff to 
obtain formal EPA and Corps headquarters approval prior to asserting 
jurisdiction based solely on links to interstate commerce. We have 
received six requests for formal headquarters approval, plus an 
additional handful that involved navigable-in-fact isolated waters that 
do not require headquarters approval. Of those six, headquarters is 
seeking additional information on two, found two to be jurisdictional, 
and two to not be jurisdictional.
    We are continuing to assess the adequacy of field practices, 
guidance and training programs and will take appropriate steps to 
ensure Clean Water Act jurisdiction is correctly determined. EPA and 
the Corps are working together, based on two years of experience with 
the guidance, to assess its effectiveness and will make decisions based 
on that experience, current information and emerging case law.

    Question 9. EPA has requested that the Corps of Engineers provide 
reports of their jurisdictional determinations to EPA. What has been 
the response to this request? Has the EPA received sufficient 
information to determine if the Corps Districts are making the right 
decisions with regard to jurisdiction? If not, what do you propose to 
do to ensure that the Clean Water Act is being appropriately 
implemented in all regions of the country?
    Response. The Corps and EPA have been working together to assess 
the resource implications of SWANCC, and the agencies are committed to 
increasing the consistency, transparency, and sound science for the 
Clean Water Act (CWA) section 404 program. As part of this broader 
effort, the Corps Districts have posted information on their websites 
regarding findings of no-jurisdiction, and Corps headquarters has 
shared with us draft summaries forwarded by the Districts and 
Divisions. Analysis of that information is on-going. EPA and the Corps 
are continuing to assess the adequacy of existing field practices, 
guidance, and training programs, and will take appropriate steps to 
ensure CWA jurisdiction is correctly determined. EPA and the Corps are 
working together, based on the two years of experience with the 
guidance, to assess its effectiveness, and will make decisions based on 
that experience, current information and emerging case law.

    Question 10. Are you aware of additional case law that has 
developed since the SWANCC guidance was put in place? Would you agree 
that cases, such as the Fourth Circuit's rulings in U.S. v. Deaton and 
U.S. v. Newdunn and the 6th Circuit's U.S. v. Rappanos have changed the 
legal landscape as summarized in the EPA/Corps SWANCC guidance? 
Wouldn't you agree that the legal summary in the guidance is now out of 
date and misleading to those who do not have access to legal council on 
a daily basis? What are your plans to remedy this?
    Response. EPA and the Corps are taking a number of steps in 
response to the Supreme Court's decision in Solid Waste Agency of 
Northern Cook County (SWANCC). As we implement these actions and 
monitor their effectiveness, we are continuing to assess the adequacy 
of existing field practices, guidance, and training programs, and will 
take appropriate steps to ensure Clean Water Act jurisdiction is 
correctly determined. Together the Agencies, based on two years of 
experience with the January 2003, guidance, will assess its 
effectiveness and make decisions based on that experience, current 
information and the emerging case law affirming the government's 
position in the cases noted in your question.

    Question 11. This Administration has renewed the commitment to ``no 
net loss'' of the Nation's wetlands. How can this possibly be achieved 
if the guidance has removed protection for more than 20 million acres 
of wetlands and we were still losing at least 58,000 acres of wetlands 
prior to the SWANCC decision--despite the best efforts of our Farm bill 
programs, the fine work of groups like Ducks Unlimited, the North 
American Waterfowl Management plan, and others?
    Response. The EPA continues to support and implement the 
Administration's commitment to the goal of ``no net loss'' of wetlands 
under the section 404 regulatory program as well as the President's 
aggressive new national goal to achieve an overall increase of 
America's wetlands each year. To achieve these goals, EPA will continue 
to implement and enforce programs affecting all ``waters of the United 
States'' after SWANCC, to the maximum extent of the law. The 
Administration will also continue to work with our valuable partners to 
achieve these goals through important programs such as those included 
in the Farm bill, which provide a critical link to wetland conservation 
on millions of acres of farm land. As part of the effort to accurately 
track our progress toward this goal, the Administration is committing 
to produce a 2005 version of the National Wetland Inventory, that will 
help provide the agencies with important baseline data.

    Question 12. You served as head of the Director of the Office of 
Pesticide Programs, which is charged by federal laws with ensuring that 
pesticides are used in a manner that does not pose a risk to human 
health. In particular, the laws require EPA to account for the special 
susceptibility of infants and children to the toxic effects of the many 
pesticides they are exposed to. Unfortunately, there have been claims 
that EPA's decisions in the area of pesticide regulation too often 
erred on the side of the interests of the pesticide manufacturing and 
application industries, instead of the health and safety of our 
nation's children. For example, in 2001, EPA reversed a decision to 
require manufacturers of rat poison to include bittering agents that 
would help prevent childhood poisonings, based only on the 
recommendations of pesticide applicators. Similarly, EPA faced charges 
that it had failed to apply a special statutory tenfold safety factor 
to protect infants and children from pesticides in their food. In 
making these decisions, EPA relies almost exclusively on data provided 
by the pesticide manufacturers whose only motive is to sell more of 
their products. Can you give any assurance that as Administrator you 
will give more weight to the laws' presumptions in favor of protecting 
human health, particularly children's health?
    Response. I am committed to ensuring that the laws administered by 
EPA are implemented and enforced in a manner that protects human 
health, particularly children. EPA's decisions during my years with the 
Office of Pesticide Programs have brought significant new safeguards 
for pesticide use and we are already seeing the results. Pesticide 
poisonings of children by chlorpyrifos have fallen dramatically, and 
residues in children's food from a number of pesticides have declined.
    I understand that there has been controversy about some of the 
decisions taken by EPA's pesticide program. In addition to those who 
think we have not ensured sufficient protections, I have heard from 
many who claim the Agency has gone too far. While I believe the Agency 
has acted reasonably with regard to the issues you highlight, I would 
like to provide you with an explanation of our positions.
    Regarding the regulation of rodenticides, in 1999, EPA formed the 
Rodenticide Stakeholders Workgroup as a subcommittee under the 
federally-chartered advisory body, the Pesticide Program Dialogue 
Committee (PPDC), to consider, among other things, the risks to 
children of accidental exposure to rodenticides and potential measures 
to reduce such exposures. This workgroup included representatives from 
the EPA, CDC, USDA, State officials, the medical community, public 
interest groups, the pesticide industry, and members of the general 
public. The workgroup fully considered the possibility of requiring 
bittering agents in rodenticide products as it reviewed information 
presented by a broad range of interested and affected parties. The 
workgroup ultimately recommended against the requirement of bittering 
agents due to the potential for adverse effects on the efficacy of 
rodenticide products. This recommendation reflected their recognition 
of the significant public health risks posed by rodents, and the widely 
held concerns that requiring all products to contain bittering agents 
could hinder efforts to control rodent populations in certain 
circumstances. EPA adopted the workgroup's recommendations, and in 
November 2001 issued a Federal Register notice announcing its decision 
to rescind the bittering agent requirement. While EPA does not 
currently require bittering agents in all rodenticide products, the 
Agency encourages rodenticide manufacturers to incorporate them 
voluntarily in certain products. In fact, many of the rodenticide 
products on the market today do contain bittering agents. Finally, we 
are still in the process of completing our reevaluation of the 
rodenticides, and we will continue to monitor all available information 
on childhood poisonings. As we bring our review to closure, we will 
make sure that appropriate risk mitigation measures are put into place 
to ensure the safety of children.
    Regarding protecting children under the Food Quality Protection 
Act, when establishing or reviewing tolerances under the Federal Food 
Drug, and Cosmetic Act, the EPA is required to apply an additional 
tenfold safety factor to protect infants and children, unless the 
Agency can find on the basis of reliable data that another safety 
factor will adequately protect infants and children. In order to ensure 
that the Agency implemented this critical provision, EPA used a very 
public process to develop guidance explaining how such decisions should 
be made. In addition to seeking public comment, the Agency sought 
advice from its independent expert scientific peer review body, the 
FIFRA Scientific Advisory Panel, on several occasions. Generally, the 
guidance calls for EPA to review the extensive database available on 
each pesticide and to retain the additional tenfold safety factor 
unless we have a sound scientific database to support a change.
    Following this guidance, EPA has made several hundred chemical-
specific determinations under this provision. Each of these decisions 
is fully documented in reviews that are available to the public as part 
of the Agency's public participation process. For just over half of the 
pesticides, EPA concluded that the additional tenfold factor is not 
necessary and therefore may be removed. For the balance of the 
pesticides, EPA has retained some additional safety factor, in some 
case the statutory tenfold factor, and in other cases factors ranging 
from 3 to 30. We believe that examination of the individual chemical 
decisions about safety factors will demonstrate that EPA's conclusions 
are based on scientific assessments.

    Question 13. On October 5, 2004, Senator Sarbanes and I wrote to 
Administrator Leavitt asking why the Agency testified during the last 
Congress that provisions of the Jeffords-Sarbanes/Norton-Waxman Lead 
Free Drinking Water Act of 2004 were ``premature'' when the Agency is 
requiring that the Washington Aqueduct and Sewer Authority perform 
these same actions when dealing with the lead crisis in Washington, DC. 
A copy of the letter follows and I request that you respond.
                                 ______
                                 
                                                   October 5, 2004.
Administrator Leavitt,
Environmental Protection Agency,
Washington, DC.
    Dear Administrator Leavitt: We are writing to you regarding the 
Environmental Protection Agency's implementation, oversight, and 
enforcement of the Lead and Copper Rule and your ongoing review of the 
drinking water regulations pertaining to lead. Earlier this year it was 
first reported that lead levels in the DC public water system were 
significantly higher than federal guidelines, and had been so for more 
than two years. Today, the Washington Post reported that data showed 
cities throughout the nation have avoided the requirements of the Lead 
and Copper Rule by manipulating the sampling and testing process. 
Clearly, it is time for the federal government to take the recent 
threats to our public water systems seriously and impose tougher 
standards and requirements to ensure the public health.
    Lead is a serious health threat to children and pregnant women. It 
is particularly dangerous for children. Children exposed to lead can 
experience low birth weight, growth retardation, mental retardation, 
learning disabilities, and other effects. It is also particularly 
handful during pregnancy.
    On April 7, we introduced the Lead-Free Drinking Water Act of 2004, 
S. 2733, which seeks to strengthen the federal standards for lead in 
drinking water to protect public health. Our colleagues in the House, 
Delegate Eleanor Holmes-Norton (D-DC) and Congressman Waxman (D-CA) 
introduced the House companion bill, H.R. 4268. This legislation used 
the Washington, D.C. lead experience as a blueprint for improvements 
that should be made to the nationwide regulations. This bill would 
provide funding and requirements for replacing lead pipes, it would 
close loopholes in the existing regulations, it would require stronger 
rules for public notice, it would require the removal of lead from our 
schools, and it would revise the definition of ``lead-free.''
    On May 21,2004, the Agency testified before the House Government 
Reform Committee that the ``Lead-Free Drinking Water Act of 2004'' is 
``premature at this time.'' However, there are several weaknesses 
highlighted by the data analysis presented by the Washington Post 
today, and incorporated by EPA in the compliance order for the 
Washington Aqueduct and Sanitation Authority (WASA) which suggest many 
provisions of the legislation are sorely needed.
    For example, the Washington Post article identifies manipulation of 
test results by utilities during the test site selection process, with 
inappropriate elimination of sites, with sample invalidation, and with 
changes in the numbers of homes tested. The Lead-Free Drinking Water 
Act of 2004 requires that the EPA substantially revise the monitoring 
requirements of the Lead and Copper Rule to require more frequent 
monitoring, to ensure that the monitoring is statistically-relevant and 
fully representative of all types of residential dwellings and 
commercial establishments, and to enhance frequency and scope of 
monitoring when water chemistry is changed. In addition, to improve 
enforcement and eliminate fraud with the reporting of test results, the 
Act requires that all lead test results be submitted electronically 
directly to the Administrator or State or local agency. Please explain 
why the Agency opposes improvements to the sampling methodology for 
lead in drinking water proposed by the Lead-Free Drinking Water Act of 
2004.
    The Washington Post article also states that in the spring of 2004, 
EPA regulators identified a series of loopholes in the regulations that 
weaken protections against lead in drinking water. They included: 
nothing requires utilities to notify individual homeowners that their 
water has high lead, and the regulation does not allow the same stiff 
sanctions for high lead that it does for other contaminants such as 
bacteria. The Lead-Free Drinking Water Act of 2004 would require this 
type of notification for homeowners and would require the Agency to re-
evaluate the regulatory structure for lead in drinking water and 
establish a maximum contaminant load or a treatment technique that is 
more protective of human health than current standards. Please explain 
why the Agency testified that the Lead-Free Drinking Water Act of 2004 
was ``premature'' when Agency regulators had identified the exact 
weaknesses in the current EPA regulations that the bill will eliminate.
    In addition, in June 2004, the Agency issued a compliance order 
with WASA, which actually requires many things that are not required by 
current regulations, but are required by the legislation. We are 
pleased that the Agency believes these ideas will improve the public 
health of Washington, D.C., but we are puzzled why the Agency does not 
believe the entire nation should receive the health benefits from these 
improvements which will reduce the public's exposure to lead in 
drinking water.
    For example, the EPA compliance order requires WASA to take several 
corrective actions including:
    <bullet> requires plans for updating its lead service line 
inventory and reporting to EPA
    <bullet> requires WASA to strongly encourage full replacement of 
lead service lines with owners paying for their portion, including 
submission of a plan to EPA for encouraging homeowners to agree to full 
replacement
    <bullet> prohibits the use of the ``test out'' procedure to count 
lead service lines as replaced even if they are not
    <bullet> requires WASA to develop and submit a public education 
plan including public health issues, steps to reduce health risks, and 
take steps to address EPA recommendations on effectiveness of prior 
public education
    <bullet> requires WASA to document to EPA that they have provided 
water filters to all customers suspected or known to have lead 
contamination at no charge as well as those with ``unknown'' service 
line materials
    <bullet> requires WASA to submit detailed sampling plans to EPA.
    Each of these items is required by the Jeffords-Sarbanes/Norton-
Waxman Lead-Free. Drinking Water Act of 2004. Please explain why the 
Agency testified that these actions are ``premature'' when the Agency 
is requiring that WASA perform these same actions.
    We understand that the EPA is conducting an extensive review of the 
Lead and Copper Rule to determine if any changes to the current 
regulations are warranted. We urge you to revise the Lead and Copper 
rule to incorporate the provisions of the Lead-Free Drinking Water Act 
of 2004.
    Some of the parents whose children were affected by the Washington, 
D.C. lead incident wrote to me saying, ``It is our hope that other 
mothers in this country will not have to experience the frustration, 
anger, and fear that we have during the many months that this crisis 
has dragged without resolution.'' Despite our best efforts, today and 
tomorrow, mothers around the country will embark on this same 
experience as they learn more about the lead content of their city's 
drinking water. Safe drinking water is not a privilege; it is a right.
    We urge you to re-evaluate your testimony on the Lead-Free Drinking 
Water Act of 2004 and endorse this legislation so that we can move 
forward quickly. We urge you to quickly revise the Lead and Copper rule 
to incorporate the regulatory elements of this legislation. These 
actions will help restore public confidence is a system that is broken 
and ensure that lead in our water is a thing of our past.
            Sincerely,
                                                     Paul Sarbanes.
                                 ______
                                 
    Response. According to EPA files, responses to this letter were 
mailed on November 12, 2004. I am providing a copy of EPA's response 
for the record.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Question 14. On December 20, 2004 I joined several of my colleagues 
in urging the EPA to reconsider the Agency's proposed guidance 
regarding ``blending.'' I have not received a response. Do you plan to 
reconsider the guidance and take action to protect public health? If 
so, when? If not, why? A copy of this letter follows and I would 
appreciate a response.
                                 ______
                                 
                                                 December 20, 2004.
Administrator Michael Leavitt,
Environmental Protection Agency,
Washington, DC.
    Dear Administrator Leavitt, We are writing to you regarding the 
Environmental Protection Agency's (EPA's) proposed guidance entitled 
``National Pollutant Discharge Elimination System (NPDES) Permit 
Requirements for Municipal Wastewater Treatment Discharges During Wet 
Weather Conditions,'' which was published in the Federal Register on 
November 7, 2003 (68 FR 63042)(EPA Water Docket, ID #OW-2003-0025).
    This policy would permit a process called ``blending'' which mixes 
partially treated sewage with fully treated sewage and discharges it 
directly into receiving waters. We recognize that in extremely limited 
circumstances, when no feasible alternatives exist, blending may 
provide an important, temporary solution to water quality problems 
associated with peak wet weather flows. However, we are concerned that 
EPA's proposed policy puts public health at risk because it would allow 
more frequent use of blending and undo many of the public health and 
environmental gains achieved under the Clean Water Act.
    The main concern with the increased use of blending is its effect 
on the presence of bacteria, viruses, and pathogens in wastewater 
discharges. Some familiar examples commonly found in wastewater are 
cryptosporidium, E. Coli, and giardia, all of which cause intestinal 
illnesses of varying severity. A huge cryptosporidium outbreak in 
Milwaukee, Wisconsin, in 1993 caused more than 400,000 people to become 
ill and more than 100 people died. Secondary treatment and disinfection 
are the two processes most critical to reducing the presence of these 
contaminants.
    The proposed blending guidance would allow water that receives only 
primary treatment to bypass the secondary treatment process and be 
discharged into receiving waters. Disinfection is not required by the 
proposed guidance as a condition of the use of blending, and it is not 
consistently required in areas where human contact with water is 
expected. Because EPA's proposed guidance increases the allowable uses 
of blending, it increases the likelihood that bacteria, viruses, and 
pathogens present in wastewater flows entering treatment plants will be 
discharged and will come into contact with people through swimming or 
drinking water.
    In addition, the Agency's blending guidance undermines the 1994 EPA 
Combined Sewer Overflow (CSO) policy which requires, as part of a long-
term control plan, the evaluation of alternatives to eliminate CSOs. By 
expanding the potential use of blending, it is likely that more 
communities will select blending instead of other alternatives with 
greater water quality benefits. The result will be a missed opportunity 
to clean up the nation's CSO discharges.
    The public health ramifications of moving forward with the proposed 
blending guidance should not be ignored. We urge you to end 
consideration of this guidance.
            Sincerely,
                    U.S. Senators Jim Jeffords, I-VT; Patrick Leahy, D-
                            VT; John Kerry, D-MA; Edward Kennedy, D-MA; 
                            Chris Dodd, D-CT; Joe Lieberman, D-CT; 
                            Frank Lautenberg, D-NJ; Jon Corzine, D-NJ; 
                            Richard Durbin, D-IL; Jack Reed, D-RI; 
                            Harry Reid, D-NV; Hillary Clinton, D-NY; 
                            Charles Schumer, D-NY; Daniel Akaka, D-HI; 
                            Paul Sarbanes, D-MD; and Barbara Boxer, D-
                            CA.

    Response. According to EPA files, responses to this letter were 
mailed on December 30, 2004. I am providing a copy of EPA's response 
for the record.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Question 15. On October 14, 2004, I joined Senator Boxer in a 
letter to the Agency regarding the administration of the Safe Drinking 
Water Act as it pertains to hydraulic fracturing. I have not received a 
response. Please respond to the questions included in this letter as 
described below.
                                 ______
                                 
                                                  October 14, 2004.
Administrator Michael O. Leavitt,
Environmental Protection Agency,
Washington, DC.
    Dear Administrator Leavitt: We are writing to you regarding the 
Environmental Protection Agency's (EPA's) administration of the Safe 
Drinking Water Act (SDWA) as it pertains to hydraulic fracturing. In 
recent months, the Agency has taken several key actions on this issue:
    On December 12, 2003, the EPA signed a Memorandum of Understanding 
with three of the largest service companies representing 95 percent of 
all hydraulic fracturing performed in the U.S. These three companies, 
Halliburton Energy Services, Inc., Schlumberger Technology Corporation, 
and BJ Services Company, voluntarily agreed not to use diesel fuel in 
their hydraulic fracturing fluids while injecting into underground 
sources of water for coalbed methane production.
    In June of 2004, EPA completed its study on hydraulic fracturing 
impacts and released its findings in a report entitled, ``Evaluation of 
Impacts to Underground Sources of Drinking Water by Hydraulic 
Fracturing of Coalbed Methane Reservoirs.'' The report concluded that 
hydraulic fracturing poses little chance of contaminating underground 
sources of drinking water and that no further study was needed.
    On July 15, 2004, the EPA published in the Federal Register its 
final response to the court remand (Legal Environmental Assistance 
Foundation (LEAF), Inc., v. United States Environmental Protection 
Agency, 276F. 3d 1253). The Agency determined that the Alabama 
underground injection control (UIC) program for hydraulic fracturing, 
approved by EPA under section 1425 of the SDWA, complies with Class II 
well requirements.
    We are concerned that the Agency's execution of the SDWA, as it 
applies to hydraulic fracturing, may not be providing adequate public 
health protection, consistent with the goals of the statute.
    First, we have questions regarding the information presented in the 
June 2004 EPA Study and the conclusion to forego national regulations 
on hydraulic fracturing in favor of an MOU limited to diesel fuel. In 
the June 2004 EPA Study, EPA identifies the characteristics of the 
chemicals found in hydraulic fracturing fluids, according to their 
Material Safety Data Sheets (MSDSs), identifies harmful effects ranging 
from eye, skin, and respiratory irritation to carcinogenic effects. EPA 
determines that the presence of these chemicals does not warrant EPA 
regulation for several reasons. First, EPA states that none of these 
chemicals, other than BTEX compounds, are already regulated under the 
SDWA or are on the Agency's draft Contaminant Candidate List (CCL). 
Second, the Agency states that it does not believe that these chemicals 
are present in hydraulic fracturing fluids used for coalbed methane, 
and third, that if they are used, they are not introduced in sufficient 
concentrations to cause harm. These conclusions raise several 
questions:
    1. The data presented in the June 2004 EPA study identifies 
potential harmful effects from the chemicals listed by the Agency in 
this report. Has the Agency or does the Agency plan to incorporate the 
results of this study and the fact that these chemicals are present in 
hydraulic fracturing agents into the CCL development process, and if 
not, why not?
    2. In the June 2004 EPA study, the Agency concludes that hydraulic 
fracturing fluids do not contain most of the chemicals identified. This 
conclusion is based on two items--``conversations with field 
engineers'' and ``witnessing three separate fracturing events'' (June 
2004 EPA Study, p. 4-17.)
    a. How did the Agency select particular field engineers with whom 
to converse on this subject?
    b. Please provide a transcript of the conversations with field 
engineers, including the companies or consulting firms with which they 
were affiliated.
    c. How did the Agency select the three separate fracturing events 
to witness?
    d. Were those events representative of the different site-specific 
characteristics referenced in the June 2004 study (June 2004 EPA Study, 
p. 4-19) as determining factors in the types of hydraulic fracturing 
fluids that will be used?
    e. Which companies were observed?
    f. Was prior notice given of the planned witnessing of these 
events?
    g. What percentage of the annual number of hydraulic fracturing 
events that occur in the United States does ``3'' represent?
    h. Finally, please explain why the Material Safety Data Sheets for 
the fluids identified as potentially being used in hydraulic fracturing 
list component chemicals that the EPA does not believe are present.
    The Agency concludes in the June 2004 study that even if these 
chemicals are present, they are not present in sufficient 
concentrations to cause harm. The Agency bases this conclusion on 
assumed flowback, dilution and dispersion, adsorption and entrapment, 
and biodegradation. The June 2004 study repeatedly cites the 1991 
Palmer study, ``Comparison between gel-fracture and water-fracture 
stimulations in the Black Warrior basin; Proceedings 1991 Coalbed 
Methane Symposium,'' which found that only 61 percent of the fluid 
injected during hydraulic fracturing is recovered. Please explain what 
data EPA collected and what observations the Agency made in the field 
that would support the conclusion that the 39 percent of fluids 
remaining in the ground are not present in sufficient concentrations to 
adversely affect underground sources of drinking water.
    After identifying BTEX compounds as the major constituent of 
concern (June 2004 EPA study, page 4-15), the Agency entered into the 
MOU described above as its mechanism to eliminate diesel fuel from 
hydraulic fracturing fluids.
    3a. How does the Agency plan to enforce the provisions in the MOU 
and ensure that its tenets are met?
    b. Will the Agency conduct independent monitoring of hydraulic 
fracturing processes in the field to ensure that diesel fuel is not 
used?
    c. Will the Agency require states to monitor for diesel use as part 
of their Class II UIC Programs?
    4a. Should the Agency become aware of an unreported return to the 
use of diesel fuel in hydraulic fracturing by one of the parties to the 
MOU, what recourse is available to EPA under the terms of the MOU?
    b. What action does the Agency plan to take should such a situation 
occur?
    c. Why did EPA choose to use an MOU as opposed to a regulatory 
approach to achieve the goal of eliminating diesel fuel in hydraulic 
fracturing?
    d. What revisions were made to the June 2004 EPA study between the 
December 2003 adoption of the MOU and the 2004 release of the study? 
Which of those changes dealt specifically with the use and effects of 
diesel fuel in hydraulic fracturing?
    e. The Agency also states that it expects that even if diesel were 
used, a number of factors would decrease the concentration and 
availability of BTEX. Please elaborate on the data EPA collected and 
the observations the Agency made in the field that would support the 
conclusion that the 39 percent of fluids remaining in the ground (1991 
Palmer), should they contain BTEX compounds, would not be present in 
sufficient concentrations to adversely affect underground sources of 
drinking water.
    We are also concerned that the EPA response to the court remand 
leaves several unanswered questions. The Court decision found that 
hydraulic fracturing wells ``fit squarely within the definition of 
Class II wells.'' (LEAF II, 276 F.3d at 1263), and remanded back to EPA 
to determine if the Alabama underground injection control program under 
section 1425 complies with Class II well requirements. On July 15, 
2004, EPA--published its finding in the Federal Register that the 
Alabama program complies with the requirements of the 1425 Class II 
well requirements. (69 FR No. 135, pp 42341.) According to EPA, Alabama 
is the only state that has a program specifically for hydraulic 
fracturing approved under section 1425. Based on this analysis, it 
seems that in order to comply with the Court's finding that hydraulic 
fracturing is a part of the Class II well definition, the remaining 
states should be using their existing Class II, EPA-approved programs, 
under 1422 or 1425, to regulate hydraulic fracturing. To date, EPA has 
approved Underground Injection Control programs in 34 states. Approval 
dates range from 1981-1996.
    5. Do you plan to conduct a national surveyor review to determine 
whether state Class II programs adequately regulate hydraulic 
fracturing?
    At the time that these programs were approved, the standards 
against which state Class II programs were evaluated did not include 
any minimum requirements for hydraulic fracturing. In its January 19, 
2000 notice of EPA's approval of Alabama's 1425 program, the Agency 
stated, ``When the regulations in 40 CFR parts 144 and 146, including 
the well classifications, were promulgated, it was not EPA's intent to 
regulate hydraulic fracturing of coal beds. Accordingly, the well 
classification systems found in 40 CFR 144.6 and 146.5 do not expressly 
include hydraulic fracturing injection activities. Also, the various 
permitting, construction and other requirements found in Parts 144 and 
146 do not specifically address hydraulic fracturing.'' (65 FR No. 12, 
p. 2892.)
    Further, EPA acknowledges that there can be significant differences 
between hydraulic fracturing and standard activities addressed by state 
Class II programs.
    In the January 19, 2000 Federal Register notice, the Agency states: 
. . . since the injection of fracture fluids through these wells is 
often a one-time exercise of extremely limited duration (fracture 
injections generally last no more than two hours) ancillary to the 
well's principal function of producing methane, it did not seem 
entirely appropriate to ascribe Class II status to such wells, for all 
regulatory purposes, merely due to the fact that, prior to commencing 
production, they had been fractured.'' (65 FR No. 12, p. 2892.)
    Although hydraulic fracturing falls under the Class II definition, 
the Agency has acknowledged that hydraulic fracturing is different than 
most of the activities that occur under Class II and that there are no 
national regulations or standards on how to regulate hydraulic 
fracturing.
    6. In light of the Court decision and the Agency's July 2004 
response to the Court remand, did the Agency consider establishing 
national regulations or standards for hydraulic fracturing or minimum 
requirements for hydraulic fracturing regulations under state Class II 
programs?
    a. If so, please provide a detailed description of your 
consideration of establishing these regulations or standards and the 
rationale for not pursuing them.
    b. Do you plan to establish such regulations or standards in the 
future?
    c. If not, what standards will be used as the standard of 
measurement for compliance for hydraulic fracturing under state Class 
II programs?
    We appreciate your timely response to these questions in reaction 
to the three recent actions taken by the EPA in relation to hydraulic 
fracturing the adoption of the MOU, the release of the final study, and 
the response to the Court remand. Clean and safe drinking water is one, 
of our nation's greatest assets, and we believe we must do all we can 
to continue to protect public health. Thank you again for your 
response.
                                 ______
                                 
    Response. According to EPA files, responses to this letter were 
mailed on December 7, 2004. I am providing a copy of EPA's response for 
the record.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Question 16. What is the incremental benefit to public health, 
quantified wherever possible, over the next 20 years, of the mercury 
rule that you signed recently as compared to the section 112/MACT 
approach outlined in the proposed rule?
    Response. We determined that the multi-pollutant approach of CAIR 
and CAMR provides tremendous public health benefits by focusing first 
on reducing SO<INF>2</INF> and NOx while providing via a two phase 
mandatory emissions cap strong incentives for the further development 
and installation of mercury-specific technologies starting in 2010. By 
2015, the benefits of CAIR and CAMR are $85 billion to $100 billion 
annually.
    Under the MACT approach, new and existing facilities would have to 
meet performance measures to reduce their emissions, usually through 
installation of control equipment. These kind of approaches often 
``lock in'' specific control technologies that become obsolete over 
time, while not providing the appropriate incentives for the 
development and application of more efficient controls. In contrast, 
under the CAIR/CAMR approach, marketable permits for mercury should 
lead to technological advances and cost savings as companies meet the 
declining cap. We fully expect that other countries will be more likely 
to follow the U.S. lead and take action to reduce mercury emissions 
from power plants if control technologies are more cost effective. 
While we are not able to provide you a quantitative estimate of the 
health benefits of greater international action, such action is 
essential for addressing the global sources of mercury. This is an 
important unquantified benefit of a cap-and-trade approach compared to 
a MACT approach.

    Question 17. Prior to signing the mercury rule, did you request a 
briefing or written materials from EPA staff on alternatives to the 
approach selected in that final rule?
    Response. On January 14, 2005, I was briefed on the possible 
regulatory options for the final CAMR. In attendance at that meeting 
were the Assistant Administrators from all major EPA program offices: 
Air; Water; Prevention, Pesticides, and Toxic Substances; Research and 
Development; Enforcement; and the General Counsel along with members of 
their staffs. Follow-up meetings were convened several weeks later for 
the purpose of discussing the modeling results and making final 
decisions on the proper approach for CAMR. Agency analysis of the 
alternatives can be found in the rulemaking docket and, in particular, 
in the Regulatory Impact Analysis.

    Question 18. If you did request and receive such a briefing or 
written materials on alternatives to the approach in the final mercury 
rule, did they indicate that a different approach than the one you 
selected and signed could produce a greater net benefit to public 
health?
    Response. I received many briefings on benefits and costs including 
in-depth discussions of alternative approaches. In particular, I was 
briefed on the relative merits of using a ``command-and-control'' 
(MACT) approach versus a market-based cap-and-trade approach. A MACT 
approach typically would set emission limits per unit of output or 
throughput, allowing total emissions to grow as the number and size of 
sources grow. A cap-and-trade approach, on the other hand, sets a hard 
cap that would insure that emissions would not increase as the economy 
grows. For any level of compliance cost, the flexibility of a cap-and-
trade approach means greater emissions reductions can be achieved than 
with a less flexible MACT approach. I concluded that the combined 
approach of CAMR and CAIR provided significant public health benefits 
and addressed the public health concerns of mercury emissions due to 
power plants.
    When considering the details of a cap-and-trade system, I was 
briefed on several options, including issuing CAIR alone and varying 
the level and timing of the caps of CAMR. When we considered more 
stringent control options, the benefits (in terms of reduced exposure 
to mercury) were relatively small while the costs increased 
substantially. This result is due to a number of reasons. For example, 
control technologies installed to comply with CAIR (scrubbers and SCRs) 
tend to reduce the mercury that is most likely to deposit in the U.S. 
Hence it was difficult to discern any significant difference in mercury 
deposition among more stringent options beyond CAIR and CAMR. Further, 
the costs of the mercury regulation will get passed on to consumers in 
the form of higher electricity prices. Increases in electricity prices 
are highly regressive--lower income families must pay a bigger 
percentage of their income to these costs. In turn, higher priced 
energy leaves less available for health care, nutrition, and other 
important determinants of the quality of life. While these effects are 
hard to model, it is important to note that more stringent regulation 
does not always produce greater public health benefits, let alone 
greater net benefits to society.

    Question 19. You justified revoking Administrator Browner's 
decision, which had found that it was ``necessary and appropriate'' to 
reduce mercury emissions from each and every electric generating unit 
using maximum achievable control technology, by indicating that U.S. 
sources are only a small part of the total global emissions. Should the 
U.S. be negotiating a binding global treaty to reduce those emissions?
    Response. As a more expeditious approach to addressing 
international sources of mercury, the U.S. proposed a series of public/
private partnerships at a meeting of the UNEP Governing Council in 
Nairobi, Kenya in February, 2005. These partnerships would focus on 
reducing the major global sources of mercury. Recognizing that a ``one 
size fits all'' approach will not work for all mercury sources, the 
U.S. proposal seeks to bring together industry experts, governments, 
NGO's and funding organizations to help achieve rapid reductions in 
sectors such as mining, utilities and the chlor alkali sector. This 
approach was supported unanimously by the more than 120 countries 
attending the UNEP meeting.
    EPA, working with the Department of State and others, has already 
started working on these partnerships.

    Question 20. As the Administrator, will you seek to increase staff/
personnel resources for the implementation of the Clean Air Interstate 
Rule? If so, what would you consider to be an appropriate increase? If 
not, why not?
    Response. Now that the Clean Air Interstate Rule (CAIR) has been 
promulgated, the Agency's staff is moving into the implementation 
phase. We have already held a workshop with technical staff from 
Headquarters and the EPA Regional Offices to discuss the level of 
resources that will be needed to assist the states and the utility 
industry to implement the rule. In the near future, we will organize 
similar workshops with staff from state air pollution control offices. 
Additionally, EPA staff is meeting with industry associations, as well 
as individual companies, to explain the regulations and answer their 
questions. The feedback EPA receives from all of these interactions 
will allow EPA managers to develop resource needs to fully support the 
CAIR program.
    Clearly, implementation and compliance monitoring of CAIR will 
require an expenditure of contract monies, as well as staffing needs. I 
plan to discuss these resource needs with senior EPA managers and 
ensure that adequate resources are made available either as part of the 
President's 2007 FY budget request to Congress, or through re-
programming of existing Agency resources.

    Question 21. Prior to signing the Clean Air Interstate Rule, did 
you review the Agency's public report required to be prepared pursuant 
to section 102 (C) of the National Environmental Policy Act to 
accompany the Clear Skies legislation sent up for introduction by 
request in 2003? This law directs the Agency (or responsible official) 
to include in every recommendation for legislation significantly 
affecting the quality of the human environment, a detailed statement on 
several elements, but specifically on alternatives to the proposed 
action. Please provide the Committee with a copy of that report.
    Response. The Clean Air Interstate Rule was not subject to NEPA 
section 102(2)(C), pursuant to the statutory exemption for Clean Air 
Act actions contained in Section 7(c)(1) of the Energy Supply and 
Environmental Coordination Act of 1973, 15 U.S.C. Sec. 793(c)(1). A 
legislative environmental impact analysis was not prepared for the 
President's Clear Skies bill.
    Question 22. In what year will the Clean Air Interstate Rule and 
the Clean Air Mercury rule result in a 70 percent reduction of the 
total national powerplant emissions of each pollutant covered--SOx, 
NOx, and mercury? Please provide the specific data or reference to 
support that projection.
    Response. EPA used the Integrated Planning Model (IPM) for 
projections of SO<INF>2</INF>, NOx, and mercury from the power sector 
under these rules. The cap levels set forth in CAIR and CAMR require a 
73 percent reduction in SO<INF>2</INF>, a 61 percent reduction in NOx, 
and a 69 percent reduction in Hg from 2003 levels. For SO<INF>2</INF>, 
there is a bank of allowances that industry draws down on to reach the 
emissions cap that has been built up from early reductions that 
provided benefits to the public at the outset of the Acid Rain Program 
and near-term early reductions expected before CAIR begins in 2010 
thus, EPA projects that the aforementioned emission reduction will be 
met in 2023. For NOx, modeling does not project a significant amount of 
early reductions or banking for CAIR, so the final reduction will 
likely be met in 2015. For mercury, the model projects a bank of 
allowances building up in the earlier years of the program that come 
from early reductions which are then used at rate in later years that 
leads to hitting the annual 15 ton emissions cap in 2025.

    Question 23. Administrator Leavitt informed the Committee that the 
second phase of the ozone NAAQS implementation rule was to have been 
completed last summer. Can you provide for the hearing record a 
commitment for a date certain by which that rule should be promulgated?
    Response. Due to the number and complexity of issues arising from 
the move to the 8-hour ozone standard, and the large volume of public 
comments received on the proposed implementation rule, EPA decided to 
break the ozone implementation rule into two phases. EPA issued the 
first phase of the rule implementing the 8-hour ozone standard in April 
2004; we are now working to finalize the Phase 2 rule.
    The Phase 2 rule will cover remaining 8-hour implementation issues, 
such as New Source Review, reasonably available control technology 
(RACT), modeling and demonstration, and reasonable further progress. 
The Phase 2 rulemaking was submitted for interagency review on March 7, 
2005. I expect to sign the rule once the interagency process is 
complete.

    Question 24. A significant handicap to replacing ozone depleting 
compounds such as methyl bromide has been the delay in registering new 
compounds that can take its place. What can be done to expedite the 
review and registration of compounds? Can something be done to expedite 
the review process as well as the familiarization of new compounds by 
the affected user groups?
    Response. Since 1997, EPA has registered a number of chemical/use 
combinations, which are providing pesticide users many safe and 
effective alternatives to methyl bromide as quickly as possible. The 
pesticide/crop combinations include:
    2000: Phosphine to control insects in stored commodities;
    2001: Indian Meal Moth Granulosis Virus to control Indian meal moth 
in stored grains
    2001: Terrazole to control pathogens in tobacco float beds
    2001: Telone applied through drip irrigation - all crops
    2002: Halosulfuron-methyl to control weeds in melons and tomatoes
    2003: Trifloxysulfuron sodium as an herbicide for tomato 
transplants in Florida and Georgia
    2004: Fosthiazate as a pre-plant nematocide for tomatoes
    2004: Sulfuryl fluoride as a post-harvest fumigant for stored 
commodities
    In addition, EPA has worked to reduce and tailor the pesticide 
registration data requirements to the extent feasible while still 
ensuring that the Agency's registration decisions meet Federal safety 
standards. Furthermore, EPA scientists routinely meet with prospective 
methyl bromide alternative applicants during the pre-registration 
process to increase the probability that the data are collected and 
submitted correctly for the first time, thus minimizing delays. The 
Agency works with the U.S. Department of Agriculture, pesticide users, 
and others to keep information updated regarding the phase in of 
alternatives, pinpointing the areas of greatest need, and ultimately 
using this information to ensure continued focus on registering methyl 
bromide alternatives.

    Question 25. The Montreal Protocol has been an area in which U.S. 
Government and industry have provided great leadership in implementing 
substitute technologies. I understand that these technologies are under 
attack by other countries, with Europe attempting to ban U.S. 
technologies as part of its climate change regulations, and I also 
understand that the recent efforts to replace methyl bromide have been 
slowed because of the Agency's inability to promptly register 
substitutes. What can you do to assure continued U.S. leadership in 
this area and the protection of the multi-billion dollar investment 
made by American industry on this important issue?
    Response. I can take several steps to assure continued U.S. 
leadership in protecting the ozone layer, and to protect investments 
made by American industry in this important issue. With respect to 
possible trade concerns with the EU, I intend to remain strongly 
engaged at the international level, so that we do not allow what has 
been a scientifically-led process to become a tool of any regional 
trade policy.
    With respect to Methyl Bromide, we need to continue our efforts to 
register alternatives. Finally, we need to apply the same registration 
standards to Methyl Bromide, to make sure that we are subjecting this 
chemical to the same standards required of its ozone-safe alternatives.

    Question 26. Do you believe that Federal facilities should comply 
with the same environmental standards and requirements as are imposed 
on private and non-Federal entities and sources?
    Response. Yes. We must also take into consideration other national 
priorities when advancing environmental protection with regard to 
federal facilities. It has been EPA's experience that the Nation's 
environmental goals can nearly always be achieved in concert with other 
public and national security values. EPA will continue to work 
collaboratively with Congress and other federal agencies, states, 
tribes and other stakeholders toward that end.

    Question 27. Based on your many years of experience at the Agency, 
what do you perceive as the top five greatest involuntary environmental 
health risks faced by the American public?
    Response. The American public deserves to have a clean, safe, and 
healthy environment. Our Nation faces numerous environmental challenges 
today. However, it is very difficult to rank them by level of risk. 
Environmental challenges, such as particulate matter, ground-level 
ozone, and homeland security threats, among others, are all very 
important. I believe we must continue to use sound science to establish 
priorities and to improve the ability to measure our environmental 
progress.

    Question 28. There is great concern that the Agency may weaken and 
relax the current rules and schedule to reduce sulfur in diesel fuel. 
Will you commit to ensuring that the Agency implements and enforces the 
compliance deadlines and requirements in the Highway Diesel Rule and 
the Nonroad Diesel Rule as currently written?
    Response. The Administration remains committed to full 
implementation of our highway and non-road rules limiting emissions 
from diesel engines and fuels. We understand that engine manufacturers 
have spent considerable time, effort, and financial resources on 
developing cleaner engines that require the use of the low-sulfur fuel. 
EPA is working with refiners and pipeline companies to ensure that they 
can meet our aggressive low-sulfur diesel fuel standards on time and in 
a manner that not restrict fuel supply, raise prices to consumers, or 
interfere with the investments made by engine manufacturers.

    Question 29. Please provide a date certain by which time you will 
review the state and local government submissions required to be made 
by December 31, 2004, under the Agency's unauthorized Early Action 
Compact protocol program and make a determination as to whether the 
terms and conditions in the protocol have been complied with in each 
submission.
    Response. EPA expects to issue proposed determinations by May 15, 
2005, and final determinations by September 30, 2005.

    Question 30. By what date will you commit to rescinding the 
``deferred nonattainment designation'' status of those Early Action 
Compact (EAC) areas which have not complied with the terms and 
conditions of the EAC protocol, as determined by your review in the 
preceding question?
    Response. By September 30, 2005, EPA will rescind the deferred 
nonattainment designation status of any EAC areas which have not 
complied with the terms and conditions of the EAC protocol and EPA 
guidance.

    Question 31. To date, the Agency has not added any hazardous air 
pollutants to the list established by Congress in the 1990 Clean Air 
Act Amendments. Section 112(b)(2) of the Clean Air Act requires the 
Administrator periodically review that list and, where appropriate, 
revise that list to add pollutants that present or may present a threat 
of adverse human health or environmental effects. By what date will you 
commit to conducting this review?
    Response. Adding to and removing pollutants from the list is an 
ongoing process which involves the review and evaluation of significant 
amounts of scientific information and is generally carried out through 
the evaluation of outside petitions to the Agency. EPA reviews these 
petitions on a pollutant by pollutant basis to determine whether to add 
or remove the pollutants. Since 1990, the Agency has received 6 
complete petitions to delist hazardous air pollutants. Of these, EPA 
denied one (methanol), approved two (caprolactam and ethylene glycol 
monobutyl ether), proposed to grant one (methyl ethyl ketone) and is 
currently reviewing two (methylene diphenyl diisocyanate and methyl 
isobutyl ketone). EPA is also evaluating two requests to add pollutants 
to the list (hydrogen sulfide and diesel exhaust) and hopes to make 
initial decisions on these by the end of the year. Independent from the 
evaluation of outside petitions, there are data gathering and analysis 
efforts underway within various parts of the Agency to develop better 
scientific information on exposures and health impacts of specific 
pollutants, and to review the list and make recommendations for adding 
or removing pollutants from it. As these efforts come to fruition, we 
will propose to modify the pollutant list accordingly.

    Question 32. Do you believe that it is prudent to take Federal 
actions that will increase total greenhouse gas emissions?
    Response. The prudent course of action at this time is to ensure 
that the projected growth in greenhouse gases is reduced while also 
maintaining our economic growth and improving our energy security. To 
this end, the Administration has implemented a number of programs that 
will reduce greenhouse gas emissions and greenhouse gas intensity. At 
EPA, these programs include EnergySTAR, Climate Leaders, Smartway 
Transport, and the international Methane to Markets Partnership.

    Question 33. The Agency has not yet complied with the schedule that 
it set out to issue a final mobile source air toxics (MSATs) rule. By 
what date will you commit the Agency to promulgating a final MSATs 
rule?
    Response. The schedule for the proposed and final MSAT rule is the 
subject of litigation, and EPA is currently in settlement discussions 
with the litigants. I will inform you of our schedule when it has been 
resolved in the litigation.

    Question 34. Is EPA the first federal agency or department to issue 
guidelines (Guidelines for Carcinogen Risk Assessment EPA/630/P-03/
001b) that establish threshold risk level for cancer that would allow 
the public to be exposed to chemicals that are likely to result in 
cancer in more than one-in-a-million people and can you assure us that 
this approach will not compromise public health?
    Response. The EPA is the only federal agency to issue guidelines 
for risk assessment; and has issued guidelines for carcinogen risk 
assessment since 1976. Since that time, it has been recognized that 
certain carcinogens may act in a way such that cancer is not caused 
until a certain toxic level (a threshold) is reached. In the past, 
several EPA assessments have treated chemicals in this way. Because 
these chemicals have a threshold for carcinogenicity, the risks at low 
dose are below one-in-a-million.
    The new cancer guidelines (released March 29, 2005) guide the risk 
assessor to take all of the data that we have available about a 
chemical into account, and to reflect the data in the choice of model 
selected, the dose-response chosen, and the risk characterization 
itself. There has been no section added to the Guidelines or removed 
that would significantly change the way that potential carcinogens are 
evaluated.
    As always, decisions about the level of protection to the 
population are a risk management decision made by EPA Program Offices 
and Regions, and are not a component of the risk assessment that these 
cancer guidelines address. There is no single agency-wide standard for 
such risk management decisions. Each must be made based on a specific 
set of facts consistent with available statutory and regulatory 
requirements.

    Question 35. Can you assure us that the use of expert elicitations 
in the absence of sufficient peer reviewed studies and data will not be 
used move away from the protective default option of the historically 
referenced one in a million defeat standard and how much weight will 
expert elicitations be given in the weight of evidence narratives in 
deciding carcinogenic risk?
    Response. Expert elicitation is a tool that has been widely used 
for a number of years to help understand the range of expert opinion 
that exists regarding a specific topic. It has not been widely used in 
past risk assessments, although there are quite a few recent examples 
in the peer reviewed literature that demonstrate applications of this 
tool for risk assessment.
    The recently published Guidelines for Carcinogen Risk Assessment 
discuss expert elicitation as one formalized approach that may be used 
to help assess the risk of a chemical. The guidelines do not give this 
approach any more weight than any other in helping to reach conclusions 
about the carcinogenicity of a chemical, although the guidelines state 
that working with actual data on a chemical is preferred.
    The degree of public protection from a carcinogen to be attained 
(e.g., a probability of ``one chance in a million'') is a risk 
management decision and is not a part of the risk assessment process. 
Expert elicitation, along with the results of other parts of the risk 
assessment and the resulting risk characterization, will be provided to 
risk managers for their decision as to the desired degree of 
protection.

    Question 36. In responding to my October 20, 2004, letter, EPA 
again provided a list of the 34 specific projects ranked by the 
Agency's National Prioritization Panel for which there were no funds 
available in fiscal year 2004. Yet EPA failed to provide the specific 
information requested about the extent of the funding shortfall and its 
impact on cleanup activities. Without an accurate picture of 
Superfund's financial needs, Congress cannot have a meaningful 
discussion about whether to fully fund the program to expedite the 
cleanup of toxic waste dumps from across the nation. As Administrator, 
do you commit to providing all of the information requested in the 
October 20, 2004 letter within a month of being confirmed?
    Response. Yes, EPA will provide you with additional information on 
the 34 Superfund projects ranked by EPA's National Risk Prioritization 
Panel that were not funded in FY 2004. Should I be confirmed by the 
United States Senate, you have my commitment that the information will 
be provided within a month of my confirmation.

    Question 37. In your written testimony, you state that the 2002 
brownfields legislation ``holds the promise to transform thousands of 
additional sites across the country into usable, productive land.'' I 
am concerned that the promise of this legislation is being undermined 
by inadequate Presidential budget requests. It is estimated that EPA is 
forced to turn away more than two-thirds of the applicants for federal 
brownfields assessment and cleanup funding due to limited funds. The 
brownfields statute authorizes $200 million through 2006 for site 
assessment, remediation and revolving loan funds. Why does the 
President's 2006 proposed budget only ask for $120.5 million and what 
steps will you take as Administrator to ensure that the brownfields 
program is fully funded?
    Response. In FY 2004, EPA's Brownfields program received $92.9 
million in congressional appropriations for section 104(k) of the 
Brownfields Act and $89.3 million in FY 2005. The FY 2006 President's 
Budget requests $120.5 million which is a $31.2 million increase above 
the FY 2005 congressionally appropriated funding level. The Brownfields 
program continues to remain a priority for EPA and is one of the few 
programs for which increased funding has been requested.

    Question 38. In your written testimony, you note that ``recycling 
and composting of municipal solid waste has increased more than tenfold 
in the last decade.'' Notwithstanding this statistic, the recycling 
rates of many consumer commodities, such as plastic, aluminum and 
glass, are at historic lows. Businesses are finding it increasingly 
difficult to obtain the quantity and quality of recycled feedstock 
needed to meet demand. As Administrator, what steps would you take to 
encourage greater recycling?
    Response. EPA is aware of the recent difficulties encountered in 
recycling specific commodities and the Agency is committed to improve 
the rate of recycling.
    EPA is developing Action Plans under the Resource Conservation 
Challenge which will target selected waste streams in municipal solid 
waste for special emphasis based on generation and recovery rates and 
the potential for increased recycling. We identified these waste 
streams as the most effective focus to help the nation achieve a 35 
percent national recycling rate. Specifically, EPA will have a national 
focus on increased recycling for in three sectors of municipal solid 
waste: paper, containers and packaging, and organics (including food 
waste and yard trimmings). These are large sectors of the municipal 
solid waste stream which that will provide opportunities for increased 
recycling.
    Through these Action Plans, EPA will be providing a national focus 
by engaging the Agency's ten Regional Offices in the effort. However, 
EPA cannot alone increase recycling. It will require collaborative 
efforts with our primary partners--states, tribes, and local 
governments--as well as key stakeholders in business and industry and 
in the environmental community. Businesses, manufacturers, consumers, 
schools, and all Americans have a role in increasing recycling. EPA's 
key role is to engage national stakeholders in broad initiatives.
    In addition to the large-volume waste streams for which EPA will 
design and implement programs which will stimulate and foster increased 
recycling, the Agency is also committed to increasing the recycling of 
electronics materials. Although electronics currently does not 
represent a very large percentage of the municipal solid waste stream, 
it is growing quickly and poses some unique waste management issues. 
Just recently, EPA sponsored a National Meeting with various 
stakeholders interested in electronics recycling. As a result of the 
meeting, a number of specific activities and actions have been 
identified for which further work will be undertaken.

    Question 39. I have heard reports that EPA is considering a 
proposal to authorize radiation doses to the public of 100 millirem per 
year, reversing EPA's longstanding position opposing radiation dose 
limits over 15 millirem per year. Is this correct? If so, is it correct 
that EPA has estimated that a 100 millirem per year standard would 
result in a lifetime risk of 1 cancer incidence in 169 people exposed 
over a 70-year lifespan, far in excess of EPA's acceptable risk range?
    Response. EPA does not plan to weaken its standards for radiation 
protection. EPA has been working on revising a 44-year old Presidential 
Guidance to Federal agencies for protection of the public. The current 
Federal Guidance, as signed by President Eisenhower, includes a 
cumulative public dose limit of 500 millirems/year, which is equivalent 
to a cancer risk of 3 in 100 excess cancers over a lifetime. EPA's main 
objective in revising the old Federal Guidance is to reduce this 
excessively high recommended dose limit, to be more realistic in light 
of the stringent single source standards that EPA and other Federal 
agencies have issued. The draft revised Guidance reinforces and 
strengthens the current public process used by Federal agencies for 
setting individual source limits. EPA continues to rely on the excess 
cancer risk range of no more than 1 in 10,000 excess cancers in a 
lifetime to manage cleanup of radioactive sites.

    Question 40a. Your testimony states that over 90 percent of the 
population served by community water systems receives drinking water 
that meets all health-based standards--up from 79 percent just a decade 
ago. EPA's supporting data for this statement on the EPA drinking water 
website contains a notice stating that these measures are based on 
violations reported by states to EPA's Safe Drinking Water Information 
System (SDWIS). The notice also states that EPA is aware of 
inaccuracies and under reporting of some data in this system. The 
accuracy of SDWIS data is of serious concern. In the District, for 
example, WASA incorrectly reported that the District was under the 15 
ppb lead action level for the 2000 to 2001 monitoring period. This 
problem of incorrect sampling and reporting also appears to be 
occurring nationwide. On October 5, 2004, the Washington Post published 
a story detailing how utilities across the country have manipulated 
their sampling and monitoring programs to avoid exceeding the action 
level. What action is EPA taking to address the accuracy of SDWIS data?
    Response. The states and EPA have made significant strides in 
improving data quality since the first data quality assessment was 
completed in 1999. The data that we receive from states is the most 
robust set of national data that we have on drinking water compliance. 
The Agency has worked with states to develop strategies to continue to 
improve the completeness and accuracy of data and is committing 
substantial resources to SDWIS/STATE, a database software application 
designed jointly by EPA and states, which automates calculations and 
comparisons of utility data to federal and state standards. 
Additionally, the Agency is increasing the frequency of state data 
verification audits that are used to assess the quality of data in 
SDWIS. EPA remains committed to continuing to work with states to 
improve the quality of the data we use in carrying out our programs and 
reporting to the public and has in place a joint plan with the 
Association of State Drinking Water Administrators to address specific 
data reliability concerns that still exist.

    Question 40b. How does your statement on drinking water safety 
reconcile with EPA's recent report on lead contamination in medium and 
large water systems (January 2005) which shows that over 10.2 million 
people, since 2000, are served by water systems that exceed the 15 ppb 
lead action level?
    Response. First, it is important to note that an exceedance of the 
action level is not, in itself, a violation of drinking water 
standards. A violation is assessed when the utility fails to take the 
actions required by the regulations related to public education, 
monitoring, and potentially, lead service line replacement. Our SDWIS 
data indicate that 2.5 million people were served by utilities that had 
a violation of treatment technique for the Lead and Copper Rule in FY 
2003. Second, although the data posted in January 2005 showed that 10.2 
million people were served by systems that had exceeded the action 
level at some time since January 2000, it is unlikely that the entire 
population served by those systems were exposed to elevated levels due 
to the nature of lead in drinking water (e.g. from plumbing, not the 
source water). For example, in the greater Boston area, monitoring 
indicated that the action level was only exceeded in fewer than half of 
the 28 communities served by the water authority. Therefore, the entire 
service population of more than 2 million did not receive water over 
the action level. Nevertheless, EPA agrees it is important that all 
customers of public water systems receive water that meets the lead 
action level.

    Question 40c. What is EPA doing to address the 10 percent of the 
population that is served by community water systems that do not meet 
all health-based standards?
    Response. EPA is committed to working with states that have primary 
enforcement responsibility for ensuring that utilities meet all health-
based drinking water standards. The Agency is providing training and 
technical assistance to states and utilities to ensure that they 
understand regulatory requirements and to strengthen their capacity to 
comply with the regulations. EPA's Regional enforcement staff also 
works with states to address significant non-compliers, which are those 
utilities that have persistent violations of drinking water standards.

    Question 41. The President's budget is proposing to cut the Clean 
Water Act State Revolving Loan Fund (SRF) by a staggering $361 million, 
or by a third, compared to the FY 2005 appropriation of $1.1 billion. 
In your testimony before the committee, you remarked that the costs for 
addressing aging water infrastructure far exceed EPA's budget and are 
staggering for our cities and communities. What steps will you take as 
Administrator to ensure that water infrastructure is a priority and 
that the problem of combined sewer overflows is addressed?
    Response. Water infrastructure is a priority for the Administration 
and I commit to giving personal attention to this issue. EPA has made a 
substantial investment in the nation's wastewater systems by helping 
states establish a permanent source of infrastructure funding. Since 
1987, EPA has provided nearly $23 billion to capitalize the CWSRF-
nearly three times the original CWA authorized level of $8.4 billion.
    In FY 2004, the President's Budget presented a long-term plan to 
address national water infrastructure needs, which included an 
extension of federal funding of the CWSRF until 2011. The Bush 
Administration's commitment to provide $6.8 billion between 2004-2011 
represents a $5.1 billion increase over the commitment of the previous 
Administration. EPA's FY 2006 request continues to support that long-
term plan.
    On January 31, 2003, EPA convened a forum on ``Closing the Gap: 
Innovative Solutions for America's Water Infrastructure'' to facilitate 
a dialogue to define the vision and identify a strategy for sustainable 
infrastructure. As a result of this initiative, the Agency is working 
in partnership with the states, water utility industry and other 
stakeholders to ensure sustainability of water and wastewater systems. 
This includes: promoting water efficient products; promoting actual use 
costing of water; promoting management techniques for reducing long 
term costs and improving performance and sustainability; and expanding 
watershed approaches to identify effective local infrastructure 
solutions.
    The Report to Congress: Impacts and Control of CSOs and SSOs issued 
on August 26, 2004, presents a comprehensive characterization of CSOs 
and SSOs, including the extent of environmental and human health 
impacts caused by CSOs and SSOs, the technologies used by 
municipalities to address these impacts, and the resources spent by 
municipalities to control CSO and SSO discharges. The Report finds that 
there are many existing structural and non-structural technologies that 
are well-suited for CSO control. We look forward to working with 
Regions and states to address the findings of the Report. In addition, 
EPA's 1994 Combined Sewer Overflow Control Policy, codified in the Wet 
Weather Water Quality Act of 2000, provides flexible guidance to 
consider the site-specific nature of CSOs and find the most cost-
effective way to control them. EPA continues to work with states and 
CSO communities to develop and implement their long-term control plans, 
including: characterizing their combined sewer systems; monitoring the 
impacts of CSOs on waterways; and discussing water quality and CSO 
control goals with permitting authorities, water quality standards 
authorities, and rate payers. EPA encourages municipalities to take 
advantage of opportunities that exist to evaluate water pollution 
control needs on a watershed management basis and to coordinate CSO 
control efforts with other point and non-point source control 
activities.

    Question 42. You testified, in answer to a question from Senator 
Carper, as follows, `` I will conduct the analysis that has been 
requested by this Committee, yourself included, if there is agreement 
on what analysis needs to be done.'' It is not clear from your 
testimony whose agreement you are seeking. I ask whether you agree that 
each legislator, regardless of whether a Chairman of a Congressional 
Committee, is entitled to request information from the executive 
agencies (in accordance with the holding of the D.C. Circuit court in 
Murphy v. Deprtment of the Army, 613 F. 2d 1151, 1157 (D.C. Cir. 1979) 
which concluded ``all Members have a constitutionally recognized status 
entitling them to share in general congressional powers and 
responsibilities, many of them requiring access to executive 
information . . . Each of them participates in the law-making process; 
each has a voice and a vote in that process; and each is entitled to 
request such information from the executive agencies as will enable him 
to carry out the responsibilities of a legislator.'')?
    Response. The Department of Justice's long-standing guidance to all 
executive agencies is that only the Speaker of the House, the President 
of the Senate, and the chairman of a committee or subcommittee are 
entitled to privileged documents exempted under from the Freedom of 
Information Act. This has also been EPA's long-standing position, fully 
supported by my Office of General Counsel. That said, I respect your 
oversight responsibility and I commit to working with you to address 
your information needs.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                             Senator Baucus
    Question 1. Will you visit Libby, Montana as soon as possible after 
you are confirmed?
    Response. I appreciate your invitation to visit Libby, Montana, and 
I look forward to making the trip as soon as possible if and when I am 
confirmed. As you stated in your remarks at my confirmation hearing on 
April 6, visiting Libby will not only help me to better understand the 
scale of the cleanup challenge at Libby, it will also help members of 
the community understand that we are committed to solving this 
environmental problem.

    Question 2. The Libby community is deeply concerned about the EPA's 
approach to cleanup and remediation of the former Stimson Lumber mill 
property in Lincoln County. Lincoln County hopes to use this property 
as an industrial park and to stimulate economic development. The EPA 
made a commitment to the community in a workshop that the EPA sponsored 
several years ago, to stand firm with Libby and support completing the 
Stimson cleanup in a way that also helps the community use the site in 
the manner they have proposed. The community is concerned that the EPA 
is dragging its feet here. Will you look into this situation and report 
back to me on how the EPA will fulfill its commitment to the community?
    Response. EPA will keep its commitments to Libby. EPA has taken a 
number of steps to assist with the cleanup and the economic 
redevelopment of the Stimson Lumber mill property. EPA will begin 
cleanup of the Central Maintenance building at the Stimson Lumber Mill 
property within the next two weeks (April 18th). This will allow the 
current and future business tenants to work safely in the Central 
Maintenance building of the facility.
    EPA continues to work with the local authorities to assist with 
their efforts to stimulate economic development in Libby. Last summer, 
the Lincoln County Port Authority constructed a motocross track at the 
Stimson Property for a special event. EPA assisted the Port Authority 
by taking soil samples in the area to assess risk of exposure to 
recreational visitors at the track. There were no detectable 
concentrations of asbestos in any of the soil samples and EPA approved 
construction of the track. Further, in 2004 EPA established a 
Cooperative Agreement with the Lincoln County Port Authority, 
committing $50,000 to development of site plans and design related to 
future use of the property.

    Question 3. The EPA made a commitment to me on two occasions and to 
Libby community leaders to detail a half time employee in Libby to work 
on economic development and marketing. This hasn't happened and the 
people in Libby continue to ask for this. This person could also help 
the community with creative approaches to leveraging the Brownfields 
program for economic redevelopment in Libby. Will you follow through on 
EPA's commitment?
    Response. Perhaps there has been some confusion between EPA's 
commitment to hire a full time construction manager for Libby with the 
request for a half-time EPA employee to work on economic development 
issues in the town. EPA has had a full time remedial project manager 
and his half-time assistant working from EPA's Denver office for 
several years to support the important work at Libby. Additionally, we 
are currently in the process of recruiting for a full time project 
manager who will reside in Libby. We anticipate this position will be 
filled within 1-2 months. This new employee--on the ground in Libby--
would ensure that the clean up activities move at a brisk pace. To the 
extent he or she has time, discussions with current or prospective 
businesses regarding the ``cleanness'' or ``safeness'' of Libby as a 
location for economic development would be part of this person's job. 
EPA Thoroughly reviewed the issue of supporting a half-time employee 
dedicated to economic redevelopment and marketing in Libby. While EPA 
has assisted in economic redevelopment within its response authority 
under CERCLA at Superfund sites and will continue to do so at Libby, 
funding a position that focuses on marketing related to Libby economic 
growth or tourism is not within EPA's Superfund authority. Furthermore, 
EPA's top priority at Libby is to address the human health and 
environmental threat by minimizing exposure to Libby asbestos 
contamination at existing residences and other commercial properties.

    Question 4. Lincoln County officials and I have been pressing the 
EPA to work with us to develop a proactive plan to address what to do 
with buildings and homes that cost more to clean, than to tear down and 
replace with new structures. It is my understanding that the EPA has 
some latitude and discretion here but will not exercise its discretion. 
I believe this would require some out-of-the box thinking on EPA's 
part, but the folks in Lincoln County and me (and the taxpayers) are 
concerned by the mounting cleanup costs, and the fact that EPA will 
often spend $80,000 to $100,000 or more to clean a home worth only 
$30,000. Will you look into this situation and report back to me with 
proposals as to how EPA can take a different approach here?
    Response. I also believe that Superfund cleanups should be 
protective of human health and the environment and be cost-effective 
and efficient. It is my understanding that the average cost of cleanup 
at a residential home in Libby is now $30,000.
    The costs involved in demolition and replacement of any residence 
or commercial property in Libby are considerably more than $30,000. The 
costs associated with the construction process include the demolition 
itself, disposal of the debris, and restoration of the property to a 
suitable condition to rebuild. Other government costs include temporary 
relocation assistance, personal property storage payments, and the cost 
of fair market or replacement value for the demolished structure. In 
order for the government to approve of this process, these combined 
costs must be less than the cost of cleanup of a particular residence. 
In most cases, the cost of demolition and then rebuilding far exceeds 
the cost of cleanup.
    EPA's plans to demolish several structures in Libby are the result 
of extensive research, engineering evaluation and planning, which 
concluded that the work would be cost-effective. The properties 
included in these plans have unique factors related to the structural 
integrity of the buildings, or to the level of contamination within a 
particular home.

    Question 5. In general, how will you manage the Superfund program 
as Administrator and how will you ensure that priority Superfund sites 
around the country, particularly Libby, Montana, continue to receive 
adequate funding to protect the public's health and welfare given the 
funding constraints the program is now facing due to am empty Superfund 
Trust Fund?
    Response. Superfund program appropriations have remained relatively 
steady over the past 5 fiscal years and EPA's FY 2006 budget request 
maintains steady funding.
    I will continue to have the Superfund program supplement its 
appropriated funding by regularly reviewing Superfund contracts and 
other funding mechanisms to determine whether unspent resources are 
available for use in the current fiscal year. Over the past 4 fiscal 
years, EPA has de-obligated more than $500 million in this manner to 
fund new construction projects.
    EPA obligated $256 million of FY 2004 appropriations for Superfund 
cleanup construction. Nearly $195 million of these resources were used 
to fund ongoing projects like Libby, Montana. In FY 2004, EPA conducted 
a total of 678 on-going cleanup projects at 428 sites (this includes 
EPA lead, PRP lead, and federal facility sites). I can assure you that 
EPA will continue to protect human health and the environment by 
cleaning up hazardous waste sites and Libby, Montana will continue to 
be one of EPA's top cleanup priorities.

    Question 6. As you know, Montana (along with many other states) is 
experiencing an exploding methamphetamine epidemic. One of the side-
effects of meth production is the toxic chemicals it leaves behind, 
posing a direct threat to public health and safety. Funds to clean-up 
these mini toxic waste sites are hard to come-by. Please tell me your 
thoughts on how we might leverage the Brownfields program to clean-up 
some of these sites, for instance by developing a pilot program within 
the larger Brownfields program.
    Response. The assessment and cleanup of methamphetamine labs are 
among the statutory eligible uses of brownfields funding. To date, EPA 
has seen a very small number of applications by localities for the 
brownfields competitive grant program for assessment and cleanup of 
these properties. However, our state and tribal grant program under 
section 128 of the Brownfields Law has seen several states applying for 
and receiving funding to address outreach, education and assessment of 
these types of properties for local entities. Examples of states 
addressing these issues include Kansas, Missouri and Minnesota.
                                 ______
                                 
      Response of Stephen L. Johnson to Additional Questions from 
                           Senator Lieberman
    Question 1a. You commented in your testimony today and in recent 
meetings with staff and with members of this Committee that you fully 
support the use of the best science to make Agency decisions, and that 
Agency decisions require an ``open and transparent decision-making 
process.'' Yet the EPA has been criticized recently by GAO and EPA's 
own Inspector General, who concluded that EPA did not conduct 
appropriate cost-benefit analysis of its proposed mercury rule, and 
appeared to choose its reduction target based on the levels the 
President proposed in his Clear Skies Initiative, not based on the 
technology review required by the Clean Air Act.
    Does your principle of applying the best science apply 
retroactively to decisions made before your confirmation?
    Response. The CAMR represents the first time that the federal 
government, or any nation, has regulated mercury emissions from the 
fleet of power plants. I am proud of this. The CAMR rulemaking process 
was one of the most rigorous and thorough in EPA's history. This level 
of rigor was appropriate given the importance of the decision and the 
great deal of public interest in the issue. Claims that the process and 
our review of the science were anything less than rigorous or 
comprehensive are simply untrue.
    Science inquiry is an iterative process and is always evolving. 
Regulatory decisions, however, must be made based on the best 
information at a given point in time. We will continue advancing and 
monitoring the science in this important field and, if future 
information warrants, I am committed to taking additional appropriate 
action.

    Question 1b. Do you believe that we will have mercury-specific 
control technology available in this country before 2018?
    Response. I have listened carefully to many different experts on 
the topic of the availability of mercury-specific control technologies. 
EPA's Office of Research and Development wrote a White Paper--Control 
of Mercury Emissions from Coal-Fired Electric Utility Boilers: An 
Update (March 2005)--that details the information on tests and explains 
their professional judgment about the future availability of 
technology. The white paper states:
    As discussed in this document, since the release of the earlier 
White Paper, additional data, mostly from short-term tests, have become 
available on mercury control approaches for power plants. Also, a broad 
and aggressive RD&D program is underway, which will yield experience 
and data in the next few years. Accordingly, ORD continues to believe 
that PAC injection and enhanced multipollutant controls will be 
available after 2010 for commercial application on most, if not all, 
key combinations of coal type and control technology to provide mercury 
removal levels between 60 and 90 percent. However, considering the 
progress made with halogenated PAC sorbents and other chemical 
injection approaches, it is now believed that optimized multipollutant 
controls may be available in the 2010-2015 timeframe for commercial 
application on most, if not all, key combinations of coal type and 
control technology to provide mercury removal levels between 90 and 95 
percent. Such optimized controls could include less expensive use of 
sorbent (PAC or halogenated PAC) injection with enhanced SCR and/or 
enhanced FGD systems. See page 29 of http://www.epa.gov/ttn/atw/
utility/ord--whtpaper--hgcontroltech--oar-2002-0056-6141.pdf
    This paper was a part of the Agency's CAMR rulemaking (and is 
available in the docket). Based on this information, I believe that 
mercury-specific control technologies will be available for many power 
plants in advance of the 2018 phase II cap. The economic incentives 
inherent in the two-phase cap-and-trade program finalized in the CAMR 
will serve to advance the technologies such that they are widely 
available for use in complying with the Phase II cap.

    Question 1c. Members of my staff have had conversations with 
vendors who have indicated that control technology is available today, 
and will soon be applied in many states that have more stringent 
mercury standards that the federal Clean Air Mercury Rule. Why does the 
mercury rule require no real reductions until 2018 if technology will 
be available much sooner?
    Response. Substantial reductions will take place in 2010. The final 
CAMR that I signed dovetails with CAIR and together these two rules 
provide for a flexible, multipollutant approach to reducing 
SO<INF>2</INF>, NOx, and mercury from the power sector. These two rules 
provide strong incentives for the installation of a large number of 
scrubbers and SCRs that will reduce SO<INF>2</INF> and NOx, 
respectively, and will also reduce mercury emissions, particularly the 
types of mercury that matter most for reducing U.S. deposition.
    This approach provides significant public health benefits by 
focusing on reducing SO<INF>2</INF> and NOx while providing strong 
incentives for the further development and installation of mercury-
specific technologies starting in 2010, well in advance of 2018. We 
expect that this approach will lead to the development of less costly 
technologies for reducing mercury emissions.

    Question 1d. Will you apply the principles of the ``best science'' 
to the mercury rule by re-evaluating the proposed rule in light of the 
reports that a Harvard study funded by EPA itself, a study that found 
estimated health benefits from mercury control considerably greater 
than those the Agency has publicly claimed, was ignored in development 
of the rule, despite indications that EPA received the results of the 
study by its stated January deadline?
    Response. On March 24, 2005, I received a letter from Senators 
Leahy, Boxer, Jeffords, and Kerry that asked the same question. Please 
find my attached response, which was sent on April 5, 2005.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Question 1e. What are your specific plans for addressing the 
shortcomings identified by the GAO and the EPA Inspector General 
regarding regulation of mercury?
    Response. The CAMR rulemaking process consisted of a proposed rule, 
a supplemental proposed rule, a public comment period in both 
proposals, an extension of the comment period, and solicitation of 
public comment on a Notice of Data Availability. The IG characterized 
the process as incomplete before the process was completed.
    The GAO report encouraged EPA to pursue additional economic 
analysis. We agreed and, in fact, were already in the process of 
finalizing a number of the analyses the GAO report requested or cited 
as informative. These analyses are part of the supporting documents for 
the final CAIR and CAMR.

    Question 2. According to the National Academy of Sciences report 
from June 2001, a report requested by the Bush White House:
    ``Greenhouse gases are accumulating in Earth's atmosphere as a 
result of human activities, causing surface air temperatures and 
subsurface ocean temperatures to rise. Temperatures are, in fact, 
rising. The changes observed over the last several decades are likely 
mostly due to human activities, but we cannot rule out that some 
significant part of these changes are also a reflection of natural 
variability.''
    Do you agree that global warming is occurring? Do you agree that 
the 1990s were the hottest decade on record? Do you agree that a 
significant portion of the warning that has occurred over the last 50 
years is due to human activity? Even if there are uncertainties about 
the precise impacts from continued emissions growth, isn't it dangerous 
to let CO<INF>2</INF> concentrations keep rising to levels that have 
not been seen in the history of the human race? Are you aware that the 
administration's voluntary ``goal'' for CO<INF>2</INF> emissions would 
allow emissions to continue rising by 14 percent over the next decade?
    Response. Like the President, I agree with the findings of the 
National Academy of Sciences report. I also agree that we need to take 
steps to reduce the projected growth in emissions of greenhouse gases 
like CO<INF>2</INF>. We need to develop and implement ways of reducing 
greenhouse gas emissions that will also maintain the strength of our 
economy, and we are taking strong steps to confront this long-term 
challenge. The President has proposed a program to address both the 
technological and scientific challenges we confront as well as a series 
of immediate actions to reduce greenhouse gas emissions in the United 
States and abroad. I believe that these actions--which at EPA focus on 
programs like Energy STAR, Smartway Transport, Climate Leaders and the 
international Methane to Markets Partnership--are a strong and 
effective response to the challenge we face.

    Question 3. There are concerns in the scientific community that our 
current lead exposure standard is not sufficiently protective, 
particularly with regard to children. What are your plans for having 
the Agency review the science and making a determination as to whether 
updated, stricter standards are needed?
    Response. Reducing exposure to lead has been an important issue for 
EPA for more than two decades. While the hazard standards are a 
critical part of EPA's lead poisoning prevention program, they are most 
effective as part of the Agency's broader program designed to educate 
the public and raise public awareness of the health effects of lead. 
The hazard standards are based on a thorough review of the best science 
that was available to the Agency at the time the standards were issued 
in 2001. EPA recognizes, however, that the science is constantly 
developing and with it our understanding of the relationship between 
exposure and health impacts. At such time as new data become available, 
the Agency will consider changing the standards to reflect these data.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                             Senator Boxer
    Question 1a. Mr. Johnson, the trade publication Inside EPA has on 
its web site a copy of a study authored by EPA's water office examining 
the cardiovascular benefits of utility mercury controls ``Benefits of 
Reducing Mercury in Saltwater Ecosystems.'' Notably, that study was not 
made available to the public at any time before you signed the power 
plant mercury rule--including during the public comment period in 
December 2004 when EPA specifically requested comment on the 
cardiovascular impacts of mercury from power plants. Indeed, EPA still 
has not made it publicly available, as far as I am aware, and its 
findings were never discussed in the final rule.
    This agency study appears to be in line with the Harvard study that 
EPA refused to take in account or discuss in its final rule. The water 
office study ``concludes that reducing mercury by 30 percent would 
create $541 million in benefits in the Southeastern U.S. from improved 
cardiovascular health in humans and mercury reductions in marine fish 
and shellfish. The study consistently found that 85 percent of total 
benefits could be ascribed to reductions in cardiovascular disease, 
with the remainder made up by IQ improvements, for a total annual 
benefit of $600 million.'' ``EPA Study Backs Rejected Harvard Effort On 
Mercury Control Benefits,'' Risk Policy Report Daily News--Thursday, 
March 31, 2005. In view of your statements on basing policy on sound 
science, it is surprising that this was suppressed and not considered. 
Please explain your rationale was for not including or considering this 
study in the course of the mercury rulemaking?
    Response. The Office of Water report is a case study to focus 
attention on data and knowledge gaps and suggest areas for research 
priorities to address those uncertainties. The final CAMR rulemaking 
considered the same underlying science but did not rely on the results 
of the Office of Water study because the study is undergoing internal 
review and has not undergone external peer review. The Agency also has 
concerns with the large uncertainties surrounding the study's 
quantitative estimates and assumptions made by the study.

    Question 1b. Will you make this study available to this Committee 
and include it in the final rulemaking docket for the power plant rule? 
And since EPA does not have the excuse that this study was ``too late'' 
to be considered by the agency, as you have claimed about the Harvard 
study, why was this study not made available for comment and review 
during the public comment period and before you signed the final power 
plant rule?
    Response. As described above, the Office of Water case study is 
undergoing internal peer review but has not undergone any external peer 
review. When the document has been peer reviewed and is final, we will 
make it public and share it with the Committee. In the final rulemaking 
for CAMR, we relied on the same underlying science as was used in the 
Office of Water case study. The Agency's benefit methodology, including 
peer reviewed case studies, are described in detail in the supporting 
documents for the final rule. We took comment on our benefits 
methodology in the proposal and further in the Notice of Data 
Availability.

    Question 2a. Mr. Johnson, were you aware that EPA staff were 
attempting to meet with outside cardiovascular researchers and experts 
in January of this year while the power plant mercury rule was being 
developed? According to EPA sources, political appointees at the agency 
prevented that meeting from taking place before you signed the rule. 
Can tell us why this was done? Do you believe that meeting with experts 
on the cardiovascular effects of mercury was relevant to the rulemaking 
and the decision to exclude the NESCAUM study?
    Response. Over the past year, Agency staff and managers were 
briefed by several of the leading cardiology researchers on the studies 
looking at the potential cardiovascular impacts of mercury exposure. 
The Agency carefully reviewed the peer-reviewed literature. A detailed 
discussion of that literature can be found in the Regulatory Impact 
Analysis supporting the rule.
    I was aware that Agency scientists were exploring options for 
initiating a meeting among relevant federal agencies that would include 
presentations from and panel sessions including individuals outside the 
federal government. The scientists were planning to hold the meeting 
after the close of the comment period. I was concerned that holding the 
meeting at such a late stage in the rulemaking process and after the 
close of the comment period would have greatly jeopardized the Agency's 
ability to issue the final rule in accordance with its legal deadline 
and the requirements of the Administrative Procedures Act.
    As I said in my oral testimony before the Committee in April, and 
the Agency said in the preamble to the final CAMR, EPA will continue to 
monitor and advance scientific developments in the understanding of 
mercury, and if new evidence warrants, EPA is committed to reevaluating 
the CAMR. I look forward to having our scientists work with other 
applicable agencies, especially FDA, to continue to look at the issue 
of the health impacts of methylmercury exposure.

    Question 2b. Will you commit to making available to EPW Committee 
staff all EPA staff involved with the question of cardiovascular harms 
from mercury, the Harvard study, the EPA water office study, and the 
cancelled meeting with cardiovascular experts so that Congress can get 
to the bottom of this important public health matter?
    Response. I would be happy to work with the Committee to schedule a 
meeting on this important issue. As always, we stand ready to provide 
the Committee with an opportunity to talk with the Agency's lead 
experts on issues before the Committee.

    Question 2c. Will you commit to providing to this Committee all EPA 
documents, including emails, discussing these same issues and the 
planned meeting, as well as a list of the planned and invited 
participants?
    Response. However, I understand and respect the oversight role over 
the Environmental Protection Agency and I will commit to respond fully 
to oversight requests by the Chairman on behalf of the Committee. Most 
of the information specifically requested here are internal 
deliberative communications and hence privileged.

    Question 3. Mr. Johnson, as you know, the Clean Air Act required 
EPA to make a finding as to whether mercury and other air toxics 
emitted from power plants should be regulated as ``hazardous air 
pollutants''. EPA found that they should. However, in your mercury 
rule, you overturn this finding, without justification or the required 
notice or comment. This action ensured that mercury would not be 
controlled in three years in the most protective fashion using state of 
the art controls, called ``Maximum Achievable Control Technology'', as 
is required by law. It is worth pointing out that is how mercury is 
controlled when emitted from a variety of other of sources, including 
incinerators.
    You have been asked by me and some of my fellow Senators and 
members of the public to ``stay''--or put on hold--this decision. Will 
you commit to ``staying'' EPA's March 29th mercury ``rescission'' and 
delisting rulemaking while judicial review of this rule takes place, 
and commit to going back and considering all the benefits of regulating 
power plant mercury pollution more quickly and more rigorously?
    Response. Before I respond to your specific question concerning 
mercury and the recently promulgated Clean Air Mercury Rule (CAMR), I 
want to make sure that the Agency has been clear about the nature and 
sources of risk from mercury. We are exposed to methyl mercury through 
the fish we eat. Reduction of emissions from U.S. power plants may 
affect local freshwater ecosystems, but will not significantly reduce 
ocean concentrations. The importance of this point cannot be 
understated because the vast majority of fish and shellfish Americans 
consume come from ocean waters, and only a small portion of fish and 
shellfish consumed are freshwater recreationally caught fish. To 
suggest that there is a quick fix to the mercury problem in the U.S. 
would be misleading. EPA continues to recognize that fish and shellfish 
are part of a well-balanced diet that can contribute to heart health 
and children's proper growth and development. The best way for women of 
childbearing age, pregnant and nursing mothers, and young children to 
realize the benefits of eating fish and shellfish and be confident that 
they have reduced their exposure to the harmful effects of mercury is 
to follow the EPA-FDA Fish Advisory issued last year.
    The CAMR represents the first time that the federal government, or 
any nation, has regulated mercury emissions from the fleet of power 
plants. I am very proud of this. The CAMR rulemaking process was one of 
the most rigorous and thorough in EPA's history. This level of rigor 
was appropriate given the importance of the decision and the great deal 
of public interest in the issue. Claims that the process and our review 
of the science were anything less than rigorous or comprehensive are 
simply untrue.
    Since we finalized the rule, we have received at least one 
administrative stay request and have been sued in the U.S. Court of 
Appeals for the District of Columbia Circuit. Several groups have also 
informed us that they intend to file administrative reconsideration 
petitions. Until the Agency has had an opportunity to review all of 
this material, it would be inappropriate and premature for me to commit 
to a particular action. That said, I have several concerns with staying 
the rule. First, I believe the CAMR rule is valid--legally, 
scientifically, and as a matter of policy. Second, staying the rule 
would leave mercury unregulated. Even if one believes that our final 
rule should have been more stringent, that belief would not justify 
staying the rule. As EPA said in the preamble to the final rule, if 
future information demonstrates that additional control is warranted, 
EPA is committed to reopening and reevaluating the CAMR standards. 
Finally, EPA was legally obligated to finalize the CAMR by March 15, 
2005. A stay of the rule would raise questions as to whether we met our 
legal obligations.

    Question 4. Mr. Johnson, please provide the most current TRI data 
on mercury.
    Response. The most recent TRI data can be found at http://
www.epa.gov/tri/. For your information, the Agency relied in large part 
on the National Emissions Inventory (NEI), not the Toxics Release 
Inventory (TRI) you reference in the CAMR rulemaking for a variety of 
reasons. For one, the NEI incorporates information from the 1999 
Information Collection Request (ICR) data, the only test data for a 
large number of utility units employing a variety of control 
technologies currently available to the Agency. The most recent 
released NEI is for 1999 (found at http://www.epa.gov/ttn/chief/net/
1999inventory.html) and we are currently reviewing the 2002 NEI, which 
we expect to release later this year.

    Question 5. At this year's budget hearing, I asked you to provide 
me with a list of sites ready for Superfund clean-ups in priority 
order. You had said you would provide it. This commitment was also made 
by Acting Assistant Administrator Tom Dunn. Mr. Dunn informed my staff 
that the most current list, which I understand is subject to change, 
would be provided. Despite these commitments, to date the EPA has not 
provided this information. This information is critical and especially 
timely, as the appropriations process has already begun and communities 
and families are dependent on this funding for securing their health 
and safety. More importantly, our communities and families have a right 
to know whether their government intends on meeting its obligations. 
Can you commit to me today, that you will provide this list to me by 
the end of the week, if not sooner?
    Response. EPA is still in the process of making final funding 
decisions for new cleanup projects in fiscal year 2005. Final funding 
decisions for new construction starts are not expected until September 
of this year. I can assure you that when the final new construction 
start information is available, we will transmit the information to the 
committee. It is my understanding that the list of construction starts 
in fiscal year 2004 was sent to you pursuant to the commitment made 
during the recent budget hearing.
    There are a number of dynamic factors which affect the funding 
decision-making process for new construction starts. For example, EPA 
does not yet know the total amount of money that may become available 
through deobligations. Also, in some cases, delays in the remedial 
design or other site specific circumstances will result in a site not 
being ready for construction during this fiscal year.
    All Superfund remedial action funding decisions are made in close 
coordination with EPA regional offices after a careful review of each 
project. These discussions result in a better understanding of the 
project schedule, type of project activities, and when in the fiscal 
year estimated funding requests would be needed.

    Question 6. My understanding is that the EPA has prepared a 
document describing and listing which Superfund sites present a direct 
and immediate threat to human health. A version of this document was 
leaked to the press, which is how I came to learn of its existence. 
Because peoples' very health and lives are at stake, this information 
is of utmost importance. Will you commit to me today to making any 
similar documents and related information available to me immediately?
    Response. I understand that in response to your request at EPA's 
recent budget hearing, EPA provided your office with the list of 
Superfund new construction projects that did not receive funding in FY 
2004. I am not familiar with the specific document you are describing 
in your question.
    EPA is still in the process of making final funding decisions for 
new cleanup projects in Fiscal Year 2005. Final funding decisions for 
new construction starts are not expected until September of this year. 
I can assure you that when the final new construction start information 
is available, we will transmit the information to the Committee.

    Question 7. We have spoken before about the need for better 
communications and more openness from your Agency. I want to confirm 
with you now, that if I need to call your office and ask for 
information, I will get responses promptly and fully. This information 
is essential to Congress' oversight role. Will you again pledge to 
improve this vital communications link and be responsive and prompt 
with me and all other Members?
    Response. Yes, EPA will strive to communicate information in an 
effective, timely manner with all members of Congress and Congressional 
Committees.

    Question 8. Given the Superfund program's serious funding problems, 
will the Administration support reauthorization of the Superfund taxes 
paid by polluters? If not, how will you ensure that funding shortfalls 
for cleanups are met?
    Response. I strongly support and enforce the ``polluter pays 
principle'' under the Superfund law. The success of the polluter pays 
principle is illustrated by the fact that roughly 70 percent of 
Superfund sites are cleaned up by the parties responsible for hazardous 
waste, an average of $838 million per year to clean sites as mandated 
by EPA. A broader perspective shows that, over the history of the 
program, EPA has required responsible parties to spend more than $21 
billion on cleaning up contaminated properties.
    EPA has always relied upon Congress to appropriate funds for the 
Agency to pay for cleanups at Superfund sites. Superfund program 
appropriations have remained relatively steady over the past 5 fiscal 
years at $1.3 billion to $1.5 billion. The FY 2006 President's Budget 
Request continues to maintain steady funding for the program.
    The Agency is making significant progress in cleaning up Superfund 
sites. Unlike in previous years where smaller, less costly sites were 
targeted for cleanups, we are now addressing large and complex sites 
that present unique clean-up challenges. Cleaning up these sites 
requires a disproportionate share of Superfund money. I can assure you 
however, that new projects that are not funded have been secured, often 
have had prior cleanup work and pose no immediate threat. EPA will not 
put communities at risk and will continue to protect human health and 
the environment.

    Question 9. As you know, there are many critically important 
Superfund sites across America that are underfunded and not being 
cleaned up. Yet families and communities are expecting their government 
to keep its promise and remediate these areas. What efforts is the EPA 
making to give notice to communities that their clean-ups are being 
delayed due to underfunding?
    Response. The Superfund program has the most extensive community 
involvement process of any environmental statute including the 
authority to award technical assistance grants to communities to help 
them be active participants in the cleanup process.
    EPA will continue to involve the community in every significant 
Superfund program milestone from listing on the National Priorities 
List (NPL) to choosing and constructing a remedy. I agree with you that 
when EPA lists a site on the NPL and starts cleaning up a Superfund 
site, the Agency has a commitment to finish the cleanup. EPA will keep 
communities informed of a Superfund site's status and progress, whether 
the cleanup milestone is performed earlier than anticipated or takes 
longer than anticipated. History has taught us that community support 
of a Superfund cleanup remedy is vital to the effectiveness of the 
remedy.

    Question 10. How many participants were recruited for the CHEERS 
study? Please provide all information, including documents, on anyone 
recruited for the study.
    Response. On April 8, 2005, I cancelled the Children's Health 
Environmental Exposure Research Study. Last fall, in light of questions 
about the study design, I directed that all work on the study stop 
immediately and requested an independent review. Since that time, many 
misrepresentations about the study have been made. EPA senior 
scientists have briefed me on the impact these misrepresentations have 
had on the ability to proceed with the study.
    I have concluded that the study cannot go forward, regardless of 
the outcome of the independent review. EPA must conduct quality, 
credible research in an atmosphere absent of gross misrepresentation 
and controversy.
    Please see the attached table for data on the number of 
participants that were recruited for CHEERS. As is the norm, all files 
(including personal information) are maintained by contractors and are 
confidential.


                               Attachment
              Contractor CHEERS Telephone Screening Summary
                   October 15 through November 5, 2004
------------------------------------------------------------------------
              No. of Subjects                          Status
------------------------------------------------------------------------
114.......................................  Total number of individuals
                                             who said they would be
                                             interested in the study
71........................................  Total number not yet
                                             contacted when stop work
                                             order was received.
43........................................  Total number contacted
31........................................  Completed Telephone
                                             Screening
17........................................  Eligible-Completed Telephone
                                             Screening
14........................................  Ineligible-Completed
                                             Telephone Screening
12........................................  Unknown Eligibility (started
                                             telephone screener-partial
                                             complete)
------------------------------------------------------------------------


                      Home Screening Visit Summary
                   October 15 through November 5, 2004
------------------------------------------------------------------------
              No. of Subjects                          Status
------------------------------------------------------------------------
33........................................  Home Screening Completed
14........................................  *In Progress
                                            Contractor was in the
                                             process of contacting
                                             potential participants to
                                             set up home screening visit
                                             when stop work order was
                                             received.
------------------------------------------------------------------------


    Question 11. Please provide the names and offices of EPA personnel 
involved in the development and implementation of the CHEERS study and 
a detailed description of their role in the study program.
    Response. Dr. Roy Fortmann, EPA/ORD, Principal Investigator and 
alternate-Task Order Project Officer; Dr. Nicolle Tulve, EPA/ORD, 
Principal Investigator and Task Order Project Officer; Dr. Suzanne 
McMaster, EPA/ORD, co-Principal Investigator; Dr. Lisa Melnyk, EPA/ORD, 
co-Principal Investigator.
    The Task Order Project Officer directs the work of the contractor 
who would actually implement the study in the field by collecting the 
samples and survey information. The Alternate Task Order Project 
Officer does this work in the absence of the Task Order Project 
Officer.
    The Principal Investigator (PI) is the lead person for design and 
implementation of the study, including integrating the contributions of 
the co-Principal Investigators (co-PIs). The PI will serve as the 
technical expert in his/her particular area of expertise and will 
synthesize the inputs of co-PIs so the overall effort is cohesive and 
answers the questions/objectives of the study. In this case, two 
people, Dr. Roy Fortmann and Dr. Nicolle Tulve, shared that 
responsibility as a team. Dr. Fortmann's particular area of expertise 
is human exposure assessment and exposure factors. Dr. Tulve's area of 
expertise is multi-media pathways and exposure.
    The co-Principal Investigators have responsibility for the 
scientific merit of the study in their particular areas of expertise. 
They work with the Principal Investigators to ensure that the 
components of the study for which they are responsible are 
scientifically sound and address the questions/objectives of the study 
in their own areas. This study had four co-Principal Investigators. Dr. 
McMaster's expertise is in neurotoxicology and assessment in infants 
and children. Dr. Melnyk's expertise is in exposures through foods and 
handling of foods.
    The following individuals had responsibility for the review and 
oversight of research. Because this took place over a 2.5 year period, 
different individuals were in different positions throughout the course 
of the study.
    Dr. Linda Sheldon, EPA Office of Research and Development (ORD), 
National Exposure Research Laboratory, Human Exposure and Atmospheric 
Sciences Division (HEASD)--Associate Division Director for Science, 
Acting Division Director; Dr. Jerry Blancato--Acting Division Director 
(HEASD), Acting Associate Laboratory Director (NERL)--NERL's Human 
Subjects Research Review Official in that capacity Dr. Larry Cupitt--
Associate Laboratory Directory (NERL)--NERL's Human Subjects Research 
Review Official in that capacity; Dr. Gary Foley--NERL Laboratory 
Directory; Dr. Peter Preuss--EPA's Human Subjects Research Review 
Official.

    Question 12. Please provide all information, including written 
information, provided to potential participants in the CHEERS study, 
including but not limited to information related to waivers of 
liability.
    Response. Potential participants were given a CHEERS study flyer 
(attached) with contractor contact information and an EPA web site for 
further information. Only 3 subjects completed the home screening 
visit. No one actually was enrolled into the study. Therefore at most 3 
potential study participants were given a Participant Consent form at 
the time of the home screening visit. EPA's pesticide program's 
educational material on the safe handling of pesticides around children 
was to be given to all study participants. All participants were to be 
educated on the safe handling of pesticides around children and given 
contact information on using Integrated Pest Management practices in 
lieu of pesticides. (Note: some of the materials are attached herewith; 
the remainder will be hand-delivered).

    Question 13. Please identify all pesticides or chemicals that were 
to be considered in the CHEERS study. For each pesticide or chemical, 
please provide a description of any data EPA has collected or is aware 
of historically on the risks associated with that chemical and any 
limitations or instructions on the use of those chemicals around 
children.
    Response. CHEERS was intended to be an observational study to 
measure chemicals in the home environment. Thus, the CHEERS pesticides 
and chemicals were a list of those that we proposed to measure in 
environmental samples. This was not a list of the pesticides/chemicals 
that participants would be required to apply or use. Sampling was 
intended to measure concentrations that resulted from normal use 
patterns. Participants were not expected to change their everyday 
patterns of use (unless we observed that something harmful was being 
done). All of the pesticides on the attached list are registered for 
indoor use, thus we might have expected to find them in environmental 
samples in the home. This is similar to approaches used by CDC and the 
National Health and Nutrition Examination Survey (NHANES). They analyze 
a large number of chemicals in blood and urine, but they are not 
expecting that all individuals in the population will be exposed to all 
of the pesticides on the attached list.


                                                   Attachment
----------------------------------------------------------------------------------------------------------------
                                                                        Brominated
                                                                           Flame
               Pesticides                          Phthalates            Retardant     Perfluorinated Compounds
                                                                         Congeners
----------------------------------------------------------------------------------------------------------------
Allethrin (cis/trans)...................  Butyl benzyl phthalate.....           47   PFOS
Bifenthrin..............................  Dibutyl phthalate..........           99   PFOA
Cyfluthrin..............................  Diethyl phthalate..........          100   Me-FOSE-OH (2-(N-
                                                                                     methylperfluorooctanesulfon
                                                                                      ami
                                                                                     do)ethyl alcohol)
Cyhalothrin.............................  Di(2-ethylhexyl) phthalate.          153   Et-FOSE-OH (-(N-
                                                                                     ethylperfluorooctanesulfona
                                                                                      mid
                                                                                     o)ethyl alcohol)
Cypermethrin............................  Diisononyl phthalate.......          154   ...........................
Deltamethrin............................  Diisodecyl phthalate.......          181   ...........................
Esfenvalerate...........................  ...........................          183   ...........................
Fenpropathrin...........................  ...........................          190   ...........................
Imiprothrin.............................
Permethrin (cis/trans)..................
Prallethrin.............................
Pyrethrin...............................
Resmethrin..............................
Sumithrin...............................
Tetramethrin............................
Tralomethrin............................
Chlorpyrifos............................
Diazinon................................
Piperonyl butoxide......................
Fipronil................................
DEET....................................
----------------------------------------------------------------------------------------------------------------


    EPA has rigorous regulatory programs for both pesticides and 
chemicals. All pesticides sold or distributed in the United States must 
be registered by EPA, based on scientific studies showing that they can 
be used without posing unreasonable risks to people or the environment. 
The discussion in the attachment is the available EPA information on 
risk of these pesticides and chemicals.

                               Attachment
    Status of Pesticides in CHEERS.--The 21 pesticides included in 
CHEERS have all been registered by EPA. Over half (11) also are subject 
to reregistration because they were initially registered prior to 
November 1984 and must be reevaluated to ensure that they meet current 
scientific and regulatory standards.
    <bullet> 10 of the CHEERS pesticides are new pesticide active 
ingredients initially registered after November 1, 1984. These 
pesticides were evaluated against current scientific and regulatory 
standards and found to meet current requirements for registration. They 
should not pose unreasonable risks to human health and the environment, 
including risks to children, when used in accordance with their EPA-
approved label directions and precautions. Those pesticides are:

        <bullet>  Bifenthrin
        <bullet>  Cyfluthrin
        <bullet>  Cyhalothrin
        <bullet>  Deltamethrin
        <bullet>  Esfenvalerate
        <bullet>  Fenpropathrin
        <bullet>  Imiprothrin
        <bullet>  Prallethrin
        <bullet>  Tralomethrin
        <bullet>  Fipronil

    <bullet> FIFRA as amended in 1996 provides for review of all 
pesticides on a recommended 15 year cycle to make sure they continue to 
meet current scientific and regulatory standards for registration. 
These 10 pesticides and all other registered pesticides will be 
reevaluated in the future through the Registration Review program. The 
Agency expects to publish the final Registration Review rule in 2006, 
with implementation starting in 2007.
11 CHEERS Pesticides Subject to Reregistration
    <bullet> Eight pesticides subject to reregistration are currently 
under review and decisions for these pesticides are scheduled to be 
completed between now and the end of September 2008. These pesticides 
and their anticipated RED completion dates are as follows:

        <bullet>  Allethrin - 2007
        <bullet>  Cypermethrin - 2006
        <bullet>  Permethrin - 2006
        <bullet>  Pyrethrin - 2006
        <bullet>  Resmethrin - 2006
        <bullet>  Sumithrin - 2008
        <bullet>  Tetramethrin - 2008
        <bullet>  Piperonyl butoxide - 2006

    <bullet> Three of the pesticides subject to reregistration have 
completed reregistration, they include: chlorpyrifos, diazinon, and 
DEET. See summaries below.
    Diazinon and Chlorpyrifos. EPA completed its review of residential 
uses of chloripyrifos and diazinon in 2000. Both compounds had 
extensive homeowner and residential uses which could potentially expose 
children. After reviewing the toxicology databases for both of these 
organophosphorus compounds, the Agency found that there was a potential 
for adverse exposures to children through uses in and around the home. 
Virtually all residential uses of chloripyrifos were cancelled, with a 
retail stop sale date of December 2001. All residential uses of 
diazinon were cancelled, with a phase-out ending all retail sales of 
indoor products by December 2002 and retail sales of outdoor 
residential products by December 2004.
    Although residential use of these two pesticides were cancelled in 
2002 and homeowners do not report applications, we still detect 
measurable concentrations in samples taken from nearly all homes. These 
pesticides are also routinely measured in dietary samples. Thus, the 
Agency felt it was important to document their continued prevalence in 
environments where children spend time.
    DEET. EPA completed the DEET reregistration in 1998. The Agency has 
carefully considered whether DEET's use has been implicated in seizures 
among children. The Agency believes that the incident data are 
insufficient to establish DEET as the cause of the reported effects. 
However, because of DEET's unusual use pattern (direct application to 
human skin and clothing) and its association with seizure incidents, 
the Agency believed it was prudent to require clear, common sense use 
directions and improved label warnings and restrictions on all DEET 
product labels. These label changes have been implemented.
PolyBrominatedDiPhenylEthers (Brominated Flame Retardants):
    To supplement a voluntary phase-out of two common flame retardant 
chemicals scheduled for the end of this year, EPA is taking action to 
ensure that no new manufacture or import of two flame retardant 
chemicals occurs after January 1, 2005, without first being subject to 
Agency review. The two chemicals, Penta and Octa are part of a chemical 
group called polybrominated diphenyl ethers, or PBDEs, and have been 
used as flame retardants in commercial products such as furniture foam 
and structural plastics in small electronic appliances and computers.
    This action follows a November 3, 2003 announcement by the Great 
Lakes Chemical Corporation, the only U.S. manufacturer Penta and Octa, 
who agreed to voluntarily phase-out production of these chemicals by 
December 31, 2004. This regulatory procedure by EPA, known as a 
Significant New Use Rule, will ensure that prior to any manufacture or 
import of these chemicals, EPA will have 90 days to evaluate potential 
risks, and can prohibit or limit any new use or activity that may pose 
a concern. EPA is concerned that manufacturing could be restarted in 
the future, and this action provides EPA the opportunity to evaluate 
and control future uses associated with both Penta and Octa.
    Phasing out these two chemicals, while spurring the development of 
safer alternatives, without compromising the benefits derived from 
flame retardant use, are priorities for EPA and various stakeholders. 
To promote these goals and to explore the safety of alternative flame 
retardant chemicals, EPA has convened a group of stakeholders in its 
Furniture Flame Retardancy Partnership, that includes chemical 
manufacturers, the furniture industry, government agencies, and 
consumer groups
PFOA/PFOS:
    PFOA is a persistent chemical causing systemic and developmental 
toxicity in animal studies and has a half-life in humans measured in 
years. In April 2003, EPA released a preliminary risk assessment for 
PFOA, and started a public process to identify and generate additional 
information needed to strengthen the risk assessment. In February 2005, 
the Agency presented a draft preliminary risk assessment to the SAB for 
review to ensure that innovative approaches being used in the 
development of the risk assessment are scientifically sound. Comments 
from the SAB should be provided to the Agency this summer. The Agency 
has an aggressive effort underway to better understand the potential 
risks that this essential ingredient used in the manufacture of a wide 
range of non-stick surfaces may pose to the public. EPA is actively 
engaged in a formal process with industry and other stakeholders which 
is resulting in voluntary commitments to test PFOA and routes of human 
exposure. These efforts will assist the Agency in determining, if 
necessary, appropriate risk management actions.

    Question 14. Please provide a description of previous studies done 
on the chemicals or pesticides involved in the CHEERS study, including 
any studies on increased incidence of cancer or other illnesses in 
children exposed to these pesticides or chemicals.
    Response. Several observational studies that measured pesticides 
and other chemicals in homes have been conducted or planned. These 
include the National Human Exposure Assessment Survey (NHEXAS) program, 
the Jacksonville 2001 study, and several EPA STAR grants. CDC has 
measured metabolites of some of the chemicals in blood and urine as 
part of the National Health and Nutrition Examination Survey (NHANES). 
The National Children's Study, which is in the planning stage, is a 
large epidemiological study that is intended to evaluate health effects 
of chemicals in children. In addition, see above response to Question 
No. 4.

    Question 15. Please provide all documents and information related 
to the agreement between EPA and the American Chemistry Council on 
funding for the CHEERS study. Please summarized and explain any 
limitations or conditions imposed by the American Chemistry Council on 
information related to the study, including data.
    Response. The documents related to the Cooperative Research and 
Development Agreement (CRADA) between the American Chemistry Council 
(ACC) and EPA on the CHEERS study are attached, along with a brief 
summary of what is in each document. The ACC did not impose any 
limitations or conditions on information related to the study. The 
ACC's support came with no strings attached. The provision in the CRADA 
that allowed the ACC 45 days to review and provide suggestions on any 
publication of data is a standard provision of all EPA CRADAs. It does 
not allow ACC to prevent the EPA from publishing results nor does it 
give the ACC any right to require revisions to a publication. Likewise, 
the provision that EPA acknowledge ACC as a contributor in any 
publications related to the study involves a simple factual statement, 
and does not allow the ACC to influence the content of any such 
publications. As is the norm, EPA would acknowledge the ACC as a 
contributor regardless of the provision.

    Question 16. Please indicate what human testing studies have been 
considered by EPA in the case by case review process for such data now 
in place at EPA, including detailed summaries of those studies. Please 
indicate whether payment of subjects or ingestion of pesticides or 
chemicals by subjects was involved in those cases. Please also indicate 
whether minors were involved in any of those studies.
    Response. Over the years, scientific research with human subjects 
has provided much valuable information to help characterize and control 
risks to public health, but its use has also raised particular ethical 
concerns for the welfare of the human participants in such research, as 
well as scientific issues related to the role of such research in 
assessing risks.
    To address these concerns, EPA and 17 federal agencies promulgated 
the ``Common Rule'' to ensure that research done by, or funded by, 
federal agencies meet the highest ethical standards. As a result, we 
have procedures in place whereby all EPA research that involves human 
subjects must have the protocol, consent forms, compensation, etc., 
approved by an Institutional Review Board, and that approval, as well 
as the basic documents, are reviewed and approved by the EPA Human 
Subjects Research Review Official (HSRRO).
    Since 2000, the EPA HSRRO has approved 236 research studies 
involving human subjects. These studies have been captured on summary 
sheets which are attached, along with an abstract or description of the 
study.
    Third-Party Human Research
    A small amount of the scientific information has been submitted to 
EPA that is generated by researchers who are not part of or supported 
by a federal agency. The Agency refers to such research as ``third-
party'' research.
    From 2001 to May 2003, EPA policy and practice was not to use in 
its risk assessments or regulatory decisions data from third-party 
research involving intentional dosing of human subjects for the purpose 
of identifying or quantifying a toxic effect. On February 8, 2005, EPA 
published a Federal Register notice seeking public input on ways to 
strengthen protections for participants involved with human subjects 
research submitted to EPA. This notice discussed the initiatives the 
Agency will undertake to develop a comprehensive plan for the review 
and consideration of studies involving human subjects. A major part of 
this effort will be to evaluate and adopt, as appropriate, the 
recommendations from the NAS on human testing. EPA is seeking comment 
on its future plans, which include rule making processes, public 
engagement, and developing additional policy guidance as needed. In 
addition, the notice described EPA's current case-by-case approach for 
evaluating third-party human studies.
    Consistent with the court decision in the Crop Life America case 
however, EPA has used the results of such studies in a few, limited 
cases. These are described more fully below.
    Perchlorate.--Early this year, EPA released its risk assessment for 
perchlorate, a naturally occurring and man-made chemical that is 
increasingly being discovered in soil and water. Most of the 
perchlorate manufactured in the United States is used as the primary 
ingredient of solid rocket propellant. One of the key studies for the 
risk assessment was conducted by Greer, et al in 2002. In this study, 
37 adult male and female volunteers received a radio-labeled, oral dose 
of perchlorate for 14 days. The researchers measured thyroid uptake to 
evaluate the effect of perchlorate on thyroid function. EPA based its 
decision to rely on the Greer et al. (2002) study on the recommendation 
of the National Academy of Sciences (NRC, 2005), and note that this 
study had been undertaken at an institution conforming with the Common 
Rule on the protection of human subjects. A summary of EPA's risk 
assessment for perchlorate, including additional information on the 
scientific and ethical attributes of the Greer study, may be found at: 
http://www.epa.gov/iris/subst/1007.htm
    Acute Exposure Guideline Levels (AEGLs).--AEGLs, are non-regulatory 
values developed by EPA and the National Academy of Sciences to 
describe the risk to humans resulting from once-in-a-lifetime, or rare, 
exposure to airborne chemicals. They are particularly valuable for use 
by first responders in emergency situations. More information on the 
AEGLs program is available at: http://www.epa.gov/oppt/aegl. In 
addition, EPA will be glad to provide all copies of the scientific 
studies used by the Agency in developing interim AEGLs, which were 
discussed at its December 2004 meeting.
    Hexavalent chromium.--In May 2004, EPA asked its independent expert 
peer review group, the Scientific Advisory Panel (SAP), for advice on 
assessing the potential of hexavalent chromium. This pesticide is 
pending regulatory approval to greatly expand its use as a wood 
preservative in residential settings. There are concerns that 
hexavalent chromium can cause acute contact dermatitis and can elicit 
allergic responses through contact with skin. EPA presented the results 
of several third-party human studies to the SAP for their 
consideration. Additional information on these studies is available in 
EPA's risk assessment, along with the SAP's report on that meeting, at: 
http://www.epa.gov/scipoly/sap/2004/index.htm
    In addition to the risk assessments discussed above, and consistent 
with the direction from the CropLife American litigation, EPA is 
currently considering through its reregistration program a number of 
pesticides for which intentional, third party dosing human studies have 
been submitted to the Agency. Before any regulatory decisions are 
finalized or based on these third party human studies, the Agency 
intends to make its scientific and ethical evaluations of these studies 
available to the public as part of the public participation process for 
the reregistration of pesticides. Under the public participation 
process, EPA releases a preliminary risk assessment on an active 
ingredient and takes public comment. After considering public input, 
the Agency revises its risk assessment and again takes public comment. 
The Agency would be pleased to provide copies of these studies.
                                 ______
                                 
      Response of Stephen L. Johnson to Additional Question from 
                             Senator Carper
    Question. The Environmental Protection Agency has received a number 
of information requests from members of this committee. Specifically, 
Senator Jeffords has outstanding requests dating back as far as 
December 14, 2001. At the committee hearing Wednesday, you were asked 
whether you intended to respond to Senator Carper's request to provide 
additional analyses of his and Senator Jeffords' clean air bills. From 
your testimony, it would seem you'd prefer to respond to a bipartisan 
request from the committee rather than to a request from an individual 
senator. On March 4, 2004, Senator Inhofe and Senator Jeffords sent a 
letter to then-Administrator Leavitt (Letter Attached). That letter 
states that EPA should respond to requests from either Senator Inhofe 
or Senator Jeffords, and I would assert other Senators as well. Please 
delineate EPA's process for determining which Congressional requests it 
chooses to respond to, and whether you agree with the position of 
Senators Inhofe and Jeffords.
    Response. Senator Carper, the Agency does its best to provide 
information and technical assistance to any Member of Congress who may 
request such assistance, consistent with the Agency's obligations under 
existing laws and policies. My responses to your questions at the 
confirmation hearing on April 6th were based on the request in your 
March 3, 2005, letter to me in which you requested EPA to ``provide a 
common platform of analytical information for all of the multipollutant 
proposals and any compromise bill language that may come out of 
negotiations.'' You have described to me several times that you would 
like a format that would allow an ``apples-to-apples'' comparison of 
various proposals. To provide such a format, I believe it is necessary 
and appropriate to consult with the authors of the other major 
mulitpollutant proposals to agree on the parameters of EPA's analysis 
and a discussion of whether and how certain provisions should be 
analyzed. Without such an agreement, I do not believe any resulting 
analysis would meet your objective of allowing an ``apples-to-apples'' 
comparison of the various proposals. I am encouraged by our recent 
conversations and look forward to working with you to meet your request 
for information.
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                            Senator Clinton
    Question 1. During our meeting earlier this week, I handed you a 
letter which discussed three specific topics and asked questions. I 
would appreciate if you answer those questions as part of this record, 
and I have inserted the text of that letter at the end of these 
questions for your reference. However, I wanted to clarify my question 
about the acid rain report in light of our discussion on Tuesday. As 
you know, I am extremely frustrated with the fact that the 
Administration has not yet produced an acid rain report as required by 
section 103(j) of the Clean Air Act. During the meeting, you indicated 
that one reason for delay in finalizing the report is that the impact 
of recent agency decisions had not been factored into the report, and 
that doing so could result in lengthy, additional delays. However, the 
Clean Air Act simply requires the report to Congress to describe acid 
deposition trends and the reduction in deposition rates that must be 
achieved in order to prevent adverse ecological effects. While it would 
be useful to understand the relationship between recently enacted 
policies, it is not a requirement of the law, and not a reason for 
further delay in providing the report to Congress. Therefore, I 
reiterate the request in my April 5, letter, and urge you to supply the 
draft report immediately and the final report as soon as possible.
    Response. Acid Rain--EPA is concerned with the impact of acid 
deposition on sensitive lakes, streams, and forests in New York State 
and throughout the northeast. Passage of the 1990 Clean Air Act 
Amendments was an important step in addressing these impacts. 
Implementation of the Acid Deposition Control Program has resulted in 
reductions in acid rain and encouraging signs of ecological recovery, 
particularly in Adirondack Mountain lakes. As you observe, however, our 
work is unfinished. Many in the scientific community, including 
scientists consulted by the Hubbard Brook Research Foundation, maintain 
that additional reductions in sulfur and nitrogen deposition are 
necessary for further ecological recovery.
    In March, EPA finalized the Clean Air Interstate Rule requiring 
significant further reductions in emissions of sulfur dioxide 
(S0<INF>2</INF>) and nitrogen oxides (NOx). These reductions will act 
to further improve the health of forests, lakes, and streams in New 
York State and the region. Other recent federal rules and state actions 
will also cause SO<INF>2</INF> and NOx emissions to decline. Since 
section 103(j) requires, in part, a review of deposition and ecological 
effects occurring as a result of such emissions, it is prudent to add 
information to the Report that would provide Congress with the most up-
to-date information which is available concerning such emissions.
    As you know, the NAPAP report that you are concerned about is 
required by section 103(j) of the Clean Air Act. This section 
established an Acid Precipitation Task Force consisting of EPA, DOE, 
DOI, NOAA, NASA and additional members appointed by the President. In 
1993, President Clinton promulgated Executive Order 12811 which created 
the National Science and Technology Council. This council, through its 
Committee on Environment and Natural Resources (CENR), is the body that 
currently coordinates federal acid rain research and monitoring and the 
organization that oversees the production of the NAPAP report. Although 
EPA participates in the Acid Precipitation Task Force, we do not chair 
the group. For draft copies of the report, please contact CENR.
    The NAPAP report is still undergoing interagency review. You have 
my assurance that I will devote the necessary resources at EPA to this 
process. I will also work with the interagency process to provide any 
necessary information and analysis as well as to assist the issuance of 
a final report. I am confident that CENR will release the report in May 
or June.
    Mercury--To understand our approach to reducing mercury from the 
power sector, it is critical to understand that Americans are exposed 
to methylmercury through the fish we eat. EPA continues to recognize 
that fish and shellfish are part of a well-balanced diet that can 
contribute to heart health and children's proper growth and 
development. The best way for women of childbearing age, pregnant and 
nursing mothers, and young children to realize the benefits of eating 
fish and shellfish and be confident that they have reduced their 
exposure to the harmful effects of mercury is to follow the EPA-FDA 
Fish Advisory issued last year. The CAMR reduction of emissions from 
U.S. power plants may affect local freshwater ecosystems, but will not 
significantly reduce concentrations in most marine fish. The importance 
of this point cannot be understated because the vast majority of fish 
and shellfish Americans consume come from ocean waters, and only a 
small portion of fish and shellfish consumed are freshwater 
recreationally caught fish. To imply that there is a quick fix to the 
mercury problem in the U.S. would be misleading.
    The CAMR represents the first time that the federal government, or 
any nation, has regulated mercury emissions from the fleet of power 
plants. I am very proud of this fact. The CAMR rulemaking process was 
one of the most rigorous and thorough in EPA's history. This level of 
rigor was appropriate given the importance of the decision and the 
great deal of public interest in the issue.
    As part of our analysis for CAMR, we looked at the possibility of 
``utility hotspots''--areas with methylmercury concentrations in fish 
due solely to power plants that exceed the methylmercury water quality 
criterion. Many lakes and rivers across the country, including in New 
York, unfortunately do have levels of mercury such that states issue 
fish advisories. It is important to understand that most of that 
mercury in fish across the country comes from sources other than U.S. 
power plants and therefore cannot possibly be addressed through this 
rulemaking. You refer to regions in your state as ``hotspots'' but they 
are likely not ``utility hotspots.''
    The final CAMR that I signed dovetails with CAIR and, combined, 
provide for a flexible, multipollutant approach to reducing 
SO<INF>2</INF>, NOx, and mercury from the power sector. We determined 
that this multipollutant approach provides significant public health 
benefits by creating strong incentives for the installation of a large 
number of scrubbers and SCRs that will reduce SO<INF>2</INF> and NOx, 
respectively, and will also reduce mercury emissions, particularly the 
types of mercury that matter most for reducing U.S. deposition. By 
2015, the benefits of CAIR and CAMR are $85 billion to $100 billion 
annually. As a point of comparison, complete elimination of mercury 
emissions from power plants would not generate benefits anywhere near 
this large, even if doing so were technically possible.
    In the Clean Air Act (CAA), Congress directed EPA to treat 
utilities differently than other industrial sources. CAA section 112 
says that EPA can regulate utilities under that section only if EPA 
finds that such regulation is ``appropriate and necessary'' after 
considering implementation of other requirements of the Act. In the 
final CAMR, EPA concluded that it is not ``appropriate or necessary'' 
to regulate utility HAP emissions under Clean Air Act section 112 since 
utility HAP emissions remaining after implementation of other measures 
of the Act (e.g., the acid rain and recently promulgated CAIR programs) 
such emissions do not cause hazards to public health. Because EPA found 
that it is not appropriate or necessary to regulate utilities under 
section 112, it did not issue MACT standards.
    Under the CAIR/CAMR approach, the flexibility of allowance trading 
creates strong financial incentives for coal-fired power plants to look 
for new and low-cost ways to reduce emissions and improve the 
effectiveness of pollution control equipment starting in 2010, much 
sooner than you suggest. The mandatory declining caps coupled with 
significant automatic penalties ensure that emissions will be reduced 
down to 15 tons when fully implemented. We fully expect that other 
countries will be more likely to follow the U.S. lead and take action 
to reduce mercury emissions from power plants if control technologies 
are more cost effective. Given that international action is essential 
for addressing the global pool of mercury, this is a very important 
benefit of a cap-and-trade approach compared to a MACT approach.
    I believe the CAMR rule is valid--legally, scientifically, and as a 
matter of policy. As we said in the preamble to the final rule, if 
future information demonstrates that additional control is warranted, 
EPA is committed to reopening and reevaluating the CAMR standards.
    WTC--As you know, the World Trade Center (WTC) Expert Technical 
Review Panel has met nine times in open meetings in New York City since 
March 2004 to interact with EPA and the public on plans to monitor for 
the presence of residual WTC dust in indoor environments and suggest 
additional analyses that could be undertaken by EPA and others to 
evaluate the current level and the geographic extent of WTC 
contamination.
    EPA's draft proposed sampling plan reflects input from individual 
panel members and the public, including the WTC community and labor 
coalition. The current proposal is to determine the presence of and 
evaluate the levels of contaminants of potential concern in lower 
Manhattan buildings, and also to measure for particular contaminants 
that could be markers for WTC dust. A formal comment period on the 
draft sampling plan closed on January 18, 2005. EPA is currently 
revising the draft proposal considering all comments received and will 
produce a final draft plan for discussion at the next panel meeting 
which we plan to hold in May (subject to panel members availability). 
It is our intention to make the revised final draft sampling plan 
publicly available two weeks prior to the panel meeting.
    We are committed to do some sampling in Brooklyn, but the exact 
boundary is still being discussed. We are evaluating existing WTC-
related information and evidence to determine the specific area of 
Brooklyn we would sample.

    Question 2. As you know, in 2002 the wood treatment industry 
responded to the tremendous public concern about children's exposure to 
wooden playgrounds, picnic tables, and backyard decks treated with 
arsenic and hexavalent chromium, by agreeing to voluntarily phase out 
the production of the wood preservative Chromated Copper Arsenate (CCA) 
for residential uses.
    I understand you played an instrumental role in helping to 
facilitate this voluntary phase-out, which took effect at the end of 
2003. I applaud you and the EPA for helping to affect this change, 
which your Agency called ``one of the most dramatic pollution 
prevention advancements in history.'' In addition to virtually 
eliminating the use of arsenic in the United States, this phase-out 
helped to eliminate the use of 64 million pounds of hexavalent chromium 
a year, according to EPA's Green Chemistry Awards Program, which 
awarded the Presidential Green Chemistry award to an alternative 
product containing no arsenic and no hexavalent chromium.
    This is why I am extremely concerned that the EPA has failed to 
take action to deny pending applications to register the wood treatment 
chemical Acid Copper Chromate (ACC). EPA approval of ACC would 
reintroduce as much as 100 million pounds a year of the human 
carcinogen, hexavalent chromium, back into the consumer marketplace. 
Exposure to Hexavalent chromium is also known to cause such human 
health problems as kidney and liver damage, birth defects, and skin 
ulcers. In addition, this chemical has caused drinking water 
contamination, worker illness, as well as soil and air degradation.
    I and many others believe that approving new ACC registrations 
would be a step backwards for the EPA and the wood treatment industry 
in the U.S. It would lead to the introduction of this hexavalent 
chromium-based product to the U.S. market where it is currently not in 
use. It would unnecessarily introduce a known human carcinogen into a 
widely used consumer product. It would create unnecessary exposure to 
hexavalent chromium among producers and consumers of preservatives and 
treated wood. And it would undermine the great progress the EPA and the 
wood treatment industry are poised to make as the industry transitions 
to a new, safer generation of wood preservatives.
    As you know, EPA has the authority under FIFRA (the nation's 
pesticide safety law) to deny the registration for ACC due to 
insufficient data on the safety of the chemical. Why it has taken EPA 
so long to deny the registration applications for ACC, which presents 
clear threats to public health and the environment?
    Response. EPA's action on the pending ACC application is dependent 
on two critical pieces of data that have not yet been submitted by the 
registrant to EPA. As described more completely below, EPA is concerned 
about potential dermal exposures to hexavalent chromium from treatment 
of wood with the ACC treatment solution. Hexavalent chromium as surface 
residue on treated wood may cause sensitization in humans contacting 
the wood in residential settings. Moreover, these surface residues have 
the potential to persist as the conversion to the less toxic trivalent 
chromium species is temperature-dependent.
    To address the outstanding concerns, the Agency has taken several 
steps. The Agency presented its scientific issues regarding dermal 
sensitization to its Scientific Advisory Panel (SAP) in May 2004. Among 
other recommendations in its July 2004 report, the SAP noted that 
exposure information was important to determine potential risks 
associated with contact to treated wood surfaces. Specifically, the SAP 
stated: ``It is not important how much of a chemical is in the matrix 
but how much is leached out of it and available for exposure.''
    In response to the report, the Office of Pesticide Programs has 
analyzed the recommendations, presented its analysis to the Agency's 
Science Policy Council (SPC), and based on recommendations from both 
the SAP and SPC, revised its level of concern for hexavalent chromium 
in ACC-treated wood. We are now waiting for two critical studies that 
the Agency required of the registrant in a letter sent January 2004. 
One of these studies will provide information that specifically 
addresses the level of hexavalent chromium on the surface of ACC-
treated wood, and the other study is to determine levels of exposure to 
workers at wood treatment facilities. Once these data are submitted, 
the Agency will be in a position to make a determination as to whether 
there is a risk of dermal sensitization from exposure to hexavalent 
chromium resulting from contact to treated wood.
    In addition, an extensive study of the cancer risks posed by oral 
ingestion of hexavalent chromium is underway by the National Toxicology 
Program (NTP) and we expect those results in May 2005. Upon receiving 
this study and the two studies requested of the registrant noted above, 
the Agency will be able to determine whether the law's ``reasonable 
certainty of no harm'' safety standard, including infants and 
children's exposures, can be met, and thus, make its registration 
decision.

    Question 3. Mr. Johnson, you served as head of the Director of the 
Office of Pesticide Programs, which is charged by federal laws with 
ensuring that pesticides are used in a manner that does not pose a risk 
to human health. In particular, the laws require EPA to account for the 
special susceptibility of infants and children to the toxic effects of 
the many pesticides they are exposed to. Unfortunately, there have been 
claims that EPA's decisions in the area of pesticide regulation too 
often erred on the side of the interests of the pesticide manufacturing 
and application industries, instead of the health and safety of our 
nation's children. For example, in 2001, EPA reversed a decision to 
require manufacturers of rat poison to include bittering agents that 
would help prevent childhood poisonings, based only on the 
recommendations of pesticide applicators. Similarly, EPA faced charges 
that it had failed to apply a special statutory tenfold safety factor 
to protect infants and children from pesticides in their food. In 
making these decisions, EPA relies almost exclusively on data provided 
by the pesticide manufacturers whose only motive is to sell more of 
their products. Can you give any assurance that as Administrator you 
will give more weight to the laws' presumptions in favor of protecting 
human health, particularly children's health?
    Response. I am committed to ensuring that the laws administered by 
EPA are implemented and enforced in a manner that protects human 
health, particularly children. EPA's decisions during my years with the 
Office of Pesticide Programs have brought significant new safeguards 
for pesticide use and we are already seeing the results. Pesticide 
poisonings of children by chlorpyrifos have fallen dramatically, and 
residues in children's food from a number of pesticides have declined.
    Regarding the regulation of rodenticides, in 1999, EPA formed the 
Rodenticide Stakeholders Workgroup as a subcommittee under the 
federally-chartered advisory body, the Pesticide Program Dialogue 
Committee (PPDC), to consider, among other things, the risks to 
children of accidental exposure to rodenticides and potential measures 
to reduce such exposures. This workgroup included representatives from 
the EPA, CDC, USDA, State officials, the medical community, public 
interest groups, the pesticide industry, and members of the general 
public. The workgroup fully considered the possibility of requiring 
bittering agents in rodenticide products as it reviewed information 
presented by a broad range of interested and affected parties. The 
workgroup ultimately recommended against the requirement of bittering 
agents due to the potential for adverse effects on the efficacy of 
rodenticide products. This recommendation reflected their recognition 
of the significant public health risks posed by rodents, and the widely 
held concerns that requiring all products to contain bittering agents 
could hinder efforts to control rodent populations in certain 
circumstances. EPA adopted the workgroup's recommendations, and in 
November 2001 issued a Federal Register notice announcing its decision 
to rescind the bittering agent requirement. While EPA does not 
currently require bittering agents in all rodenticide products, the 
Agency encourages rodenticide manufacturers to incorporate them 
voluntarily in certain products. In fact, many of the rodenticide 
products on the market today do contain bittering agents. Finally, we 
are still in the process of completing our reevaluation of the 
rodenticides, and we will continue to monitor all available information 
on childhood poisonings. As we bring our review to closure, we will 
make sure that appropriate risk mitigation measures are put into place 
to ensure the safety of children.
    Regarding protecting children under the Food Quality Protection 
Act, when establishing or reviewing tolerances under the Federal Food 
Drug, and Cosmetic Act, the EPA is required to apply an additional 
tenfold safety factor to protect infants and children, unless the 
Agency can find on the basis of reliable data that another safety 
factor will adequately protect infants and children. In order to ensure 
that the Agency implemented this critical provision, EPA used a very 
public process to develop guidance explaining how such decisions should 
be made. In addition to seeking public comment, the Agency sought 
advice from its independent expert scientific peer review body, the 
FIFRA Scientific Advisory Panel, on several occasions. Generally, the 
guidance calls for EPA to review the extensive database available on 
each pesticide and to retain the additional tenfold safety factor 
unless we have a sound scientific database to support a change.
    Following this guidance, EPA has made several hundred chemical-
specific determinations under this provision. Each of these decisions 
is fully documented in reviews that are available to the public as part 
of the Agency's public participation process. For just over half of the 
pesticides, EPA concluded that the additional tenfold factor is not 
necessary and therefore may be removed. For the balance of the 
pesticides, EPA has retained some additional safety factor, in some 
case the statutory tenfold factor, and in other cases factors ranging 
from 3 to 30. We believe that examination of the individual chemical 
decisions about safety factors will demonstrate that EPA's conclusions 
are based on scientific assessments.

    Question 4. Documents submitted into the record by pollution 
control equipment manufacturers stated that 70-90 percent mercury 
control from coal-burning power plants can be guaranteed by vendors and 
bought by power plants today, yet EPA has made the case that control 
technologies for mercury aren't yet ``commercially available''. Why did 
EPA not rely on the most recent information about commercial 
availability and capability of mercury pollution controls for coal-
burning power plants?
    Response. EPA is optimistic that some, if not all, of the mercury 
control technologies currently being tested will be ready for 
commercial-scale deployment across the fleet of coal-fired power plants 
after 2010. The high degree of variability in the test results to date, 
combined with the inability to adequately assess balance of plant 
issues (i.e., what happens over long periods of time when using these 
advanced mercury removal technologies) led the Agency to determine that 
mercury-specific control technologies were not available for fleet-wide 
deployment in the 2008-2010 timeframe. As outlined in the final CAMR, 
EPA believes these technologies will become available after 2010, and 
that they will play a significant role in reducing mercury emissions 
well below the anticipated co-benefits levels dictated by the CAIR 
alone.
    Results from the DOE's mercury Phase I Testing Program are outlined 
in EPA's Office of Research and Development (ORD) updated White Paper 
(March 2005) on mercury control technologies which can be found in the 
CAMR docket. In these projects, mercury-specific technologies were 
tested at different coal-fired power plants, representing both 
different coal types and varying air pollution control device 
configurations. The results from these studies, along with other 
information, were used to form the basis of the ORD assessment of 
technology. Given the promising results from the Phase I experiments, 
the DOE embarked on a longer-term Phase II program, which is currently 
underway, to better understand the impact of these mercury-specific 
control systems on different coal types (e.g., subbituminous and 
lignite coals) over longer periods of time. The final results from 
these studies will not be available before 2008-2009.
    The multipollutant approach of CAIR and CAMR provides public health 
benefits by focusing first on reducing SO<INF>2</INF> and NOx while 
providing strong incentives for the further development and 
installation of mercury-specific technologies starting in 2010, well in 
advance of 2018. We expect that this approach will lead to the 
development of less costly technologies for reducing mercury emission 
from this sector.

    Question 5. Does EPA plan to address the fact that, under the ``cap 
and trade'' approach, the maximum control level of 70 percent 
reduction--nominally due by 2018--will not be achieved until 2025 at 
the earliest? How can EPA say that cap and trade is the best approach 
to reduce mercury emissions from coal-fired power plants without ever 
analyzing the benefits of a MACT approach, required by the Clean Air 
Act? Why is a MACT approach, as required by the Clean Air Act, 
appropriate for all other industrial sources of mercury emissions, but 
not coal-fired power plants?
    Response. Although the second phase will be initially higher than 
the caps that are required under CAMR, it is important to note that 
under a cap-and-trade program emissions are capped permanently and the 
first phase achieves early reductions of mercury because of the banking 
of excess emission reductions. Under a cap-and-trade approach, 
emissions reductions are achieved cost-effectively by offering sources 
more compliance flexibility, including the ability to buy allowances 
and these reductions tend to occur at the largest emitters because 
those emitters can achieve the most cost-effective reductions. In 
addition, compared to a MACT approach, the ability to bank and sell 
allowances under a cap-and-trade approach creates a more continuous 
incentive for the development of new mercury control technology.
    In the Clean Air Act (CAA), Congress directed EPA to treat 
utilities differently than other industrial sources. CAA section 112 
says that EPA can regulate utilities under that section only if EPA 
finds that such regulation is ``appropriate and necessary'' after 
considering implementation of other requirements of the Act. In the 
final CAMR, EPA concluded that it is not ``appropriate or necessary'' 
to regulate utility HAP emissions under Clean Air Act section 112 since 
utility HAP emissions remaining after implementation of other measures 
of the Act (e.g., the acid rain and recently promulgated CAIR programs) 
do not cause hazards to public health.

    Question 6. As you know, EPA has responsibility to protect the most 
sensitive populations. Historically, EPA has taken into account impacts 
on sensitive populations in issuing its regulations. Why, in releasing 
the mercury rule, did EPA focus on the average American and not those 
populations most vulnerable to mercury poisoning, such as women of 
childbearing age, young children, Native Americans, and subsistence 
fishermen?
    Response. The focus of our rule was on sensitive populations--women 
of childbearing age and the developing fetus. It should be noted that 
EPA's reference dose for methylmercury is based on protecting the most 
sensitive population: women of childbearing age. We looked at highly 
exposed groups including certain Native American tribes and subsistence 
fishermen families. This is explained in detail in the Regulatory 
Impact Analysis and in other documents supporting the final CAMR and 
the revision of the 2000 regulatory finding.

    Question 7. As of December 1, 2004, EPA had closed 128 of the Title 
VI complaints it had received. Most were rejected for jurisdictional 
deficiencies. Of the 30 complaints accepted for investigation, none 
resulted in a finding of violation. Although some of the complaints 
investigated were filed by individuals with limited legal experience, 
others were filed by Congressional representatives or by public 
interest organizations specializing in environmental justice issues and 
who could be expected to recognize violations of Title VI and its 
regulations. Other agencies, such as the Department of Education, have 
routinely found in the complainant's favor and negotiated changes in 
recipient behavior or policies. How do you explain the EPA's record of 
finding no violations of Title VI or its implementing regulations in 
more than 10 years of investigating such complaints? Given that other 
agencies have found Title VI violations in their investigations, could 
EPA's investigation or review standards be responsible, in part, for 
the fact that even those cases of disparate impact that are most 
obvious to the casual observer are incredibly difficult, if not 
impossible, to substantiate?
    Response. The goal of EPA's Office of Civil Rights External 
Compliance Program is to ensure that recipients of EPA assistance 
comply with the relevant nondiscrimination requirements under federal 
law. EPA has worked diligently to bring apparent noncompliant recipient 
agencies into compliance. EPA's regulations require EPA to attempt 
informal resolution whenever possible. The term ``informal resolution'' 
refers to any settlement of complaint allegations prior to the issuance 
of a formal finding of noncompliance. While EPA has never made a 
finding of noncompliance, EPA has informally resolved allegations from 
7 Title VI complaints with recipient agencies to improve their policies 
and procedures. Two other complaints were informally resolved by the 
complainant and recipient, without EPA involvement. EPA is currently in 
the process of formalizing another settlement agreement that will 
address concerns raised in 3 separate Title VI complaints. EPA's focus 
on bringing recipient agencies into compliance benefits the public by 
ensuring service is provided in a nondiscriminatory manner.

    Question 8. In the majority of cases actually investigated by EPA 
and dismissed on the merits, EPA found that the challenged decisions or 
projects would not cause an adverse impact. In many of these cases, 
that decision was predicated on compliance with National Ambient Air 
Quality Standards (NAAQS) or other environmental laws. However, EPA has 
stated in its Revised Draft Guidance on Investigating Title VI 
Complaints that compliance with environmental standards alone does not 
guarantee compliance with Title VI and, in fact, studies have found 
adverse health impacts from exposure to some pollutants (i.e., 
particulate matter) at levels below the NAAQS. (See, e.g., Jonathan 
Samet et al., Fine Particulate Air Pollution and Mortality in 20 U.S. 
Cities, 1987-1994, 343 New Eng. J. Med. 1742 (2000).) In light of these 
facts, how does EPA make a determination that compliance with NAAQS or 
other environmental standards will, in fact, prevent any adverse 
impacts?
    Response. OCR relies, to some extent, on existing environmental 
standards when assessing Title VI complaints. As you noted, the NAAQS 
is one example of such a standard. OCR has stated that air quality in 
areas attaining the NAAQS ``is presumptively protective of public 
health in the general population.'' Draft Revised Guidance for 
Investigating Title VI Administrative Complaints Challenging Permits 
(Draft Revised Investigation Guidance), 65 Fed. Reg. 39,680 (2000) 
(emphasis added). In other words, while the NAAQS provides an important 
benchmark in determining whether adversity exists, attainment of the 
NAAQS merely establishes a rebuttable presumption of no adversity. OCR 
does not believe it would be appropriate to wholly rely on the NAAQS 
both because of the inherent limitations of the NAAQS, such as those 
you mention, and because an environmental standard may not adequately 
analyze adversity in the civil rights context. Examples of the latter 
circumstance include whether the environmental standard encompasses the 
same sources relevant to a civil rights analysis and whether the 
environmental standard focuses on potentially unique characteristics of 
the affected population in a civil rights complaint.

    Question 9. In the case of the Midland Avenue complaint, EPA 
resolved the matter in a relatively short period--less than one year. 
Many other complaints remain unresolved after five years or more. In 
fact, the first complaint ever to be filed with the EPA--the St. 
Francis Prayer Center complaint regarding the Genesee Power Station 
(submitted to EPA in 1992; recognized by EPA in July 1994 and accepted 
for investigation in January 1995) remains unresolved, according to 
EPA's own website. How does the EPA plan to address this backlog of 
complaints and ensure that new complaints are handled in a timely 
fashion?
    Response. In 2004, EPA increased staff by 75 percent to provide 
sufficient support to its External Compliance Program. While EPA is 
working diligently to complete work on all old cases, the Midland 
Avenue complaint is an example of OCR's efforts to handle new 
complaints as expeditiously as possible.
    EPA has also focused on educating recipient agencies to help reduce 
situations that could result in the filing of Title VI complaints. 
These efforts include (1) EPA-sponsored training on public 
participation for recipients, community groups, and industry, (2) 
guidance for recipients on public involvement, 70 Fed. Reg. 10,625 
(2005), and (3) guidance for recipients on limited English proficiency, 
69 Fed. Reg. 35,602 (2004).

    Question 10. Since the EPA has never finalized its Revised Draft 
Guidance for Investigating Title VI Complaints Regarding Permitting, 
what are the standards that the agency is using to investigate these 
complaints?
    Response. Evaluations of alleged violations of EPA's Title VI 
regulations are based on the facts and totality of the circumstances 
that each case presents. Rather than using a single standard for 
analyzing and evaluating adverse disparate impact allegations in all 
situations, EPA uses several techniques to determine compliance. EPA 
has used techniques practiced by the EPA Title VI Task Force, which 
closed over 52 complaints, techniques described in the U.S. Department 
of Justice's Title VI Investigation Procedures Manual, techniques 
described in the EPA Revised Draft Investigation Guidance, which is 
being evaluated internally based on application during some 
investigations, as well as EPA's Title VI regulations and case law.

    Question 11a. EPA dismissed the Midland Avenue complaint, because 
it found that the challenged project would not have a ``significant 
adverse impact'' on the host community. This assessment was based 
solely on a review of the project under the National Environmental 
Policy Act (NEPA). This NEPA review relied in part on proposed, but 
unrealized, mitigation measures and, in part, on a technical 
justification for the placement of the facility to reach its Finding of 
No Significant Impact (FONSI). In addition, under the Revised Draft 
Guidance for Investigating Title VI Complaints Regarding Permitting, 
EPA notes that the ``significance'' of an adverse impact will be 
determined based both on the severity of the impact and the disparity 
in demographic characteristics. (a) How does EPA justify relying 
entirely on the NEPA analysis in light of its deficiencies?
    Response. The approach developed to investigate a complaint depends 
on the nature and complexity of issues involved in the case. In the 
Midland Avenue Regional Treatment Facility (RTF) complaint, EPA's 
Office of Civil Rights (OCR) examined whether the recipients violated 
EPA's Title VI regulations by approving an Engineering Design Report 
and the Midland Avenue RTF and Conveyances Facility Plan. Here, OCR 
principally relied on a review of the unusually extensive and complete 
record of the development and approval of the Syracuse combined sewer 
overflow abatement program (and of the Midland Avenue Regional 
Treatment Facility). This investigation was conducted by reviewing 
documents provided by the complainants, recipients, and EPA Region 2. 
OCR primarily reviewed the U.S. EPA Region 2's Environmental Assessment 
(EA), EPA Region 2's Response to Comments issued with the EA, EPA 
Region 2's 2004 EA Re-evaluation, and the Environmental Information 
Document. OCR also examined the Amended Consent Judgment, the 
Alternative Site Evaluation Overview Document, the Midland Avenue RTF 
and Conveyances Facility Plan, and the Wastewater Technology Fact 
Sheet: Chlorine Disinfection (EPA 1999).
    In response to the statement that EPA's assessment was based on 
``proposed, but unrealized, mitigation measures,'' the impacts alleged 
in the complaint were ``anticipated'' consequences as a result of the 
construction of the Midland Avenue RTF. There were no actual, realized 
impacts since the construction of the facility had not yet begun. 
Therefore, the analysis is largely based on anticipated consequences 
and mitigative measures (some already implemented), where necessary. 
The technical justification for the project is to abate a public health 
nuisance by reducing and eliminating raw sewage discharges to Onondaga 
Creek from combined sewer overflows (CSOs) and eliminate odors. In 
response to concerns raise by the community, the building size was 
reduced from 30,000 to 24,000 square feet, the distance from the 
nearest residence to the facility was increased from 90 to 250 feet, 
the number of vortex units was reduced from 3 to 2, and the frequency 
of operation was reduced from 50 times per year to 9 times per year. 
After a review of all of the documents, OCR concluded that the location 
and design of the Midland Avenue RTF would not have a significantly 
adverse impact or discriminatory effect on the surrounding 
neighborhood.

    Question 11b. How does EPA justify determining ``significance'' 
based wholly on NEPA standards without considering the disparity of 
demographic characteristics?
    Response. Under EPA's Draft Revised Investigation Guidance, the 
``adverse impact'' decision is a determination as to whether an 
estimated risk or measure of impact is significantly adverse, 
independent of demographics. If the impact is not significantly 
adverse, the allegation is not expected to form the basis of a finding 
of noncompliance with EPA's Title VI regulations and disparity is not 
considered. Draft Revised Investigation Guidance, 65 Fed. Reg. 39,680 
(2000). An assessment of disparity is not necessary where adversity 
does not exist. In the assessment of the Midland Avenue RTF, OCR did 
not find adversity, so disparity was not analyzed. Id. 39,682.

    Question 12. On January 15, 2003 the Bush administration issued an 
advance notice of proposed rulemaking (ANPRM) crafted to dramatically 
weaken the Clean Water Act by narrowing the definition of what 
qualifies as a ``water of the United States'' to remove longstanding 
federal protections for many wetlands, streams, lakes and other waters. 
In response to opposition to this proposal from a broad array of 
interests, including scientists, state agencies, Attorneys General, 
environmental groups, and hunting and fishing interests, the 
administration announced on December 16, 2003 that it would not pursue 
this ill-conceived rulemaking.
    However, a policy directive that was issued at the same time (and 
that essentially accomplishes the purposes) as the now-abandoned 
rulemaking proposal was left in effect. Among other things, this 
directive requires Corps districts and EPA field staff to seek ``formal 
project-specific approval'' from headquarters before asserting Clean 
Water Act jurisdiction over waters--but for staff to say that a water 
is not jurisdictional requires no such approval.
    This policy directive (Appendix A to the January 15th Federal 
Register notice) has caused untold harm to waters across the nation 
that are being stripped of federal protection, from an 86 acre lake in 
Wisconsin, to entire basins in the arid West, not to mention countless 
streams and wetlands across the country. In a particularly troubling 
case, the Corps determined that the Folsom South Canal in California, 
which among other uses sometimes conveys drinking water to the city of 
Rancho Cordova, is no longer covered by the Clean Water Act.
    As mentioned above, the policy directive currently in place 
requires Corps districts and EPA field staff to seek formal project--
specific approval from headquarters before asserting jurisdiction over 
waters of the United States. No such prior approval from headquarters 
is required to assert that a water is non-jurisdictional.
    Do you think it is a good policy for our nation's precious and 
limited water resources that no permission--or even notice--from the 
agencies' headquarters is needed to abandon Clean Water Act 
protections, but field staff must get permission before simply 
asserting the legal status quo (i.e., that these waters remain 
protected)?
    Response. The January 2003 legal guidance states that field staff 
may no longer assert jurisdiction over isolated, intrastate, non-
navigable waters based solely on the migratory bird rule, and that 
agency headquarters approval should be obtained prior to asserting 
jurisdiction over such waters based solely on other types of commerce 
links. The legal memorandum emphasizes that field staff should continue 
asserting jurisdiction over navigable waters, their tributary systems, 
and adjacent wetlands. The memorandum also emphasizes that 
jurisdictional calls must reflect existing regulations and relevant 
case law.
    EPA and the Corps are taking a number of steps in response to the 
Supreme Court's decision in Solid Waste Agency of Northern Cook County 
(SWANCC). As we implement these actions and monitor their 
effectiveness, we are continuing to assess the adequacy of existing 
field practices, guidance, and training programs and will take 
appropriate steps to ensure Clean Water Act jurisdiction is correctly 
determined. EPA and the Corps are working together, based on the two 
years of experience will make decisions based upon that experience, 
current information and emerging case law.
    EPA and the Corps are committed to increasing consistency, 
transparency, predictability, and sound science for the CWA section 404 
program. The agencies have undertaken a number of steps in response to 
the Supreme Court's decision in Solid Waste Agency of Northern Cook 
County (SWANCC).

    Question 13a. We are very concerned by what appears to be the lack 
of EPA involvement in the implementation of this policy directive. 
Please provide responses to the following questions: (a) Is/was EPA 
aware of Folsom South Canal determination? If so, what role did the 
Agency play in this water's non-jurisdictional determination? Does EPA 
agree that this water is no longer protected by the Clean Water Act?
    Response. EPA and the Corps jointly implement the Clean Water Act 
(CWA) section 404 program. In this implementation partnership, the 
Corps is responsible for day-to-day permitting decisions in their 
respective Districts. Frequently, Corps and EPA field staffs coordinate 
jurisdictional or permitting calls. In this case, EPA did not 
participate in a decision regarding CWA jurisdiction over the Folsom 
South Canal.

    Question 13b. If confirmed, would you support denying federal Clean 
Water Act protections to our nation's drinking water sources?
    Response. EPA will continue to implement and enforce programs 
affecting all waters of the United States, including waters used as 
sources of drinking water, to the maximum extent of the law.

    Question 13c. In another case, in June 2003, the Corps' Albuquerque 
District ruled that the entire 150-mile long Sacramento River in New 
Mexico and all of its tributaries are non-jurisdictional under the 
Clean Water Act because they are part of a ``closed basin'' system. 
Indeed, the Corps District issued a sweeping declaration that all 
``closed basin'' systems were now unprotected by the Clean Water Act. 
What role did the Agency play in this non-jurisdictional determination? 
Does EPA agree that closed basin rivers and their tributaries should no 
longer be protected by the Clean Water Act?
    Response. Jurisdictional calls are not made by categories of 
waters. Instead, they are made on a site-specific basis, guided by 
applicable regulations and case law, reflecting the often complex 
factual circumstances of the waters being considered. To our knowledge, 
the Corps has not issued a declaration that all closed basin systems 
are non-jurisdictional under the Clean Water Act (CWA) as a category. 
While we are unaware of the Sacramento River ruling, indeed, we are 
aware of site-specific affirmative findings of CWA jurisdiction over 
streams located in closed basins. For example, the Corps Albuquerque 
District issued a notice on March 16, 2005, that the Mimbres River, its 
tributaries and adjacent wetlands were jurisdictional based on the 
river's use by small watercraft.

    Question 13d. Are there any Corps' non-jurisdiction determinations 
made since January 2003 with which EPA has disagreed? Please provide 
summary information about all such instances.
    Response. The Corps and EPA have undertaken a variety of actions to 
increase coordination and minimize disagreement prior to reaching final 
determinations on section 404 program implementation and jurisdictional 
determinations after SWANCC. EPA and Corps headquarters continue to 
coordinate on requests from the field on jurisdictional calls involving 
isolated intrastate non-navigable waters based solely on commerce links 
other than those in the migratory bird rule. Furthermore, a number of 
EPA Regions and Corps districts currently coordinate in advance on 
jurisdictional calls that raise challenging issues, reporting that such 
communications are effective in resolving differences in 
interpretation. And, EPA, Corps, and DOJ staffs also continue to have 
bi-weekly meetings to discuss jurisdictional issues and questions that 
arise in the field.

    Question 13e. How many miles of streams, acres of wetlands and 
ponds, and miles of streams has the Corps and/or EPA declared to be 
non-jurisdictional under the policy directive (i.e. since January 
2003)? Are these levels of losses of water resources acceptable to EPA?
    Response. The Corps and EPA have been working together to assess 
the resource implications of SWANCC, and the agencies are committed to 
increasing the consistency, transparency, and sound science for the 
Clean Water Act (CWA) section 404 program. As part of this broader 
effort, the Corps Districts have posted information on their websites 
regarding findings of no-jurisdiction. Analysis of that information is 
on-going. One challenge we face when assessing the impact of the SWANCC 
decision is that we do not have comparative data from before the 
decision to act as a baseline for measuring change.

    Question 14. In December 2003, the administration committed to not 
pursuing a rulemaking to narrow Clean Water Act jurisdiction. The clear 
implication of this announcement is that the existing Clean Water Act 
regulatory definition of ``waters of the U.S.'' remains in effect and 
will be enforced.
    If confirmed as Administrator, when do you plan to revoke the 
policy directive that has--for all intents and purposes--served as a 
vehicle enact the ends of the supposedly--abandoned rulemaking and that 
is in conflict with the existing regulations?
    Response. If confirmed as Administrator, I would remain committed 
to full and effective implementation of the Clean Water Act and all its 
programs. As EPA and the Corps apply the regulatory definition of 
waters of the United States, we will continue to assess the adequacy of 
existing field practices, guidance, and training programs and will take 
appropriate steps to ensure Clean Water Act jurisdiction is correctly 
determined. With respect to revising the January 2003 guidance, EPA and 
the Corps are working together to assess the effectiveness of that 
guidance and will make decisions regarding the need for its revision 
based upon two years experience with the guidance, current information 
and emerging case law.

    Question 15. On March 1, 2004, EPA's Inspector General released a 
report, ``EPA Needs to Consistently Implement the Intent of the 
Executive Order on Environmental Justice,'' that found that EPA's 
Office of Environmental Justice (OEJ) and the agency overall have 
failed to adequately implement President Clinton's 1994 Executive Order 
12898 ``Federal Action to Address Environmental Justice in Minority 
Populations and Low-income Populations.'' The E.O. requires 
environmental justice principles to be integrated with EPA day-to-day 
operations to ensure minority and low-income populations are not 
subjected to disproportionately high levels of environmental risks.
    Overall, the Inspector General concluded that EPA has not fully 
implemented Executive Order 12898 nor consistently integrated 
environmental justice into its day-to-day operations. EPA has not 
identified minority and low-income, nor identified populations 
addressed in the Executive Order, and has neither defined nor developed 
criteria for determining disproportionately impacted. Moreover, in 
2001, the Agency restated its commitment to environmental justice in a 
manner that does not emphasize minority and low-income populations, the 
intent of the Executive Order.
    What are your views on the Inspector General's conclusions? In 
particular, do you agree that, in order to implement E.O.12898, EPA 
must as a threshold matter identify predominately minority and low-
income populations in order to determine whether such communities are 
experiencing or are at risk of experiencing disproportionately high 
levels of environmental risks? If EPA has not identified populations 
addressed in the Executive Order, how can the goals of the Executive 
Order be achieved?
    Being as specific as possible, what steps would you take to address 
environmental justice concerns identified by the Inspector General's 
report? What performance measures would you adopt to measure EPA's 
progress in this area?
    Response. On June 7, 2004, the Agency submitted its response to the 
Inspector General's report (a copy of is attached). I believe the 
Agency's June 7, 2004 response responds to your first three questions.
    The Agency is developing an Agency-wide strategic plan for 
environmental justice (to be finalized in the fall of 2005), which will 
take into account the Inspector General's report.
    The Agency is in the process of establishing specific performance 
measures, which began with the Environmental Justice Action Plans and 
Progress Reports for fiscal year 2003 and fiscal year 2004-2005 
submitted to the Office of Environmental Justice by each Regional and 
Program Office (these documents can be found at: http://www.epa.gov/
compliance/resources/reports/ej.html).

    Question 16. Under the Toxic Substance Control Act, Congress 
directed EPA to issue regulations ensuring lead-safe remodeling and 
renovation practices in homes built before 1978. To date, EPA has not 
complied with this requirement, and has instead put forward a voluntary 
compliance program. My state of New York contains the largest number--
3.3. million--and percentage--43 percent--of homes built before 1950. 
The risks to New York's minority children are pronounced. For example, 
in New York City, 95 percent of children found to be lead-poisoned in 
2001 were African-America, Hispanic or Asian. Given the scope of the 
risk posed to children in New York and throughout the country, will you 
commit to issuing regulations as required under TSCA?
    Response. EPA intends to work with the renovation and remodeling 
industry to increase the use of lead-safe work practices, which in turn 
will help us all to meet the goal of eliminating childhood lead 
poisoning. As part of this effort, the Agency is developing an 
education and outreach campaign that will convey the benefits of the 
use of lead-safe work practices to minimize both workers' and 
homeowners' exposure to lead dust during renovation and remodeling. EPA 
is also targeting outreach efforts to expand consumer awareness. 
Critical to creating demand for the use of lead safe work practices 
during renovation and remodeling is an educated consumer.
    EPA plans to launch this material by this fall and will evaluate 
the effectiveness of this effort and will determine what additional 
steps may be necessary, including regulation.
                                 ______
                                 

                                                     April 5, 2005.
Mr. Stephen L. Johnson, Acting Administrator,
U.S. Environmental Protection Agency,
Washington, DC.
    Dear Mr. Johnson: As the Senate Environment and Public Works 
committee prepares to consider your nomination to be the Administrator 
of the United States Environmental Protection Agency (EPA), I would 
like you to consider several issues of great importance to my state of 
New York.
    Acid rain remains a major problem in New York State, particularly 
in the Adirondacks. According to a recent report by the Hubbard Brook 
Research Foundation, forty-one percent of the lakes and streams in the 
Adirondacks suffer from acidification. In addition, one quarter of the 
Adirondacks' lakes and ponds are so acidic that they no longer sustain 
their native plant and animal life. Acid rain has also harmed the trees 
of the Adirondacks, where on some mountains, up to 80 percent of red 
spruce and balsam fir forests have been destroyed. To ensure that 
Congress has the information it needs to determine whether acid rain is 
being adequately addressed, the Clean Air Act requires the 
Administration to submit a report to Congress every two years showing 
acid deposition trends. Every four years, this report is also required 
to recommend pollution reductions levels necessary to prevent adverse 
ecological effects. Yet, in spite of evidence of continuing problems in 
the Adirondacks and elsewhere in the eastern United States, the Bush 
Administration has not submitted a single such report to Congress. I 
understand that EPA has completed a draft report. Please provide me 
with a copy of the draft report, and let me know when the report will 
be finalized.
    As you know, I worked with the White House to secure an agreement 
to establish the World Trade Center (WTC) Expert Technical Review Panel 
in the fall of 2003. The primary charge of the panel, which is chaired 
by EPA, is to address lingering concerns about indoor contamination 
resulting from the collapse of the World Trade Center on September 11, 
2001. As a result of the panel's work, EPA will soon finalize a plan to 
test New York City apartments and offices for WTC contaminants and to 
clean these contaminants up where they are present at dangerous levels. 
While significant progress has been made during the plan's development, 
I remain concerned about several aspects of the EPA's most recent draft 
plan. As EPA works to finalize modifications to the draft plan, I urge 
you to give strong consideration to: adding additional samples to the 
testing program to examine contamination in Brooklyn; expanding the 
number of contaminants that will be tested; collecting and analyzing an 
adequate number of WTC dust samples to determine whether a valid WTC 
dust ``signature'' can be developed; setting clean-up triggers at 
levels that are protective of human health; testing in areas that are 
likely to harbor residual WTC contamination; and adding strong quality 
assurance procedures and other operational protocols that the draft 
plan does not include. In addition, I note that the planned April 11 
meeting of the panel has recently been postponed, and I urge you to 
reschedule the meeting to occur not later than May, and to make the 
revised plan publicly available at least two weeks before the meeting.
    Finally, I was dismayed by your recent decision to finalize a 
wholly inadequate EPA regulation to reduce mercury emissions from power 
plants. Mercury is a potent neurotoxin that we know is present at 
unhealthy levels in one in twelve American women, threatening their 
babies with developmental disorders. New research appearing next month 
in the scientific journal Ecotoxicology documents for the first time 
the wide-ranging negative impact of mercury deposition on ecosystem 
health. We now know that certain regions of the Northeast, including 
New York's Adirondack Mountains, have been identified as hotspots or 
areas of high mercury contamination in fish, birds and other animals. 
In spite of these facts, the rule that you finalized requires only 
modest mercury cuts, does not require installation of mercury-specific 
emissions controls at power plants for more than a decade, and allows 
trading of mercury. I believe that this approach is both unlawful and 
inadequate, and I will support Congressional efforts to overturn this 
regulation. I urge you to act immediately to revise the rule to better 
protect New Yorkers' health and environment from the dangers of 
mercury.
    I appreciate your attention to these matters, which are of great 
importance to the people and natural environment of New York.
            Sincerely yours,
                                            Hillary Rodham Clinton.
                                 ______
                                 
      Response of Stephen L. Johnson to Additional Questions from 
                           Senator Lautenberg
    Question 1. Both the Government Accountability Office and EPA's 
Inspector General recently issued reports showing that the 
Administration manipulated the science behind the new Mercury Rule. 
You've been at EPA for 25 years and know the agency has a long 
tradition of providing independent scientific analysis on environmental 
issues. A few weeks ago, the New York Times said, ``That reputation is 
in tatters,'' because of EPA's repeated manipulation of science. As the 
Administrator, how will you restore the reputation EPA once had?
    Response. Before I respond to your specific question concerning 
mercury and the recently promulgated Clean Air Mercury Rule (CAMR), I 
want to make sure that the Agency has been clear about the nature and 
sources of risk from mercury. We are exposed to methyl mercury through 
the fish we eat. Reduction of emissions from U.S. power plants may 
affect local freshwater ecosystems, but will not significantly reduce 
ocean concentrations. The importance of this point cannot be 
understated because the vast majority of fish and shellfish Americans 
consume come from ocean waters, and only a small portion of fish and 
shellfish consumed are freshwater recreationally caught fish. To 
suggest that there is a quick fix to the mercury problem in the U.S. 
would be misleading. EPA continues to recognize that fish and shellfish 
are part of a well-balanced diet that can contribute to heart health 
and children's proper growth and development. The best way for women of 
childbearing age, pregnant and nursing mothers, and young children to 
realize the benefits of eating fish and shellfish and be confident that 
they have reduced their exposure to the harmful effects of mercury is 
to follow the EPA-FDA Fish Advisory issued last year.
    I am committed to achieving and maintaining the highest possible 
standards of scientific inquiry. On difficult science issues, the 
Agency turns to its internal scientific experts in the Office of 
Research and Development for review and advice and, as appropriate, 
look to outside panels of experts such as the Science Advisory Board 
and the National Academy of Science.
    We have a strong program of scientific research and development. 
Over the past four years, EPA has taken major new steps to assure that 
its science is independent and sound. These steps have included open, 
transparent, and peer reviewed research planning; competitively awarded 
extramural research grants; independent peer review of science 
publications, assessments, and documents; and rigorous peer review of 
EPA's research laboratories and centers. If confirmed, I will work to 
ensure that this progress continues that the best available science is 
used in all of EPA's decision-making.

    Question 2. The Superfund tax expired in 1995. The program is now 
essentially broke and must depend on appropriations each year, which 
have been steadily declining. New Jersey has the greatest number of 
Superfund sites in the country. We are also the most densely populated 
state. So, more kids are growing up living next to toxic contamination 
in New Jersey than anywhere. This is the first administration that has 
failed to support Superfund's ``polluter pays'' tax. Explain to me why 
we should let polluters off the hook by not reinstating the tax?
    Response. I strongly support and enforce the ``polluter pays 
principle'' under the Superfund law. The success of the polluter pays 
principle is illustrated by the fact that roughly 70 percent of 
Superfund sites are cleaned up by the parties responsible for hazardous 
waste, an average of $838 million per year to clean sites as mandated 
by EPA. A broader perspective shows that, over the history of the 
program, EPA has required responsible parties to spend more than $21 
billion on cleaning up contaminated properties.
    EPA has always relied upon Congress to appropriate funds for the 
Agency to pay for cleanups at Superfund sites. Superfund program 
appropriations have remained relatively steady over the past 5 fiscal 
years at $1.3 billion to $1.5 billion. The FY 2006 President's Budget 
Request continues to maintain steady funding for the program.
    The Agency is making significant progress in cleaning up Superfund 
sites. Unlike in previous years where smaller, less costly sites were 
targeted for cleanups, we are now addressing large and complex sites 
that present unique clean-up challenges. Cleaning up these sites 
requires a disproportionate share of Superfund money. I can assure you 
however, that new projects that are not funded have been secured, often 
have had prior cleanup work and pose no immediate threat. EPA will not 
put communities at risk and will continue to protect human health and 
the environment.

    Question 3. The Toxic Substances Control Act was enacted in 1976 to 
``protect public health and the environment'' from toxic chemicals. In 
nearly 30 years, TSCA has been used to regulate only five chemicals 
beyond PCBs, which were required to be phased out in the law. Children 
are the most vulnerable to toxic chemicals, and according to the CDC, 
17 percent of all U.S. children less than 18 years of age have one or 
more developmental disabilities, which are increasingly tied to toxic 
chemical exposure. Toxic chemicals are a major concern in New Jersey. 
In 2000, New Jersey was ranked 15th highest in cancer deaths. Do you 
believe the Toxic Substances Control Act is fulfilling its mission ``to 
protect human health and the environment'' from toxic chemicals?
    Response. As you know, TSCA provides the Agency with the authority 
to ban or otherwise control chemicals; to ensure that new chemicals and 
significant new uses of chemicals are reviewed prior to 
commercialization; to require testing on new chemicals and chemicals 
already in the marketplace; and to require the reporting of information 
needed to ensure an adequate understanding of potential risks and 
effective enforcement of the law.
    In addition to the TSCA section 6 control regulations referred to 
in the question, it is important to note that EPA uses its TSCA section 
5 authorities (to obtain pre-manufacture notification (PMN), to issue 
Significant New Use Rules (SNUR), and to regulate pending the 
development of information) to ensure assessment and needed regulation 
of new chemicals and significant new uses of new and existing 
chemicals. In this regard, we have reviewed over 36,000 PMNs and have 
restricted or otherwise regulated over 1600 of these chemicals while a 
similar number have been withdrawn by the manufacturer, often in the 
face of EPA action. In addition, we have issued SNURs covering 
approximately 700 chemicals, which require notification to the Agency 
prior to initiating a significant new use of the chemical.
    EPA also complements its TSCA authorities with a wide range of 
voluntary testing, product stewardship and pollution prevention 
approaches to address potentially harmful chemicals. For example, EPA 
efforts in 2000 and 2004, respectively, resulted in the phase-out of 
production of over 80 Perfluorinated Chemicals (PFOS) derivatives and 
Octa- and PentaBDE by their only U.S. manufactures. We also took a 
voluntary approach to obtaining a more complete understanding of High 
Production Volume (HPV) chemicals by challenging the U.S. chemical 
industry in 1998 to voluntarily provide basic health and safety 
information on more than 2,200 of the chemicals produced at more than a 
million pounds a year. We are currently on track to receive the data by 
the end of 2005 on over 1,400 HPV chemicals. The other 800 chemicals 
are being handled by a complementary international effort under the 
Organization for Economic Cooperation and Development. EPA's Green 
Chemistry and Design for the Environment Programs are examples of 
highly successful efforts which seek the development and use of safer 
and more environmentally friendly chemicals and alternatives. Hospitals 
for a Healthy Environment and the Green Suppliers Network are examples 
of EPA programs which are obtaining significant reductions in the 
environmental footprint of, respectively, healthcare facilities and 
companies in manufacturing supply chains, like the automotive, 
pharmaceutical, and healthcare industries.

    Question 4. According to the GAO, only two percent of the 60,000 
chemicals grandfathered in under TSCA have even been examined for 
safety. Do you believe that TSCA give EPA the adequate authority to 
protect children's health from the harmful effects of the grandfathered 
chemicals?
    Response. I can assure you that EPA takes very seriously its 
commitment to protect children from chemical risks. EPA has taken a 
number of steps under TSCA to protect children from the harmful effects 
of chemicals. In addition to the actions described in the previous 
question, the Agency complements its TSCA authority with a wide range 
of voluntary testing, product stewardship and pollution prevention 
approaches.
    For example, in 2003, when the Agency amended its regulation for 
chemical production reporting, we included a requirement that industry 
provide us with additional information on chemicals produced in volumes 
over 300,000 lbs per site per year. Among the new reporting 
requirements is the need to identify chemicals that are intended for 
use in children's products or in consumer products. This will serve as 
an important source of valuable new information in our efforts to 
understand and protect children from chemical risks. In 2000, EPA 
initiated the Voluntary Children's Chemical Evaluation Program (VCCEP) 
by calling upon the chemical industry to participate in an effort to 
conduct tiered testing and assessment on chemicals to which children 
may be disproportionately exposed. Industry responded positively and 
VCCEP work is underway on 20 chemicals. This program is providing us 
with a greater understanding of the potential hazards, exposures, and 
risks to children associated with chemical exposures. Additional TSCA 
Titles give the Agency authority to address concerns related to the 
risks associated with asbestos, including asbestos in schools, and 
lead-based paint.
    EPA has also taken action to deal with other TSCA chemicals, such 
as Perfluorinated Chemicals (PFOS) and PFOA, ingredients in the 
manufacture of a wide array of non-stick surfaces and products, which 
present concerns for developmental effects (among others), as well as 
other chemicals of potential concern such as Penta and OctaBDE. EPA has 
issued a SNUR requiring notification of new production of 88 PFOS 
derivatives and is currently considering similar actions on an 
additional approximately 180 PFOS derivatives. We recently released a 
preliminary risk assessment on PFOA which is undergoing peer review by 
the Agency's Science Advisory Board and we are using TSCA Section 4 
testing tools, among others, to develop data needed to understand the 
sources and pathways of exposures to PFOA. Penta and OctaBDE are also 
the subject of proposed SNURs that would apply to any new production of 
these phased out chemicals. Finally, working with other Federal 
Agencies, EPA proposed adding a group of PFOS, PFOA, and PBDE 
derivatives to the Centers for Disease Control and Prevention's 
National Health and Nutrition Examination Survey (NHANES) blood 
monitoring study and we are working with the National Institutes of 
Environmental Health Sciences' National Toxicology Program to conduct a 
class study on the health effects of a series of perfluorinated acids 
similar to PFOS and PFOA.

    Question 5. EPA has been internally discussing weakening the 
standard for how much nuclear radiation the public may be exposed to. 
For decades, EPA has required that the allowable concentration of 
radiation could pose a risk of no more one cancer in every ten thousand 
people. The new standard would weaken that standard to a cancer risk of 
1 in 170, which is equivalent to getting 1,200 chest X-rays over a 
lifetime. The Administration may want to weaken this standard so that 
in the event of a dirty bomb, the cleanup would be easier to 
accomplish. I've been told that EPA is considering weakening its 
standard for radiation exposure. Is this true, and if it is, could you 
explain the reason for this change?
    Response. EPA does not plan to weaken its standards for radiation 
protection. EPA has been working on revising a 44-year-old Presidential 
Guidance to Federal agencies for protection of the public. The current 
Federal Guidance, as signed by President Eisenhower, includes a 
cumulative public dose limit of 500 millirems/year, which is equivalent 
to a cancer risk of 3 in 100 excess cancers over a lifetime. EPA's main 
objective in revising the old Federal Guidance is to reduce this 
excessively high recommended dose limit, to be more realistic in light 
of the stringent single source standards that EPA and other Federal 
agencies have issued. The draft revised Guidance reinforces and 
strengthens the current public process used by Federal agencies for 
setting individual source limits. EPA continues to rely on the excess 
cancer risk range of no more than 1 in 10,000 excess cancers in a 
lifetime to manage cleanup of radioactive sites. In the event of a 
dirty bomb, EPA anticipates that its cleanup standards will be fully 
considered, along with other relevant federal standards, for 
appropriateness given the nature and extent of radioactive 
contamination.

    Question 6. In a July 2004 Sierra Club report, Communities at Risk, 
How the Bush Administration is Failing to Protect people's Health at 
Superfund Sites, a report written using EPA data, New Jersey was 
highlighted as one of the key states which have:
    1. Superfund sites where there is uncontrolled human exposure to 
dangerous chemicals (5 sites, and 14 more sites where there is not 
enough information to know for sure);
    2. Superfund sites where toxic contaminants in migrating 
groundwater are not being controlled (22 sites, with 15 more sites 
where the information is incomplete).
    When I met with you, you assured me that Superfund sites were being 
assessed and prioritized strictly based on human health criteria. 
Please explain to me what you plan to do to address the high risk 
conditions that exist at at least 27 Superfund sites in New Jersey, 
according to this report, and potentially far more, if all the data 
were available.
    Response. I can assure you that protection of human health and the 
environment remains the Superfund program's top priority. You have my 
commitment that the Superfund program will continue to base its cleanup 
and funding decision-making on the risks posed by hazardous waste 
sites. Where immediate threats to human health identified, EPA takes 
action, such as providing alternative drinking water. EPA's Superfund 
Removal program is ready to act when there is an immediate threat posed 
by hazardous waste sites in New Jersey and throughout the country.
    It is important to note that the Human Exposure environmental 
indicator addresses both actual and potential exposures. Therefore, 
many of the NPL sites, including the ones in New Jersey, that are 
characterized in the ``not under control'' category are not actually 
causing exposure.
    Of the approximately 17 percent of NPL sites that are categorized 
as ``not under control'' or as ``insufficient information'', 
approximately 90 percent of those have Superfund actions under way to 
address or investigate the potential exposure. You have my commitment 
that EPA will continue to address the sites in New Jersey and elsewhere 
that are characterized as ``not under control'' or as having 
``insufficient information.''
                                 ______
                                 
     Responses of Stephen L. Johnson to Additional Questions from 
                             Senator Obama
    Question 1a. I understand that the EPA has been doing an excellent 
job thus far in leading the ``Great Lakes Regional Collaboration,'' and 
that you personally have been committed to ensuring the success of this 
cooperative effort to develop a long-term strategy for the Great Lakes. 
Once the strategy is complete (expected December 2005), what steps will 
you take within EPA and with the Administration generally to help 
ensure that the strategy is implemented?
    Response. Executive Order 13340 was signed on May 18, 2004, calling 
for the establishment of a ``Regional Collaboration of National 
Significance'' (GLRC) on the Great Lakes. EPA is working with the 
Regional Collaboration to develop the plan that is due to be released 
in December 2005. The Chair of the Interagency Task Force (IATF) is the 
EPA Administrator, who is a member of the Executive Committee of the 
Regional Collaboration. Through this role, EPA will assist to ensure 
that the plan is completed and a process is developed to implement the 
plan, report on progress, and take corrective actions, when necessary. 
EPA will also work with the Collaboration and with other Federal 
Agencies through the IATF, to develop mechanisms to carry out both 
programmatic and administrative requirements associated with the 
Executive Order, including the Regional Collaboration. We believe that 
continued bi-partisan support and leadership from Congress will be 
critical to our success.

    Question 1b. Will EPA estimate the amount of investment it would 
take to restore the Great Lakes as part of this Collaboration? If so, 
when will that estimate be ready?
    Response. As participants in the GLRC, EPA is working with other 
members to develop the strategic plan, including developing appropriate 
cost estimates associated with the plan. A draft plan is expected to be 
available in July. EPA will continue to work closely with this effort 
to ensure that appropriate cost estimates are developed.

    Question 2. It is my understanding that scientists from the U.S. 
Geological Survey and Washington University in St. Louis have tested 
for mercury in East St. Louis. Their readings turned up some of the 
highest readings ever for mercury and that East St. Louis is a hotspot 
for mercury. I know that locals fish at both Horseshoe Lake State Park 
in Granite City and Frank Holten State Park adjacent to East St. Louis. 
Fish tissue sampling from Frank Holten showed high mercury levels. All 
area waters have fish advisories for mercury.
    I am curious to know to what level these types of hotspots were 
incorporated into the EPA reasoning when formulating the mercury rule.
    Response. I do not know if the results from the study that you 
reference were incorporated in the databases used for the exposure 
modeling in support of the final CAMR. The databases are extensive 
containing thousands of entries and I'm told that an immediate answer 
is not available but I commit to provide you with an answer as soon as 
possible. It is important to understand that most of that mercury in 
fish across the country comes from sources other than U.S. power plants 
and therefore would not be addressed through the CAMR rulemaking.

    Question 3. It is my understanding that the CDC estimates that over 
400,000 American children under age 5 have elevated blood-lead levels 
potentially affecting their cognitive abilities. A different study 
estimates that 20 percent of the children under 5 in Chicago have 
unacceptable blood-lead levels. Lead may cause a range of health 
effects, from behavioral problems and learning disabilities, to 
seizures and death. Children 6 years old and under are most at risk, 
because their bodies are growing quickly. I understand that EPA has 
been working on a rule for some time. Last year, however, EPA 
apparently decided that rather than following the law and requiring all 
relevant workers to be trained, EPA wants to have a voluntary program 
instead. This is a very troubling decision. Mr. Johnson, has EPA made 
the decision to abandon writing a rule on renovation and remodeling in 
favor of a voluntary approach? If so, what is EPA's scientific basis 
for believing that a voluntary program would be effective? What will 
EPA do if the results are not as good as projected? If not voluntary, 
when will EPA issue a proposed rule?
    Response. EPA intends to work with the renovation and remodeling 
industry to increase the use of lead-safe work practices, which in turn 
will help us all to meet the goal of eliminating childhood lead 
poisoning. As part of this effort, the Agency is developing an 
education and outreach campaign that will convey the benefits of the 
use of lead-safe work practices to minimize both workers' and 
homeowners' exposure to lead dust during renovation and remodeling. EPA 
is also targeting outreach efforts to expand consumer awareness. 
Critical to creating demand for the use of lead safe work practices 
during renovation and remodeling is an educated consumer.
    EPA plans to launch this material by this fall and will evaluate 
the effectiveness of this effort and will determine what additional 
steps may be necessary, including regulation.

    Question 4a. In January 2001, under the leadership of the Clinton 
Administration, the EPA published a rule implementing clean diesel and 
fuel regulations. Engine manufacturers have invested hundreds of 
millions of dollars (Caterpillar Tractor Company more than $1 billion 
alone) in technology to achieve a 99 percent reduction in diesel 
emissions. It is widely recognized and accepted that these 
unprecedented emissions standards cannot be achieved without a 
corresponding requirement to limit the content of sulphur in diesel 
fuel to 15 ppm or less. In fact, during the 2001 rulemaking, engine 
manufacturers argued the sulfur content of diesel fuel should be at or 
near zero. The Bush Administration has also been a strong advocate of 
the diesel standards. As I understand it, the oil and pipeline industry 
has requested that the EPA provide ``flexibility'' in implementing the 
EPA standards. Precisely what type of ``flexibility'' is sought by the 
oil, refining and pipeline industries?
    Response. Refiners, pipelines, and terminals have expressed concern 
that despite their best efforts, during the initial transition into the 
program there may be ``hiccups'' that may lead to reduced volume of 
ultra-low sulfur diesel (ULSD). They have expressed a desire only for 
flexibility during the initial transition into the program in such 
limited situations that could both help ensure supply and availability 
of diesel fuel and avoid unnecessary enforcement issues.

    Question 4b. How would granting this ``flexibility'' not jeopardize 
the investments made by companies like Caterpillar, all which based 
considerable research and development capital resources on a commitment 
made by the federal government?
    Response. The Administration remains committed to full 
implementation of our highway and nonroad rules limiting emissions from 
diesel engines and fuels. We understand that engine manufacturers, 
including Caterpillar, have spent considerable time, effort, and 
financial resources on developing cleaner engines that require the use 
of the low-sulfur fuel. EPA is working with refiners and pipeline 
companies to ensure that they can meet our aggressive low-sulfur diesel 
fuel standards on time and in a manner that not restrict fuel supply, 
raise prices to consumers, or interfere with the investments made by 
engine manufacturers.
                               __________
 Statement of Luis A. Luna, Nominated by the President to be Assistant 
    Administrator for Administration and Resource Management, U.S. 
                    Environmental Protection Agency
    Mr. Chairman and Members of the Committee, it is an honor to appear 
before you today as President Bush's nominee for Assistant 
Administrator for Administration and Resources Management for the 
Environmental Protection Agency.
    The position oversees most of the assets and systems the Agency 
needs to do its work: personnel, training, facilities, security, 
purchasing, and grants administration. It is, in brief, an office 
responsible for many of the daily operations that make EPA run.
    I believe the task before me would be straightforward: to provide 
EPA's 18,000 employees the tools they need to be successful, and to 
ensure that the resources you entrust to the Agency are used in 
appropriate ways. The goal of both of these endeavors, of course, is to 
implement the laws passed by Congress in a way that produces meaningful 
and cost-effective environmental improvements for our nation.
    I would bring with me 32 years of experience in the Federal 
government, not-for-profit organizations and the private sector. During 
my career, I have had the opportunity to work for Senators and Members 
of Congress on legislative matters. I have served in four Federal 
agencies handling planning, performance and administrative issues. I 
have also helped created and run nonprofit organizations, as well as 
worked in the business community. These jobs have given me 
administrative and policy-development skills I would apply to the EPA 
post. They have also provided me an understanding of what it takes to 
develop and implement initiatives in organizations large and small, as 
well as an appreciation for the impact that Federal policies can have 
on the nation.
    Should you and your colleagues grant me the high privilege of 
serving our country in this capacity, I will use three touchstones to 
guide me in my work: accountability, transparency, and results.
    I will be accountable to the President, the Congress, the 
Administrator of EPA, my colleagues at the Agency, and most of all to 
the taxpayers. If I am asked to see that the Agency's resources are 
well managed, I must be willing to be held to account for my 
performance. This I will do. I will, in turn, also hold those with whom 
I work accountable, but always in a manner that is collaborative and 
constructive.
    I will conduct my activities, and those of the office, with 
transparency. Administering EPA's resources is best done by ensuring 
that there is openness in the way decisions are made and issues are 
handled. From dealing with personnel matters to administering grants to 
purchasing supplies, it is vital to conduct our affairs in ways that 
are visible, understandable and credible. Only in that way can we hope 
to maintain the integrity of the outcome.
    I will be focused on results. Activity is not the same as progress, 
and I will commit to pressing for solutions to issues. I will avoid 
policies and directives that ensnare our goals in bureaucratic 
procedures rather than forward motion, thereby wasting time and 
resources.
    One area that will draw my particular attention is EPA's grants 
program. I know that this Committee has repeatedly questioned its 
operations. I am also aware of the conclusions drawn by the Government 
Accountability Office, the Office of Management and Budget and EPA's 
own Office of Inspector General regarding the management of EPA grants. 
I think these are legitimate concerns. It is essential that the $4 
billion EPA distributes in grants per year achieve the desired 
environmental results and are spent according to the rules. From what I 
read, that has not always been the case.
    I am familiar with EPA's 5-year grants management plan. It outlines 
how to improve staff training, increase competition, make better use of 
technology, enhance oversight and focus on environmental results. All 
of these are appropriate and necessary steps. Although the Agency is in 
the midst of implementing the plan, I nevertheless intend to look at it 
with fresh eyes and adjust it as needed to ensure its success. I will 
test it against the principles I mentioned earlier accountability, 
transparency and results to see that it does, indeed, fully and 
effectively address the persistent challenges faced by EPA's grants 
program.
    I hope this brief overview will give you insights into how I would 
manage the resources you provide to the Environmental Protection 
Agency. Thank you for considering my nomination and for allowing me the 
opportunity to appear before you.
                                 ______
                                 
 Responses of Luis A. Luna to Additional Questions from Senator Inhofe
    Question 1. During an oversight hearing before the Environment and 
Public Works Committee held March 3, 2004, the EPA Assistant Inspector 
General for Audits testified to an audit of a nonprofit EPA grant 
recipient. In that audit, the Inspector General concluded the nonprofit 
recipient violated the Lobbying Disclosure Act for the 5-year term of 
the audit and recommended the EPA recover all grant dollars awarded to 
that nonprofit recipient during that period. EPA's new financial 
oversight for nonprofit grant recipients is a positive step. In order 
to avoid taxpayer dollars going to lobbying and political 
organizations, what would be wrong with requiring a potential nonprofit 
recipient to disclose all affiliated organizations including Internal 
Revenue Service designated 501(c)(4) and 527 organizations in the new 
financial oversight policy?
    Response. I have read about this particular audit and can certainly 
see why it would give the Committee pause about the manner in which EPA 
grant dollars are being distributed. I believe the Agency should 
consider requiring nonprofit applicants to disclose their ties to 
affiliated organizations to which the funds could be transferred. This 
would mean changing the language of the questionnaire EPA currently 
sends to nonprofit grantees before they receive funding. That change 
would require clearance by the Office of Management and Budget (OMB) 
under the terms of the Paperwork Reduction Act. I would be happy to 
work closely with OMB on this issue.

    Question 2. While EPA has instituted new oversight policies in 
grant management, this Committee's oversight has revealed that EPA 
needs a consistent peer review policy in grant solicitations and grant 
awards. I believe this Committee should consider hearings on this 
issue. Can I get your commitment to a real and thoughtful consideration 
of new peer review in grants focusing on resolving real environmental 
issues rather than wastefully spending on inconsequential ones?
    Response. The short answer to your question is an emphatic ``Yes.'' 
Peer review has great value in assuring that taxpayer dollars are used 
appropriately. I believe in the value of having many eyes look at 
projects and proposals, which helps both improve the outcome and avoid 
potential problems. It enhances accountability, transparency and 
results--the three concepts I said at my confirmation hearing would be 
the touchstones guiding my work at EPA.
    I am aware that EPA's new competition policy encourages offices to 
use peer review-type processes to achieve the desired results. These 
processes range from using peer reviewers within EPA (or other Federal, 
state and local agencies) to reviewers from universities and the 
private sector. I am also aware that there is a pilot project underway 
to explore expanded use of paid peer reviewers on typical EPA grants. I 
will look at the information generated by this project, as well as the 
real-world application of the new competition policy, to see how best 
to get meaningful and cost-effective reviews of pending grants.
    I will look at the information generated by this project, as well 
as the real-world application of the new competition policy, to see how 
best to get meaningful and cost-effective reviews of pending grants.
                               __________
 Statement of John Paul Woodley, Jr., Nominated by the President to be 
            Assistant Secretary of the Army for Civil Works
    Mr. Chairman, members of the committee, I want first to express my 
appreciation for promptly scheduling this hearing to consider my 
nomination to be the Assistant Secretary of the Army for Civil Works.
    I am mindful of the confidence expressed in me by President Bush 
and Secretary Rumsfeld in submitting my name in nomination for this 
important post with the Department of the Army. The Army Corps of 
Engineers and its civil works function encompassing navigation, flood 
control, water resource development, and environmental improvement, has 
for 200 years contributed greatly to the prosperity and well-being of 
our Nation.
    I deeply appreciate the courtesy of the committee. If confirmed, I 
look forward to working with the Chairman and all members of this 
important Committee to address the vital navigation, flood control, 
water resource, and environmental challenges of the Nation. Thank you.
                                 ______
                                 
      Responses of John Paul Woodley to Additional Questions from 
                             Senator Inhofe
    Question 1. When Congress authorized the Corps in WRDA 2000 to 
proceed with work on a comprehensive restoration of the Everglades, one 
concern at the time was that authorization of such a large restoration 
project was premature in part because the Corps had not yet identified 
measurable environmental outcomes. In response to these concerns, the 
Corps was required in the legislation to establish an independent 
scientific review panel to review the environmental progress (PL 106-
541, Sec. 601(j)(1)). In addition, the panel was required to produce a 
report to Congress every 2 years assessing the agency's progress in 
restoring the Everglades as measured by these environmental indicators 
(PL 106-541, Sec. 601(j)(2)). Has the Corps convened this independent 
scientific panel?
    Response. Yes Senator, the Corps has convened an independent 
scientific review panel through the National Academy of Sciences. The 
panel was convened In October of 2004 and is composed of twelve 
scientists with specialties that include: construction and 
environmental engineering, wetland scientists, water quality 
specialists, biologists in various specialties, geomorphology and 
hydrology, landscape ecology, and watershed management whose mission is 
to review the interim environmental goals and targets and report to 
Congress biennially on the progress in restoring the Everglades.

    Question 2. Has the scientific panel identified the environmental 
indicators by which the Corps can measure its progress at restoring the 
Everglades?
    Response. The panel has not come to a conclusion on the proposed 
environmental indicators to be used to measure the progress on 
restoring the Everglades. Since its inception, the Independent 
Scientific Review Panel has met twice, once in October 2004 and again 
in February 2005. A third meeting is scheduled for April 2005. The 
first meeting established a direction and an understanding of their 
objectives. The second meeting covered a wide range of topics 
associated with understanding the modeling, past science coordination, 
various goals for the Everglades and Florida Bay, land acquisition, and 
touring of portions of the project area. There was also an open public 
session for interested parties to address the panel. The third meeting 
will include tours of other portions of the project area, an update of 
the State's Acceler8 program, a review of the progress in the Southern 
Everglades, and experiments and results of adaptive management efforts 
with regard to experimental water deliveries and 
decompartmentalization. This meeting will be open to the public for 
input.

    Question 3. How does the Corps expect to produce a 5-year progress 
report if it hasn't established the panel required to provide a 
scientific assessment of ecological measures of progress?
    Response. The Corps is on schedule to produce the 5-year report to 
Congress as required by the Water Resources Development Act (WRDA) of 
2000. This report will be based on the progress to date for both 
modeling and the interim goals, which have been developed, and the 
results of ongoing work with adaptive management. This report is a 
snapshot in time of where the project is at this time and will form the 
bases for studies over the next 5 years unless modifications result 
from demonstration projects on aquifer storage and recovery or 
directions identified through model revisions or results from the 
Independent Science Review Panel.

    Question 4. When can we expect to see the first biennial report?
    Response. Senator, the first biennial report of the Independent 
Science Review Panel is scheduled for June 2006.
                                 ______
                                 
      Responses of John Paul Woodley to Additional Questions from 
                            Senator Jeffords
    Question 1. Do you support independent peer review of Corps 
projects?
    Response. I fully support the independent review of major 
engineering, scientific, and technical work products that are a part of 
Corps of Engineers feasibility studies, particularly those that are a 
part of large, complex, and controversial Corps projects. Not all 
projects may require the additional time or expense of independent 
review and the Chief of Engineers should have discretion on studies 
that may be relatively routine, such as projects that are neither 
technically complex nor controversial. I fully agree that providing for 
peer review of the major scientific, engineering, and technical work 
products that support the recommendation of the Chief of Engineers for 
implementation of water resources projects. It should not apply to the 
decision or recommendation itself or the application of policy to the 
recommendation. In this manner, the Chief of Engineers and I would 
retain the policy compliance or internal review aspect of the 
feasibility study as well as the responsibility to fully document the 
disposition of any recommendations resulting from independent peer 
review. To facilitate review of water resources reports, I have worked 
closely with the Corps to develop new guidance that establishes the 
principles of both internal and external peer review. Every proposed 
Corps project will undergo either an external or internal independent 
peer review on the technical aspects of the project or an internal 
policy compliance review. With respect to the National Research 
Council's (NRC) report, ``Review Procedures for Water Resources Project 
Planning,'' I support their concept that ``reviews should be conducted 
to identify, explain, and comment upon assumptions that underlie 
economic, engineering, and environmental analyses, as well as to 
evaluate the soundness of models and planning methods.''

    Question 2. Do you think the principles and guidelines that the 
Corps uses when evaluating projects need updating?
    Response. I believe that the principles and guidelines provide the 
necessary flexibility to respond to today's challenges in addressing 
our Nation's water resources needs. I have worked with the Corps of 
Engineers to ensure that Corps planning studies will evaluate, display 
and compare the full range of alternative plans' effects across all 
four principles and guidelines accounts. Effects will include benefits 
and other desirable outcomes and costs and other adverse impacts, as 
well as cumulative effects. Planning reports will include a full 
discussion and display of the beneficial and adverse effects of each 
plan, and a comparison of effects among plans. The discussion and 
display will address each of the four established accounts and will not 
be limited to any one account. However, the National Economic 
Development (NED) plan will still be identified. After considering a 
plan's beneficial and adverse effects across all four accounts, the 
plan may be a candidate for selection if it has, on balance, net 
beneficial effects. The planning report will explain the basis for 
selection considering the beneficial and adverse effects in all four 
accounts. My office has the responsibility for granting or rejecting a 
waiver for selecting the NED plan based on the four accounts and the 
justification provided. I'm finding that on a day-to-day basis that the 
concepts and requirements established under the current principles and 
guidelines reflect a broad approach to today's water resources planning 
needs that enable us to work collaboratively with project sponsors, 
other state and Federal resource agencies, the public, as well as OMB 
and the Congress.

    Question 3. In guidance the Corps of Engineers issued jointly with 
the EPA after the SWANCC decision, Corps of Engineers' field staff were 
directed to seek formal project-specific Headquarters approval prior to 
asserting jurisdiction over isolated water that are both intrastate and 
non-navigable, including permitting and enforcement actions. This 
direction gives complete discretion to the field staff to decide 
whether or not to regulate any isolated, intrastate non-navigable water 
and creates an additional step that could add unnecessary delay in 
permitting and enforcement. How is this working? How many permits have 
been effected by this guidance? How long is it taking for a permitting 
or enforcement action subject to the new Headquarters approval, to go 
through the process? What procedures are field staff using in order to 
get Headquarters approval?
    Response. Corps districts are required to determine if Clean Water 
Act (CWA) jurisdiction exists over isolated, intra-state, non-navigable 
waters based on interstate commerce connections presented in 33 CFR 
328.3(a)(3)(i)-(iii). Prior to asserting jurisdiction solely on the 
basis of 33 CFR 328.3(a) (3), the district is to request a concurrence 
from Corps and EPA HQ.
    To date, approximately 10 actions (out of many thousands) have been 
raised to the Corps and EPA HQ by the districts. On average, the 
coordinated HQ review has been taking on the order of 6 to 12 months to 
complete. In some cases, it is taking longer than 12 months to complete 
the process. In part, this is because districts have not been provided 
with guidance to outline what information HQ is reviewing to support 
the district determination. As a consequence, coordination efforts 
between the district and the Corps and EPA HQ team have been extensive 
and resulted in actions being time consuming to complete. Additional 
delays have occurred as there is no mechanism in place to ensure both 
HQ agencies continue to process a decision to completion in a timely 
manner.
    To that end, we have drafted a MOA to promote interagency 
cooperation, facilitate increased communication, and make more 
efficient the process for determining CWA jurisdiction for actions 
being review under 33 CFR 328.3(a)(3). The MOA outlines the information 
to be submitted by the districts to request a HQ-level review and a 
process to ensure the request moves forward in a timely manner. We 
provided EPA with a draft copy of the MOA for review/comment on January 
31, 2005. EPA provided feedback on the MOA in February 2005. It is 
expected that we will meet with EPA within the next couple of weeks on 
the MOA to determine how we move forward for processing actions covered 
under 33 CFR 328.3(a)(3).

    Question 4. Since 1986, the Corps has been required to prepare a 
detailed mitigation plan whenever a civil works project will have more 
than minimal impacts. In 1990, Congress established a statutory goal 
for the Corps' civil works program of no overall net loss of the 
Nation's remaining wetlands base. However, a 2002 GAO Report shows that 
the Corps has not proposed any mitigation at all for 69 percent of 
projects constructed since 1986. Where mitigation is required, it is 
often at far less than a 1:1 acreage replacement despite the fact that 
the Corps and most states typically require the private sector to 
implement far more than 1:1 mitigation. Do you believe that the Corps 
should be required to meet the same mitigation requirements as the 
private sector (at least 1:1 mitigation and more for certain kinds of 
water resources damages)? If not, how do you plan to ensure that the 
Corps meets the Congressionally mandated goal of no-net-loss of wetland 
acres and functions?
    Response. Mitigation is an integral part of the Corps of Engineers 
Civil Works and regulatory missions. The Corps goal is to fully 
mitigate for environmental impacts and to mitigate with habitat of the 
same kind (e.g., fresh water wetlands for fresh water wetlands) and of 
a value equal to or greater than that, which was impacted. This 
mitigation will be done prior to or concurrent with project 
construction.
    The Water Resources Development Act of 1990 established an interim 
programmatic goal of no overall net loss of the Nation's wetlands by 
acreage and function (associated with mitigation) and a long-term goal 
to increase the quality and quantity (associated with restoration). 
Both the Corps' regulatory mission and Civil Works program have this as 
a goal for actions involving the Corps. To meet this goal, the Corps 
not only mitigates for its actions, but is also creating wetlands as 
part of its Civil Works restoration mission. Mitigation would only 
allow the Corps to offset the impacts of its programs or those they 
oversee. To achieve the long-term goal of increasing the quality and 
quantity of the Nation's wetlands, the Corps has implemented an 
ecosystem restoration program.
    The President's no net loss goal is a national goal. Evaluation of 
impacts and mitigation using only acreage dimensions, applied on an 
individual project basis, can be misleading. For instance, under an 
acre for acre requirement an acre of high quality wetlands could be 
replaced with an acre of low quality wetland. Strict adherence to a no 
net loss of acreage requirement would, in that case, result in a net 
loss of environmental values. Value associated mitigation requires 
considerably more information than just the measure of area. What must 
be assessed is a measure of the physical/chemical/biological values 
associated the resource (wetland area, riparian area, upland area, 
etc.) to be impacted. The Corps' Civil Works program approach of 
looking at habitat value is consistent with the policies of the U.S. 
Fish and Wildlife Service (as described in the Federal Register, Volume 
46, No. 15, dated January 23, 1981). All of U.S. Fish and Wildlife 
Service mitigation goals are stated with regard to habitat value. 
Accordingly, from an environmental perspective, the Corps' approach of 
replacing habitat value is more reflective of losses/impacts than a 
simple acre for acre approach.
    Mitigation ratios that do not consider the value of what is being 
lost, are not reflective of good environmental stewardship. Using 
ratios without any other evaluation may lead to under or over 
mitigating project impacts, either of which is not in the public's 
interest. The Corps Civil Works program uses one of many differing 
habitat based evaluation procedures.
    In general practice, functional values are determined by applying 
aquatic site assessment techniques generally recommended by experts 
and/or by the best professional judgment of federal and state agency 
representatives. These types of assessments fully consider ecological 
functions included in the Section 404 (b)(1) Guidelines. The objective 
in the guidelines for mitigating unavoidable impacts is to offset 
environmental losses. For wetlands and other special aquatic sites, 
such mitigation should provide, at a minimum, a one for one functional 
replacement (i.e., no net loss of values), with an adequate margin of 
safety to reflect the expected degree of success associated with the 
mitigation plan. In the absence of more definitive information on the 
functions and values of specific wetland sites, a minimum of 1 to 1 
acreage replacement may be used as a reasonable surrogate for no net 
loss of functions and values.
    Civil Works vs. Private Development: I do believe the Corps should 
meet the same mitigation requirements as the private sector; however, 
mitigation as generally practiced by Corps planners affects a much 
broader range of resources than does the Corps regulatory program, 
which applies to aquatic resources. The most visible mitigation 
attributed to the Corps regulatory program is the compensatory 
mitigation done for wetlands impacts. To the extent a Corps Civil Works 
project impacts wetlands, the Section 404 (b)(1) guidelines are applied 
to the project. Those projects are treated in the same manner as a 
private developer's project.

    Question 5. In response to an advance question for your nomination 
hearing before the Armed Services Committee last Congress asking 
whether you believe we are currently meeting the no net loss of 
wetlands goal, you responded that you ``understand there are 
differences of opinion on whether or not the Corps is meeting the 
goal.'' You also stated that you ``understand that there are monitoring 
and record-keeping issues that should be addressed in this 
connection.'' Please describe the steps you have taken to determine 
whether this goal is in fact being met in connection with civil works 
projects, and the steps you have taken to address the lack of 
mitigation monitoring and record-keeping.
    Response. Senator, let me begin by identifying the steps that have 
been undertaken in the Regulatory program. After the criticism of the 
Regulatory databases in the mid 1990s, Regulatory began development of 
a national database that would standardize permit tracking across all 
districts electronically. This resulted in an Operations and 
Maintenance Business Information Link (OMBIL) Regulatory Module (a 
database program) which allows the Regulator to input type, acreage, 
and functional score of the aquatic resources the proposed project 
would impact, what was permitted, and what was constructed on the 
ground as checked by compliance visits to the site. This system has 
been installed in 15 districts and should be installed in all districts 
by the end of FY 2007. However, Civil Works does not yet have a fully 
functioning database program. The Corps Institute for Water Resources 
(IWR) has developed a demonstration database program, which has been 
populated with data from the Continuing Authorities Program. A database 
for Civil Works is much more complicated in that it must cover a much 
broader range of natural resources than just aquatic resources in the 
Regulatory program. The amount of data to be collected and entered is 
significantly greater. The Corps has requested additional funds to 
verify its mitigation efforts, but these requests have not been funded 
by Congress. I firmly believe that the Civil Works program must have a 
fully functional database so it can be determined if the mitigation 
goals are achieved and I will work with the Corps to establish a fully 
functional database program for Civil Works through further work with 
IWR or working to incorporate Civil Works mitigation into the OMBIL 
database program.
    I have requested substantial increases in the Corps' budget for the 
Regulatory program for both FY 2005 and FY 2006, predicated in part on 
the need to address the lack of mitigation monitoring and record-
keeping.

    Question 6. Do you think the programmatic responsibilities and 
guidance documents of the Army Corps of Engineers should include 
consideration of the impacts of sea-level rise related to global 
climate change?
    Response. Senator, I fully agree that sea-level rise needs to be 
addressed in Corps planning studies. In fact current Corps guidance 
includes direction with regard to including sea-level rise in our 
planning studies. Engineer Regulation 1105-2-100, page E-142 states:

          ``k. Sea Level Rise. The National Research Council (NRC) 
        study on sea level change (Responding to Changes in Sea Level: 
        Engineering Implications, 1987) is a practical and rational 
        review of data on relative sea level changes and the resulting 
        impact on engineering structures. The study should be used by 
        the Corps for technical guidance until more definitive data are 
        available. The NRC study recommended that feasibility studies 
        for coastal projects should consider the high probability of 
        accelerated sea level rise. Since precise estimates of future 
        sea level rise are unknown, the risks associated with a 
        substantial rise should be addressed. Feasibility studies 
        should consider which designs are most appropriate for a range 
        of possible future rates of rise. Strategies that would be 
        appropriate for the entire range of uncertainty should receive 
        preference over those that would be optimal for a particular 
        rate of rise but unsuccessful for other possible outcomes.''

                                 ______
                                 
      Responses of John Paul Woodley to Additional Questions from 
                             Senator Baucus
    Question 1. Mr. Woodley, what percentage of barging activity on the 
Missouri River is related to Corps activities and what percentage is 
commercial traffic?
    Response. The barging activity conducted by the Corps and its 
contractors for river maintenance (referred to as waterway materials), 
looking over a 5-year average, represents 1 percent of total commercial 
tonnage. Long-haul commercial tonnage, which does not include sand/
gravel and waterway materials, represents about 8 percent of the 
tonnage on the Missouri River.

    Question 2. Why do you believe that Congress has directed you to 
protect the barge industry on the Missouri River, and what does that 
mean? Where can I find your exact authorities? Don't you have a great 
deal of discretion in how you exercise your authorities along the river 
to maximize all uses of the river?
    Response. Section 9 of the 1944 Flood Control Act authorizes the 
Missouri River Mainstem Reservoir System to be operated for the 
purposes of flood control, navigation, irrigation, power, water supply, 
water quality control, recreation, and fish and wildlife. Since 
navigation is a Congressionally authorized project purpose, I 
understand that the Corps is required to provide for navigation in its 
management of the system. I also understand that navigation does not 
have a priority position in system management, but must be balanced 
with other authorized project purposes. The Corps of Engineers operates 
the System following the guidelines that are identified in the Missouri 
River Master Water Control Manual, which was revised over a 15-year 
period involving extensive consultation to better balance the adverse 
impacts of drought to all of the project purposes. We do have a certain 
degree of discretion in operation of the system. During day-to-day 
operation of the System, the Corps may have very minor deviations from 
that identified in the Master Manual to respond to special 
considerations. These deviations are coordinated with the affected 
parties.
    I reject the notion that the 2004 revision to the Master Manual is 
the last word in Missouri River management. The Corps has been and will 
continue to be engaged with the leaders and communities of the basin to 
address the baleful effects of drought and to help these communities 
achieve all the benefits available from wise management of this vast 
but fragile resource.

    Question 3. Do you agree with the Corps' recent analysis which 
found that changing the navigation preclude to 40 million acre feet of 
system storage would have a net positive economic impact along the 
Missouri, and would have a minimal negative impact on the barge 
industry?
    Response. The analysis of a 40-million acre-foot preclude 
determined that average annual Missouri River navigation benefits 
(based analysis used to derive a National Economic Development plan) 
would be reduced from $9.35 million to $9.26 million, a reduction of 
about 1 percent. Effects on navigation on the Mississippi River were 
not analyzed. Navigation on the Missouri River would be suspended 
earlier and benefits would be reduced in only the more severe droughts 
similar to the ones that occurred from 1930 through 1941 and from 2000 
to the present. The Current Water Control Plan, which was first 
followed in 2004 following its revision in March 2004, provided an 
increase in the navigation preclude from 21 to 31 million acre feet. 
This change was accomplished following 14 years of analyses and 
communication, and it was supported by seven of eight basin states.

    Question 4. I appreciate your recognition at the hearing that the 
situation at Fort Peck is serious. But, how much higher would Fort Peck 
currently be if the navigation preclude had been set at 44 million acre 
feet, and if the drought conservation measures contained in the current 
Master Manual had been in place during this current drought? How much 
higher at 40 million acre feet?
    Response. I visited Fort Peck last year, and I can testify first-
hand as to the devastating impact of the present drought on this 
important resource and the communities which depend upon it for their 
livelihoods and well-being. The severity of the current drought in the 
upper Missouri River basin is not well understood around the nation, in 
my view, and, if confirmed, I commit to work closely with you and other 
leaders to do all within my power to find a better way to lessen the 
impacts of drought on all parts of the Missouri River basin. Based on a 
cursory analysis, a 44-million acre-foot preclude with the current 
drought conservation measures would have resulted in no navigation in 
2003. The estimated savings in terms of storage with both conservation 
measures would have been about 5.2 million acre feet, which would 
translate to an elevation change of about 8 feet at Fort Peck. 
Navigation would have occurred in all years of the current drought up 
to this year had the navigation preclude been set at 40 million acre 
feet and the current conservation measures followed throughout the 
drought. The current drought conservation measures, however, would have 
saved about 1.5 million acre feet of water in the system for an 
estimated gain of 2.5 feet at Fort Peck.
                                 ______
                                 
      Responses of John Paul Woodley to Additional Questions from 
                             Senator Vitter
    Question 1. Mr. Woodley, the restoration of Coastal Louisiana is a 
top priority for me, for the other members of Louisiana's congressional 
delegation, and for the State of Louisiana. Once confirmed, how will 
you exercise your leadership and devote federal resources to restore 
coastal Louisiana and its wetlands?
    Response. The restoration of Louisiana's coastal ecosystem is 
important to me, too, and I believe it is a top ecological priority for 
our country. The problems and potential solutions were recently 
addressed in the Louisiana Coastal Area (LCA) Ecosystem Restoration 
Study that my office recently received from the Corps of Engineers for 
review. That study identifies several actions that could be taken in 
the near term to address the problems of the coast, recognizing that 
actual restoration is likely to take several decades and will certainly 
require additional actions, which have not yet been fully studied or 
even proposed at this time. If confirmed, I will work tirelessly to 
secure the support of Congress the projects currently proposed. I will 
ensure the full participation of the Corps in implementing the actions 
that the Congress authorizes. In this regard, I have recommended an 
increase in funding for planning ecosystem restoration in coastal 
Louisiana to $20 in FY 2006, which is included in the President's FY 
2006 budget.

    Question 2. In Louisiana, we have a coastal environment crisis: the 
state is losing a wetlands area equivalent in size to a football field 
every 38 minutes. This negatively impacts everyone in the nation who 
relies on resources supplied by Louisiana. Once confirmed, how would 
you respond to this problem? How would you support the State of 
Louisiana in responding to this problem?
    Response. The scale of this problem is vastly larger than the more 
familiar wetlands issues encountered elsewhere. Despite that scale, the 
wetlands involved happen to be contained almost entirely within the 
borders of Louisiana. Nonetheless, the ecological and economic reality 
is that this is not simply Louisiana's problem. I believe that the 
Corps and the State of Louisiana have already identified the right path 
to ward the proper solution, which is an ongoing joint federal-state 
effort, involving multiple state and federal agencies, like the one 
that has recently produced the LCA Near Term Plan. I believe we need 
not only to provide for the projects recommended in the near term plan 
to be implemented as effectively and efficiently as possible, but also 
to provide the means and mechanism for the multi-agency planning 
process to continue. We should establish and equip an on-going effort 
to develop the science, the technologies, and the new plans that will 
be required in order to carry this effort into future decades. The 
Federal government and the State of Louisiana should be equal partners 
in this effort, supported by a multi-agency task force that can 
recommend the best, full use of our combined resources.

    Question 3. As the Corps initiates restoration of Louisiana's coast 
how will it incorporate coordination and build partnerships with other 
federal agencies, such as EPA, the state, and local communities?
    Response. I believe that an ongoing multi-agency task force should 
recommend the development, sequencing, and scheduling of restoration 
activities, as well as monitor their implementation and their overall 
effectiveness. The state and federal government, as equal partners in 
the restoration effort, should be supported on the task force and its 
workgroups by all the relevant agencies of their governments, as well 
as by other stakeholders as they might deem appropriate. While the 
Corps may be assigned significant responsibility for developing and 
implementing the plan, all of those agencies should have a role that 
reflects their responsibilities under the law, the resources they 
control, and the expertise that they can contribute toward the overall 
goals of the project.
                                 ______
                                 
      Responses of John Paul Woodley to Additional Questions from 
                           Senator Lautenberg
    Question 1. The President's FY 2006 budget for Army Corps would 
make enormous cuts in flood protection projects which are of great 
importance to New Jersey--especially in view of the current flooding in 
14 N.J. counties. Every flood control project in areas that are now 
literally under water, have been zeroed-out in the president's budget. 
More than 3,500 people have been evacuated so far and millions of 
dollars in damage has been caused. Last year, New Jersey suffered 
similar flood devastation. Could you explain to me how the decision was 
made not to fund any of these clearly needed flood control projects?
    Response. Given the President's overall priorities, including the 
ongoing War on Terrorism and the need to reduce the deficit, funding is 
not available to enable construction of all worthy Civil Works 
projects. To make best use of available funding, the construction 
portion of the Fiscal Year 2006 budget for the Army Civil Works program 
focuses on making substantial progress on high return projects. The 
predominant criterion that was used to identify the high return 
projects was the ratio of remaining benefits to remaining costs. This 
ratio ignores sunk costs and realized benefits, and compares the 
economic returns from prospective investments to the costs of realizing 
those returns. With the funding available for Fiscal Year 2006, we were 
able to fund ongoing construction projects with remaining benefit--
remaining cost ratios of 3.0 to 1 or higher. Similar constraints 
affected the planning and design program.
    I sincerely regret that the construction of some worthy projects 
and studies must be suspended or deferred, with the type of 
consequences that you describe. For future Civil Works budgets, I will, 
if confirmed, continue do my best to seek the funding needed for worthy 
projects and studies, to ensure that the criteria for allocating 
available funds are fair and reasonable, and to ensure that cases where 
there are extraordinary or extenuating circumstances receive full 
consideration in the budget process.

    Question 2. The President has proposed cutting shore protection 
funding by 32.3 percent compared to his FY 2005 proposal. The 
Administration has also adopted the position that the federal 
government no longer needs to assist coastal communities with beach 
protection. Yet, by law we've made a 50-year commitment to the beach 
projects that Congress has authorized. Do you believe the government 
should honor this commitment?
    Response. The change in the total funding requested for shore 
protection from Fiscal Year 2005 to Fiscal Year 2006 reflects the sums 
of individual allocation decisions rather than an explicit decision 
about a shore protection total.
    Both Fiscal Year 2005 and 2006 budgets included funding for initial 
construction of beach nourishment projects. Unlike the Fiscal Year 2005 
budget, the Fiscal Year 2006 budget also includes a proposal to fund 
periodic renourishment at authorized storm damage reduction projects as 
needed to mitigate the effects of Federal navigation operation and 
maintenance on the nearby shorelines.
    For projects involving periodic renourishment, the Administration's 
position remains that, once initial construction has taken place, 
renourishment to remedy shoreline impacts attributable to causes other 
than Federal navigation operation and maintenance should be a non-
Federal responsibility.
    The Army enters into a project cooperation agreement for each 
project once it receives construction funds. Every agreement explicitly 
recognizes that Federal financial participation is subject to the 
availability of funds for the project. The Administration's budget 
policy is reflected in the way funding in the budget is allocated or 
not allocated among available projects. Should a shore protection 
project that is not included in the budget be provided funds by 
Congress in annual appropriations, we would use those funds on the 
project as intended.
                               __________
    Statement of Major General Don Timothy Riley, Nominated by the 
     President to be President and Member of the Mississippi River 
                               Commission
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you as the nominee for president and member of the Mississippi 
River Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers. This unique blend of 
military personnel and civilians encourages an exchange of information 
and ideas from various points of view and the best professional advice 
to the President.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad political institutions, individuals, and public 
entities that have major interests in seeing that the water resources 
needs and opportunities of the Mississippi Valley are evaluated, 
planned, designed, constructed, and maintained. The current mission of 
the Mississippi River Commission is to balance the needs of flood 
control, navigation, recreation, and the environment in a sustainable 
manner.
    As established in 1879, the Commissioners are to serve as advisors 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has spent a significant part 
of its leadership on the Mississippi River and Tributaries project, 
authorized by the Flood Control Act of May 15, 1928, to be implemented 
under oversight of the Commission. The MR&T project extends generally 
from the confluence of the Ohio River to the Head of Passes below New 
Orleans and covers portions of seven states. It receives water from all 
or portions of 31 states and part of two Canadian provinces, or roughly 
41 percent of the contiguous United States. Effective planning, design, 
construction, and operation of the widespread and complex MR&T project 
have been assisted greatly by the Commission's active consultation with 
the public, particularly on its semiannual Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    The MR&T project is truly of national significance. As a result of 
this project, damages have been reduced $25 for each $1 spent. For 
example, a major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi Valley and 
the economy of the nation were it not for the protection provided by 
the levees and other flood control works throughout the project area. 
Many have noted that the comprehensive project on the lower river 
provided for passage of major floods in 1973, 1983, 1997, and other 
years without the extensive damage suffered in the upper river area 
during the 1993 and 1995 flood events.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peacetime and vital to 
our national defense in times of emergency.
    A reorganization of the U.S. Army Corps of Engineers in April 1997 
placed the entire length of the Mississippi River within the 
Mississippi Valley Division of the Corps of Engineers. The Commander of 
this Division also serves as President of the Mississippi River 
Commission. The reorganization now allows management of the Mississippi 
River as a single, unified system and enables the Commissioners to more 
effectively serve as advisors to the Division Commander and the Chief 
of Engineers as authorized in the 1879 legislation.
    The Commission members have been active as advisors to the Corps on 
the upper Mississippi River since the reorganization. The Commission 
has conducted annual inspection trips on the upper Mississippi River 
since August 1997 and has held a series of public meetings in the St. 
Paul, Rock Island, and St. Louis Districts each year. These meetings 
are in addition to the semiannual inspection trips and public meetings 
in the Memphis, Vicksburg, and New Orleans Districts. The high-water 
and low-water inspection trips encourage the MRC to listen to the 
sponsors, partners, general public, other federal agencies, and non-
government agencies on a regular basis. The public meetings held during 
the inspection trips offer a vital forum for these groups and 
individuals to address their concerns and ideas. The MRC is also 
available to these groups and individuals during the downstream 
portions of the trips, site visits, and other events and meetings held 
off the Motor Vessel MISSISSIPPI during the inspection trips.
    With regard to my personal qualifications, I have served as a 
member of the U.S. Army since I was commissioned in 1973. Prior to 
assuming command of the Mississippi Valley Division and becoming 
President Designee of the Mississippi River Commission, I served as the 
Deputy Chief of Staff, Engineer Headquarters, U.S. Army Europe based in 
Heidelberg, Germany. My troop assignments included duty as platoon 
leader, assistant, S-3, company executive officer, and company 
commander, 14th Engineer Battalion, Fort Ord, California; Commander, 
7th and 17th Engineer Battalions; and other troop assignments detailed 
in my biography. In addition, I served as a Contract Construction 
Engineer for the U.S. Army Corps of Engineers Far East District in 
Korea.
    As President Designee of the Mississippi River Commission since 
September 2002, I have accompanied the Commission on high and low water 
inspection trips of the Mississippi River and tributaries and have 
participated in the public meetings held by the Commission. This 
experience has given me considerable insight into the importance of the 
Mississippi River and its Tributaries as a National resource for 
transportation and recreation. Also, I have come to understand and 
appreciate the need for a balanced, sustainable approach in resolving 
the often conflicting requirements for flood control, navigation, 
recreation, water supply and power generation, and environmental 
protection and restoration.
    I am a native of California and received a bachelor's degree from 
the United States Military Academy at West Point in 1973. I later 
received a master's degree from the University of California in civil 
engineering in 1980. I am also a 1987 graduate of the U.S. Army Command 
and General Staff College, School of Advanced Studies, and the United 
States Army War College. I am a registered Professional Engineer in the 
state of California.
    I believe my background and experience qualify me for an 
appointment to the Mississippi River Commission. If confirmed to the 
position, I commit to leading the continual, balanced improvement of 
the Mississippi River system and the MR&T project by recommending, 
through the Commission's oversight responsibilities, the application of 
the most modern practices in water resources engineering. I also look 
forward to being part of a Commission that focuses not only on the 
traditional roles of safely passing the Mississippi River Basin 
floodwaters to the Gulf of Mexico and providing a safe and dependable 
navigable waterway, but also incorporating programs and projects for 
recreation, and environmental protection and restoration.
    For your information, I have attached a complete personal biography 
and a current list of members of the Mississippi River Commission.
    This completes my prepared statement. I am pleased to respond to 
any questions.
                                 ______
                                 
  Response of Major General Don T. Riley to Additional Question from 
                             Senator Inhofe
    Question 1. Flooding is still one of the major issues facing those 
living near the Mississippi, and an issue that confronts the Commission 
as well. One concern that has been raised with respect to flood control 
projects is how the Corps calculates benefits. Because of the type of 
economic inputs the Corps utilizes, it can frequently result in a 
project where flood control is justified for the middle and upper class 
neighborhoods in a community but is not justified for the poorer 
sections of a community. While the economic damage that flooding can 
cause is considerable, it is not the only concern, in fact, most people 
probably worry about their safety and the safety of their family than 
damage to property. For most other federal agencies, human health and 
safety are generally accorded the highest priority. I would be 
interested in your thoughts on how can we better integrate human health 
and safety issues in how the federal government sets flood control 
policy?
    Response. The Corps is developing proposals to make our planning 
process more efficient and responsive to contemporary needs. Under 
current criteria, planning studies evaluate, display, and compare the 
full range of alternative plans' effects across all four Principles and 
Guidelines' accounts. These accounts include National Economic 
Development, Environmental Quality, Regional Economic Development, and 
Other Social Effects.
    <bullet> plan may be a candidate for selection if it has, on 
balance, net beneficial effects.
    <bullet> May select and recommend any one of the candidate plans
    <bullet> The basis for selection will consider the beneficial and 
adverse effects in all four accounts),
    <bullet> Must identify a National Economic Development Plan
    The Corps has historically funded projects that have benefit to 
cost ratios (based on the NED account) greater than 1.0. The challenge 
will be to consider for funding projects with lower benefit to cost 
ratios that have higher outputs in the other three accounts.
                                 ______
                                 
 Responses by Major General Don T. Riley to Additional Questions from 
                             Senator Vitter
    Question 1. Major General Riley, you testified on Coastal Louisiana 
issues when you served as Director of Civil Works for the Army Corps of 
Engineers. From your experience, could you highlight the opportunities 
featured in the LCA restoration plan?
    Response. The LCA Ecosystem Restoration Program addresses the most 
critical restoration needs and consists of various components that 
could commence implementation in the near term. The Program recommends 
15 near-term features aimed at addressing the critical restoration 
needs. The components currently recommended for authorization include 
five critical near-term ecosystem restoration features that could be 
implemented expeditiously, a science and technology program to decrease 
scientific and engineering uncertainties and to further optimize 
efforts to achieve ecosystem restoration, a demonstration program 
consisting of a series of demonstration projects to evaluate the 
effectiveness of advances developed by the S&T Program through field 
applications, and a beneficial use of dredged material program to take 
greater advantage of using existing sediment resources made available 
by maintenance activities to build and nourish vital coastal wetlands. 
The five critical restoration features include:

        <bullet>  MRGO Environmental Restoration Features
        <bullet>  Small Diversion at Hope Canal
        <bullet>  Barataria Basin Barrier Shoreline Restoration
        <bullet>  Small Bayou Lafourche Reintroduction
        <bullet>  Medium Diversion with Dedicated Dredging at Myrtle 
        Grove

    The five critical near-term ecosystem restoration features, 
demonstration projects, and beneficial use of dredged material projects 
are all subject to the approval of feasibility level of detail decision 
documents by the Secretary of the Army.
    The LCA Ecosystem Restoration Program also recommends ten 
additional near-term restoration features for further investigations, 
in anticipation that these features may be potentially recommended for 
future Congressional authorization as part of the program. The 
investigations would be conducted under existing authority and include:

        <bullet>  Multi-purpose Operation of the Houma Canal Lock
        <bullet>  Terrebonne Basin Barrier-Shoreline Restorations
        <bullet>  Land Bridge between Caillou Lake and Gulf of Mexico
        <bullet>  Small Diversion at Convent/Blind River
        <bullet>  Amite River Diversion Canal
        <bullet>  Medium Diversion at White's Ditch
        <bullet>  Stabilization of Gulf Shoreline at Pointe Au Fer 
        Island
        <bullet>  Atchafalaya River Conveyance to Northern Terrebonne 
        Marshes
        <bullet>  Modification of Caernarvon Diversion
        <bullet>  Modification of Davis Pond Diversion

    In addition, a program to investigate the potential modification of 
existing water resources projects is also recommended in order to 
further restore the Louisiana coastal ecosystem. These investigations 
would focus on improving the environmental performance of existing 
projects.
    And finally, several large-scale and long-term coastal restoration 
concepts that could potentially be recommended for future authorization 
beyond the near-term plan were identified and recommended for further 
investigations. These investigations will address the need to reduce 
coastal wetland losses and possibly achieve a net restoration. The 
studies and their resultant projects, if authorized and constructed, 
could significantly restore environmental conditions that existed prior 
to large-scale alteration of the natural ecosystem. The investigations 
include:

        <bullet>  Acadiana Bay Estuarine Restoration Study
        <bullet>  Upper Atchafalaya Basin Study
        <bullet>  Chenier Plain Freshwater Management and Allocation 
        Reassessment Study
        <bullet>  Mississippi River Delta Management Study
        <bullet>  Mississippi River Hydrodynamic Model
        <bullet>  Third Delta Study

    At October 2004 price levels, the currently estimated overall first 
cost of the LCA Ecosystem Restoration Program, which includes the 
components recommended for authorization, the related investigations 
and the ten additional future features, is $1,996,500,000.

    Question 2. From your experience, in what ways have you found the 
degradation of Coastal Louisiana to be of national significance to the 
nation's economy and national security?
    Response. The conditions of current and continuing coastal land 
loss in coastal Louisiana leave the communities and businesses in south 
Louisiana in a position of ever increasing risk. Smaller tropical 
storms and hurricanes are inflicting escalating levels of damage with 
increasing frequency. The population base and business communities in 
south Louisiana support some of the nation's most significant resource 
industries - oil and gas production, commercial fishing in numerous 
forms, ship building and marine fabrication. If the degradation of 
coastal Louisiana wetlands is not addressed and the people and business 
operations in this part of the nation are impacted, not only will it be 
a threat of great individual and personal loss, but it will also be a 
tremendous loss to major industries and the nation.
    <bullet> Louisiana contains one of the largest expanses of coastal 
wetlands in the contiguous U.S. and accounts for 90 percent of the 
total coastal marsh loss occurring in the Nation.
    <bullet> Approximately 70 percent of all waterfowl that migrate 
through the U.S. use the Mississippi and Central flyways. With over 5 
million birds wintering in Louisiana, the Louisiana coastal wetlands 
are a crucial habitat to these birds, as well as to neotropical 
migratory songbirds and other avian species that use the wetlands as 
crucial stopover habitat.
    <bullet> Recent data from the U.S. Fish and Wildlife Services 
(USFWS) show expenditures on recreational fishing (trips and equipment) 
in Louisiana to be nearly $703 million, and hunting expenditures were 
$446 million for 2001.
    <bullet> Louisiana's coastal wetlands and barrier island systems 
enhance protection of an internationally significant commercial-
industrial complex from the destructive forces of storm waves and 
tides. Deep-draft ports in Louisiana, which includes the Port of South 
Louisiana, handle more tonnage than any other port in the Nation.
    <bullet> Louisiana contains the most active segment of the Nation's 
Gulf Intracoastal Waterway (GIWW).
    <bullet> In 2000, Louisiana led the Nation with production of 592 
million barrels of oil and condensate (including the outer continental 
shelf (OCS)), valued at $17 billion and was second in the Nation in 
natural gas production with $1.3 billion (excluding OCS and casing head 
gas). In addition, nearly 34 percent of the Nation's natural gas supply 
and over 29 percent of the Nation's crude oil, moves through the state 
and is connected to nearly 50 percent of the U.S. refining capacity.
    <bullet> Coastal Louisiana is home to more than 2 million people, 
representing 46 percent of the state's population. When investments in 
facilities, supporting services activities, and the urban 
infrastructure are totaled, the capital investment in the Louisiana 
coastal area total approximately $100 billion.
    <bullet> Excluding Alaska, Louisiana produced the Nation's highest 
commercial marine fish landing (about $343 million) excluding mollusk 
landings such as clams, oysters, and scallops.
    These economic and habitat values, which are protected and 
supported by the coastal wetlands of Louisiana, are significant on a 
National level.
                               __________
  Statement of Brigadier General William T. Grisoli, Nominated by the 
       President to be Member of the Mississippi River Commission
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you as a nominee to become a member of the Mississippi River 
Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers. This unique blend of 
military personnel and civilians encourages an exchange of information 
and ideas from various points of view and the best professional advice 
to the President.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad political institutions, individuals, and public 
entities that have major interests in seeing that the water resources 
needs and opportunities of the Mississippi Valley are evaluated, 
planned, designed, constructed, and maintained. The current mission of 
the Mississippi River Commission is to balance the needs of flood 
control, navigation, recreation, and the environment in a sustainable 
manner.
    As established in 1879, the Commissioners are to serve as advisors 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has spent a significant part 
of its leadership on the Mississippi River and Tributaries (MR&T) 
project, authorized by the Flood Control Act of May 15, 1928, to be 
implemented under oversight of the Commission. The MR&T project extends 
generally from the confluence of the Ohio River to the Head of Passes 
below New Orleans and covers portions of seven states. It receives 
water from all or portions of 31 states and part of two Canadian 
provinces, or roughly 41 percent of the contiguous United States. 
Effective planning, design, construction, and operation of the 
widespread and complex MR&T project have been assisted greatly by the 
Commission's active consultation with the public, particularly on its 
semiannual Mississippi River inspection trips, and by the high degree 
of professionalism that has been developed in its staff.
    The MR&T project is truly of national significance. As a result of 
this project, damages have been reduced $25 for each $1 spent. For 
example, a major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi Valley and 
the economy of the Nation were it not for the protection provided by 
the levees and other flood control works throughout the project area. 
Many have noted that the comprehensive project on the lower river 
provided for passage of major floods in 1973, 1983, 1997, and other 
years without the extensive damage suffered in the upper river area 
during the 1993 and 1995 flood events.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peacetime and vital to 
our national defense in times of emergency.
    A reorganization of the U.S. Army Corps of Engineers in April 1997 
placed the entire length of the Mississippi River within the 
Mississippi Valley Division of the Corps of Engineers. The Commander of 
this Division also serves as President of the Mississippi River 
Commission. The reorganization now allows management of the Mississippi 
River as a single, unified system and enables the Commissioners to more 
effectively serve as advisors to the Division Commander and the Chief 
of Engineers as authorized in the 1879 legislation.
    The Commission members have been active as advisors to the Corps on 
the upper Mississippi River since the reorganization. The Commission 
has conducted annual inspection trips on the upper Mississippi River 
since August 1997 and has held a series of public meetings in the St. 
Paul, Rock Island, and St. Louis Districts each year. These meetings 
are in addition to the semiannual inspection trips and public meetings 
in the Memphis, Vicksburg, and New Orleans Districts. The high-water 
and low-water inspection trips encourage the MRC to listen to the 
sponsors, partners, general public, other federal agencies, and non-
government agencies on a regular basis. The public meetings held during 
the inspection trips offer a vital forum for these groups and 
individuals to address their concerns and ideas. The MRC is also 
available to these groups and individuals during the downstream 
portions of the trips, site visits, and other events and meetings held 
off the Motor Vessel MISSISSIPPI during the inspection trips.
    With regard to my personal qualifications, I have served as a 
member of the U.S. Army since I was commissioned in 1976. Prior to 
assuming command of the Northwestern Division, I served as the Deputy 
Director of Army Transformation in the Office of the Deputy Chief of 
Staff for Operation, Headquarters Department of the Army, Pentagon. My 
troop and unit assignments include duty as a Commander, 41st Engineer 
Battalion, 10th Mountain Division, Ft Drum, NY and Commander, 555 
Engineer Group, Ft Lewis, WA. In addition, I served as a Project 
Engineer, Far East District, Corps of Engineers, in Korea, and Deputy 
Resident Engineer, Chief, Information Management Office, and Deputy 
District Engineer, New Orleans District, Louisiana.
    As a Member Designee of the Mississippi River Commission since July 
2003, I have accompanied the Commission on high and low-water 
inspection trips of the Mississippi River and its tributaries and have 
participated in the public meetings held by the Commission. This 
experience has given me considerable insight into the importance of the 
Mississippi River and its tributaries as a National resource for 
transportation and recreation. Also, I have come to understand and 
appreciate the need for a balanced, sustainable approach in resolving 
the often conflicting requirements for flood control, navigation, 
recreation, water supply and power generation, and environmental 
protection and restoration.
    I am a native of New York and received a bachelor's degree from the 
United States Military Academy at West Point in 1976. I later received 
a master's degree from the University of Illinois in civil engineering 
in 1983. I am also a 1988 graduate of the U.S. Army Command and General 
Staff College, and a 1997 graduate of the Industrial College of the 
Armed Forces. I am a registered Professional Engineer in the State of 
Virginia.
    I believe my background and experience qualify me for an 
appointment to the Mississippi River Commission. If confirmed to the 
position, I commit to leading the continual, balanced improvement of 
the Mississippi River system and the MR&T project by recommending, 
through the Commission's oversight responsibilities, the application of 
the most modern practices in water resources engineering. I also look 
forward to being part of a Commission that focuses not only on the 
traditional roles of safely passing the Mississippi River Basin 
floodwaters to the Gulf of Mexico and providing a safe and dependable 
navigable waterway, but also incorporating programs and projects for 
recreation, and environmental protection and restoration.
    This completes my prepared statement. I would be pleased to respond 
to any questions.
                                 ______
                                 
  Responses of Brigadier General Grisoli to Additional Questions from 
                             Senator Inhofe
    Question 1. A major concern on the Mississippi is the deteriorating 
condition of the navigation system. The impression is that the backlog 
of needed O&M repairs is growing every year. Do you feel that is the 
case?
    Response. In times of such austere budgets, unfunded maintenance 
needs continue to grow. As a result we see increasing frequency and 
durations of emergency closures at U.S. Army Corps of Engineers locks 
and dams. The Operations and Maintenance, General program has not had 
sufficient funding to keep pace with age related repairs. The average 
age of locks on the Upper Mississippi River is about 50 years old. Age 
and high usage has caused the locks to deteriorate at a faster rate and 
the necessary funding has not increased at the same rate for needed 
repairs and major rehabilitation.
    In order to combat this and minimize the impact of backlog, the 
Corps has met with the waterway users to prioritize our maintenance 
needs. This prioritization is based on risk and reliability on a system 
basis. That is, those items which have the highest likelihood of having 
the greatest impact are given priority for available funds.

    Question 2. In an era of budget deficits, dramatic increases in 
federal spending, even in necessary spending, is easier said than done. 
In reality there is precious little extra money available to throw at 
the problem. Are there systemic or institutional changes that could be 
made to transform the incentives of both the agency and users?
    Response. There is a need to combine the efforts of Federal 
agencies having responsibility in water resources to meet needs on a 
watershed basis. The U.S. Army Corps of Engineers is investigating the 
possibility of demonstration watershed studies to develop and sharpen 
skills which are necessary to do this. We also expect to develop 
collaborative procedures, look at necessary institutional arrangements, 
and leverage all sources of funding to accomplish this.
                               __________
 Statement of D. Michael Rappoport, Nominated by the President to be a 
   Member of the Board of Trustees of the Morris K. Udall Foundation
    Mr. Chairman, Members of the Committee, my name is David Michael 
Rappoport of Scottsdale, Arizona and I am Associate General Manager for 
Public & Communications Services at the Salt River Project, a public 
utility providing electricity and water to much of the Metropolitan 
Phoenix area. In that capacity, I am responsible for community, 
corporate and government relations as well as communication, consumer 
and education services.
    Thank you for this opportunity to present myself as a Presidential 
nominee for the position of Trustee of the Morris K. Udall Scholarship 
and Excellence in National Environmental Policy Foundation. It is a 
particular privilege for me to be nominated by President Bush to serve 
another term on the Foundation's Board of Trustees.
    I would also like to express my appreciation to Senator John McCain 
and Senator Jon Kyl for their letters to the Committee on my behalf. If 
appropriate, I request that they be included in the hearing record.
    My association with Mo Udall extends back more than 30 years to a 
time when he was instrumental in building support for the Central 
Arizona Project, a major water supply system of energy, pumping and 
canal facilities. It continued through public policy activities 
involving land use planning, surface mining and reclamation, Indian 
water rights, the safety of Federal dams and several wilderness 
proposals.
    In the early years, the interests I represented were not always in 
total agreement with the positions so effectively advocated by Mo. But 
for most of our association, I was among the many who supported his 
leadership on a variety of issues of national import. In later years, I 
had the good fortune to either chair or serve on one of Mo's Business 
Advisory Committees, Energy and Water Task Forces as well as several of 
his re-election committees. And, like so many others, I came to admire 
his sense of civility, his ability to fashion consensus and above all, 
his integrity and commitment to public service.
    When Congress established the Udall Foundation it gave special 
tribute to these qualities. Specifically, in 1992 Congress authorized 
to be appropriated $40 million to the Morris K. Udall Scholarship and 
Excellence in National Environmental Policy Trust Fund. To date, 
approximately $31 million has been appropriated for deposit into the 
fund. By law, we are required to invest monies appropriated in public 
debt securities.
    It is important to note that the Foundation operates primarily on 
the interest earned from those investments and on a modest annual 
appropriation. As Chairman of the Foundation's Management Committee, I 
oversee those investments as well as the Foundation's dedicated 
professional staff.
    Basically, the funds are administered by the Foundation to, among 
other things:
     <bullet> Award scholarships, fellowships, internships and grants 
for study in fields related to the environment, Native American and 
Alaska Native policy;
     <bullet> Develop resources to train professionals in the fields of 
environmental, Native American and Alaska Native health care and tribal 
public policy; and
     <bullet> Establish a Program for Environmental Policy Research and 
Environmental Conflict Resolution in the Udall Center located at the 
University of Arizona.
    On behalf of the Foundation Board of Trustees, I am pleased to 
report that since we began in 1994, the Foundation has:
     <bullet> Awarded 755 scholarships and 18 Ph.D. fellowships to 
outstanding students in all 50 states, Guam, Puerto Rico and the 
District of Columbia;
     <bullet> Administered 114 internships for Native American and 
Alaskan Native college students pursuing careers in health care and 
tribal public policy;
     <bullet> Hosted seven major conferences and forums on contemporary 
environmental and Native American issues; and
     <bullet> Sustained support for the University of Arizona Udall 
Center for Studies in Public Policy.
    In addition, the Foundation, based in Tucson, Arizona, is home to 
the U.S. Institute for Environmental Conflict Resolution, created by 
Congress in 1999 to provide mediation and other alternative dispute 
resolution services. Today the Institute is regarded both in and out of 
government as a trusted convener of diverse parties engaged in 
difficult environmental controversies.
    Also located within the ambit of the Foundation is the Native 
Nations Institute for Leadership, Management and Policy, which provides 
educational opportunities and planning resources for tribal leaders. 
Both the Foundation and the University of Arizona are especially proud 
of our collaboration in this unique and noteworthy endeavor.
    Mr. Chairman, I am here to assure you and the Committee that the 
Foundation is completely committed to carrying out the purposes 
intended by Congress. Also, I am pleased to report that the results of 
an independent audit conducted by Clifton, Gunderson LLP, dated 
November 30, 2004 concluded, among other things, that the Foundation's 
balance sheets and related statements as of September 30, 2004:

          ``Present fairly, in all material respects, the financial 
        position of the Foundation . . . in conformity with accounting 
        principles generally accepted in the United States of 
        America.''

    Further, I am pleased to report that the necessary management 
controls are in place.
    In closing, I would suggest that the Foundation's purposes have 
been best captured by Mo's own words of a few years ago:

         ``America is never done like a poem or a painting. . .''

    All of us at the Foundation believe we are well on the way to 
helping future generations care enough to change things. I would 
welcome the opportunity to serve another term as a Udall Foundation 
Trustee to continue to help meet that challenge.
    That concludes my statement. I am prepared to answer any questions 
the Committee may have at this time. Also, I am willing to appear at 
the request of any duly constituted committee of Congress as a witness. 
Finally, I know of no matters currently that would put me in a conflict 
of interest with the Board of Trustees should I be confirmed by the 
Senate.
    Mr. Chairman, I have with me the Foundation's recently released 
2004 Annual Report. With your permission, I would like to submit copies 
of it for appropriate reference.
    Thank you.
                                 ______
                                 
     Response of D. Michael Rappoport to Additional Question from 
                             Senator Inhofe
    Question. You have now been a member of the Foundation for several 
years. Based on your experiences, what is your assessment of how the 
Foundation operates; what in your view have been some successes of the 
foundation; and if it needs changing, what would be your suggestions 
for doing so?
    Response. In my opinion, and I believe it is a view anchored in 
both empirical and perceptual evidence, the Morris K. Udall Scholarship 
and Excellence in National Environmental Policy Foundation (Foundation) 
operates very efficiently producing noteworthy results with relatively 
modest annual appropriations by the Congress. Since the Foundation 
began operating in 1994, it has:
    <bullet> Awarded 755 scholarships and 18 Ph.D. fellowships to 
outstanding students in all 50 states, Guam, Puerto Rico and the 
District of Columbia;
    <bullet> Administered 114 internships for Native American and 
Alaska Native college students pursuing careers in health care and 
tribal public policy;
    <bullet> Hosted seven major conferences and forums on contemporary 
environmental and Native American issues.
    Created by Congress in 1999, the U.S. Institute for Environmental 
Conflict Resolution (Institute) has provided mediation and alternative 
dispute resolution services in more than 300 cases. The Institute's 
annual appropriation has been on the order of $1.3 million for the last 
several years and it continues to generate revenue from services 
provided
    Congress also authorized the Foundation to transfer a portion of 
its annual appropriations, beginning in FY 2001, to the Native Nations 
Institution (NNI) which has provided executive education to more than 
1,000 councilors, presidents and senior managers from over 100 Indian 
nations. In partnership with the Harvard Project on American Indian 
Economic Development the NNI has developed key research and strategic 
assistance on tribal economic development, leadership and self-
determination.
    Clearly, in view of the strong success of the Foundation, Institute 
and NNI and our dedicated professional staff, I personally have no 
operational changes to recommend at this time.
                                 ______
                                 
     Response of D. Michael Rappoport to Additional Question from 
                            Senator Jeffords
    Question. The U.S. Institute for Environmental Conflict Resolution 
is an integral part of the Udall Foundation. Through its first 5 years, 
the Institute was involved in more than 300 cases and projects in 35 
states to provide mediation, facilitation and related services to 
assist in resolving federal environmental conflicts. I applaud the 
Institute and wish it continued success. Do you think it would be 
appropriate for Congress, and this Committee in particular, to call on 
the Institute directly to mediate discussions with key stakeholders in 
an effort to reach consensus on legislative issues under consideration?
    Response. Generally speaking, and on behalf of the Foundation, the 
Institute would welcome the opportunity to respond to any Congressional 
requests for assistance in finding a consensus among diverse interests 
engaged in difficult environmental controversies. However, in my 
opinion, there may well be two constraints on the Institute's ability 
to assist Congress as posed in the question.
    First, the Institute is within the executive branch of the federal 
government, and it is currently authorized to assist in resolving 
disputes that involve a federal agency and concern the environment, 
public lands or natural resources. The Institute would be able to 
mediate discussions with key stakeholders related to legislative issues 
if a federal agency were involved so long as Congress believed there 
were no separation of power issues.
    The second limitation is funding. The Institution's funding 
includes a small appropriation ($1.3 million a year since FY 2002) and 
also fees for its services (approximately $750,000 net of expenses in 
FY 2004). While the Institute would be pleased to assist Congress, any 
new projects would require attendant funding through fees or 
appropriations.
    I would be pleased to bring together the appropriate Foundation and 
Institute staff with any representatives of the Committee to respond 
further to this question.
Statement of Michael Butler, Nominated by the President to be a Member 
       of the Board of Trustees of the Morris K. Udall Foundation
    Mr. Chairman, thank you for this opportunity to address the record 
regarding my appointment by President George W. Bush to the Board of 
Trustees of the Morris K. Udall Foundation for Scholarship and 
Environmental Excellence in National Environmental Policy. I appreciate 
the opportunity to testify in writing, and I am willing to appear at 
the request of any duly constituted committee of Congress as a witness.
    Concerning my ability to serve, I know of no matters currently that 
would put me in a conflict of interest with the Board of Trustees 
should I be confirmed by the Senate.
    Secondly, my experience and education have prepared me to serve in 
the capacity of board trustee. As the executive director of a 60-year-
old wildlife and conservation non-profit in Tennessee, I am thoroughly 
familiar with non-profit organizational management, budgetary 
processes, and board duties, both fiduciary and volunteer.
    Additionally, as a classically trained wildlife biologist and 
former Director of Conservation for the Tennessee Conservation League, 
I have worked in several areas similar in scope to the work of the 
Foundation, particularly in natural resource conflict-resolution 
efforts, the creation of successful natural resource policy, and 
support of natural resource education programs.
    The Udall Foundation provides a valuable national service, as the 
environmental challenges facing our country require workable solutions. 
It is Morris K. Udall's commitment to civility, integrity, and 
consensus that makes the Foundation's approach to environmental 
challenges so vitally important.
    I consider it an honor to be selected to serve on this board, and 
look forward to furthering the work of the Foundation. Should you or 
any member of your committee wish to contact me, please feel free to do 
so at your convenience.
  

                                  <all>

</pre></body></html>
